United States Department of Agriculture
Office of Inspector General




Department of Agriculture’s Consolidated
Financial Statements for
Fiscal Years 2011 and 2010




                                          Audit Report 50401-0001-11
                                          November 2011
                          United States Department of Agriculture
                                     Office of Inspector General
                                      Washington, D.C. 20250




DATE:          November 15, 2011

AUDIT
NUMBER:        50401-0001-11

TO:            Jon M. Holladay
               Acting Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer

FROM:          Phyllis K. Fong /s/
               Inspector General

SUBJECT:       Department of Agriculture’s Consolidated Financial Statements for
               Fiscal Years 2011 and 2010


This report presents the results of our audits of the Department of Agriculture’s consolidated
financial statements for the fiscal years ending September 30, 2011 and 2010. The report
contains an unqualified opinion on the financial statements as well as the results of our
assessment of the Department’s internal control over financial reporting and compliance with
laws and regulations. Your response is included in its entirety in exhibit D.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommended actions for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Opinion on the Consolidated Financial Statements .............................................3
Internal Control Over Financial Reporting ..........................................................4
Compliance and Other Matters ..............................................................................5
Responsibilities .........................................................................................................5
Findings and Recommendations .............................................................................7
   Section 1: Material Weaknesses in Internal Control Over Financial
   Reporting ...............................................................................................................7
       Finding 1: Improvements are Needed in Overall Financial Management
       ...........................................................................................................................7
             Recommendation 1 ....................................................................................9
             Recommendation 2 ....................................................................................9
       Finding 2: Improvements are Needed in Information Technology
       Security and Controls ....................................................................................10
   Section 2: Noncompliance with Laws and Regulations .................................11
       Finding 3: Lack of Substantial Compliance with FFMIA Requirements
       .........................................................................................................................11
Abbreviations .........................................................................................................13
Exhibit A: Audit Reports Related to the Fiscal Year 2011 Financial
Statements ...............................................................................................................14
Exhibit B: Summary of Prior Year Recommendations .....................................15
Exhibit C: Status of Prior Year Noncompliance Findings ................................17
Exhibit D: Agency Response .................................................................................19
Exhibit E: Performance and Accountability Report .........................................20
Department of Agriculture’s Consolidated Financial Statements for
Fiscal Years 2011 and 2010 (Audit Report 50401-0001-11)

Executive Summary

Purpose
Our audit objectives were to determine whether (1) the consolidated financial statements present
fairly, in all material respects, in accordance with accounting principles generally accepted in the
United States of America, the assets, liabilities, and net position, net cost, changes in net
position, and combined budgetary resources; (2) the internal control objectives over financial
reporting were met; (3) the Department complied with laws and regulations for those
transactions and events that could have a direct and material effect on the consolidated financial
statements; and (4) the information in the Performance and Accountability Report was materially
consistent with the information in the consolidated financial statements.

We conducted our audits at the financial offices of various Department of Agriculture (USDA)
agencies and the Office of the Chief Financial Officer located in Washington, D.C., and its
National Finance Center located in New Orleans, Louisiana. We also performed site visits to
selected agencies’ field offices.

Results in Brief
In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2011 and 2010, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

Our consideration of the internal control over financial reporting identified two significant
deficiencies. Specifically, we identified weaknesses in USDA’s:

       overall financial management, and
       information technology security and controls.

We believe that these two significant deficiencies are material weaknesses.

Our consideration of compliance with laws and regulations disclosed substantial noncompliance
relating to the Federal Financial Management Improvement Act of 1996.




                                                               AUDIT REPORT 50401-0001-11         1
Key Recommendations
As discussed in its Federal Managers’ Financial Integrity Act Report on Management Control,
the Department has plans to address the majority of the weaknesses discussed in the report. The
recommendations in this report are limited to additional improvements needed in financial
management with respect to oversight of the accounting functions performed for the Foreign
Agricultural Service and reconciliations of intradepartmental activity.

Agency Response
The Department concurs with the two material weaknesses and finding related to compliance
with laws and regulations in the report. It generally agrees with the recommendations and will
develop corrective action plans with milestones within sixty days.

OIG Position
Management decision should be achievable upon review of the plans for corrective action.




2    AUDIT REPORT 50401-0001-11
Independent Auditor’s Report
Jon M. Holladay
Acting Chief Financial Officer
 for Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the Department of
Agriculture (USDA), as of September 30, 2011 and 2010, and the related consolidated
statements of net cost; changes in net position; and the combined statements of budgetary
resources (hereinafter referred to as the “consolidated financial statements”) for the fiscal years
then ended. The objective of our audits was to express an opinion on the fair presentation of
these consolidated financial statements. In connection with our fiscal year 2011 audit, we also
considered USDA’s internal control over financial reporting and tested USDA’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could
have a direct and material effect on these consolidated financial statements.

The following sections discuss our opinion on USDA’s consolidated financial statements; our
consideration of USDA’s internal control over financial reporting; our tests of USDA’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements; and management’s, as well as our, responsibilities.

The Findings and Recommendations section presents the material weaknesses in internal control
and instances of noncompliance with laws and regulations, as of and for the year ended
September 30, 2011. Exhibit A of this report presents the audit reports related to the fiscal year
2011 financial statements. Exhibit B summarizes the current year status of prior year audit
recommendations. Exhibit C provides an update to previously reported instances of
noncompliance with laws and regulations. USDA’s response is presented in its entirety in
exhibit D.

Opinion on the Consolidated Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2011 and 2010, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

USDA made certain reclassifications to prior year amounts to conform to the current year
presentation for two of its reporting components. As discussed in Note 1 to the consolidated
financial statements, in fiscal year 2011, the Risk Management Agency (RMA) reclassified the
Federal Crop Insurance Corporation from earmarked funds to other funds, consistent with the
change in accounting principle made in fiscal year 2010. The balance sheet, statement of
changes in net position, and related earmarked funds note (Note 18) reflect this change. As
discussed in Note 1, RMA also reclassified liabilities covered by budgetary resources to
liabilities not covered by budgetary resources as a result of this change (Note 12). Additionally,
as discussed in Note 1, the Commodity Credit Corporation reclassified other financing sources
on the statement of changes in net position and related reconciliation of budgetary resources
obligated to net cost of operations note (Note 31) to comply with the U.S. Department of the
Treasury’s General Fund Receipt Account Guide. Furthermore, as discussed in Note 32, the
                                                             AUDIT REPORT 50401-0001-11         3
Department disclosed a subsequent approval of a legal settlement that occurred on October 27,
2011.

USDA’s Management’s Discussion and Analysis (MD&A) and required supplementary
information (including stewardship information) contains a wide range of information, some of
which is not directly related to the financial statements. This information is not a required part of
the consolidated financial statements, but is supplementary information required by accounting
principles generally accepted in the United States of America and the Office of Management and
Budget (OMB) Circular A-136. We have applied certain limited procedures, consisting
principally of comparing this information for consistency with the financial statements and
making inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no
opinion on it.

The information in the Other Accompanying Information section is presented for purposes of
additional analysis, as required by OMB Circular A-136, and is not required as part of the
financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

Internal Control Over Financial Reporting

Our consideration of the internal control over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

Significant deficiencies are deficiencies, or a combination of deficiencies, in internal control that
are less severe than a material weakness, yet important enough to merit attention by those
charged with governance. Material weaknesses are deficiencies or a combination of deficiencies
in internal control, such that there is a reasonable possibility that a material misstatement of the
consolidated financial statements being audited will not be prevented, or detected and corrected
on a timely basis. Because of inherent limitations in any internal control, misstatements due to
error or fraud may occur and not be detected.

In our fiscal year 2011 audit, we noted certain matters involving the internal control over
financial reporting, and its operation, that we consider to be significant deficiencies.
Specifically, we identified weaknesses in USDA’s:

       overall financial management, and
       information technology (IT) security and controls.

We believe these two deficiencies are also material weaknesses. These weaknesses are discussed
in this report in Findings and Recommendations, Section 1, Material Weaknesses in Internal
Control Over Financial Reporting.

We did not identify any material weaknesses that were not disclosed in USDA’s Federal
Managers’ Financial Integrity Act of 1982 (FMFIA) Report on Management Control.

4    AUDIT REPORT 50401-0001-11
Compliance and Other Matters

We performed tests of USDA’s compliance, as described in the Responsibilities section of this
report. Our tests disclosed one instance of noncompliance with laws and regulations that is
required to be reported under Government Auditing Standards and OMB Bulletin 07-04, as
amended. Specifically, the results of our tests of the Federal Financial Management
Improvement Act of 1996 (FFMIA) disclosed instances, described in more detail in Finding 3 in
the Findings and Recommendations section of this report, where USDA’s financial management
systems did not substantially comply with Federal financial management system requirements,
applicable Federal Accounting Standards, and the U. S. Standard General Ledger (SGL) at the
transaction level.

Additionally, during fiscal year 2011, we identified instances of noncompliance with the
requirements of the Improper Payments Elimination and Recovery Act of 2010 (IPERA),
regarding the design of program internal controls related to reporting improper payments. A
separate report will be issued with further details on the Department’s compliance with IPERA.1

Furthermore, in fiscal year 2010, we reported two instances of noncompliance with the Anti-
Deficiency Act that were required to be reported under Government Auditing Standards and
OMB Bulletin 07-04, as amended. These violations have been reported to the President, U.S.
Congress, and OMB (see exhibit C).

Responsibilities
Management’s Responsibilities

USDA’s management is responsible for (1) preparing the consolidated financial statements in
conformity with accounting principles generally accepted in the United States of America;
(2) establishing, maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the FMFIA are met; (3) ensuring that USDA’s financial
management systems substantially comply with FFMIA requirements; and (4) complying with
applicable laws and regulations.

Auditor’s Responsibilities

Our responsibility is to express an opinion on the fiscal years 2011 and 2010 consolidated
financial statements of USDA based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards and OMB Bulletin 07-04, as amended,
require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit

1
    IPERA amended the “Improper Payments Information Act of 2002,” Public Law 107-300.

                                                                     AUDIT REPORT 50401-0001-11   5
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of USDA’s internal control over financial reporting. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements, assessing the accounting principles used and significant estimates made by
management, and evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.

In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin 07-04, as
amended and Government Auditing Standards. We did not test all internal controls as defined by
FMFIA. The objective of our audit was not to provide an opinion on USDA’s internal control.
Consequently, we do not provide an opinion on internal control over financial reporting, nor on
USDA’s assertion on internal control included in its MD&A.

As part of obtaining reasonable assurance about whether the consolidated financial statements
are free of material misstatement, we performed tests of USDA’s compliance with certain
provisions of laws and regulations, contracts and agreements, and Governmentwide policy
requirements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts. We also obtained reasonable
assurance that USDA complied with certain provisions of other laws and regulations specified in
OMB Bulletin 07-04, as amended, including requirements referred to in FFMIA, except for those
that, in our judgment, were clearly inconsequential. We limited our tests of compliance to the
provisions described in the preceding sentences and did not test compliance with all laws and
regulations applicable to USDA. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such an
opinion.

USDA’s response to the findings in our audit is included in its entirety in exhibit D. We did not
audit the response and, accordingly, express no opinion on it.

This report is intended solely for the information of the management of USDA, OMB, the
U.S. Government Accountability Office and the U.S. Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties.



Phyllis K. Fong /s/
Inspector General

November 14, 2011



6    AUDIT REPORT 50401-0001-11
Findings and Recommendations

Section 1: Material Weaknesses in Internal Control Over Financial
Reporting

Finding 1: Improvements are Needed in Overall Financial Management
During fiscal year 2011, USDA made further improvements in its financial management. For
example, exhibit B describes actions taken by the Department relating to abnormal balances and
obligations. Also, the Department continued implementation of its Financial Management
Modernization Initiative to improve financial performance through a modern financial system
that provides maximum support to the Department and its agencies. However, we noted areas
where further improvements are needed.

    In fiscal year 2011, we again attempted to perform an audit of the Natural Resources
Conservation Service’s (NRCS) Financial Statements (Audit Report 10401-0001-11, NRCS’
Financial Statements for Fiscal Year 2011, dated November 8, 2011). NRCS was again unable
to provide sufficient evidential matter in support of certain transactions and account balances, as
presented in the NRCS consolidated financial statements, as of and for the year ended September
30, 2011, particularly with respect to beginning net position balances and current year activity;
obligations incurred, including incurred expenses and undelivered orders; leases; real and
personal property; recoveries of prior year unpaid obligations; advances to others; and
stewardship land. NRCS was unable to complete corrective actions and make adjustments, as
necessary, to these and other financial statement amounts prior to the completion date of the
audit engagement.

    During fiscal year 2011, the Foreign Agricultural Service Agency (FAS) initiated the
transition of its accounting functions to a new service provider. Due in part to the delay in the
official transition, there were significant delays in receiving sufficient and appropriate evidence
in support of FAS’ accounting transactions recorded in the financial system. Additionally, FAS
stated in its FMFIA assurance statement to the Department that it was unable to certify its second
and third quarter unaudited financial statements, and therefore could not provide reasonable
assurance that management controls were operating effectively. As a result FAS also reported
noncompliance with FFMIA, as discussed in Finding 3.

OMB Circular A-123, Management’s Responsibility for Control, states that management has a
fundamental responsibility to develop and maintain effective internal control. It further states
that internal control over financial reporting is a process that provides reasonable assurance
regarding the reliability of financial reporting, which includes the assertion that documentation
for internal control, all transactions, and other significant events is readily available for
examination.

Inability to provide documentation in support of accounting transactions in a timely manner
indicates lack of accountability over financial reporting and diminishes the reliability of the
financial statements.

                                                               AUDIT REPORT 50401-0001-11           7
    Our review of inactive unliquidated obligations2 (ULO) disclosed improvements have been
made. However, we continued to find that obligations were not always valid because agencies
did not effectively monitor and review ULOs. We nonstatistically selected 100 ULOs from 13
agencies for which no activity had occurred for over 1 year.3 We determined that 22 ULOs were
invalid because no future expenditures were expected. In addition, we found 8 ULO balances
were valid obligations that would have been paid off in prior fiscal years if they had been
properly monitored. These obligations inappropriately remained open, in part because USDA
agencies failed to bill for or submit final payments to other USDA agencies.

We also performed a review of the June 30, 2011 obligation certifications required by the
Department. We determined that 4 of the 6 agencies selected for review inappropriately certified
to the validity of their balances. Documentation provided to support agencies’ reviews and
certifications showed incomplete and inaccurate reviews were performed.

The U.S. Department of the Treasury’s (Treasury) annual closing guidance (Treasury Bulletin
2011-07, Yearend Closing, dated June 22, 2011) requires an annual review of ULOs.
Departmental Regulation 2230-1, Reviews of Unliquidated Obligations, dated April 21, 2009,
further requires quarterly reviews and certifications as to the validity of ULO balances from
agency Chief Financial Officers (CFO).

Ineffective monitoring and reviewing as well as inappropriately certifying to the validity of
obligation balances resulted in invalid obligations remaining open. Invalid obligations
improperly restrict the availability of funding authority. This also increases the risk of misstating
obligations as of yearend.

In its FMFIA Report on Management Control for 2011, USDA continued to report a material
weakness relating to the lack of consistent review and follow-up on ULOs. The Department
indicated that several corrective actions have already been taken, such as reviewing quarterly
certifications by agency CFOs and working with agencies to complete cleanup of obligations
recorded in the Financial Management Systems. The Department plans additional corrective
actions, such as drafting a memorandum to obtain leadership commitment to properly monitor
and review obligations, as well as continuing to work with agencies to complete cleanup of
obligations. The Department estimates that all corrective actions will be completed in fiscal year
2012.

    In fiscal year 2011, the Department issued updated guidance to USDA agencies to improve
the process for reviewing, researching, and timely implementing action to correct abnormal
                                                           4
balances. However, we again identified abnormal balances in the USDA fiscal yearend trial
balance that were not fully researched and corrected. For fiscal year 2011, we noted 55
abnormal account balances, totaling about $415 million (absolute value) at yearend. According

2
 An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary resources
must be available before obligations can be incurred legally.
3
    Nonstatistical selection from activity as of May 31, 2011.
4
    A balance that deviates from the standard balance as defined by Treasury’s SGL.

8        AUDIT REPORT 50401-0001-11
to the Department, the existence of an abnormal balance indicates that transactions or
adjustments may have been posted in error. In addition, abnormal balances increase the risk of
material misstatement on the financial statements.

    Additionally, in fiscal year 2011 we noted that USDA agencies were not adequately
researching and reconciling intradepartmental activity. Transactions occurring between USDA
agencies are required to be identified, reconciled, and reported to facilitate eliminations of
intradepartmental balances for the consolidated financial statements.5 OCFO established a
minimum reconciliation threshold of $250,000 by reciprocal accounts.6 We noted that
throughout the fiscal year several agencies were unable to reconcile intradepartmental balances
to this threshold. Our review of fourth quarter activity found 49 balances above the threshold
with a balance of approximately $56 million (absolute value).

According to the Department, the elimination of intradepartmental activity for the consolidated
financial statements requires that the same amount must exist in each trading partner’s general
ledger in reciprocal accounts. In cases where agencies fail to confirm balances to their trading
partners, or confirm without researching the amounts and accounts, the process could result in
material misstatements of the consolidated financial statements.
                                                                             7
    In fiscal year 2011, we again identified improper payments made by the Farm Service
Agency through its various farm assistance programs. A separate report will be issued with
further details regarding these improper payments.

Because of actions planned or in process by the Department, the only recommendations made
herein relate to the oversight of FAS accounting functions and reconciliations of
intradepartmental activity.

Recommendation 1
Provide additional oversight of the accounting functions at FAS to ensure that the objectives of
internal control over financial reporting are maintained.

Recommendation 2
Provide additional oversight and training to ensure agencies are following Departmental policy
in identifying and reconciling intradepartmental transactions.




5
 Office of the Chief Financial Officer (OCFO) Bulletin 2002-002, Positive Confirmations of Trading Partner
Balances, dated June 4, 2002.
6
    OCFO instructions for the preparation for fiscal year 2011 Consolidated Financial Statements.
7
 An improper payment is any payment that should not have been made or that was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements. Incorrect amounts are
overpayments and underpayments.


                                                                           AUDIT REPORT 50401-0001-11           9
Finding 2: Improvements are Needed in Information Technology Security
and Controls

We performed an independent evaluation of the Department’s IT security program and practices,
as required by the Federal Information Security Management Act of 2002 (FISMA). We also
performed reviews of the control structure of the Office of the Chief Information
Officer/National Information Technology Center (OCIO/NITC) and the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC), located in Kansas City, Missouri, and
                                      8
New Orleans, Louisiana, respectively.

In fiscal year 2011, both OCIO/NITC and OCFO/NFC sustained unqualified opinions on their
control environments. Additionally, in fiscal year 2011, the Department finished deploying a
suite of network monitoring and detection tools that, once fully implemented, will provide the
foundation for enterprise-wide security monitoring, detection, and protection.

Although improvements continue to be made in the Department’s IT security, our FISMA report
notes that many long-standing weaknesses remain. Since 2001, the Office of Inspector General
has reported material weaknesses in the design and effectiveness of the Department’s overall IT
security program. Our fiscal year 2011 FISMA report provides details on the weaknesses we
continued to note in the design and effectiveness of the Department’s overall IT security
         9
program.

In its FMFIA Report on Management Control for 2011, USDA again reported an overall IT
material weakness relating to deficiencies in the internal control design and operating
effectiveness for logical access controls/personnel security, configuration management, physical
access and environmental protection, and contingency planning. As noted in its FMFIA report,
the Department indicated that corrective actions have been taken, such as ensuring key IT
security controls are tested annually for all systems and the institutionalization of the Risk
Management Framework (which provides increased real-time security control assessment and
continuous monitoring). The Department has additional corrective actions planned in fiscal year
2012.

Because of recommendations made in our annual FISMA audits, we are making no further
recommendations in this report.




8
    See exhibit A for information regarding the cited reports.
9
 Audit Report 50501-0002-12, U.S. Department of Agriculture, Office of the Chief Information Officer,
Fiscal Year 2011 Federal Information Security Management Act (November 2011).

10         AUDIT REPORT 50401-0001-11
Section 2: Noncompliance with Laws and Regulations

Finding 3: Lack of Substantial Compliance with FFMIA Requirements
FFMIA requires agencies to annually assess whether their financial management systems comply
substantially with (1) Federal Financial Management Systems Requirements (FFMSR),
(2) applicable Federal accounting standards, and (3) SGL at the transaction level. In addition,
FISMA requires each agency to report significant information security deficiencies, relating to
financial management systems, as a lack of substantial compliance under FFMIA. FFMIA also
requires auditors to report in their CFO Act financial statement audit reports whether financial
management systems substantially comply with FFMIA’s system requirements.

During fiscal year 2011, USDA evaluated its financial management systems to assess
compliance with FFMIA. The Department reported that it was not substantially compliant with
FFMSR, applicable accounting standards, SGL at the transaction level, and FISMA
requirements.

As noted in its MD&A, USDA plans to continue efforts to meet the FFMIA and FISMA
objectives. Improving Federal financial management systems is critical to increasing the
accountability of financial program managers, providing better information for decision making,
and increasing the efficiency and effectiveness of services provided by the Federal Government.

In its FFMIA report, the Department reported noncompliance with FFMSR and FISMA for
multiple agencies relating to logical access controls/personnel security, configuration
management, physical access and environmental protection, and contingency planning.

Additionally, in its FFMIA report, the Department noted noncompliances for three of its
component agencies, described below.

   1. The Commodity Credit Corporation’s (CCC) funds control management system does not
      provide for full funds control at the transaction level. CCC is working towards
      implementing programs that will enable full funds control at the transaction level.
      Corrective action is scheduled for completion by September 30, 2012. In addition, the
      operating systems required to support some CCC applications are no longer supported by
      the vendor. Thus, CCC is unable to comply with FFMSR. CCC is continuing the
      development of the “Modernize and Innovate the Delivery of Agricultural Systems”
      project which includes retirement of the CCC legacy systems. Corrective action is
      scheduled for completion by March 30, 2013.

   2. NRCS did not comply with FFMSR, Federal accounting standards, and SGL at the
      transaction level. Corrective actions are scheduled for completion by November 30,
      2013. In addition, deficiencies were found in NRCS’ general and application access
      controls. NRCS is working to improve general and application access controls.
      Corrective actions are scheduled for completion by September 30, 2012.



                                                           AUDIT REPORT 50401-0001-11       11
     3. In fiscal year 2011, FAS identified serious deficiencies in its financial management
        operations. As a result, FAS was unable to assure that its financial management systems
        provide reliable, consistent disclosure of financial data in accordance with generally
        accepted accounting principles and standards. FAS is working to complete a thorough
        test of new procedures to evaluate operational effectiveness in fiscal year 2012.

Because of actions planned by the Department and recommendations made in other audits, we
are making no further recommendations in this report.




12      AUDIT REPORT 50401-0001-11
Abbreviations

ADA ............................ Anti-Deficiency Act
CCC............................. Commodity Credit Corporation
CFO ............................. Chief Financial Officer
FAS ............................. Foreign Agricultural Service Agency
FFMIA ........................ Federal Financial Management Improvement Act of 1996
FFMSR ........................ Federal Financial Management Systems Requirements
FISMA ........................ Federal Information Security Management Act of 2002
FMFIA ........................ Federal Managers’ Financial Integrity Act of 1982
FSA ............................. Farm Service Agency
IPERA ......................... Improper Payments Elimination and Recovery Act of 2010
IT ................................. information technology
MD&A ........................ Management’s Discussion and Analysis
NFC ............................. National Finance Center
NITC ........................... National Information Technology Center
NRCS .......................... Natural Resources Conservation Service
OCFO .......................... Office of the Chief Financial Officer
OCIO ........................... Office of the Chief Information Officer
OMB ........................... Office of Management and Budget
RMA ........................... Risk Management Agency
SGL ............................. Standard General Ledger
Treasury ...................... U.S. Department of Treasury
ULO ............................ Unliquidated Obligations
USDA.......................... Department of Agriculture




                                                                    AUDIT REPORT 50401-0001-11   13
Exhibit A: Audit Reports Related to the Fiscal Year 2011
Financial Statements
The following is a list of reports which are related to the Office of Inspector General’s audit of
the Department of Agriculture’s fiscal year 2011 financial statements.


       Audit Number       Audit Title                                     Release Date
                          Federal Crop Insurance Corporation/Risk
                          Management Agency’s
       05401-0001-11                                                      November 2011
                          Financial Statements for
                          Fiscal Years 2011 and 2010
                          Commodity Credit Corporation’s                  November 2011
       06401-0001-11      Financial Statements for
                          Fiscal Years 2011 and 2010
                          Forest Service’s Financial Statements for
       08401-0001-11                                                      November 2011
                          Fiscal Years 2011 and 2010
                          Natural Resources and Conservation
       10401-0001-11                                                      November 2011
                          Service’s Financial Statements for 2011
                          Statement on Standards for Attestation
       11401-0002-11      Engagements No. 16 Report on Controls at        September 2011
                          the National Finance Center
                          Food and Nutrition Service’s
       27401-0001-21      Financial Statements for                        November 2011
                          Fiscal Years 2011 and 2010
                          U.S. Department of Agriculture,
                          Office of the Chief Information Officer,
       50501-0002-12                                                      November 2011
                          Fiscal Year 2011 Federal Information
                          Security Management Act
                          Rural Development’s Financial Statements
       85401-0001-11                                                      November 2011
                          for Fiscal Years 2011 and 2010
                          Statement on Standards for Attestation
                          Engagements No. 16 Report on Controls at
       88501-0001-11                                                      September 2011
                          the National Information Technology
                          Center




14     AUDIT REPORT 50401-0001-11
Exhibit B: Summary of Prior Year Recommendations

Audit Report 50401-70-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2010 and 2009, dated November 15, 2010.

Finding 1: Improvements Are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight to ensure that agencies are properly reviewing, researching, and
timely implementing action to correct abnormal balances.

Departmental Status
During fiscal year 2011, the Department issued the Office of the Chief Financial Officer
Bulletin 11-02, Controls Over Abnormal Balances, to update Departmental guidance to
U.S. Department of Agriculture agencies to improve the process for reviewing, researching, and
timely implementing action to correct abnormal balances. This recommendation remains open.

OIG Results
The Material Weakness continues to exist, as discussed in Finding 1.

Audit Report 50401-67-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2009 and 2008, dated November 16, 2009.

Finding 1: Improvements Are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight to ensure agencies (1) properly monitor and review obligation
balances, (2) provide valid certifications based on complete and accurate reviews as required by
Departmental Regulation 2230-001, and (3) understand the importance of responding to requests
for bills or additional information in a timely manner.

Departmental Status
During fiscal year 2011, the Department worked with agencies to complete cleanup of
obligations recorded in the Foundation Financial Information System and the Financial
Management Modernization Initiative. In addition, the Department continued to monitor
obligations via monthly corrective actions status reports and review of quarterly Chief Financial
Officers’ certifications. The Department estimates that all corrective actions will be completed
in fiscal year 2012.



                                                            AUDIT REPORT 50401-0001-11          15
Exhibit B: Summary of Prior Year Recommendations

OIG Results
The Material Weakness continues to exist, as discussed in Finding 1.

Audit Report 50401-65-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2008 and 2007, dated November 14, 2008.

Finding 1: Improvements Are Needed In Overall Financial Management

Recommendation 1
Provide additional oversight to ensure that general ledgers reflect valid obligations and that
agencies perform the required reviews timely and effectively.

Departmental Status
See Departmental status for Recommendation 1 of Audit Report 50401-67-FM, U.S. Department
of Agriculture’s Consolidated Financial Statements for Fiscal Years 2009 and 2008, dated
November 16, 2009.

OIG Results
The Material Weakness continues to exist, as discussed in Finding 1.




16     AUDIT REPORT 50401-0001-11
Exhibit C: Status of Prior Year Noncompliance Findings

Audit Report 50401-70-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2010 and 2009, dated November 15, 2010.

Finding 3: Lack of Substantial Compliance with Federal Financial
Management Improvement Act of 1996 (FFMIA) Requirements

Reported Noncompliance
The Department reported a lack of substantial compliance with the FFMIA of 1996
requirements. The Department reported that it was not substantially compliant with the Federal
Financial Management Systems Requirements (FFMSR), applicable accounting standards, the
U.S. Government Standard General Ledger (SGL) at the transaction level, and the Federal
Information Security Management Act (FISMA) of 2002 requirements.

Status
In fiscal year 2011, the Department continued to report substantial noncompliance with FFMSR,
applicable standards, SGL at the transactions level, and FISMA requirements, as discussed in
Finding 3.

Finding 4: Anti-Deficiency Act Violations (ADA)

Reported Noncompliance
The Department reported ADA violations in its fiscal year 2010 statement of assurance included
in the Performance and Accountability Report relating to Rural Development, as well as the
Commodity Credit Corporation (CCC) and Farm Service Agency (FSA). Details follow:

       Rural Development reported ADA violations in fiscal year 2010 regarding Rural Utilities
       Services’ Broadband Program. These violations involved eight broadband loans from
       fiscal year 2004 with an aggregate loan amount of $170 million. Using the fiscal
       year 2010 subsidy rate, the budget authority associated with the undisbursed balance of
       these loans was approximately $7 million as of October 1, 2009.

       CCC and FSA reported ADA violations in fiscal year 2010 regarding the Biomass Crop
       Assistance Program. The violations involved CCC entering into contracts administered
       by FSA for matching agreements that extended beyond the period of performance
       authorized by the Office of Management and Budget (OMB).




                                                          AUDIT REPORT 50401-0001-11        17
Exhibit C: Status of Prior Year Noncompliance Findings

Status
The ADA violations were reported to the President, U.S. Congress, and OMB on August 5, 2011
by Rural Development and October 3, 2011 by CCC.




18    AUDIT REPORT 50401-0001-11
               Exhibit D: Agency Response




United States
Department of
Agriculture

Office of the Chief
Financial Officer     TO:            Phyllis K. Fong                                November 14, 2011
1400 Independence
                                     Inspector General
Avenue, SW                           Office of Inspector General

                      FROM:          Jon M. Holladay                                -S- Jon M. Holladay
                                     Deputy Chief Financial Officer
                                     Office of the Chief Financial Officer

                      SUBJECT:       Department of Agriculture’s Consolidated Financial Statements for
                                     Fiscal Years 2011 and 2010, Audit Report No. 50401-1-11

                      The Department is pleased to respond to your audit report on the Consolidated Financial
                      Statements for fiscal years 2011 and 2010.

                      We concur with the two material weaknesses and findings related to compliance with laws and
                      regulations in the report. We generally agree with the recommendations in the report and will
                      develop corrective action plans with milestones to address the findings within 60 days.

                      We recognize the achievement of an unqualified opinion was accomplished through the joint
                      efforts of your staff, contract auditors, and the financial staffs of the Department and agencies.

                      I would like to express my appreciation for the cooperation and professionalism displayed by your
                      staff and your contract auditors during the course of your audit




                                                                               AUDIT REPORT 50401-0001-11          19
Exhibit E: Performance and Accountability Report




                      USDA
     PERFORMANCE AND ACCOUNTABILITY
                     REPORT
          FISCAL YEARS 2011 and 2010
           FINANCIAL STATEMENTS
             PREPARED BY USDA
      SECTIONS 1, 2, AND 4 ARE UNAUDITED




20   AUDIT REPORT 50401-0001-11
This Performance and Accountability Report (PAR) can be downloaded at
www.usda.gov. From there, click on “About USDA.” The U.S. Department of
Agriculture (USDA) can be contacted through the same Web site by clicking
“Contact Us.”


USDA prohibits discrimination in all of its programs and activities on the basis of race,
color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation,
political beliefs, genetic information, reprisal, or because all or part of an individual's
income is derived from any public assistance program. (Not all prohibited bases apply to
all programs.) Persons with disabilities who require alternative means for communication
of program information (Braille, large print, audiotape, etc.) should contact USDA's
TARGET Center at (202) 720-2600 (voice and TDD).


USDA is an equal opportunity provider and employer.
Only Federal employees participated in the preparation of the performance and financial
information contained in this report.
                                                           Table of Contents
Table of Contents .......................................................................................................................... 1
Message from the Secretary............................................................................................................. 2
About this Report .......................................................................................................................... 5
1.    Management’s Discussion and Analysis.................................................................................... 6
      Resources .................................................................................................................................................................9
      Performance Goals, Objectives, and Results .........................................................................................................10
      Future Demands, Risks, Uncertainties, Events, Conditions, and Trends .............................................................12
      Financial Statement Highlights .............................................................................................................................15
      Systems, Controls, and Legal Compliance ............................................................................................................19
      Federal Managers’ Financial Integrity Act Report on Management Control .......................................................20
2.    Annual Performance Report ...................................................................................................29
      Strategic Goal 1: Assist Rural Communities to Create Prosperity So they are Self-Sustaining,
                         Repopulating, and Economically Thriving .............................................................................29
      Strategic Goal 2: Ensure Our National Forests and Private Working Lands are Conserved,
                         Restored, and Made More Resilient to Climate Change, While Enhancing Our
                         Water Resources ......................................................................................................................47
      Strategic Goal 3: Help America Promote Agricultural Production and Biotechnology Exports as
                         America Works to Increase Food Security ..............................................................................64
      Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious, and
                         Balanced Meals........................................................................................................................66
      Selected Results in Research, Extension, and Statistics .........................................................................................80
      Priority Goal Summaries .......................................................................................................................................85
      Selected FY 2011 Program Evaluations ................................................................................................................92
3.    Financial Statements, Notes, Supplemental and Other Accompanying Information ................... 94
      Message from the Chief Financial Officer ............................................................................................................94
      Consolidated Financial Statements .......................................................................................................................96
      Required Supplementary Stewardship Information ............................................................................................169
      Required Supplementary Information .................................................................................................................178
4.    Other Accompanying Information ........................................................................................ 187
      Appendix A — Response to Management Challenges .......................................................................................187
      Appendix B — Improper Payment and Recovery Auditing Details ...................................................................197
      Appendix C — Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up ...221
      Appendix D – Summary of Financial Statement Audit and Management .........................................................226
      Appendix E — Acronyms ...................................................................................................................................228




                                          FY 2011 Performance and Accountability Report
                                                               1
                           Message from the Secretary
In fulfillment of its duty to the people, the President, and Congress, the U.S.
Department of Agriculture (USDA) respectfully submits this Fiscal Year (FY) 2011
Performance and Accountability Report.
Recent budget challenges and efforts to stabilize the long-term financial health of
the Nation have caused uncertainty and concern. As a country, we face important
choices regarding the funding and operation of our Government.
As we approach USDA’s 150th anniversary, the opportunity to build a better and
stronger Department is before us. In that spirit, I have asked my fellow leaders at
USDA to undertake a review of our operations to identify ideas, improvements, and
innovation to manage this coming change. As part of this review, USDA leaders will be engaging
employees and unions to help shape an outcome for the betterment of the entire Department. We can
manage these challenges and strengthen our service. When we do, we will complete USDA’s Cultural
Transformation into a modern and trusted partner in the lives and well-being of the American people.
USDA continues to empower and revitalize farms, ranches, and U.S. rural communities. One of the
primary ways that the Department supports rural communities is through increased exports and market
access. Agriculture is one of the few sectors in the U.S. economy in which exports are creating a positive
trade balance. Moreover, agricultural exports continue to grow, increasing by an average of 11 percent per
year over the last 5 fiscal years (FY 2007–FY 2011). However, U.S. agricultural producers and small and
medium enterprises face an increasingly challenging, technologically advanced, and competitive business
environment. USDA works to ensure that they are prosperous and competitive by supporting innovative
research and their access to international markets through market development programs, trade shows,
prevention and resolution of unjustified Technical Barriers to Trade (TBT) and market-expanding trade
agreements for U.S. agricultural products. The Department is participating in World Trade Organization
multilateral committee meetings as well as negotiating new trade agreements to increase U.S. agricultural
trade.
This year has been very beneficial to agricultural exports. USDA worked closely with the United States
Trade Representative to gain approval for three free trade agreements. Once implemented, these
agreements are expected to expand exports. The Department resolved numerous unjustified trade barriers
and expanded U.S. opportunities in markets associated with Indonesian grain; Chilean and Egyptian meat;
Algerian dairy products; Vietnamese horticulture. The Department also helped bring about Saudi Arabia’s
removal of a ban on food coloring and the opening of the western Australian market to U.S. cherries.
U.S. agricultural exports reached an all-time high of $137.4 billion in fiscal year (FY) 2011, which is a 27
percent increase over 2010. USDA will continue to facilitate trade for U.S. food and agricultural products
with the ultimate goal of creating jobs and U.S. economic growth.
USDA also looked at new efforts—and at streamlining and targeting work—to conserve the Nation’s
forests, farmlands, and watersheds. USDA also worked closely with other agencies in launching the
President’s America’s Great Outdoors initiative designed to reconnect Americans to the outdoors and
establish a 21st century conservation agenda.




                           FY 2011 Performance and Accountability Report
                                                2
Examples of USDA’s conservation work in this regard include the following:
• Committed more than $100 million to restoring the Everglades by developing conservation contracts on
   44,000 acres and enrolling more than 23,000 acres of private lands in conservation easements through
   targeted use of the Wetlands Reserve Program;
• Released the first-ever National Watershed Condition Framework for the National Forest System and
   completed an assessment of condition class for 15,000 sub-watersheds; identified priority watersheds on
   all National Forests and initiated Watershed Action Plans for priority watersheds;
• Worked across 11 western states to restore habitat for the sage grouse, a bird proposed for the federal
   endangered species list, by providing $94 million to help landowners restore habitat and to purchase
   easements; participating landowners are assured that, if the sage grouse is added to the list, they won’t
   be subject to additional regulation.
• Protected 149,000 acres in 14 States through the Forest Legacy Program, leveraging $31 million of
   Federal, State, and private resources to support land conservation activities through easements and
   fee acquisition; and
• Provided opportunities for thousands of young people to engage in work and service learning
   opportunities on our public lands through Forest Service Job Corps Centers and opportunities
   provided with Corps organizations and other partners around the country; also connected more
   than 25 million young Americans with the great outdoors through Forest Service-sponsored
   recreational, educational, and other programs and events.
USDA-led research, education, and extension efforts support and integrate all USDA programs and help
producers and rural communities prosper. The Department’s work on some of the world’s most pressing
problems, including food security, nutrition, food safety, climate change, and sustainable bioenergy,
encourages innovation and the creation of new industries, businesses, products, and services. One major
driver of successful innovation is technology transfer—the private sector adoption of research outcomes—of
federally funded research from universities and Federal laboratories to the marketplace. Often, research
performed by Federal scientists or supported by the Federal Government is leveraged by the private sector to
serve the broader public—creating jobs, spurring economic growth, and enhancing global competitiveness in
the U.S. agriculture sector.
No one should go hungry in America, and USDA helps nearly one person in four through a number of
nutrition assistance programs, including the Supplemental Nutrition Assistance Program (SNAP), the
Special Supplemental Nutrition Program for Women, Infants, and Children (WIC), and our School
Breakfast, Special Milk, National School Lunch, and Fresh Fruit and Vegetable Programs. The
Department’s commitment to improving the quality and standards of food in our schools, coupled with
efforts to increase physical activity, is enabling more children to lead healthier lifestyles.
I recently joined First Lady Michelle Obama at a reception to honor schools taking part in USDA’s
HealthierUS School Challenge as part of the Administration’s Let’s Move! campaign. The Challenge
recognizes schools that create healthier school environments by providing students with exceptional
nutrition education, nutritious food and beverage choices, physical education, and opportunities for physical
activity. In January of this year, the Department also issued new Dietary Guidelines for Americans (DGA)
in collaboration with the Department of Health and Human Services. The DGAs are the Federal
Government’s blueprint for healthy eating and nutrition. In June, I joined the First Lady and Surgeon
General Regina Benjamin to unveil the Federal Government’s new food icon, MyPlate, to remind
consumers to make healthier food choices. MyPlate encourages consumers to build a healthy plate with
emphasis on the fruit, vegetable, grains, protein, and dairy food groups.
With regard to food safety, USDA has announced several new measures to safeguard our Nation’s food
supply, prevent foodborne illness, and improve consumers’ knowledge of the food they and their families


                          FY 2011 Performance and Accountability Report
                                               3
eat. Some of these actions include new steps to fight the pathogen E. coli; improved performance standards
for poultry establishments; “test and hold” policies that reduce consumer exposure to unsafe meat products;
and proposed improvements to consumer product labeling.
I am also pleased to report that USDA is leading the charge to help revitalize rural America. As a result of
the President’s Executive Order in June, I am proud to chair the first White House Rural Council. The
Council is responsible for coordinating the Administration’s efforts in rural America by streamlining and
improving the effectiveness of Federal programs serving rural communities in an effort to promote job
creation and economic development. In just a few months, the Council has already identified and
announced several areas of improved collaboration, including doubling the SBA investment for small rural
businesses over the next five years, expanding DOL job search and training services to the USDA sites
nationwide, and increasing physician recruitment at critical access hospitals through expansion of the
National Health Service Corps. The Council has created a mechanism for agencies to improve coordination
and better leverage federal investment in rural communities.
Through its Departmental Management office, USDA has provided leadership in Cultural Transformation
to increase the diversity, inclusion, and accessibility of the Department. Departmental Management has led
the effort to improve outreach to socially disadvantaged farmers and ranchers, led innovations in
procurement and property management services, achieved USDA’s highest level of workforce diversification
through its Office of Human Resources Management, and brought in a record number of scholars and
fellows through its Higher Education Programs who are collectively leading the way for USDA to be the
most efficient and productive it has ever been.
In FY 2011, USDA’s Office of the Chief Financial Officer (OCFO) worked with USDA agencies to reduce
the inventory of open audits by 20 percent. Additionally, the number of audits that have been open a year
or more without final action was reduced by 34 percent. OCFO continued implementation of the Financial
Management Modernization Initiative (FMMI), a core financial system to replace USDA’s nine general
ledger systems. Of the 29 agencies that form the Department, 25 have implemented FMMI.
The Department’s management team continues to oversee USDA’s assessment of internal control over its
programs, operations, financial systems, and financial reporting. The Department’s work is consistent with
the provisions of the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial
Management Improvement Act (FFMIA). USDA’s continuous monitoring and remediation efforts allow
us to provide taxpayers with reasonable assurance that this report is based on sound, accurate data.
Nevertheless, continued improvement is needed to remediate existing material weaknesses and financial
system noncompliance. To accomplish this goal, management continues to implement corrective action-
plan activities. Therefore, I provide qualified assurance that, except for the areas in need of improvement as
described in the Management Assurances section of this report, USDA’s internal control over operations,
financial systems, and financial reporting meets the objectives of FMFIA and FFMIA. The financial and
performance information presented herein is complete and accurate and is in accordance with law and
Office of Management and Budget guidance.
Thank you for your interest in the Department. I salute USDA employees for their outstanding work and
am proud to share this information with our stakeholders. We will continue to serve the needs of the people
every day and in every way.



Thomas J. Vilsack
Secretary of Agriculture
November 15, 2011


                           FY 2011 Performance and Accountability Report
                                                4
                                   About this Report
This Fiscal Year 2011 Performance and Accountability Report (PAR) is the year-end progress report of the
United States Department of Agriculture (USDA). The Department reviews its strategic goals, objectives,
and performance measures it set for itself at the beginning of the fiscal year. USDA then compares these
targets to the year’s performance. The data used by the Department to measure performance are collected
using a standardized methodology. This methodology has been vetted by Federally employed scientists and
policymakers, and, ultimately, the Under Secretaries of the respective mission areas. All attest to the
completeness, reliability, and quality of the data.
The Government Performance and Results Act of 1993 (GPRA), and the GPRA Modernization Act of
2010 are the Federal statutes that form the basis of Federal agency planning and reporting. GPRA, later
laws, and executive branch guidance drive the planning and reporting process in this fashion: the 5-year
Strategic Plan is used to craft the Annual Performance Plan, and progress on the Annual Performance Plan
is reported in the PAR. All plans and reports are available at usda.gov.
The PAR is divided into four sections:
1. Management’s Discussion and Analysis
   • Summarizes the information contained in Sections 2, 3, and 4 of the PAR
   • Includes the Secretary’s Statement of Assurance
   • Includes summary of High Priority Performance Goals
2. Annual Performance Report
   • Reports results of actions taken toward meeting the performance measures put forth in the Annual
      Performance Plan. Note that this FY 2011 PAR has a different performance measure numbering
      scheme than the FY 2010 PAR, based on changes instituted in the FY 2011 Annual Performance Plan
   • Includes discussion of High Priority Performance Goals
3. Financial Statements, Notes, Supplemental, and Accompanying Documents
       Highlights USDA’s progress in financial management during FY 2011
4. Other Accompanying Documents
      Includes appendices and additional information USDA deems relevant
The programs once rated by the Performance Assessment Rating Tool (PART) are represented by
performance measures or program discussion presented in the Annual Performance Plan and subsequently
reported in the PAR.




                         FY 2011 Performance and Accountability Report
                                              5
                          Management’s Discussion and Analysis


1.   Management’s Discussion and Analysis




T  he Department was founded by President Abraham Lincoln in 1862, when more than half of the
   Nation’s population lived and worked on farms. The population has increased approximately tenfold,
   and is estimated at 307 million people, the vast majority of whom do not live on farms or in rural areas.
The magnitude of America’s evolved needs for food, fiber, forest products, and public services has required
USDA to grow and deliver expanded public services.
Today, USDA improves the Nation’s economy and quality of life by touching the lives of almost every
American every day. More than 100,000 employees deliver more than $188.7 billion to provide public
services through USDA’s more than 300 programs worldwide.
Because America’s food and fiber producers operate in a global, technologically advanced, rapidly
diversifying, and highly competitive business environment, USDA is constantly helping producers meet the
needs of the Nation.
USDA’s strategic goals, as outlined in the Strategic Plan for FY 2010-2015 (usda.gov), are:
• Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating, and
  Economically Thriving;
• Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made More
  Resilient to Climate Change, While Enhancing Our Water Resources;
• Help America Promote Agricultural Production and Biotechnology Exports as America Works to
  Increase Food Security; and
• Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals.
These goals reflect USDA’s commitment to provide first-class service, state-of-the-art science, and
consistent management excellence across the Department. USDA assesses and seeks to improve program
performance so that the Department can maximize its impact. Program assessments identify how well and
efficiently a program is working and what specific actions can be taken to improve its performance.
Summary program evaluations conducted during fiscal year (FY) 2011 are included in this document at the
end of Section 2, “Annual Performance Report.”
USDA’s management structure can be found in Exhibit 1, “Headquarters Organization.”




                                       Management’s Discussion and Analysis
                                                        6
Exhibit 1:      Headquarters Organization (FY 2011)

                                                                                       SECRETARY

                                                                                     Deputy Secretary




                        Director of               Inspector                General                 Assistant Secretary for        Assistant Secretary for          Assistant Secretary for
                      Communications               General                 Counsel                Congressional Relations            Administration                     Civil Rights




                                                                                                             Chief Information         Chief Financial             Executive
                                                                                                                  Officer                  Officer                 Operations




         Under Secretary for     Under Secretary for          Under Secretary        Under Secretary for         Under Secretary for      Under Secretary for         Under Secretary for
         Natural Resources        Farm and Foreign               for Rural           Food, Nutrition and            Food Safety           Research, Education           Marketing and
          and Environment        Agricultural Services         Development           Consumer Services                                      and Economics            Regulatory Programs
             Forest Service        Farm Service               Rural Utilities         Food and Nutrition           Food Safety and         Agricultural Research       Agricultural Marketing
                                   Agency                     Service                 Service                      Inspection              Service                     Service
             Natural Resources
             Conservation          Foreign Agricultural       Rural Housing           Center for Nutrition         Service                 National Institute of       Animal and Plant
             Service               Service                    Service                 Policy and Promotion                                 Food and Agriculture        Health Inspection
                                   Risk Management            Rural Business-                                                              Economic Research           Service
                                   Agency                     Cooperative Service                                                          Service                     Grain Inspection,
                                                                                                                                           National Agricultural       Packers and
                                                                                                                                           Library                     Stockyards
                                                                                                                                           National Agricultural       Administration
                                                                                                                                           Statistics Service



MISSION AREAS

                                                                                            The Department’s work is organized by mission areas,
                           Mission Statement                                                which are collections of agencies that work together to
                                                                                            achieve USDA’s strategic goals. Descriptions of
   USDA provides leadership on food, agriculture,
                                                                                            USDA’s seven mission areas follow.
   natural resources, and related issues based on
   sound public policy, the best available science, and                                     Natural Resources and Environment
   efficient management.                               The Natural Resources and Environment (NRE)
                                                       mission area ensures the health of the land through
                                                       sustainable management. Its agencies work to prevent
damage to natural resources and the environment, restore the resource base, and promote good land
management. NRE consists of the Forest Service and the Natural Resources Conservation Service (NRCS).
Forest Service manages public lands in national forests and grasslands, which encompass 193 million acres.
NRCS provides leadership in a partnership effort to help America's private land owners and managers
conserve their soil, water, and other natural resources. Both agencies work in partnership with Tribal,
Federal, State, and local Governments, and community-related groups to protect soils, watersheds, and
ecosystems.
Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area helps keep America's farmers and
ranchers in business as they face the uncertainties of weather and markets. FFAS delivers programs that
support a sustainable and competitive US agricultural system. This mission area is comprised of the Farm
Service Agency (FSA), the Foreign Agricultural Service (FAS), and the Risk Management Agency (RMA).
FSA administers and manages commodity, farm credit, conservation, and disaster programs through a
network of Federal, State, and county offices. FSA provides administrative support for the Commodity
Credit Corporation (CCC). The CCC is a Government-owned entity which funds most of the commodity,
export, and some conservation programs of USDA. FAS works to improve international market access for


                                                          Management’s Discussion and Analysis
                                                                           7
U.S. products, build new markets, improve the competitive position of domestic agriculture in the global
marketplace, and provide food aid and technical assistance to other countries. RMA helps producers manage
their business risks through effective, market-based risk management solutions. In addition, RMA manages
the Federal Crop Insurance Corporation (FCIC) to improve the economic stability of agriculture through a
sound system of crop insurance.
Rural Development
The Rural Development (RD) mission area focuses on helping improve the economy and quality of life in
all of rural America. RD provides financial support for the development of essential public facilities and
services as water and sewer systems, housing, health clinics, emergency service facilities, and electric and
telephone services. RD promotes economic development by providing direct loans and loan guarantees to
businesses through private sector financial institutions. In addition, RD provides grants, loan guarantees and
payments to farmers, ranchers, and rural small businesses to develop renewable energy systems and make
energy efficiency improvements.
Food, Nutrition, and Consumer Services
The Food, Nutrition, and Consumer Services (FNCS) mission area works to harness the Nation's
agricultural abundance to reduce hunger and improve health in the United States. FNCS’ agencies
administer Federal domestic nutrition assistance programs. FNCS is comprised of the Food and Nutrition
Service (FNS) and the Center for Nutrition Policy and Promotion (CNPP). FNS administers USDA’s 15
Federal nutrition assistance programs. CNPP works to improve the health and well-being of Americans by
developing and promoting dietary guidance that links scientific research to the nutrition needs of
consumers.
Food Safety
Food Safety ensures that the Nation's commercial supply of meat, poultry, and egg products is safe,
wholesome, and properly labeled and packaged. This mission area also plays a key role in the Food Safety
Working Group, a coordinated government-wide initiative to ensure a safe food supply for the American
people for the 21st century. USDA's partners in the Working Group include the U.S. Department of
Health and Human Services, the U.S. Environmental Protection Agency, and a number of other
Government agencies. Food Safety is made up of the Office of the Administrator, the Office of Catfish
Inspection Programs, the Office of the Chief Information Officer, the Office of Data Integration and Food
Protection, the Office of Field Operations, the Office of International Affairs, the Office of Management,
the Office of Outreach, Employee Training and Education, the Office of Public Affairs and Consumer
Education, The Office of Program Evaluation, Enforcement, & Review, the Office of Policy and Program
Development, and the Office of Public Health Science.
Research, Education, and Economics
The Research, Education, and Economics (REE) mission area is dedicated to the creation of a safe,
sustainable, competitive U.S. food and fiber system, as well as the development of strong communities,
families, and youth through integrated research, analysis, and education. REE is comprised of the
Agricultural Research Service (ARS), the National Institute of Food and Agriculture (NIFA), the
Economic Research Service (ERS), the National Agricultural Statistics Service (NASS), and the National
Agricultural Library (NAL).
Marketing and Regulatory Programs
The Marketing and Regulatory Programs (MRP) mission area facilitates the domestic and international
marketing of U.S. agricultural products and ensures the health and care of animals and plants. MRP is made
up of the Agricultural Marketing Service (AMS), the Animal and Plant Health Inspection Service
(APHIS), and the Grain Inspection, Packers, and Stockyards Administration (GIPSA). AMS administers


                                Management’s Discussion and Analysis
                                                 8
programs that facilitate the efficient, fair marketing of U.S. agricultural products, including food, fiber, and
specialty crops. APHIS provides leadership in ensuring the health and care of animals and plants. GIPSA
facilitates the marketing of livestock, poultry, meat, cereals, oilseeds, and related agricultural products.
DEPARTMENTAL MANAGEMENT
Department-level offices provide centralized leadership, coordination, and support for USDA’s policy and
administrative functions. Their efforts maximize the energy and resources agencies devote to the delivery of
services to USDA customers and stakeholders.

Resources
Congressional appropriations are the primary funding source for USDA operations. FY 2011 program
obligations totaled $183.6 billion, a decrease of $5 billion compared to FY 2010. These are current year
obligations from unexpired funds.
Exhibit 2 shows USDA’s net cost of program operations for FY 2011, organized by strategic goal and
compared to FY 2010. Total net costs for FY 2011 were $149 billion compared to $132.4 billion for
FY 2010.
Exhibit 2:   FY 2011 USDA Net Cost of Program Operations by Strategic Goals (in millions)




              120,000


              100,000


                80,000


                60,000


                40,000


                 20,000


                         0
                              Goal 1                                                           FY2011
                                              Goal 2                                           FY2010
                                                                Goal 3
                                                                                  Goal 4




Goal 1:      Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating, and
             Economically Thriving
Goal 2:      Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made More
             Resilient to Climate Change, While Enhancing Our Water Resources
Goal 3:      Help America Promote Agricultural Production and Biotechnology Exports as America Works to Increase
             Food Security
Goal 4:      Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals




                                       Management’s Discussion and Analysis
                                                        9
Performance Goals, Objectives, and Results
Of the 43 performance measures contained in USDA’s FY 2011 Annual Performance Plan, 33 were met or
exceeded, 9 were unmet, and 1 was deferred. The following Performance Scorecard table, organized by
USDA’s strategic goals and objectives, provides a summary of the Department’s performance results.
Additional analysis of these results can be found in the Annual Performance Report section of this report.

                                        PERFORMANCE SCORECARD FOR FY 2011
               Objectives                                           Annual Performance Goals                                 Result
 Strategic Goal 1: Assist Rural Communities to Create Prosperity So they are self sustaining, repopulating and Economically Thriving
1.1 Enhance Rural Prosperity               1.1.1 Number of jobs created or saved through USDA financing of                 Unmet
                                                   businesses
                                           1.1.2 Number of borrowers/subscribers receiving new or improved                 Unmet
                                                   telecommunication services
1.2   Create Thriving Communities          1.2.1   Number of borrowers/subscribers receiving new or improved service        Exceeded
                                                   from agency funded water facility
                                           1.2.2   Homeownership Opportunities Provided                                      Unmet
                                           1.2.3   Percentage of customers who are provided access to new and/or
                                                   improved essential community facilities
                                                   • Health Facilities                                                      Exceeded
                                                   • Safety Facilities                                                      Exceeded
                                                   • Educational Facilities                                                 Exceeded
                                           1.2.4   Number of borrowers/subscribers receiving new and/or improved            Exceeded
                                                   electric facilities
1.3   Support a Sustainable and            1.3.1   Percentage of beginning farmers, racial and ethnic minority farmers,     Exceeded
      Competitive Agricultural System              and women farmers financed by USDA
                                           1.3.2   Maintain or increase percentage of FSA program delivery applications       Met
                                                   at USDA Service Centers that are Web-enabled
                                           1.3.3   Dollar value of agriculture trade preserved through trade agreement        Met
                                                   negotiation, monitoring, and enforcement non-SPS activities
                                           1.3.4   Value of trade preserved annually through USDA staff interventions       Exceeded
                                                   leading to resolution of barriers created by Sanitary/Phytosanitary
                                                   (SPS) or TBT measures.
                                           1.3.5   Value of FCIC risk protection coverage provided through FCIC             Exceeded
                                                   sponsored insurance
                                           1.3.6   Normalized value of FCIC risk protection coverage provided through         Met
                                                   FCIC sponsored insurance
                                           1.3.7   Percent of industry compliance with the Packers Stockyards Act            Unmet
   Strategic Goal 2: Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made More Resilient to
                                      Climate Change, While Enhancing Our Water Resources
2.1 Restore and Conserve the Nation’s      2.1.1 CRP restored wetland acreage                                        Exceeded
      Forests, Farms, Ranches, and
      Grasslands                           2.1.2 CTA: Cropland with conservation applied to improve soil quality         Met

                                           2.1.3   EQIP: Cropland with conservation plans applied to improve soil quality     Met

                                           2.1.4   CTA: Grazing land and forest land with conservation applied to protect     Met
                                                   and improve the resource base
                                           2.1.5   EQIP: Grazing land and forest land with conservation plans applied to      Met
                                                   protect and improve the resource base
                                           2.1.6   FRPP: Prime, unique, or important farmland protected from conversion     Exceeded
                                                   to nonagricultural uses by conservation easements




                                        Management’s Discussion and Analysis
                                                         10
                                            PERFORMANCE SCORECARD FOR FY 2011
               Objectives                                              Annual Performance Goals                                     Result
                                              2.1.7   WHIP: Non-Federal land with conservation applied to improve fish and         Exceeded
                                                      wildlife habitat quality
                                              2.1.8   Acres protected from conversion through easements and fee-simple              Unmet
                                                      purchases
2.2   Protect and Enhance America’s           2.2.1   CTA: Comprehensive nutrient management plans applied                           Met
      Water Resources
                                              2.2.2   EQIP: Comprehensive nutrient management plans applied                          Met

                                              2.2.3   CTA: Priority landscapes with high impact targeted conservation                Met
                                                      practices applied to improve water quality
                                              2.2.4   WRP: Wetlands created, restored or enhanced                                    Met
                                              2.2.5   Acres of HIT practices implemented on NFS and private lands in priority       Unmet
                                                      landscapes to protect clean, abundant water
                                              2.2.6   Annual economic contribution of recreation on NFS lands
                                                                                                                                     Met
2.3   Reduce Risk from Catastrophic           2.3.1   Acres of WUI fuels treated to reduce the risk of catastrophic fire             Met
      Wildfire and Restore Fire to its        2.3.2   Percentage of acres treated in the WUI that have been identified in           Unmet
      Appropriate Place on the Landscape              Community Wildfire Protection Plans
                                              2.3.3   Cumulative Acres in NFS that are in a desired condition relative to fire       Met
                                                      regime
   Strategic Goal 3: Help America promote Agriculutral Production and Biotechnology Exports as America Works to Increase Food
                                                             Security
3.1 Enhance America's Ability to Develop 3.1.1 Cumulative number of genetically engineered plant lines reviewed by    Exceeded
      and Trade Agricultural Products             USDA and found safe for use in the environment
      Derived from New Technologies
             Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals
4.1   Increase Access to Nutritious Foods   4.1.1 Participation levels for the major Federal nutrition assistance program:           Met
                                                    Supplemental Nutrition Assistance Program average (monthly)
                                                    participation
                                            4.1.2 Improve SNAP payment accuracy rate                                               Deferred
                                            4.1.3 Participation levels for the major Federal nutrition assistance programs
                                                    • National School Lunch Program                                                  Met
                                                    • School Breakfast Program                                                       Met
                                            4.1.4 Participation levels for the major Federal nutrition assistance programs:          Met
                                                    WIC Program
4.2   Promote Healthy Diet and Physical       4.2.1   Application and usage level of nutrition guidance tools(billions of pieces    Unmet
      Activity Behavior                               of nutrition guidance distributed) Baseline 2006 = 1.5
4.3   Protect Public Health by Ensuring       4.3.1   Reduce overall public exposure to Salmonella from broiler carcasses           Unmet
      Food is Safe
                                              4.3.2   Reduce total illnesses from all regulated products                             Met
                                              4.3.3   Percent of establishments with a functional food defense plan                Exceeded
                                                      • Large Establishment
                                                      • Small Establishment
                                                      • Very Small Establishment

4.4   Protect Agricultural Health by          4.4.1   Value of damage prevented and mitigated annually as a result of                Met
      Minimizing Major Diseases and Pests             selected plant and animal health monitoring and surveillance efforts
      Ensuring Access to Safe, Plentiful,
      and Nutritious Food




                                          Management’s Discussion and Analysis
                                                           11
ACTIONS ON UNMET AND DEFERRED GOALS
USDA continuously works to improve its performance across all of its strategic goals and objectives.
Sometimes circumstances arise that result in the Department falling short of its goals. At other times, the
Department consciously alters its programmatic approach to enhance its service to the public. This may
result in a specific performance goal becoming a less effective indicator of real progress.
The Annual Performance Report section of this report offers further discussion of the Department’s actions
on its goals, objectives, and performance measures.

Future Demands, Risks, Uncertainties, Events, Conditions, and Trends
Farmers and food companies operate in highly competitive markets, both domestically and internationally.
Rapid shifts in consumer demands associated with quality, convenience, taste, and nutrition dictate that
farming and marketing infrastructures become more fluid and responsive.
National security is a significant, ongoing priority for the Department. USDA is working with the U.S.
Department of Homeland Security to help protect agriculture from intentional and accidental acts that
might impact America’s food supply or natural resources.
External factors that challenge USDA’s ability to achieve its goals include:
• Weather-related hardships and other uncontrollable events domestically and abroad;
• Domestic and foreign macroeconomic factors, including consumer purchasing power, the strength of
   the U.S. dollar, and political changes abroad that could impact domestic and global markets greatly at
   any time;
• Sharp fluctuations in farm prices, interest rates, and unemployment that could impact the ability of
   farmers, other rural residents, communities, and businesses to qualify for credit and manage their debts;
• The impact of future economic conditions and actions by a variety of Federal, State, and local
   Governments that could influence the sustainability of rural infrastructure;
• The increased movement of people and goods, which provides the opportunity for crop and animal pests
   and diseases, such as avian influenza and bovine spongiform encephalopathy, to move quickly across
   national and foreign boundaries;
• Potential exposure to hazardous substances, which may threaten human health and the environment,
   and the ability of the public and private sectors to collaborate effectively on food safety, security, and
   related emergency preparedness efforts;
• The risk of catastrophic fire, depending on weather, drought conditions, and the expanding number of
   communities in the wildland-urban interface; and
• Efforts to reduce hunger and improve dietary behaviors depend on strong coordination between USDA
   and a wide array of Federal, State, and local partners.
PRIORITY GOALS
As part of the FY 2011 budget process, leaders of the largest Federal agencies identified a small number of
near-term, ambitious, outcome-focused priority goals. These are detailed in the President’s FY 2011 budget.
Each priority goal is important to the public and focuses on clear, measureable results.
Goal 1: By the end of 2011, reduce non-tariff trade barriers for 5 major markets and increase agriculture
exports in those markets by $2 billion. USDA exceeded its priority goal for trade by working with the U.S.
Trade Representative and other partners to reduce trade barriers in 9 major markets, facilitating $1.03
billion in additional trade for FY 2010. FY 2011 trade data, available in mid-November 2011, are expected
to show that the Department significantly exceeded its $2 billion goal. Achievements included the lifting of



                                Management’s Discussion and Analysis
                                                 12
import bans, favorable decisions from international bodies on pesticide residues and biotech products, and
USDA continuing to support grant proposals for resolution of technical trade issues.
Goal 2: Increase the average number of provinces in Afghanistan that are deemed “Generally Food Secure”
from an annual average of 11 in 2008 to an annual average of 14 in 2011, in support of the President’s
Afghanistan and Pakistan Strategy. As a result, 41 percent of Afghanistan’s provinces will be food secure.
With an average of 16 provinces considered food secure in 2011, USDA reached the target for this priority
goal. USDA made a positive impact in Afghanistan by training and assisting 25,261 Afghan farmers,
exceeding the milestone of 20,000 farmers by June 2011. USDA built capacity within the Afghan
Agriculture Ministry by working with Afghan officials responsible for 79 Districts, exceeding the milestone
of 70 Districts.
Goal 3: By the end of 2011, accelerate the protection of clean, abundant water resources by implementing
high impact targeted (HIT) practices on 6 million acres of national forest and private working lands in
priority watersheds. USDA exceeded this priority goal by implementing HIT practices on 6.7 million acres
by the end of FY 2011.
Goal 4: Strengthen USDA’s biotechnology regulatory program by enhancing compliance and improving the
petition process for nonregulated status, while working toward the prevention of unauthorized releases. The
Department has met or exceeded five of six performance metric targets for this goal. Accomplishments
included publishing (cumulatively) 15 determinations on biotechnology petitions in the Federal Register
between FY 2007 and FY 2011, including 6 in FY 2011, and conducting 828 biotechnology compliance
inspections in FY 2011. USDA strengthened the biotechnology compliance program by enrolling a total of
18 companies in the Biotechnology Quality Management System (BQMS) program, falling slightly short of
the goal of 20 companies after 2 companies withdrew. The 18 enrolled entities account for more than 90
percent of all notifications and permits processed by the Department. In addition, USDA conducted a
process improvement review for the petition review function, and anticipates implementing changes based
on the findings from the review in FY 2012. Also in FY 2011, the Department initiated a National
Environmental Protection Act pilot project to test new approaches to developing environmental documents
and how these approaches improve the quality, timeliness, and cost of the process.
Goal 5: By 2011, partner with local schools, propose national standards and take other actions that will
result in improved quality of food sold in schools throughout the school day. USDA exceeded its key target
to expand the number of schools in the HealthierUS School Challenge. As of September 30, 2011, there
were 1,631 certified schools, well above the target of 1,350. These schools must meet rigorous standards for
the quality of the food they offer at school. USDA is updating nutrition standards for Federally-subsidized
school meals to ensure consistency with the Dietary Guidelines for Americans. In January 2011, the
Department published a proposed rule to update school meals nutrition standards based on IOM
recommendations.
Goal 6: By the end of 2011, reduce the number of households with children who experience very low food
security by 100,000. USDA’s indicators suggest it did not achieve the target of 100,000 fewer children with
very low food security. The number of households with low food security among children is estimated at
434,000, while the fourth quarter FY 2011 target was 350,000. Annual survey data for 2010, however, show
a lower prevalence of very low food security among children than predicted by the quarterly estimates. Since
the quarterly estimates are based only on changes in unemployment and food prices, this difference may
show the positive impact of nutrition assistance programs in addressing food insecurity. In addition, Since
there is a lag in data availability, USDA will not be in a position to definitively report on whether the agency
achieved its targets until annual survey data for 2011 are available. The Department successfully met all 11
milestones for this goal. Accomplishments include awarding Hunger Free Community Grants and
launching a partnership to end child hunger. USDA also strengthened the Summer Food Service Program


                                Management’s Discussion and Analysis
                                                 13
through incentives to extend the duration of program operations, funding for enrichment activities at
summer sites, non-congregate meals-on-wheels in rural areas, and “backpack” food packages for
consumption over weekends.
Goal 7: By the end of calendar year 2011, evaluate USDA-supported strategies that made healthy food
available to low-income Americans to demonstrate private and public sector efforts that can increase the
availability of healthy foods. USDA is on target to achieve the priority goal on healthy and affordable food.
USDA is completing a Healthy Food Access Report that evaluates food access strategies.
Goal 8: Reduce the case rate due to Salmonella in Food Safety Inspection Service (FSIS)-regulated products
to 5.3 cases per 100,000. Compared to the baseline period, this represents a reduction of approximately
22,600 illnesses, and an illness-cost reduction of $404 million.
• During the period of time it spent working on the Food Safety Priority Goal, FSIS attained the
    majority of its Priority Goal milestones. This effort resulted in advancements in the fight against
    Salmonella illnesses. FSIS implemented the Salmonella Initiative Program in establishments, published a
    Federal Register Notice on the program, published tighter performance standards for Salmonella, began
    phased-in implementation of a new Public Health Information System (PHIS), and trained personnel
    on this system, and began conducting baseline studies relating to Salmonella prevalence on hogs, chicken
    parts, and pre-pasteurized egg products. USDA and the U.S. Department of Health and Human
    Services also jointly launched a national multimedia campaign, including national television ads by the
    Ad Council, to help families prevent foodborne illness.
•   Despite these efforts, many of which are longer-term in nature, the third-quarter FY 2011 target for
    reducing Salmonella was unmet. U.S. Centers for Disease Control (CDC) data lag real time by at least
    one full fiscal year quarter. CDC reports a case rate of 6.28 cases of Salmonella per 100,000 people as
    compared to a goal of 5.32 cases. Consequently, until early CY 2012, FSIS will not be in a position to
    definitively report on whether FSIS has achieved its FY 2011 Food Safety Priority Goal.
Goal 9: By 2011, increase the prosperity of rural communities by concentrating and strategically investing in
8-10 regions, resulting in the creation of strong local and regional economies, with a particular emphasis on
food systems, renewable energy, broadband-based economies, and rural recreation. In FY 2011, USDA
made great strides through this goal to foster, develop and sustain innovation and entrepreneurship in rural
and urban economies. The Department developed a portfolio of targeted regional innovation projects, all
derived from the Rural Business Opportunity Grant (RBOG) program. The regional projects are in
California, Iowa, North Dakota, South Carolina, the Pacific Northwest, Vermont, and tribal lands in
Washington State. Accomplishments of the regional projects include:
• California - expanding rural-urban collaboration for movement of farm goods and biofuels and related
    infrastructure deployment;
• Iowa - providing 1-year business training for new food producer businesses;
• North Dakota - engaging more than 400 people in community and economic development to sustain
    and empower a rural network of community leaders;
• South Carolina - increasing the number of agribusiness projects that have considered marketing in the
    targeted region;
• Pacific Northwest - increasing connections between producers, consumers, and emergency food
    assistance;
• Vermont – developing links with other programs to address goat milk producer’s needs; and
• Washington tribal lands - completing a draft feasibility study for the use of woody biomass in the
    Quinault Indian Nation.



                                Management’s Discussion and Analysis
                                                 14
Financial Statement Highlights
Budgetary Resources
USDA receives most of its funding from appropriations authorized by Congress and administered by the
U.S. Department of the Treasury. Total budgetary resources consist of the balance at the beginning of the
year, appropriations received during the year, spending authority from offsetting collections and other
budgetary resources. Total budgetary resources were $214.4 billion for FY 2011 compared to $225.3 billion
in FY 2010, a decrease of $10.9 billion.
The unobligated balance brought forward including recoveries of prior year unpaid obligations decreased
$0.9 billion, budget authority net of transfers and resources temporarily not available decreased $10.2 billion
and budgetary resources permanently not available decreased $0.2 billion.
                                                         %      Obligations Incurred And Net Outlays
                                 2011        2010      Change
                                                     Obligations incurred decreased $5 billion in FY 2011.
 Total Budgetary               $214,472    $225,385     -5%
 Resources                                           This decrease is primarily due to a $10.5 billion
 Obligations Incurred $183,630  $188,668    -3%      decrease at RD for the American Recovery and
 Net Outlays          $145,505  $135,634     7%      Reinvestment Act (ARRA); $2.3 billion decrease at
 Data in millions
                                                     CCC primarily for the Conservation Reserve and
                                                     Commodity Purchase Programs; $1.8 billion decrease
at FSA primarily for the Disaster Trust Fund, Agricultural Disaster Transition Assistance Recovery Act
Fund, and the Supplemental Assistance Fund offset by a $8 billion increase at FNS for the Commodity
Assistance Program, the Supplemental Nutrition and Assistance Program, and the Women, Infants and
Children Program; and $2.7 billion increase for indemnities at RMA.
Net Outlays increased $9.8 billion in FY 2011. This increase is primarily due to a $8.3 billion increase at
FNS for the Commodity Assistance Program, the Supplemental Nutrition and Assistance Program, and the
Women, Infants and Children Program; $1.6 billion increase at RMA for indemnities paid; $1.3 billion
increase at RD primarily for Distance Learning, Telemedicine and Broadband Programs offset by a $1.4
billion decrease at FSA primarily for the Disaster Trust Fund, Agricultural Disaster Transition Assistance
Recovery Act Fund, and the Supplemental Assistance Fund; and $1.1 billion decrease at CCC for the
Average Crop Revenue Election (ACRE), and Counter Cyclical programs.
BALANCE SHEET
Condensed Balance Sheet Data
                                                                        FY 2011     FY 2010    % CHANGE
                Fund Balance with Treasury                              $74,126      $75,805           -2%
                Accounts Receivable, Net                                  8,225        7,608           8%
                Direct Loan and Loan Guarantees, Net                     92,042       89,405           3%
                General Property, Plant and Equipment, Net                3,050        2,964           3%
                Other                                                       685          626           9%
                Total Assets                                            178,128      176,408           1%
                Debt                                                     89,583       87,915           2%
                Loan Guarantee Liability                                  3,621        2,857           27%
                Benefits Due and Payable                                  3,500        3,356            4%
                Other                                                    39,548       34,796           14%




                                          Management’s Discussion and Analysis
                                                           15
                                                                 FY 2011      FY 2010     % CHANGE
              Total Liabilities                                  136,252       128,924          6%
              Unexpended Appropriations                           30,469        36,261        -16%
              Cumulative Results of Operations                    11,407        11,223          2%
              Total Net Position                                  41,876        47,484        -12%
              Total Liabilities and Net Position                $178,128      $176,408          1%



AS OF SEPTEMBER 30, 2011 AND 2010
(in millions)
Total Assets
Total assets increased $1.7 billion in FY 2011. This increase is primarily due to an increase in Direct Loan
and Loan Guarantees, Net of $2.6 billion; and an increase in Accounts Receivable, Net of $0.6 billion;
offset by a decrease in Fund Balance with Treasury of $1.6 billion.
Direct Loan and Loan Guarantees, Net is the single largest asset on the USDA Balance Sheet. RD offers
both direct and guaranteed loan products for rural housing and rural business infrastructure. These represent
87 percent of the total USDA loan programs. Loan programs administered by the FSA represent 8 percent
of the total. FSA provides support to farmers who are temporarily unable to obtain private, commercial
credit. The remaining 5 percent represents commodity loans and credit programs administered by CCC.
CCC’s loans are used to improve economic stability and provide an adequate supply of agricultural
commodities. CCC credit programs provide foreign food assistance, expand foreign markets and provide
domestic low-cost financing to protect farm income and prices.
Total Liabilities
Total liabilities increased $7.3 billion in FY 2011. This increase is primarily due to a $1.6 billion increase in
Debt, a $0.7 billion increase in Loan Guarantee Liability, and a $4.7 billion increase in other liabilities.
Debt represents amounts owed primarily to Treasury by CCC and RD. For CCC, the debt primarily
represents financing to support Direct and Counter Cyclical, Crop Disaster and Loan Deficiency programs.
For RD, the debt primarily represents financing to support Electric and Housing loan programs.
Total Net Position
Total net position decreased $5.6 billion in FY 2011. This decrease is due to a decrease in unexpended
appropriations of $5.7 billion offset by an increase in cumulative results of operations of $0.1 billion.




                                      Management’s Discussion and Analysis
                                                       16
NET COST OF OPERATIONS
Condensed Statement Of Net Cost
For the Years Ended September 30, 2011 and 2010
(in millions)
                                                                                                                %
                                                                                      FY 2011      FY 2010    CHANGE
                    Goal 1: Assist Rural Communities to Create Prosperity so They
                    Are Self-Sustaining, Repopulating, and Economically Thriving:     $27,948     $20,611        36%
                    Goal 2: Ensure Our National Forests and Private Working Lands
                    Are Conserved, Restored, and Made More Resilient to Climate
                    Change, While Enhancing Our Water Resources:                       12,128      11,134            9%
                    Goal 3: Help America Promote Agricultural Production and
                    Biotechnology Exports as America Works to Increase Food
                    Security:                                                           3,103       2,856            9%
                    Goal 4: Ensure that All of America’s Children Have Access to
                    Safe, Nutritious, and Balanced Meals:                             105,668      97,837            8%
                    Net Cost of Operations                                           $148,847    $132,438        12%


Net Cost of Operations
Net cost of operations increased $16.4 billion in FY 2011. This increase is primarily due to an increase at
RMA of $7.6 billion as a direct result of the estimated higher indemnities for reinsurance year 2011 due to
the combination of increased premium and significant weather conditions; and an increase at FNS of $7.9
billion due to increased costs and higher participation in the Supplemental Nutrition and Assistance
Program resulting from higher unemployment and natural disasters.
Stewardship Investments
Stewardship investments are substantial investments made by the Federal Government for the benefit of the
Nation but are not physical assets owned by the Federal Government. When incurred, they are treated as
expenses in determining the net cost of operations. However, these items merit special treatment so that
users of Federal financial reports know the extent of investments that are made for long-term benefit. Such
investments are measured in terms of expenses incurred for non-Federal physical property, human capital,
and research and development.
                                                               %           Limitations of the Financial Statements
                                   2011          2010        Change
 Non-Federal Physical               $76           $77         -1%
                                                                           The principal financial statements have been prepared
 Property                                                                  to report the financial position and results of
 Human Capital                      $623         $652           -4%        operations of the entity, pursuant to the requirements
 Research and                      $2,252       $2,307          -2%        of 31 U.S.C. 3515(b).
 Development
 Data in millions                                     While the statements have been prepared from the
                                                      books and records of the entity in accordance with
generally accepted accounting principles for Federal entities and the formats prescribed by U.S. Office of
Management and Budget (OMB), the statements are in addition to the financial reports used to monitor
and control budgetary resources, which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.



                                              Management’s Discussion and Analysis
                                                               17
Financial Management Systems
The Financial Management Modernization Initiative (FMMI) Project was initiated to modernize USDA’s
outdated financial system technology. FMMI is replacing the Corporate Financial Management System
(CFMS), including the mainframe-based Foundation Financial Information System (FFIS), with Systems,
Applications, and Products Enterprise Resource Planning 6.0, migrating the current distributed, multi-
instance mainframe system to a Federally compliant, consolidated, single-instance Web-based system.
FMMI is operational and nearly complete. It has resulted in the following accomplishments:
• Continued implementation of a core financial system to replace USDA’s 9 general ledger systems;
• Has been implemented in 25 of the 29 agencies and offices that form the Department;
• Began production of a data warehouse for financial statement, and standard and ad hoc reporting; and
• Stayed on track for schedule, cost, and performance.
FMMI has the following key attributes:
• Integration with eGovernment Travel Services, ePayroll, Grants.gov, and eLoans; corporate solutions
  for which results must be reflected in the budgetary and general ledger accounts of the Department
  (e.g., asset management and procurement); and program-specific systems that support the general
  ledger;
• Integration with performance management and budgeting, allowing USDA to meet management’s
  objects and Government and Performance Results Act requirements; and
• Compliance with Federal Financial Management Improvement Act (FFMIA), including Federal
  financial management system requirements, applicable Federal accounting standards, and U.S.
  Government Standard General Ledger at the transaction level.
The FMMI project addresses the need for improved financial performance through a modern financial
system that provides maximum support to the mission and USDA’s financial objectives, including:
• Ensuring that financial management systems support data integrity, reliability, and consistency across
    the Department and for the community of direct users;
• Providing online, on-demand querying capabilities and access to reports for financial managers and,
    ultimately, program managers (new users);
• Ensuring that information and reports are clearly communicated and organized in a format that
    promotes understanding, and is directly relevant to the needs of end users;
• Providing technology that supports future growth and changes in requirements;
• Promoting USDA’s credibility and trust with Congress, the Executive Office of the President, and the
    public by demonstrating full compliance with financial laws, regulations, and Federal financial
    standards, including maintaining an unqualified audit opinion;
• Ensuring that the investment advances the Department’s strategic plan, including its responsiveness to
    the fulfillment of mandates such as Federal core financial management system requirements;
• Demonstrating the strategic use of USDA’s human capital by supporting the realignment from
    internally focused positions to decision-support or citizen-facing roles, and enhancing workplace
    desirability for current and future financial employees;
• Demonstrating the strategic use of the Department’s information technology (IT) by leveraging IT
    within USDA and across the Government to facilitate streamlining and unification of services; and
• Demonstrating good stewardship of public funds by securing the best performance and highest measure
    of accountability in the use of taxpayer dollars.




                               Management’s Discussion and Analysis
                                                18
Systems, Controls, and Legal Compliance
Management Assurances
STATEMENT OF ASSURANCE
The U.S. Department of Agriculture (USDA) is providing a qualified statement of
assurance that its management has established and maintained effective internal
controls over financial reporting and financial management systems. These controls
meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA), with
the exception of two material weaknesses in internal controls over financial
reporting, and one financial system non-conformance. Management is providing
reasonable assurance that the internal controls over operations are effective. The
details of the exceptions are provided in the FMFIA and the Federal Financial Management Improvement
Act sections of this report.
USDA assessed its financial management systems and internal controls over the effectiveness and efficiency
of operations and compliance with applicable laws and regulations as of September 30, 2011, and financial
reporting as of June 30, 2011. The assessment included the safeguarding assets and compliance with
applicable laws and regulations, in accordance with the requirements of Office of Management and Budget
(OMB) Circular A-123, “Management’s Responsibility for Internal Control.”
Other than the exceptions noted, USDA financial management systems conform substantially with the
objectives of FMFIA, internal controls were operating effectively, and no other material weaknesses were
found in the design or operation of the internal control over 1) the effectiveness and efficiency of operations
and compliance with applicable laws and regulations as of September 30, 2011, and 2) financial reporting as
of June 30, 2011.




Thomas J. Vilsack
Secretary of Agriculture
November 15, 2011




                                Management’s Discussion and Analysis
                                                 19
Federal Managers’ Financial Integrity Act Report on Management Control
BACKGROUND
FMFIA requires ongoing evaluations of internal control and financial management systems. These
evaluations lead to an annual statement of assurance that:
• Obligations and costs comply with applicable laws and regulations;
• Federal assets are safeguarded against fraud, waste, and mismanagement;
• Transactions are accounted for and properly recorded; and
• Financial management systems conform to standards, principles, and other requirements to ensure that
    Federal managers have timely, relevant, and consistent financial information for decision-making
    purposes.
USDA annually evaluates its internal controls over financial reporting in accordance with OMB Circular A-
123, “Management’s Responsibility for Internal Control,” Appendix A, “Internal Control Over Financial
Reporting” (A-123, Appendix A).
The Department operates a comprehensive internal control program. This program ensures compliance
with the requirements of FMFIA and other laws and OMB Circulars A–123, Appendix A, and A–127,
“Financial Management Systems.” All USDA managers must ensure that their programs operate efficiently
and effectively, and comply with relevant laws. They must also ensure that financial management systems
conform to applicable laws, standards, principles, and related requirements. In conjunction with the Office
of Inspector General (OIG) and the Government Accountability Office (GAO), the Department’s
management works aggressively to determine the root causes of its material weaknesses so that it can
direct resources to focus on their remediation.
USDA remains committed to reducing and eliminating the risks associated with its deficiencies. It also
strives to efficiently and effectively operate its programs in compliance with FMFIA.
FY 2011 Results
USDA has two existing material weaknesses: Information Technology and Financial Reporting –
Unliquidated Obligations. There is one system non-conformance: Funds Control Management. Thus, the
Secretary’s Statement of Assurance provides qualified assurance that USDA’s system of internal controls
complies with FMFIA objectives. The following exhibit summarizes the results reported in USDA’s
Consolidated Financial Statements Audit Report.
Exhibit 1: Summary of Financial Statement Audit

                 Audit Opinion                                             Unqualified
                  Restatement                                                  No
                                                  Beginning                                                Ending
               Material Weakness                   Balance    New   Resolved   Consolidated   Reassessed   Balance
 Improvement Needed in Overall Financial             1                                                        1
 Management
 Improvements Needed in Information Technology       1                                                        1
 Security and Controls
 TOTAL MATERIAL WEAKNES S ES                         2                                                        2


The following exhibit lists USDA’s material weaknesses and the financial system non-conformance as
related to management’s assurance for FMFIA and the certification for FFMIA.



                                      Management’s Discussion and Analysis
                                                       20
Exhibit 2: Summary of Management Assurances

                                  Effectiveness of Internal Control Over Financial Reporting (FMFIA § 2)
            Statement of Assurance                                                            Qualified
                                                    Beginning                                                                          Ending
               Material Weakness                     Balance          New         Resolved      Consolidated        Reassessed         Balance
 Information Technology                                  1                                                                                1
 Financial Reporting – Unliquidated                      1                                                                                1
 Obligations
 TOTAL MATERIAL WEAKNESSES                               2                                                                                2
                                       Effectiveness of Internal Control Over Operations (FMFIA § 2)
            Statement of Assurance                                                          Unqualified
                                                    Beginning                                                                          Ending
               Material Weakness                     Balance          New         Resolved      Consolidated        Reassessed         Balance
 TOTAL MATERIAL WEAKNESSES                               0              0                                                                 0
                               Conformance with Financial Management System Requirements (FMFIA § 4)
            Statement of Assurance                                                            Qualified
                                                    Beginning                                                                          Ending
             Material Weakness                       Balance          New         Resolved      Consolidated        Reassessed         Balance
 Funds Control Management                               1                                                                                 1
 TOTAL NON-CONFORMANCE                                  1                                                                                 1
                                Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                     Agency                                         Auditor
        Overall Substantial Compliance                                No                                               No
 1. System Requirements                                               No                                               No
 2. Accounting Standards                                              No                                               No
 3. United States Standard General Ledger at                          No                                               No
    Transaction Level
 4. Information security policies, procedures,                        No                                               No
    and practices


Summary of Outstanding Material Weaknesses
 Material Weakness        1. USDA Information Technology (IT)                Overall Estimated Completion Date              FY 2012
 Existing
                          Internal control design and operating effectiveness deficiencies occurred in four areas: logical access
                          controls/personnel security, configuration management, physical access and environmental protection, and
                          contingency planning. These deficiencies represent an overall IT material weakness.
 FY 2011 Accomplishments:                                                   FY 2012 Planned Actions:
 • Continued implementation of Homeland Security Presidential               • Continue development of IT Security Architecture that
     Directive 12 (HSPD-12) Identity, Credential, and Access                    incorporates automated tools for network monitoring and
     Management (ICAM) initiatives to provide improved logical and              situational awareness;
     physical access control to USDA IT systems and facilities;             •   Implement the continuous monitoring and continuous
 •   Completed majority of the ICAM functional requirements cases;              assessment initiatives in accordance with the National Institute
 •   Continued implementation of Security Operations Centers to                 of Standards and Technology (NIST);
     increase real-time operational security monitoring of USDA             •   Continue outreach and education programs to ensure USDA’s
     networks;                                                                  Chief Information Officers (CIOs) are fully informed and
 •   Deployed 11 remote network monitoring sites;                               participating in OCIO IT Security initiatives;
 •   Implemented Endpoint Security Whole Desk Encryption to 99              •   Continue to improve the security governance process by



                                         Management’s Discussion and Analysis
                                                          21
Material Weakness       1. USDA Information Technology (IT)               Overall Estimated Completion Date          FY 2012
Existing
                        Internal control design and operating effectiveness deficiencies occurred in four areas: logical access
                        controls/personnel security, configuration management, physical access and environmental protection, and
                        contingency planning. These deficiencies represent an overall IT material weakness.
FY 2011 Accomplishments:                                               FY 2012 Planned Actions:
    percent of its end-user systems and servers;                           further implementation of the Risk Management Framework as
• Monitored agency-wide Federal Desktop Core Configuration                 outlined in NIST security requirements;
    compliance and software patch installation;                        • Continue monitoring, investigating, reporting of compliance
• Institutionalized the Risk Management Framework, which provides          and remediation of non-compliance to Department policies,
    increased real-time security control assessment and continuous         guidance, processes, and procedures;
    monitoring; and                                                    • Improve agency oversight and compliance with USDA and
• Ensured key IT security controls are tested annually for all             NIST security requirements; and
    systems.                                                           • Reduce the security risks associated with USDA IT Systems.


Material Weakness       2. Financial Reporting – Unliquidated         Overall Estimated Completion Date               FY 2012
Existing                Obligations

                        Lack of consistent review and follow-up on unliquidated obligations (ULO). (Department and NRCS)
FY 2011 Accomplishments:                                              FY 2012 Planned Actions:
Department:                                                           • Department :
• Worked with USDA agencies to complete cleanup of obligations        • Draft memorandum to obtain leadership commitment to properly
  recorded in the Foundation Financial Information System (FFIS)        monitor and review obligation balances from the Office of the
  and the Financial Management Modernization Initiative (FMMI);         Secretary to all USDA Senior Executives;
• Reviewed close-out and deobligation procedures for procurements     • Continue working with USDA agencies to complete cleanup of
  recorded in the Integrated Acquisition System (IAS), Greenbook        obligations recorded in FFIS and FMMI; and
  reimbursable agreements, and other interagency obligations to       • Continue monthly review of corrective action status reports on
  ensure timely communication and close-out of obligations;             review of unliquidated obligations under OMB Circular A-123,
• Improved agency monitoring of unliquidated obligations via            Financial Reporting, Appendix A.
  monthly working group meetings;                                     •
• Provided monthly scorecard in the Chief Financial Officer (CFO)     • NRCS:
  Council to track status of unliquidated obligations;                • Increase monitoring and testing of open obligations;
• Distributed ULO aging reports to USDA agencies;
• Reviewed quarterly certifications by agency CFOs; and               • Complete a review of and enhance the OMB Circular A-123,
• Monitored monthly corrective action status reports on review of       Financial Reporting, Appendix A program for open obligations;
  unliquidated obligations under OMB Circular A-123, Financial          unrecorded obligations, and non-referencing transactions and
  Reporting, Appendix A.                                                provide feedback to reporting activities; and
NRCS:                                                                 • Evaluate number and skill of resources at headquarters and
• Created a risk-based statistical sample that segments the             State level to perform required obligation and related accrual
  obligation population, then selected samples for testing and          activities.
  performed testing on a quarterly basis;
• Increased accountability by including an unliquidated obligation
  performance objective in the performance plans of State
  Conservationists;
• Provided training for open obligation reviews that address audit
  findings; and
• Published procedures for fund certification.




                                       Management’s Discussion and Analysis
                                                        22
SUMMARY OF OUTSTANDING SYSTEM NON-CONFORMANCE

 System Non-              1. Funds Control Management                      Overall Estimated Completion Date             FY 2013
 Conformance
 Existing                 System improvements needed in recording obligations at the transactions level. (CCC)
                          Non-compliance with Federal Financial Management Improvement Act of 1996. (NRCS and CCC))
 FY 2011 Accomplishments:                                                  FY 2012 Planned Actions:
 CCC:                                                                      • CCC:
 • Completed transaction level obligations for the Conservation Reserve    • Complete software modifications to program applications to
   Program (CRP), Annual Rental Program as well as additional Farm             send obligation transactions; and
   Program;                                                                • Continue to select and implement software, while migrating to
 • WebBased Supply Chain Management (WBSCM) programs were                      the Department’s enterprise solution under FMMI.
   incorporated into Electronic Funds Management System (eFMS) as          • NRCS:
   those programs were moved from the Processed Commodities                • Hire additional staff with experience in financial statement
   Inventory Management System (PCIMS) to WBSCM. PCIMS is                      preparation and reporting;
   presently being decommissioned; and                                     • Establish controls for the reporting of human capital and
 • Continued to develop the Modernize and Innovate Delivery                    research and development costs as part of Requirement
   Agricultural Systems (MIDAS) project, and ensured that the financial        Supplementary Stewardship information;
   requirements are clearly captured in the design of the system.          •   Perform asset valuation reviews to improve property and
 • NRCS:                                                                       deferred maintenance reporting;
 • Implemented an administrative trainee program to assist a pipeline of   •   Continue improvements regarding stewardship reporting,
   employees in financial management;                                          particularly the condition of closed easements;
 • Deployed detailed procedures and training on obligations;               •   Continue improvements in IT general and application access
   reimbursable agreements, leases, property, and advances;                    controls;
 • Instituted processes to ensure financial statements are reviewed and    •   Continue to evolve a more robust A-123 program; and
   approved by management;                                                 •   Implement an agency wide Compliance Review Program to
 • Worked with OCFO to obtain appropriate posting models for                   ensure compliance with applicable laws, regulations, and
   conservation easements, travel advances to others, cumulative               policies.
   results of operations for non-appropriated fund recoveries of prior     •
   years obligations, and accounts receivable with the public;
 • Implemented an enhanced Office of Management and Budget (OMB)
   Circular A-123, “Management’s Responsibility for Internal Control”
   program
 • Ensured the completeness of unfilled customer order population;
 • Established a robust procedure for monitoring of unliquidated
   obligations; and
 • Made significant improvements to document the completion of
   stewardship land.



Federal Financial Management Improvement Act Report on Financial Management Systems
BACKGROUND
FFMIA is designed to improve financial and program managers’ accountability, provide better information
for decision-making, and improve the efficiency and effectiveness of Federal programs. FFMIA requires
that financial management systems provide reliable, consistent disclosure of financial data in accordance
with generally accepted accounting principles and standards. These systems must also comply substantially
with: 1) Federal Financial Management System requirements; 2) applicable Federal accounting standards;
and 3) the U.S. Standard General Ledger at the transaction level. Additionally, the Federal Information
Security Management Act (FISMA) requires that there be no significant weaknesses in information security
policies, procedures, or practices to be substantially compliant with FFMIA. The following exhibit contains
the outstanding initiatives to achieve compliance.



                                         Management’s Discussion and Analysis
                                                          23
Exhibit 3:    Initiatives To Be Completed

                                                Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                Section of                                                   Target
                             Initiative                                      Non-compliance                             Agency            Completion Date
  Information Technology¹                                            Federal Financial Management System                Multiple              9/30/2012
                                                                     requirements, and Information security              CCC                  3/30/2013
                                                                     policies, procedures, and/or practices.
  Funds Control Management                                           Federal Financial Management System                  CCC                09/30/2012
                                                                     requirements and U.S. Standard
                                                                     General Ledger at the transaction
                                                                     level.
                                                                     Federal Financial Management System                 NRCS                11/30/2013
                                                                     requirements, Federal Accounting                     FAS                 9/30/2012
                                                                     Standards, and U.S. Standard General
                                                                     Ledger at the transaction level.
  ¹ The information technology material weakness, which is reported in the Federal Managers’ Financial Integrity Act Report on Management Control, is
  comprised of four issues: logical access controls/personnel security, configuration management, physical access and environmental protection, and contingency
  planning.

FY 2011 RESULTS
During FY 2011, USDA evaluated its financial management systems to assess substantial compliance with
the act. In assessing FFMIA compliance, the Department considered auditors opinions on component
agencies’ financial statements, and progress made in addressing the material weaknesses identified in the
FY 2010 Performance and Accountability Report (PAR). The Department is not compliant with Federal
Financial Management System requirements, Federal accounting standards, and the standard general ledger
at the transaction level. Additionally, as reported in the FMFIA section of this report, USDA continues to
have weaknesses in information technology controls that result in non-compliance with the FISMA
requirement. As part of USDA’s financial systems strategy, USDA agencies continue working to meet
FFMIA and FISMA objectives.
In FY 2011, FAS identified serious deficiencies in its financial management operations performed by its
service provider. As a result, FAS was unable to assure that its financial management systems provide
reliable, consistent disclosure of financial data in accordance with generally accepted accounting principles
and standards.
The FAS Administrator evaluated alternative financial service providers and selected APHIS as the service
provider. FAS records were transitioned to APHIS in the fourth quarter of 2011. APHIS has begun
performing accounting operations. FAS will appoint a new Chief Financial Officer in the first quarter of
FY 2012. FAS also engaged a team of Government employees supplemented by contract professionals to
establish and document its financial processes. In 2012, FAS will complete a thorough test of the new
procedures to evaluate operational effectiveness.
Forest Service resolved its deficiencies related to IT General Computer Controls to comply with
information security, policies, procedures, and practices.
Federal Financial Management System Requirements
CCC has completed the development of a fully integrated funds control system, the Electronic Funds
Management System (eFMS), within the FSA/CCC core financial management system. This system is
integrated with CCC’s general ledger system at the transaction level. eFMS provides management with
timely information to monitor and control the status of budgetary resources recorded in the general ledger.
Work continues to implement programs into eFMS for full funds control at a transaction level.



                                              Management’s Discussion and Analysis
                                                               24
CCC Legacy Systems
The CCC’s mission critical financial applications are supported in multiple environments including the
mainframe, Web farm, and the AS/400/S36.
The AS400/S36 Operating Systems required to support some of these CCC applications delivered from
this environment are no longer supported by the vendor. The applications run in the S/36 Virtual Machine
environment as a “guest” of the OS/400 operating system, release V4R4. Later releases of the OS/400
operating system do not support the System/36 virtual machine and the S/36 operating system. The AS400
operating system version V4R4 is no longer supported by IBM. The current hardware is no longer
manufactured by IBM. Maintenance of the AS400 hardware is supported through a third-party contractual
agreement. FSA has applied all available patches and a final cumulative patch release to the environment at
the IBM end-of-service period. Even though patches are no longer being provided and applied, the
environment has not experienced exploitations or attacks, and is deemed stable from a performance
perspective.
FY 2011 CCC accomplishments include:
• Posting $9.3 billion in obligations at the transaction level through eFMS. The $9.3 billion represented
   22 programs of which 15 were new. Those new programs included:
• Advances from AMS Section 32;
• Biomass Crop Assistance Program;
• Conservation Reserve Program;
• Food for Progress;
• Food for Education;
•   Food and Nutrition Service’s Emergency Food Assistance Program, Commodity Supplemental Food
    Program and the Nutrition Services Incentives Program;
•   Vessel Loading Observation; and
•   Public Law 480, Title II.
In FY 2012, CCC will work on:
•   Converting more programs into eFMS for transaction level obligations; and
•   Continue development of the Modernize and Innovate the Delivery of Agricultural Systems (MIDAS)
    project and make certain that the financial requirements needed to ensure compliance with FMFIA are
    captured in the software design, including retirement of the CCC Legacy Systems.
NRCS
NRCS has made significant improvements for appropriate posting models for obligation recoveries, bad
debt allowances, advances, and accounts receivables. However, deficiencies have been noted on Information
Security Policies, Procedures, and Practices for lack of anti-virus software on certain servers, employees’
background investigations, conducting vulnerability scanning, and month-to-month remediation of critical
vulnerabilities.
Substantial improvements have been taken regarding the completion of stewardship land as part of financial
reporting. NRCS expects to fully meet the reporting requirements on the condition of stewardship land in
FY 2012, and for deferred maintenance on real property in FY 2013.
NRCS continues working to mitigate auditor-identified deficiencies and substantially comply with FFMIA.
These are the deficiencies found:
• Federal Financial Management System Requirements: NRCS’s systems were unable to :
  − Provide timely extracts for audit purposes;


                               Management’s Discussion and Analysis
                                                25
    −   Allow for the authority beyond 10 years of availability; and
    −   Prevent the recording of invalid upward and downward adjustments
•   Applicable Federal Accounting Standards: Deficiencies on net position balances, obligations recoveries,
    current year activity, obligations incurred, accruals, undelivered orders, leases, real and personal
    property, advances, stewardship reporting and deferred maintenance;
• Information Security Policies Procedures and Practices: Deficiencies in general and application access
    controls; and
• Standard General Ledger at the Transaction Level: Deficiencies in recoveries of prior year obligations
    paid and unpaid.
In FY 2012, NRCS will:
• Improve general and application access controls; and
• Improve stewardship reporting.
In FY 2013, NRCS will:
• Record in accordance with Federal accounting standards;
• Beginning net position balances and current-year activity;
• Obligation recoveries;
• Accruals;
• Obligations;
• Leases;
• Real and personal property;
• Advances;
• Deferred maintenance;
• Comply with the Standard General Ledger posting models; and
• Recoveries of prior obligations paid and unpaid.
ELIMINATING IMPROPER PAYMENTS
The Improper Payments Information Act (IPIA) of 2002 is designed to identify programs susceptible to
significant improper payments and reduce the amount and number of erroneous payments. IPIA’s goal is to
improve the integrity of the government's payments and the efficiency of its programs and activities.
USDA first reported on improper payments in the 2004 Performance and Accountability Report (PAR) by
disclosing error rates and amounts for the Supplemental Nutrition Assistance Program (SNAP) and the
Federal Crop Insurance Corporation Program (FCIC). The Department currently has 16 programs
considered at risk for significant improper payments. A program with significant improper payments has
both a 2.5 percent error rate of the total program outlays and at least $10 million in improper payments.
Measuring and reporting improper payments is mandatory for five of the programs included under the
former Section 57 of OMB Circular A-11, Preparation, Submission, and Execution of the Budget. USDA
identified the additional 11 programs at risk of significant improper payments through the Departmental
risk assessment process. The risk assessment process is used to review USDA programs and activities and
identify those that are susceptible to significant improper payments.
IPIA requires that agencies measure their improper payments annually, establish reduction targets and
corrective action plans and track the results annually to ensure that the corrective actions are effective.
USDA’s Office of the Chief Financial Officer (OCFO) issued specific policy guidance including templates
and timelines for implementing IPIA. USDA continues to make progress in accurately measuring and



                                Management’s Discussion and Analysis
                                                 26
reporting improper payments, developing and implementing corrective actions, and recovering improper
payments.
USDA’s improper payment error rate of 5.37 percent for FY 2011, which is the same error rate reported in
FY 2010. However, due to a $7.1 billion increase (8 percent) in high risk program outlays from FY 2010 to
FY 2011, USDA’s estimated improper payments amount were $5.4 billion for FY 2011, more than the
estimated $5.0 billion in FY 2010. The increase in outlays was largely attributable to the increase in demand
for food and nutrition assistance due to the economic downturn. Also affecting the improper payment error
rate and amount for FY 2011 is the initial reporting of an error rate for the certification component of FNS’
Women, Infants and Children program. The following FY 2011 results demonstrate that progress is being
made to reduce improper payments:
• Seven USDA high-risk programs reported improper payment error rates lower than their FY 2010 error
     rate;
• Four USDA high-risk programs reported error rates below their reduction targets for FY 2011;
• Forest Service’s Wildland Fire Suppression Management Program error rate of 0.00 percent was below
     its target of 0.02 percent and equal to its FY 2010 error rate of 0.00 percent;
• FNS’ SNAP FY 2010 error rate of 3.81 percent, which is reported in FY 2011, was less than its target
     of 4.36 percent and less than its FY 2009 error rate of 4.36 percent, which was reported in FY 2010.
     The SNAP error rate is a historic low for the program. This is the seventh year in a row the program’s
     error rate has been less than 6 percent. SNAP error rates are reported the following year because all data
     are not available to perform the statistical sample before required annual reporting;
• FSA’s Market Assistance Loan Program error rate of 0.52 percent was below its target of 0.81 percent,
     and below its FY 2010 error rate of 0.81 percent;
• FSA’s Noninsured Assistance Program error rate of 8.97 percent was below its FY 2010 error rate of
     11.65 percent;
• FSA’s Direct and Counter-Cyclical Program error rate of 0.05 percent was below its FY 2010 error rate
     of 0.96 percent, and below its target of 0.40 percent; and
• RMA’s FCIP error rate of 4.72 percent was below its FY 2010 error rate of 6.05 percent.
The root causes of improper payments are summarized into the error categories of administrative,
verification, and authentication. Administrative errors relate to the accuracy of the entry, classification, or
processing of information associated with applications, supporting documents, or payments. Verification
errors relate to verifying recipient information such as earnings, income, assets, work status, etc.
Authentication errors relate to authenticating the accuracy of qualifying for program specific requirements,
criteria, or conditions.
For FY 2011, the root causes of USDA improper payments were categorized as:
• Two percent attributable to administrative error;
• Ninety-seven percent attributable to verification error; and
• One percent attributable to authentication error.
Actions taken by USDA during FY 2011 include:
•   Developing and issuing a request for proposal to solicit payment recapture/recovery auditing services
    from a private sector recovery auditing contractor;
•   Revising Departmental High-Dollar Quarterly Report guidance for improper payments identified in
    high-risk programs to provide additional clarification and transparency;
•   Providing semi-annual reporting of additional error measurements for USDA’s high priority programs
    SNAP and National School Lunch Program (NSLP);



                                 Management’s Discussion and Analysis
                                                  27
•   Providing an Annual Accountable Official Report to the USDA Inspector General for the USDA high-
    priority programs (SNAP and NSLP);
•   Providing Departmental improper payments information for the Government-wide
    PaymentAccuracy.gov Web site that includes key indicators and statistics by program; and
•   Completing risk assessments for 46 programs in FY 2011 as scheduled on a 3-year cycle. No new
    programs were declared high risk as a result of the risk assessments.
USDA’s goals are to achieve reduction of improper payments and implement a Payment
Recapture/Recovery Auditing (PRRA) initiative during FY 2012. In addition to meeting the requirements
of the IPIA, USDA will continue to implement the requirements of Executive Order 13520 on reducing
improper payments, Presidential Memorandums on enhancing payment accuracy and recapturing improper
payments, and the Improper Payments Elimination and Recovery Act of 2010 (IPERA).
USDA’s actions planned for FY 2012 include:
• Awarding a Departmental contract and implementing initiative for payment recapture/recovery auditing
    services to address IPERA requirements for identifying, preventing and recovering overpayments;
• Developing and implementing policy based on OMB guidance to be provided in FY 2012 regarding the
    “Do Not Pay List” and the GOVerify portal;
• Develop and implementing policies, controls, procedures, and checklists at appropriate levels to reduce
    improper payments;
• Creating aggressive correction plans that target the verification, authentification, and administrative root
    causes of errors and address internal control issues for each program;
• Providing training to field personnel and cooperative partners that address specific issues found in
    internal controls, control procedures, and the potential risks of noncompliance;
• Sustaining accountability at all levels by incorporating the employee’s individual results into their annual
    performance evaluations;
• Providing grants and technical assistance to State agencies aimed at simplifying the application and
    eligibility determination systems of SNAP; and
• Participating in interagency workgroups to assist OMB in developing Government-wide guidance for
    implementing initiatives to reduce, prevent, and recover improper payments and recover overpayments.




                                Management’s Discussion and Analysis
                                                 28
                                   Annual Performance Report


2.   Annual Performance Report




T
     he mission of the United States Department of Agriculture (USDA) is to provide leadership on food,
     agriculture, natural resources, and related issues based on sound public policy, the best available science,
     and efficient management.
The Department has established strategic goals to fulfill this vital mission. The goals were introduced in
USDA’s Strategic Plan Fiscal Year 2010-2015 (usda.gov, see “About USDA”). The goals are:
1. To Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating, and
   Economically Thriving;
2. To Ensure Our National Forests and Private Working Lands are Conserved, Restored and Made More
   Resilient to Climate Change, While Enhancing Our Water Resources;
3. To Promote Agricultural Production and Biotechnology Exports as America Works to Increase Food
   Security; and
4. To Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals.
This Annual Performance Report section of the Performance and Accountability Report (PAR) is
organized by the Department’s strategic goals. The goals are then divided by objectives, which are supported
by performance measures. These measures track activities and determine if a program met targets for the
fiscal year (FY) just ended that were established at the beginning of the year and published in USDA’s
Annual Performance Plan. When performance targets are unmet, an explanation is provided.

Strategic Goal 1:          Assist Rural Communities to Create Prosperity So they are Self-Sustaining,
                           Repopulating, and Economically Thriving
OBJECTIVE 1.1: ENHANCE RURAL PROSPERITY
1.1.1 Number of jobs created or saved through USDA financing of businesses
Overview
USDA programs help finance rural businesses and promote opportunities for economic growth as measured
by jobs created and saved. The jobs measure is comprised of several elements, which are described below.
The Department provides capital to enable rural businesses to participate in the global economy. A primary
program furthering this goal is the Business and Industry Guaranteed Loan Program (B&I). B&I provides
loan guarantees to private sector financial institutions to improve, develop, or finance business, industry, and
employment, and to improve the economic and environmental climate in rural communities. This process is
achieved by bolstering the existing private credit structure through the guarantee of quality loans, which
provide lasting community benefits. During FY 2011, B&I obligated approximately $1.39 billion in
guaranteed loans, and assisted in the creation of approximately 16,655 jobs in a struggling economy. These
loans assisted 826 small businesses.
USDA operates a variety of Rural Development grant programs that provided funding to the neediest rural
communities to assist in the development of utility infrastructure and housing, and to attract new businesses.


                                          Annual Performance Report
                                                      29
Some Rural Development grants can fund small targeted job-training programs. In addition to the Rural
Business Programs, the Cooperative Programs offer a full menu of economic development loan and grant
options. These options are delivered through cooperatives, non-profit organizations, institutions of higher
learning, local and tribal governments, and other rural business and economic development stakeholders.
The Rural Energy for America Program (REAP) provides grants and loan guarantees to agricultural
producers and rural small businesses to help them purchase and install renewable energy systems and energy
efficiency improvements. These grants can also support energy audits and technical assistance for energy
efficiency and renewable energy projects. REAP funds projects ranging from biofuels to wind, solar,
geothermal, methane gas recovery, advanced hydro, biomass, and ocean.
Renewable energy projects funded by USDA loan guarantees and grants improve the local economy by
creating new jobs at energy plants, enhancing the tax base, and increasing local business profits. Recent
funds allowed many agricultural producers and rural small business owners to decrease their energy
consumption and increase their profit margins.
During FY 2011, REAP obligated approximately $57 million in grants and $34 million in guaranteed loans.
This process generated 2.1 billion kWh of renewable energy. kWh is a billing unit for energy delivered to
consumers by electric facilities.
Analysis of Results
The goal for the performance measure was unmet. Rural Business and Cooperative Programs seek to
enhance rural prosperity by supporting rural businesses and encouraging job creation. Success toward
reaching this goal is measured by jobs created and saved. The number of jobs created or saved annually is
linked directly to the amount of total available funding, amount of funds disbursed to awardees, and local
economic conditions. Therefore, annual job targets are based on historic program performance, program
costs, and annual appropriations. Budget authorities, program costs, and program levels vary annually. These
factors resulted in a general decline in annual job numbers. Original 2011 targets were based on projected
budget authority and program levels from the prior fiscal year. Actual budget authority and program levels
were less than expected. The shortage in anticipated funding had an adverse effect on the number of jobs
created and saved.


   Annual Performance Goals, Indicators                                                                                               Fiscal Year 2011
                                                           2007          2008            2009              2010
               and Trends
                                                                                                                           Target          Actual           Result
 1.1.1    Number of jobs created or saved
          through USDA financing of                       72,710        71,100          68,185            68,894           72,873          66,824        Unmet
          businesses
 Rationale for Met Range: Job projected data are gathered when projects are obligated in the Guaranteed Loan System (GLS) data warehouse based on a
 formula driven by historic results. Final job counts are verified on closing the loan and grant. . The tolerance range for the measure to be “met” is 5 percent.
                                                      Data Assessment of Performance Measure 1.1.1
 Business program data are collected in various systems and ways. The program’s finance office records and reports total loan and grant
 obligations as of the date they are executed. These data are collected as part of the obligation process. The Guaranteed Loan System (GLS)
 collects additional information to satisfy reporting requirements, and for management and evaluation purposes. This information includes the
 number of jobs projected at obligation and verified jobs created or saved at the transaction’s closing. Data used to determine the Business and
 Industry Guaranteed Loan Program’s delinquency status are generally reported directly by lenders into GLS. For other programs, USDA staff
 reports delinquency information.
 • Completeness of Data — Business program data are considered final and complete as of September 30 at the close of the fiscal year,
     unless there are any year-end closing adjustments.
 • Reliability of Data — Business and Industry guaranteed loan borrower financial performance is reported by many, but not all, lenders
     semi-annually to USDA. Grantees generally report quarterly or semi-annually. There is inconsistency in the time periods represented by
     lender reports. In lieu of a reliable, consistent, and complete data set from lenders, the program’s finance office’s financial data have been
     found acceptable to the U.S. Office of Inspector General, as are state office-verified data on the financial performance of loans. Data for jobs



                                                           Annual Performance Report
                                                                       30
  Annual Performance Goals, Indicators                                                                                Fiscal Year 2011
                                                    2007        2008          2009            2010
              and Trends
                                                                                                            Target        Actual         Result
   created or saved are obtained by State office staff from borrowers and lenders. They are entered into GLS at the same time obligations are
   recorded. These data are reliable when they have been updated and verified by State staff. USDA reports the computed jobs saved or
   created based on underlying market and financial feasibility projections that support loan applications. The jobs are counted only in the fiscal
   year in which the loan is obligated. The delinquency rate, which excludes loans in bankruptcy, is based on reports supplied by lenders on
   the performance of each loan. While the percentage of States verifying third-party financial and jobs data have improved each year, further
   improvements are needed. The Department is testing an economic model to more accurately and completely show the impact of business
   programs in rural areas.
 • Quality of Data — While the percentage of States verifying third-party financial and jobs data has improved each year, further
   improvements are needed. The economic model described above should lead to these improvements.


Description of Actions for Unmet Measures
The target for jobs created and saved is based upon the President’s FY 2011 budget request. The 2011
Appropriations Act provided a lower level of funding than requested, which hampered the agency’s ability to
meet the established target.
As budget constraints continue, USDA is exploring new and innovative ways to promote job creation in
rural areas. In 2011, USDA initiated several projects aimed at leveraging Rural Business and Cooperative
Programs’ investments in rural economic development with other private and public investments through
the use of tax credits and capital markets. These efforts resulted in public/private partnerships with several
Federal and local government agencies as well as private businesses. Additionally, USDA implemented a
regional outreach strategy in FY 2011 that is also aimed at increasing investment in rural economic
development. By engaging more partners in rural economic development, funds can be better leveraged and
rural communities can continue to grow their economies.
Challenges for the Future
Rural communities are diverse and their economic challenges vary based on the condition of the industries
which drive their economies. Generally speaking, rural areas with heavy reliance on the manufacturing and
agricultural industries have struggled to remain competitive in the global economy for more than a decade.
Fierce competition and technological advances in these industries have led to job losses in rural
communities. Subsequently, job losses have led to population declines. Many college bound rural youth do
not return to the communities where they were raised after they graduate.
Furthermore, rural areas typically have underdeveloped public services that make it difficult to attract or
retain businesses. The lack of public funding for amenities which are common in urban areas, such as
dedicated business parks or expanded transportation links, creates additional challenges. The persistent lack
of well paying job opportunities (and the related local tax base ramifications) places many rural county and
municipal governments under great stress as they attempt to meet the community development and human
services needs of their constituents.
These challenges along with the lagging national economy will continue to put pressure on rural
communities. Nevertheless, rural areas remain steadfast in their pursuit of prosperity. USDA’s Rural
Business Cooperative Programs provide financial assistance and expertise to rural businesses that assist rural
communities’ capacity to create prosperity so they are self-sustaining, repopulating, and economically
thriving.




                                                    Annual Performance Report
                                                                31
1.1.2 Number of Borrowers/Subscribers Receiving New or Improved Telecommunication Services
Overview
The telecommunications program provides loans and grants specifically targeted for the deployment of
broadband service in small towns and communities. Utilizing advanced telecommunications services, the
telecommunications program provides USDA with a powerful tool in building strong rural economies, and
increasing educational and health care services in rural communities across the Nation. This program
finances broadband services that support the economic growth of rural communities, including the creation
or retention of rural businesses and jobs. All facilities financed must be capable of providing high-speed
Internet services. Matching funds from loan and grant participants provide leveraging of the Federal
funding with private financial resources.
Analysis of Results
The telecommunications program did not meet its performance measure for FY 2011. This is primarily due
to the impact of delays in implementing new regulations for the broadband loan program.

     Annual Performance Goals, Indicators                                                                                     Fiscal Year 2011
                                                            2007         2008          2009          2010
                 and Trends                                                                                       Target          Actual            Result
 1.1.2   Number of borrowers/subscribers
         receiving new and/or improved                      0.36         0.78          0.18          0.14           0.30            0.18            Unmet
         telecommunication services (millions)
 Rationale for Met Range: Annual targets for this measure are based on historic activity and adjusted according to program level received each fiscal year. Met
 range represents a possible 7-percent deviation from target.
                                                   Data Assessment of Performance Measure 1.1.2
 •   Completeness of Data — Data are actual, final and complete. The subscriber data are collected from each approved loan application.
   Applicants are required to detail their proposed service territories and subscribers. Loan funds are advanced only for approved purposes.
   Measuring the extent to which broadband service is deployed in rural America will enable USDA to assess improved economic conditions
   because of the availability of high-speed telecommunications network access for residents and business. The data on the number of
   subscribers to be served for each loan are derived from applicants’ loan applications. Data must be complete before loans can be
   approved.
 • Reliability of Data — While in many cases applicants are required to perform market surveys of their proposed service areas, the actual
   subscribers served may vary from the plan if all funds are not used or the borrower later requests a change of purpose from the original
   loan application. Overall, the data on subscribers are reliable.
 • Quality of Data — All applications undergo an extensive review to determine eligibility. Additionally, all approved applications must show
   feasibility from a financial and technical standpoint. Applicants also are required to perform market surveys of their proposed service areas.
   Therefore, the data are reliable. As previously noted, the data on the number of subscribers to be served for each loan approved come
   from the applicant’s loan application. The data depend on the borrower drawing down loan funds and constructing the system as portrayed
   in the applicant’s loan design. Loan funds only may be used for the approved purposes for which the loan was made. Variance may result
   if a borrower does not draw down all loan funds or request approval for a change of purpose from the original loan. This could result in a
   different number of subscribers from the number specified in the plan.

Description of Actions for Unmet Measures
USDA was in the process of revising regulations upon the passage of the American Reinvestment and
Recovery Act (ARRA). The unprecedented level of funding included in. The unprecedented level of
funding included in the ARRA required dedicated staff resources to ensure immediate implementation of
the program. Once ARRA funding was fully implemented, USDA continued development of regulations
for the ongoing Farm Bill broadband program. Revised regulations were published in March 2011, limiting
the number of months that loans could be developed by borrowers, processed and approved. Also, the new
regulations required all applicants with loan applications that had been pending prior to the publication of
the regulations to be revised and resubmitted. These conditions significantly contributed to the target being
unmet.



                                                        Annual Performance Report
                                                                    32
Challenges for the Future
USDA will continue to monitor and service the telecommunications program portfolio. This portfolio rose
by more than $3 billion in American Reinvestment and Recovery Act (ARRA) funding. ARRA includes
measures to modernize the Nation's infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those in greatest
need. The hundreds of new ARRA broadband projects must be monitored to ensure the projects’
completion within the required timeframe. The Department will coordinate with the Federal
Communications Commission as it reviews and moves towards implementing the National Broadband Plan
and other initiatives. Major policy revisions are expected in areas such as the Universal Service Fund. This
revision could negatively impact USDA’s telecommunications portfolio.
OBJECTIVE 1.2: CREATE THRIVING COMMUNITIES
1.2.1  Number of borrowers/subscribers receiving new or improved service from agency funded water
       facility
Overview
The water and environmental programs provide rural communities with modern, affordable water and waste
disposal services. USDA directs technical and financial program resources to rural communities with the
greatest need. These communities may be poverty-stricken because of out-migration, natural disasters, or
economic stress. Despite such events, all rural communities can sustain economic development and improve
the quality of life for their residents with dependable water and waste services and infrastructure.
A network of 47 USDA State offices, supported by area and local offices, delivers the programs in the States
and U.S. territories. This network provides such technical assistance as reviewing projects for engineering,
environmental, and financial feasibility. Credit advice and assistance is provided to the applicants and
borrowers throughout the loan making, construction, and system management and maintenance processes.
Staff works closely with program participants, their project engineers, and State regulatory agencies to
ensure that projects are reasonable, affordable, and based on commonly accepted engineering practices.
Analysis of Results
The water and environmental programs exceeded its FY 2011 overall annual performance target for number
of borrowers/subscribers receiving new and/or improved service from agency funded water facilities. The
water and environmental programs had anticipated serving 1,394,000 program borrowers’ customers
(subscribers) through regular funding. It exceeded that number by serving 4,468,329 program borrowers’
customers (subscribers).

Annual Performance Goals, Indicators                                                                                         Fiscal Year 2011
                                                    2007         2008          2009             2010
            and Trends                                                                                        Target        Actual               Result
1.2.1   Number of
        borrowers/subscribers receiving              1.3          4.4           3.4              3.9            1.4           4.5               Exceeded
        new or improved service from
        agency funded water facility
        (millions)
Rationale for Met Range: Annual targets for this measure are based on historical activity and are adjusted according to program level received each fiscal year.
Met range represents a 5-percent deviation from target.
                                                    Data Assessment of Performance Measure 1.2.1
•   Completeness of Data — The Water and Environmental Programs (WEP) collects data initially through the Community Programs
    Application Processing (CPAP) system. CPAP is a non-financial system in which the agency field staff input data about applicants,
    borrowers, funding and services provided. The data obligations flow through the Commercial Loan Servicing System (CLSS) to the Program
    Loan Accounting System (PLAS) and through a data server to a data warehouse.




                                                           Annual Performance Report
                                                                       33
Annual Performance Goals, Indicators                                                                          Fiscal Year 2011
                                             2007       2008        2009          2010
            and Trends
                                                                                                Target       Actual              Result
•    Reliability of Data — USDA’s data warehouse stores historical information on Department programs and such non-agency data as census
  information. Program data are downloaded to the warehouse every evening from several accounting databases. Data generally are current
  through the previous day. The warehouse provides data about obligations and can be used to measure the number of loans, loan amounts,
  number of borrowers and funds advanced. The warehouse is an easy, accessible online method of extracting information and data for
  reports and analyses.
• Quality of Data — Based on information in CPAP, the number of subscribers receiving new or improved water or wastewater service can
  be extrapolated from the data warehouse. The WEP National Office and USDA field offices use data from CPAP, the data warehouse and
  Department accounting systems to review or evaluate the financial, operational and managerial programs of the utilities serving rural
  customers.


Challenges for the Future
Rural communities must invest in modern water and wastewater facilities to attract families and businesses
that are vital to thriving communities. The communities must decide wisely how to balance investing in new
facilities to serve new or proposed customers with investing in upgrades to facilities that serve existing
customers. They must weigh growing their customer base, controlling costs, and modernizing or upgrading
aging facilities. Gaining access to credit markets and leveraging funds from Federal, State, and private
sources will continue to challenge rural communities.
1.2.2 Homeownership Opportunities Provided
Overview
Home ownership remains important to strong, vibrant rural communities. USDA’s Single Family Housing
(SFH) Programs continue to make the American dream possible for thousands as this assistance fills a void
in the Nation’s housing financing. Since the first loan in 1950, USDA housing programs have benefited
more than 3.3 million rural families with the assistance of more than $160 billion. This includes 151,000
loans, grants and guarantees totaling $17.8 billion in FY 2011.
This assistance goes to families with limited incomes unable to receive assistance elsewhere (or to obtain a
home loan without a guarantee). Even so, loan delinquency and foreclosure rates remain well below other
similar programs. Continued, sensible loan underwriting and common sense servicing which assures families
will remain successful homeowners, allowed this program to succeed.
Analysis of Results
While the FY 2011 target of 186,015 homeownership opportunities was not met as recorded in the chart
below, homeownership opportunities were provided at record levels in both the direct and guaranteed
programs.
Beginning in FY 2011, the SFH guaranteed loan program became a negative subsidy rate program by
imposing a fee structure to support the costs of the program. Accordingly, Congress does not need to
appropriate budget authority (i.e. tax dollars) for this guaranteed loan program as the fee structure generates
enough capital to make the program self supporting. However, Congress does establish the program level
for guaranteed loans through the annual appropriations process. With the advent of the negative subsidy
rate Congress increased the available program level from about $12 billion in FY 2010 to $24 billion in
FY 2011.

    Annual Performance Goals, Indicators                                                                           Fiscal Year 2011
                                               2007        2008        2009              2010
                and Trends                                                                               Target        Actual         Result
 1.2.2    Homeownership opportunities
          provided                            43,942      67,420       56,613        127,735             186,015      140,100         Unmet



                                                 Annual Performance Report
                                                             34
 Annual Performance Goals, Indicators                                                                                            Fiscal Year 2011
                                                      2007          2008            2009              2010
             and Trends
                                                                                                                       Target         Actual          Result
 Rationale for Met Range: The range of 10 percent to meet the target is based on the historical variance from the target during the past several years in the
 number of houses sold in the Guaranteed and Direct Single Family Housing Loan Programs.

                                                    Data Assessment of Performance Measure 1.2.2
 •   Completeness of Data—Homeownership data are complete and final. Homeownership data are entered in the Web-based Dedicated
   Loan Origination and Servicing (DLOS) system. This centralized server application ensures viable data collection. DLOS tracks
   performance and can be used to forecast needs. Information is entered into UniFi and uploaded nightly to MortgageServe System. This
   system obligates funds, establishes closed loans, administers escrow accounts, and performs other administrative functions. Hyperion, a
   query and reporting tool, serves as the interface between the data warehouse and USDA staff.
 • Reliability of Data—Homeownership data originate in systems used to obligate funding and are reliable. Data for initial placement of
   households into their own home are reliable. They are linked directly to homeownership loans maintained in USDA’s financial accounting
   systems. No adjustments are made for later defaults and the resulting loss of homeownership.
 • Quality of Data—Homeownership data are based on loan obligations collected in DLOS, and stored in USDA’s data warehouse. Thus,
   the data on the number of households are auditable. Data represent the population served based on the available U.S. Census Data.


The definition of Homeownership Opportunities was expanded, beginning in FY 2011, to include all
Section 502 direct and guaranteed loans, both initial and subsequent, to purchase a home. Using this new
definition, homeownership opportunities for FY 2007-2010 were:

                                                Fiscal Year        Guaranteed              Direct         Total
                                                   2007                35,322              11,450         46,772
                                                   2008                62,933              10,185         73,118
                                                   2009               133,043              12,167        145,210
                                                   2010               133,053              17,665        150,718


Descriptions of Actions for Unmet Measures
USDA’s single-family housing programs provided an unprecedented level of funding to support the
mortgage credit industry in rural areas. Funding for this program was authorized at historical levels in fiscal
year 2011. This level of funding was supported by a fee structure that eliminated the need for Federal
budget resources. USDA utilized these programs to meet current demand for mortgage credit in rural areas,
however, demand continues to grow for single family housing financing as interest rates continue to fall.
Challenges for the Future
The need for all USDA single-family housing programs continues to grow. Despite significant changes to
the guaranteed program because of a different fee structure and the late appropriations process during the
past year, approved lenders turned to the guaranteed program near or above previous record levels. With few
other affordable lending products available, continued increased demand is expected.
Demand for the direct home loan and repair programs remains strong, with the application backlog
exceeding the amount of annual funding.
USDA’s first challenge is to keep pace with the volume of applications. Improvements to the Guaranteed
Underwriting System (GUS) and other similar automation products will move the approval and servicing of
guarantees to an increasingly efficient and, eventually, paperless process. An automated “decisions tool”
similar to GUS is being developed to streamline the direct loan program, as well.
The second challenge for the housing programs is to meet the ongoing demand for funding. The guaranteed
program is now subsidy neutral, or fully supporting by the fees it collects without the requirement of


                                                         Annual Performance Report
                                                                     35
funding from taxpayers. The program’s subsidy-neutral status will allow for ample funding for the
foreseeable future. The long-time goal of increasing access to housing for those, particularly minorities, in
the poorest and most remote areas remains unfulfilled. For as long as the general economy in rural areas
languishes and the housing market remains cool, USDA housing programs remain in demand.
1.2.3  Percentage of customers who are provided access to new and/or improved essential Community
       facilities
Overview
The Community Facilities (CF) program provides direct and guaranteed loans for the development of
essential facilities in communities with a population of less than 20,000. Essential community facilities
include hospitals; schools, libraries, and similar education facilities; nursing homes and assisted living
facilities; police, fire, and rescue buildings, vehicles, and equipment; streets and bridges; child care and adult
day care; and similar facilities needed for the orderly development of a community.
Analysis of Results
Community Programs (CP) has chosen health care; fire/rescue and public safety facilities; and education
facilities as proxies for measuring the program’s effectiveness. These three areas have historically been the
areas of greatest demand for funding. In FY 2011, CP enjoyed a successful year, exceeding the targets in
each of its performance measures, as demonstrated below.

     Annual Performance Goals, Indicators                                                                                          Fiscal Year 2011
                                                         2007          2008            2009              2010
                 and Trends
                                                                                                                         Target         Actual           Result
 1.2.3    Percentage of customers who are
          provided access to new and/or
          improved essential community
          facilities
          Health Facilities                               5.2           5.3             5.4               3.2              3.2             5.2         Exceeded
          Safety Facilities                               2.7           2.8             5.0               3.2              3.2             4.3         Exceeded
          Educational Facilities                          N/A           N/A             3.5               3.8              3.0             3.8         Exceeded
 Previous year data has been recomputed since FY10.
 Rationale for Met Range: Given the range of eligible CF project types and the varying service area to be expected for each, developing a rationale is difficult.
 Results within 0.2 points on either side of the target will be considered to “meet” the goal.
                                                     Data Assessment of Performance Measure 1.2.3

 •    Completeness of Data – Program data are complete and final. The Finance Office records and reports total loan and grant obligations as
   of the date of obligations. Additionally, USDA collects information for management and evaluation purposes. Data on delinquencies are
   reported by the Finance Office for CF direct loans, and by lenders for CF guaranteed loans.
 • Reliability of Data – CF data are entered into the Guaranteed Loan System (GLS) by field staff as the program funds are obligated. GLS
   is an official accounting and financial management system of the Department’s. These data are final, complete, and reliable. They include
   the population served based on available U.S. census information. The service area for each facility is based on estimates. The
   Department screens the data regularly for irregularities. Given the variety of areas served by different types of community facilities,
   estimating the service area is not a precise science. Population estimates are based on engineering studies used for the design of new or
   expanded facilities. USDA is developing mapping technologies to improve this process.
 • Quality of Data – Data are projected on historical performance. The target information uses data dependent upon the baseline projections
   from numerous Department agencies.


Challenges for the Future
The ever-increasing cost and complexity of many facilities, especially in health care and education, pose the
greatest challenge. Many rural communities are, by definition, small with a limited (and often dwindling)
population. Capital markets remain limited in these areas. Often, these communities also have a limited tax


                                                          Annual Performance Report
                                                                      36
base. It will be a major challenge to determine how to maintain quality services, with up-to-date technology,
while keeping costs affordable. This process will be vital as the economy stabilizes.
1.2.4 Number of borrowers/subscribers receiving new and/or improved electric facilities
Overview
Providing reliable, affordable electricity is essential to the economic well-being and quality of life for all rural
residents. USDA’s electric loan program provides leadership and capital to upgrade, expand, maintain, and
replace America's vast rural electric infrastructure. The program makes direct loans and loan guarantees to
electric utilities and other entities that serve customers in rural areas. The loans and loan guarantees help
finance electric distribution, transmission, and generation facilities. These loans and loan guarantees include
system improvements and replacement, demand-side management, energy efficiency and conservation
programs, and on-grid and off-grid renewable energy systems. Loans are made to entities that provide retail
electric service in rural areas and/or supply the power needs of rural electric distribution providers. Eligible
borrowers include corporations, States, territories, municipalities, people's utility districts, and cooperative,
nonprofit, limited-dividend, or mutual associations.
Analysis of Results
The electric program exceeded its goal to provide new and improved electric facilities that benefit our
borrowers’ retail electric consumers across rural America. With the assistance of USDA electric loans,
borrowers will provide new or improved electric service to 7.1 million retail consumers, including 115,507
new rural customers. The $4.8 billion in new loans and grants approved in FY 2011 provides a major source
of funding in advancing the modernization of electric infrastructure in rural America. Additionally, the
Department has $5.2 billion in the pipeline, currently fulfilling National Environmental Policy Act (NEPA)
requirements, which will further support rural customers.
The program continues to prioritize energy efficiency projects, supporting the Recovery through Retrofit
Initiative and created the Rural Economic Development Energy Efficiency Efforts. In FY 2011, USDA
approved $7.28 million for energy efficiency improvements to continue its commitment to alternative energy
production, and approved $294 million in new loans for renewable electric generation facilities.
Additionally, the Department has provided more than $150 million in loans to support grid modernization,
$653 million through new and/or improved transmission and, $1.3 billion for distribution improvements.

      Annual Performance Goals,
                                                                                                                             Fiscal Year 2011
              Indicators                            2007         2008          2009            2010
             and Trends                                                                                      Target        Actual                Result
     1.2.4 Number of
           borrowers/subscribers
           receiving new and/or                      5.8          8.1           9.8              9.4           6.1            7.1              Exceeded
           improved electric facilities
           (millions)
 Rationale for Met Range: Annual targets for this measure are based on historical activity and are adjusted according to program level received each fiscal year.
 Met range represents a 5 percentage-point deviation from target.
                                                    Data Assessment of Performance Measure 1.2.4
 •   Completeness of Data — The Rural Utilities Service (RUS) Electric Programs performance data are collected from various agency
   documents including RUS Form 740c, Borrower’s Statistical Profile, Information Publication 201-1, and borrower loan applications. The
   data are complete and accurate, and collected at the time of loan approval and/or reported annually.
 • Reliability of Data — First-time loan applicants must submit extensive financial and electric system data in support of their loan. Existing
   borrowers are required to report financial and operating data annually to the RUS. The data are used to administer Department loan funds
   and to ensure the security of the loans. Borrower information and loan and grant approvals and advances are tracked in the Commercial
   Loan Servicing System (CLSS). Borrower financial and system reports and information are collected and maintained through the data
   collection system in the Rural Development data warehouse.



                                                           Annual Performance Report
                                                                       37
       Annual Performance Goals,
                                                                                                                    Fiscal Year 2011
               Indicators                       2007        2008         2009            2010
              and Trends                                                                              Target       Actual              Result
 •   Quality of Data — Performance goal data on the number of borrower consumers receiving new or upgraded electric service is derived
     from information in loan applications and annual reports. All applications are reviewed for compliance with all eligibility requirements for the
     various Electric Programs loans, guarantees and grants. All approved applications must demonstrate financial feasibility and adequate loan
     security. Loan funds may be used only for the approved purposes for which the loan was made. Borrower loan applications and annual
     submissions are reviewed by field representatives and Headquarters staff for completeness and accuracy.


Challenges for the Future
The electric program will continue to work with new and existing borrowers to assure the availability of
reliable, affordable, and clean electric service. Rural electric providers face many challenges and uncertainties
because of economic conditions and new environmental and energy policy initiatives that are raising retail
rates.
RUS is focusing efforts on developing new renewable electricity projects and in implementing energy
efficiency and conservation programs has increased to mitigate these hurdles. In response, USDA is working
on regulations and policies that will fully implement the new energy efficiency and renewable energy
authorities of the 2008 Farm Bill and meet the needs of program users.
OBJECTIVE 1.3 SUPPORT A SUSTAINABLE AND COMPETITIVE AGRICULTURAL SYSTEM
1.3.1  Percentage of beginning farmers, racial and ethnic minority farmers, and women farmers financed by
       (FSA)
Overview
USDA loan programs provide access to credit for farmers and ranchers who are temporarily unable to obtain
financing from a commercial source at reasonable rates and terms. Through direct and guaranteed farm
ownership and operating loans, USDA assists tens of thousands of family farmers each year in starting and
maintaining profitable farm businesses. Loan funds may be used to pay normal operating or family living
expenses, make capital improvements, refinance certain debts, and purchase farmland, livestock, equipment,
feed, and other materials essential to farm and ranch operations. The loan programs are particularly
important to beginning, minority, and women farmers. These farmers typically have fewer available
resources. Thus, they tend to be less likely to qualify for commercial credit. USDA services extend beyond
the typical loan by offering customers ongoing consultation, advice, and creative ways to make their farm
businesses thrive. The Department is the lender of first opportunity because it provides agricultural
producers needing assistance an entry into agriculture production.
Analysis of Results
USDA exceeded its FY 2011 performance target. The Department provided nearly 30,000 loans to farmers
and ranchers. This included nearly 23,000 operating loans valued at more than $2.1 billion. Close to 13,000
of the operating loans, worth nearly $1 billion, were issued to beginning, racial and ethnic minority, and
women farmers. USDA also issued more than 7,000 farm ownership loans valued at more than $2 billion.
Of these loans, nearly 3,500 loans worth more than $800 million went to beginning, racial and ethnic
minority, and women farmers. As of September 30, 2011, USDA had more than 57,000 beginning,
minority, and women farmers in its portfolio of direct and guaranteed loans. This figure represents more
than 54 percent of its total farm loan portfolio. By comparison, at the end of FY 2008, there were about
43,000 beginning, minority, and women farmers in the portfolio.




                                                     Annual Performance Report
                                                                 38
The financial strength of the USDA farm loan portfolio remains strong. Delinquency and loss rates for the
direct and guaranteed loan programs remain below historic averages. Additionally, the Department
continues to meet goals for the timeliness of loan application processing, helping to ensure that credit is
provided when the need arises.

                Performance Measure                                                                                   2011           2011
                                                             2007        2008         2009            2010                                         Results
                                                                                                                     Target         Actual
  1.3.1   Percentage of beginning farmers, racial
          and ethnic minority farmers, and women              15.9      16.22          17.4           19.1             18.0            21         Exceeded
          farmers financed by FSA (percent)
  The FY 2011 result is estimated based on actual data through July 31 and a fourth-quarter projection.
  Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 17.5-18.5 percent, as the threshold is +/-.5
                                                   Data Assessment of Performance measure 1.3.1
  Farm Loan Programs (FLP) data reside in the Program Loan Accounting System, Guaranteed Loan System, Direct Loan System, and FLP
  databases. Information obtained from the 2002 Census of Agriculture is also used for this performance measure. The measure is calculated
  by taking the total number of minority, women, and beginning farmers in the loan portfolio, and dividing it by the numbers of members of
  those three groups listed in the 2002 Census of Agriculture with at least $10,000 in sales. This sales figure excludes hobby farms, which are
  not the intended market for FLPs.
  •   Completeness of Data – Data reported is final as of September 30, 2011.
  •   Reliability of Data – Data are considered reliable. System enhancements and built-in edits coupled with comprehensive internal control
    review programs help ensure data reliability and quality. While Census of Agriculture data are considered reliable, the resulting
    percentage reported likely understates the importance of the USDA service to those targeted groups. Despite this limitation, these data
    are the best available for estimating Department performance in reaching the targeted groups.
  • Quality of Data – FLP data are of high quality. Most FLP data originate from accounting systems, which are subject to Office of
    Inspector General audit. FLP data are collected for multiple purposes and gathered throughout the normal lending process. Data derived
    from the 2002 Census of Agriculture were developed in FY 2006. This information will be used until the next strategic plan update. At that
    time, more current Census of Agriculture data will be used, and a new baseline and performance targets will be established.


Challenges for the Future
USDA has improved the operational effectiveness and efficiency of the farm loan programs through
program streamlining and information technology initiatives implemented over the past few years. Process
improvement initiatives are ongoing and will be increasingly important as program resources decline while
loan demand remains high because of restrictive commercial credit availability.
Additionally, as the U.S. agricultural sector continues to change, with farms becoming larger and
increasingly dependent on technology, entry into farming has become more capital intensive. Farm
operating costs also continue to rise. This factor causes significant barriers and challenges for the groups that
USDA FLPs are intended to assist.
1.3.2  Maintain or increase percentage of Farm Service Agency (FSA) program delivery applications at USDA
       Service Centers that are Web-enabled
Overview
A key performance measure for Information Technology (IT) modernization is the percentage of program
delivery applications at USDA Service Centers that are Web-enabled and do not use obsolete legacy
systems. Web-enabled centers permit a timelier, more accurate, and more reliable delivery of benefits to
producers. Improving the broad array of IT systems, including those for farm program delivery, farm loan
programs, disaster assistance, and conservation programs, enhances services provided to producers and
alleviates the risk of IT system failure due to the outmoded technology. Once it is fully operational, the
Modernize and Innovate the Delivery of Agricultural Systems (MIDAS) initiative will improve the delivery
of farm programs through re-engineering business processes and implementing modern IT.


                                                        Annual Performance Report
                                                                    39
Analysis of Results
USDA met the FY 2011 performance target of increasing the number of Web-enabled program delivery
applications to 68 percent of total applications. Web-enabled applications allowed users to access the
information systems applications via standard Web browsers.
The Department continued to make progress in reducing dependency on obsolete technology. USDA
completed the 2011 crop acreage reporting requirement using the Web-enabled Crop Acreage Reporting
System (CARS). The system certified more than 2,200,000 acreage reports from October, 2010 to July,
2011. The 2011 Noninsured Crop Disaster Assistance Program (NAP) payments were made available on
the Web with more than $7.8 million in payments to date. The Department began capturing farm operating
plans for individual producers in a Web-enabled business file application to support program eligibility
determinations. Having this information in a centralized location allows USDA to implement payment
programs in a more timely fashion. The Department is also on schedule to complete the consolidation of
geo-spatial assets into a central repository, thereby eliminating dependency on outmoded servers in USDA
Service Center offices. Thus, the integration of geospatial data with MIDAS and other enterprise business
operations can take place.

              Performance Measure                          2007         2008         2009            2010             2011            2011           Results
                                                                                                                     Target          Actual
 1.3.2 Maintain or increase percentage of               N/A           54%           51%             57%              68%             68%                Met
        FSA program delivery applications at
        USDA Service Centers that are Web-
        enabled
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range of 67.5-68.5 percent, as the threshold is +/-.5
 percentage points.

                                                   Data Assessment of Performance measure 1.3.2
 The FSA Systems Inventory Report System lists systems by investment, which supports FSA common business functions. It also identifies
 child systems, system modules, and system components providing a sub-set of business functions contained in a system, including any
 standalone applications that are subordinate to a system. The FSA Systems Inventory Report is reviewed manually to determine which
 systems are or include program delivery applications. The report also identifies the platform on which the program delivery applications are
 delivered.
 • Completeness of Data – Data reported were considered final as of September 30, 2011.
 • Reliability of Data – Data are considered reliable. The measurement process involves counting the number of Web-enabled program
     delivery applications used in the service center identified in the FSA Systems Inventory Report. That number is then divided by the total
     number of program delivery applications used in the service center to calculate the percentage of these program delivery applications that
     are Web-enabled. The report is updated weekly. The numerator is the number of Web-enabled program delivery applications used at the
     USDA Service Center. The denominator is the total number of Web-enabled program delivery applications that could be Web-enabled for
     service center use.
 • Quality of Data – The FSA Systems Inventory Report is derived from the MEGA IT Architecture Repository. The data must be reviewed
     regularly by the system custodians. Any needed changes are incorporated periodically and prior to developing and reporting this measure of
     the percentage of these program delivery applications that are Web-enabled.


Challenges for the Future
The major challenge is to maintain momentum in modernizing USDA’s IT and replacing aging, outmoded
systems quickly enough to avoid system failures within limited budgets.




                                                         Annual Performance Report
                                                                     40
1.3.3  Dollar value of agriculture trade preserved through trade agreement negotiation, monitoring, and
       enforcement of non-SPS activities
Overview
USDA works closely with the Office of the U.S. Trade Representative (USTR) to enforce existing trade
agreements and negotiate new ones. These trade agreements expand access to global markets for U.S.
agriculture. During FY 2011, USDA assisted USTR in efforts to secure Congressional approval of three free
trade agreements. Once implemented, these agreements are expected to expand U.S. agricultural exports
annually by more than $1.9 billion for Korea, $370 million for Colombia, and $46 million for Panama.
The Department has played an integral role in the negotiations on the agricultural portions of the Doha
Development Agenda (DDA) at World Trade Organization (WTO) meetings in Geneva. WTO is
responsible for establishing the global rules of trade between nations. DDA’s goal is to reach substantial
improvements in market access; reduce, with a view to phase out, all forms of export subsidies; and make
substantial reductions in trade-distorting domestic support. While the WTO meetings did not result in a
final agreement, USDA officials continue to work to expand global trading opportunities and increase U.S.
agricultural exports. As part of those efforts, USDA contributes to the President’s goals for the National
Export Initiative, which is designed to help farmers and small businesses increase their exports and expand
their markets.
Work on the Trans-Pacific Partnership, an Asian-Pacific trade agreement designed to increase American
exports in the region and create jobs domestically, continues. Negotiations with member countries,
Australia, Brunei, Chile, New Zealand, Peru, Singapore, Malaysia, and Vietnam, focused on market access
improvements, technical barriers to trade (TBT), regulatory coherence, sanitary and phytosanitary (SPS)
measures, rules of origin, trade capacity building, and the environment. This work boosted efforts in
developing a high-standard, 21st-century trade agreement which will create more trading opportunities.
TBT refers to those technical regulations and product standards that may vary from country to country.
Having many different regulations and standards can present barriers to exporting. SPS refers to measures
imposed by governments to protect human, animal, and plant health from pests, diseases, and contaminants.
The Department assisted in negotiating bilateral accession agreements with countries seeking WTO
membership. USDA played a critical role in supporting negotiations with countries such as Russia,
Kazakhstan, Serbia, and Samoa. Current meat and poultry regulations affect U.S. exports to Russia and,
because Russia is the largest economy not a member of WTO, negotiations to expand market access and
improve regulatory systems are important.
USDA and USTR also successfully entered into a Memorandum of Understanding and related framework
with Brazil for a mutually agreed upon solution to a WTO dispute regarding U.S. domestic cotton supports
and the export credit guarantee program. The framework serves as a basis to avoid trade-related, WTO-
authorized countermeasures by Brazil that would have negatively affected U.S. exports and interests.
Analysis of Results
USDA met the performance measure, which estimates the value of trade preserved through WTO
agreement enforcement, creation, and maintenance of free trade agreements, and addresses trade barriers.
Extensive monitoring and enforcement of existing trade agreements by the Department helped to reach this
target again in 2011.

                                                                                        Fiscal Year 2011
         Annual Performance Goals,        2007    2008     2009       2010
           Indicators, and Trends                                              Target      Actual          Result




                                      Annual Performance Report
                                                  41
                                                                                                                                  Fiscal Year 2011
            Annual Performance Goals,                         2007         2008          2009            2010
              Indicators, and Trends                                                                                   Target         Actual          Result
 1.3.3   Dollar value of agriculture trade
         preserved through trade agreement                    $0.7         $0.5          $0.4            $0.5            $0.5          $0.5             Met
         negotiation, monitoring, and enforcement
         non-SPS activities ($billions)
 Rationale for Met Range: The target for this measure is controlled by foreign parties. It reflects U.S. expectations for negotiating new agreements, addressing
 compliance with existing trade agreements, and resolving trade access issues that arise so U.S. exports can continue. Data assessment metrics to meet the
 target allow for an actual number in the range $0.4-$0.6 ($ billions).
                                                    Data Assessment of Performance Measure 1.3.3
 Data for the World Trade Organization and tariff rates are projected estimates based on results posted to USDA’s performance tracking
 system. Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results posted
 during the first three quarters of FY 2011.
 • Completeness of Data - Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based
    on results posted during the first three quarters of FY 2011.
 • Reliability of Data – Data are reliable and used by the Department to highlight successes in the trade-policy arena.
 • Quality of Data - USDA maintains a standardized methodology to forecast trade impacts. Calculation of trade benefits from preserving
    existing trade is fairly straightforward and easy using this standard methodology. The primary sources of trade data are the U.S.
    Department of Homeland Security’s U.S. Customs and Border Protection, the U.S. Census Bureau, the USDA publication, Foreign
    Agricultural Trade of the United States, and other databases. Other sources include market reports compiled by Department and industry
    estimates. Since measuring expected trade benefits from broad new trade agreements is extremely difficult, USDA evaluates its estimates
    against other outside estimates when available.

Challenges for the Future
The key challenge for increasing access to global markets is progress in DDA WTO negotiations. USDA
will also continue to monitor and take action on trade barriers relating to established trade agreements.
Barriers will continue to be addressed though the WTO dispute-settlement process, while others will be
addressed bilaterally. The improvement in market opportunities under bilateral and regional trade
agreements is contingent on the approval and implementation of agreements by all partners.
1.3.4  Value of trade preserved annually through USDA staff interventions leading to resolution of barriers
       created by Sanitary/Phytosanitary or Technical Barrier to Trade measures
Overview
Sanitary and Phytosanitary (SPS) measures are those imposed by Governments to protect human, animal,
and plant health from pests, diseases, and contaminants. USDA works closely with the Office of the U.S.
Trade Representative (USTR) and other agencies to pursue and enforce trade agreements to ensure that
technical regulations and measures are designed to enhance food safety and protect plant and animal health,
and do not serve as unjustified barriers to trade. The Department staff that work on these issues include
veterinarians, economists, marketing experts, and plant pathologists.
During FY 2011, USDA resolved numerous SPS and other technical barriers to trade (TBTs), including:
• Gaining Indonesia’s approval of new varieties of biotech corn and soy;
• Achieving less restrictive beef access agreements with Chile and Egypt;
• Reopening the Algerian market to U.S. dairy products;
• Gaining Vietnam’s certification that the U.S. remains eligible to ship plant products;
• Securing Saudi Arabia’s removal of a ban on food coloring; and
• Opening the western Australian market to U.S. cherries.




                                                         Annual Performance Report
                                                                     42
Analysis of Results
USDA exceeded the performance measure. USDA’s selection of this performance measure reflects the
growing importance of addressing SPS and TBTs to maintain or expand trade. The majority of SPS and
TBT measures impacted food products rather than bulk agricultural commodities.

           Annual Performance Goals,                        2007          2008           2009           2010                    Fiscal Year 2011
             Indicators, and Trends                                                                                  Target          Actual           Result
 1.3.4   Value of trade preserved annually
         through USDA staff interventions
         leading to resolution of barriers created                                                                                     4.1
         by Sanitary/Phytosanitary (SPS) or                  2.5           7.3            9.5            3.6           4.0                          Exceeded
                                                                                                                                   (estimate)
         other technical barriers to trade (TBT)
         measures ($billions).
 Rationale for Met Range: The target for this measure is controlled by foreign parties. It reflects U.S. expectations for addressing compliance with existing
 trade agreements and resolving trade access issues that arise so that domestic exports can continue. A met or exceeded target reflects USDA successes in
 addressing these barriers. An unmet target may conceal that USDA monitoring activities prevented noncompliance.Data assessment metrics to meet the target
 allow for an actual number in the range $3.4-$3.8 (billions).

                                                   Data Assessment of Performance Measure 1.3.4
 USDA uses a performance tracking system to collect and analyze actual performance data. The data are collected from the Department’s network of overseas
 offices and headquarters staff. The staff conducts trade compliance and enforcement activities. This work provides trade negotiation support USTR
 •   Completeness of Data - Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based
   on results posted during the first three quarters of FY 2011.
 • Reliability of Data – Data are reliable and used by agency officials to highlight successes in the trade policy arena.
 • Quality of Data - In addition to audits and internal control review of the performance tracking system, an established procedure is
   maintained to review each reported success for verification and the prevention of double counting.


Challenges for the Future
The prevention and resolution of SPS and TBTs are essential for U.S. agricultural products to receive the
full benefits of market liberalization gained through multilateral trade negotiations. As developing countries
become increasingly active in the global trading system and as U.S. trading partners, their ability to develop
and implement transparent, science-based regulatory systems is increasingly vital to the long-term viability
of U.S. agriculture and our food supply.
Meat and poultry exports continue to be hampered by a variety of unjustified SPS barriers including those
related to animal diseases, maximum residue limits (MRLs) for veterinary drugs, zero-tolerance pathogen
standards, and slaughter and processing plant approvals, particularly foreign insistence on plant-by-plant
approvals. Many of these problems manifest themselves in foreign export certification requirements that are
neither science based nor consistent with international guidelines. The largest single technical trade issue of
concern to USDA remains the normalization of beef trade after the market closures caused by the findings
of Bovine Spongiform Encephalopathy (BSE) in 2003.
Trade barriers related to biotechnology also require increasing attention from USDA. U.S. development and
approval of biotechnological innovations in agriculture often outpaces foreign approvals. To date, the most
broadly accepted new technology has been genetically engineered (GE) crops (soybeans, corn, and cotton)
and products derived from these crops (oils, meal, and feed). Together, they comprise about one-third of
total U.S. agricultural exports. In addition, it is estimated that some 80 percent of processed foods sold
domestically contain ingredients and oils from GE crops. USDA efforts to overcome barriers to GE
products include the advancement of science-based regulations, efforts to ensure adherence to and
enforcement of existing global commitments governing trade, and coalition-building with other countries
interested in the safe use of agricultural biotechnology.



                                                        Annual Performance Report
                                                                    43
Finally, country-by-country variation in maximum residue limits (MRLs) for pesticides poses a significant
ongoing risk to U.S. fruit and vegetable exports to many countries. While the U.S. is a global leader in
developing and approving safer and more effective pesticides, their approval in other countries and by Codex
Alimentarius often lags. Codex Alimentarius operates within the United Nations Food and Agricultural
Organization and the World Health Organization to establish international food standards that protect
consumer health and ensure fair trade practices.
1.3.5  Value of risk protection coverage provided through Federal Crop Insurance Corporation (FCIC)-
       sponsored insurance; and
1.3.6 Normalized value of FCIC risk protection coverage provided through FCIC sponsored insurance
Overview
The Department offers a variety of effective risk-management tools for agricultural producers. These tools,
in turn, provide economic stability to agricultural and rural communities. They help farmers and ranchers
protect their livelihood in times of natural disasters or other uncontrollable conditions.
USDA’s Federal crop insurance program is overseen by FCIC. This corporation promotes the economic
stability of agriculture through a sound system of crop insurance, and by providing the means for the
research and experience helpful in devising and establishing such insurance. The Department’s program
provides actuarially sound risk management insurance products to reduce agricultural producers’ economic
losses due to natural disasters or low prices. The Department partners with private crop insurance
companies that market and service individual policies. Both parties share the risk. This partnership is
governed by the Standard Reinsurance Agreement (SRA), which was renegotiated in FY 2010 to save an
estimated $6 billion over 10 years. SRA is a cooperative financial agreement reached between FCIC and
private-sector insurance companies.
The Federal crop insurance program is a valuable tool for agricultural producers and a good value for the
taxpayer. Widespread flooding and record-breaking drought occurred during the 2011 crop year. The
program responded with billions of dollars of payments to insured producers throughout the country.
Moreover, many banks require farmers and ranchers who seek operating loans to show proof of crop
insurance as collateral for the loans, reinforcing the value of crop insurance.
In 2011, a simplified crop insurance policy offering yield and/or revenue protection in place of several
different policies made the selection process simpler for producers. It also made administering policies
simpler for the approved crop insurance companies and their agents who deliver the program on USDA’s
behalf.
FCIC also proposed replacing Group Risk Protection Insurance regulations for eight different crops with a
new Area Risk Protection Insurance (ARPI) program. ARPI offers producers a choice of area revenue
protection, area revenue protection with the harvest prices exclusions, or area yield protection. These
offerings fall within one basic provision and the applicable crop provisions. These changes will reduce the
amount of information producers must understand to determine the best risk management tool for their
operation and will improve the provisions to better meet the needs of policyholders.
USDA has also implemented initiatives to increase awareness and service to beginning, small, and limited
resource farmers and ranchers, and other underserved groups and areas. The Department partners with
public and private agricultural organizations, land grant colleges and universities, community-based
organizations, farmers and ranchers, Hispanic Serving Institutions, and other stakeholders. USDA provides
technical program assistance and risk management education on strategies associated with economic, legal,
production, marketing, human resources, and labor risks. The current SRA provides additional incentives
for insurance companies to provide service to these populations located in underserved states.



                                      Annual Performance Report
                                                  44
Analysis of Results
USDA met its target for the value of normalized risk protection provided to producers. It exceeded its target
value for actual risk protection provided. The results are attributed to a significant rise in commodity prices
and the continued high level of participation by producers of the major crops. The performance measures
illustrate the normalized and real dollar values of FCIC coverage in force within the agricultural economy.
The actual value performance measure (1.3.5) also shows the amount of potential collateral provided to
qualify for commercial loans. The normalized value performance measure (1.3.6) restates measure 1.3.5
using constant commodity prices. This measure removes the effects of market volatility from the value of
coverage, providing a clearer picture of market penetration of the Federal crop insurance program. Since the
2000 crop year, the normalized value has increased by approximately $21 billion, while the real value has
increased by approximately $76 billion. While there are a number of factors that influence these figures,
including market-price increases and inflation, both represent a major growth in the amount of the
agricultural economy insured via the FCIC-sponsored insurance. During the 2011 crop year, which covered
parts of both FY 2010 and FY 2011, the economic risk of American agricultural producers was reduced by
approximately $76 billion through Federal crop insurance coverage.


           Annual Performance Goals,                        2007          2008           2009           2010                    Fiscal Year 2011
             Indicators, and Trends
                                                                                                                       Target         Actual*        Result
 1.3.5   Value of FCIC risk protection coverage             $67.3         $89.9         $79.6           $77.9          $102.6          110.9        Exceeded
         provided through FCIC sponsored
         insurance ($billions)
 1.3.6   Normalized value of FCIC risk                      $50.6         $51.6         $51.4           $51.9           $52.4          $56.3           Met
         protection coverage provided through
         FCIC sponsored insurance ($billions)
 Rationale for Met Range: Annual targets for this measure have consistently seen a variation of plus or minus 4.4 percentage points. USDA’s value
 projection target is based on projections developed in November 2010, forecasted participation, and conditions current at that time. The baseline model uses
 the latest information from the crop insurance program and combines it with Department baseline projections for major crops. These crops include corn, wheat,
 soybeans, sorghum, barley, rice, and cotton. In making the projections, the model holds various factors constant, such as premium rates and average coverage
 level. The model assumes that all non-major crops produce yields consistent with USDA projections for major crops. The baseline model is a tool for developing
 budget projections contained in Presidential budget requests. The budget and performance projections for the crop insurance program depend on baseline
 projections from numerous agencies.

 •   Completeness of Data—The data used in conjunction with performance information are based on actual information reported through the
   end of the third quarter. To provide the annual data, USDA projects the results for the fourth quarter of the fiscal year based on prior year
   performance. Analysis has shown that normally 99 percent of the final actual data will be reported to the Department during the first quarter
   of the next fiscal year. USDA receives the actual data from insurance companies. It then maintains data through two integrated processing
   systems that validate the information. The data then is sent through the system to generate all accounting functions. These processing
   systems ensure that data received are accurate, errors are corrected quickly, and timely monthly accounting reports are provided.
 • Reliability of Data—USDA deems this information to be reliable. The insurance companies receive data from the producers and transmit
   them to the Department. Once received, USDA takes extensive steps to verify the data’s accuracy and validity. The Standard Reinsurance
   Agreement (SRA) also provides reinsured companies with disincentives for not following prescribed guidelines and procedures.
 • Quality of Data—Data are projected based on historical performance. The target information uses data dependent upon the baseline
   projections from numerous USDA agencies. To the extent that any of the Department’s projections are inaccurate, the projection of value
   will also be inaccurate.


Challenges for the Future
USDA’s challenge is to maintain the core crop insurance products that provide the farm financial safety net
for the vast majority of producers and rural communities. At the same time, the Department must expand
and improve insurance coverage and other risk management solutions, particularly for beginning producers,
underserved States, areas, communities, and crops without specific coverage. The Department continues to
explore ways to deliver more crop and livestock products. This research includes reviewing and approving


                                                        Annual Performance Report
                                                                    45
private-sector insurance products reinsured by FCIC for underserved areas and various specialty crops. The
current SRA also provides additional incentives for insurance companies to provide service in underserved
States.
Further development and pilot implementation of the Acreage/Crop Reporting Streamline Initiative
(ACRSI) can help reduce producer reporting burden and improve accuracy in reporting across agencies.
ACRSI is designed to streamline common reporting and processes within USDA. The Department is also
addressing the management systems and financial information technology costs associated with operating
and maintaining existing program data needs, and servicing service new and revised products.
1.3.7 Percent of industry compliance with the Packers and Stockyards Act
Overview
USDA measures its overall performance by annually measuring regulated entities’ compliance with the
Packers and Stockyards Act (P&S). P&S prohibits unfair, deceptive, unjustly discriminatory, and fraudulent
practices. It also bans regulated businesses from engaging in select anti-competitive practices.
The performance measure encompasses activities the Department conducts that directly or indirectly
influence industry compliance. The overall performance rate is a composite index of 5 program-wide audit
and inspection activities with the sample size set to yield 90-percent confidence when inferred to the
population of regulated entities. The index includes:
• Poultry dealer contract payment practices compliance reviews;
• Financial audits of the custodial accounts maintained by livestock markets;
• Financial audits of the prompt pay records of livestock dealers, markets, and packers;
• Inspection of all scales and weighing practices in all packing plants purchasing more than 1,000 head of
     livestock per year; and
• Inspection of carcass evaluation devices and practices for packing plants purchasing more than 1,000
     head of livestock per year.
The aggregated industry compliance rate index reflects the statutory and regulatory compliance of the
regulated industry with the P&S.
Analysis of Results
This performance measure was unmet. Industry compliance with P&S fell to 76 percent, sustaining 2008’s
improvement over the 75 percent rate of 2007. Results of the individual component inspections and audits
that comprise the aggregate index show some expected variation on a year-to-year basis when compared to
past compliance rates. The two areas of significance are the regulated livestock markets’ usage of custodial
accounts, 70 percent compliance compared to 72 percent in 2010, and the poultry contract compliance
review. The poultry contract compliance review is itself a composite index consisting of the four areas of
review: record maintenance, contract term compliance, trade practice, and prompt payment. For the first
three areas, USDA has no administrative enforcement authority. Recent Federal court rulings have decided
that a violation requires a showing of harm to industry competition. Because these are business practices
directed towards individual poultry growers without any likely harm to competition, the U.S. Department of
Justice has ruled that such referral cases will not be prosecuted. The recent addition of new poultry
regulations and the lack of administrative enforcement authority for the first three areas resulted in a low
53-percent compliance level. However, examining the poultry payment provision, upon which the
Department does have administrative authority, the compliance rate is 68 percent.

                                                                                      Fiscal Year 2011
    Annual Performance Goals, Indicators      2007   2008    2009       2010




                                           Annual Performance Report
                                                       46
                     and Trends                                                                                           Target         Actual        Result
 1.3.7   Percent of industry compliance with the              75%           80%            80%             80%             81%             76%         Unmet
         Packers and Stockyards Act
 Rationale for Met Range: An acceptable tolerance range for the performance index is plus-or-minus 5 percentage points. This accounts for the variabilty that
 can result in the composite index due external factors, such as the overall health of the economy.
                                                   Data Assessment of Performance Measure 1.3.7
 While the year-end value of 76-percent compliance scored significantly higher than the third quarter compliance rate of 71 percent, it missed
 the targe. The measure is subject to pressures from economic fluctuations and to some extent this has been a factor in a weaker than
 expected compliance.
 •   Completeness of Data— The industry compliance rate is a composite index taken as the simple average from five compliance areas: 1)
   the percent compliance of prompt payment by livestock markets, dealers, and packers; 2) custodial account compliance of livestock
   markets; 3) livestock scale checks for packers slaughtering more than 1,000 head of livestock; 4) livestock scale checks of livestock
   markets, dealers, and live poultry dealers; and 5) poultry contract payment compliance reviews. The data represent a complete statistical
   sample to achieve a 90-percent confidence level for the industry as a whole based on the samples of each of the 5 sample areas.
 • Reliability of Data— The compliance levels for random sample audits done with a 90-percent confidence level for these respective five
   areas was 82 percent (4 percent std. dev.), 67 percent (3 percent std. dev), 87 percent (2 percent std. dev.), 83 percent (4 percent std.
   dev.), and 80 percent (4 percent std. dev.). The standard deviations suggest the data are highly relable.
 • Quality of Data— In addition to the standard deviation of the estimates, which is based on additional Monte Carlo analysis of the data
   and, indicates that the estimated compliance measures are subject to relative low varaibility, an independent review of the sampling
   process is conducted to ensure that established standard operation procedures are followed during the on-site sampling process. Monte
   Carlo analysis is a computerized mathematical technique that allows people to account for risk in quantitative analysis and decision
   making.


Descriptions of Actions for Unmet Measures
While the fourth-quarter value of 76 percent compliance scored higher than the third-quarter compliance
rate of 71 percent, the total missed the target by 1 percentage point. The measure is subject to pressures
from economic fluctuations, which have been a factor in lower than expected compliance numbers. The
industry compliance rate is a composite index taken as the simple average from 5 compliance areas
including: 1) the percent compliance of prompt payment by livestock markets, dealers, and packers; 2)
custodial account compliance of livestock markets; 3) livestock scale checks for packers slaughtering more
than 1,000 head of livestock; 4) livestock scale checks of livestock markets, dealers, and live poultry dealers;
and 5) poultry contract payment compliance reviews. Industry compliance fluctuates with the economy.
Challenges for the Future
P&S compliance is determined by conducting random sample reviews either as financial audits or trade
practice inspections throughout the year. The data from the compliance reviews in general are summarized
as an index that measures three business practices and two financial practices for industry P&S compliance.
While additional focus on activities to achieve industry compliance has resulted in increased compliance,
general economic conditions within the industry will also affect year-to-year compliance. Weak economic
conditions may increase the incentive for industry non-compliance more quickly in the financial
components than in the business practice areas. As budget constraints impose a smaller enforcement
presence, a challenge will be to effectively allocate existing resources to best meet the varying enforcement
needs. To the degree that the compliance measure only has a 4-year history, understanding the interaction
of these variables and the overall compliance rate will be a challenge USDA confronts in future years.

Strategic Goal 2:               Ensure Our National Forests and Private Working Lands are Conserved,
                                Restored, and Made More Resilient to Climate Change, While Enhancing
                                Our Water Resources



                                                        Annual Performance Report
                                                                    47
America’s prosperity is inextricably linked to the health of its lands and natural resources. Forests, farms,
ranches, and grasslands offer enormous environmental benefits as a source of clean air, clean and abundant
water, and wildlife habitat. These lands generate economic value by supporting the vital agriculture and
forestry sectors, attracting tourism and recreation visitors, sustaining green jobs. They are also of immense
social importance, enhancing rural quality of life, sustaining scenic and culturally important landscapes, and
providing opportunities to engage in outdoor activity and reconnect with the land.
Federal, tribal, State, and private lands face increasing threats from climate change, catastrophic wildfires,
intense floods and drought, air and water pollution, aggressive diseases and pests, invasive species, and
development pressures. These threats result in land and water conversion and reduced wildlife habitat. At
the same time, there are immense opportunities to capture and increase the environmental, economic, and
social benefits these lands provide. USDA plays a pivotal role in protecting and restoring America’s forests,
farms, ranches, and grasslands while making them more resilient to threats and enhancing natural resources.
The Department partners with private landowners to help protect the Nation’s 1.3 billion acres of farm,
ranch, and private forestlands. As public land stewards, USDA works to conserve and restore 193 million
acres of National Forests and Grasslands in the National Forest System. The Department also partners with
Federal, tribal, and State Governments, and non-Governmental organizations to assist land and natural
resource managers and connect people to the Nation’s magnificent lands.
USDA is also a key player in the President’s America’s Great Outdoors Initiative to build a 21st century
conservation agenda, based on the experience and ideas of people from across the country. The goal of the
initiative is to conserve natural resources, both public and private, while reconnecting Americans to the
outdoors.
OBJECTIVE 2.1: RESTORE AND CONSERVE THE NATION’S FORESTS, FARMS, RANCHES AND GRASSLANDS
2.1.1: Conservation Reserve Program restored wetland acreage
Overview
USDA’s Conservation Reserve Program (CRP) allows producers to plant long-term, resource-conserving
covers to improve the quality of water, control soil erosion, and enhance wildlife habitat on land. In return,
the Department provides participants with rental payments and cost-share assistance. Contract terms run
between 10 and 15 years. CRP is designed to restore and enhance wetland areas, increase sediment trapping
efficiencies, improve water quality, prevent soil erosion, and provide habitat for waterfowl and other wildlife.
The program includes several initiatives for wetland restoration and enhancement. CRP wetland initiatives
include a 500,000-acre Floodplain Restoration Initiative, a 250,000-acre Bottomland Hardwood Timber
Initiative, a 250,000-acre Non-Floodplain and Playa Wetland Restoration Initiative, and a 150,000-acre
Prairie Pothole Duck Nesting Habitat Initiative.
Analysis of Results
USDA has CRP contracts with landowners covering 2.21 million acres of wetlands as of July 2011,
exceeding its FY 2011 target of 2.05 million acres. The Department has made substantial progress in
protecting watershed health and enhancing soil quality. Total CRP enrollment stands at 31.3 million acres.
These acres annually reduce soil erosion by 325 million tons, and nitrogen, phosphorus, and sediment by
more than 85 percent, and sequester over 44 million metric tons of carbon dioxide.
CRP also contributes to increased wildlife populations, and has added more than 2 million ducks to the
Prairie Pothole Region annually, protected Sage Grouse populations in Eastern Washington and Lesser
Prairie Chicken populations in the Great Plains, and increased ring-necked pheasant and other grassland
bird populations.



                                       Annual Performance Report
                                                   48
              Performance Measure                          2007         2008         2009            2010             2011            2011           Results
                                                                                                                     Target          Actual
 2.1.1 CRP restored wetland acreage                        2.08         1.98          2.04           2.05             2.05            2.21*         Exceeded
        (millions of acres)
 *The FY 2011 result is estimated based on three quarters of actual data and a fourth-quarter projection.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range of 2.00-2.10 million acres, as the threshold
 is +/-.05
                                                   Data Assessment of Performance measure 2.1.1
 The data source for this measure is the National CRP Contract Data Files
 •   Completeness of Data - The targets and actual data are annual. Data are based on estimated results through September 30, 2011. The
   measure reports national acres under contract with the following wetland practices: Wetland Restoration, Marginal Pastureland Buffers,
   Bottomland Trees, and Shallow Water Areas for Wildlife, and Farmable Wetlands Programs. There are no known data limitations. Acres
   reported include associated upland buffers.
 • Reliability of Data – USDA considers the data to be reliable. CRP is authorized through FY 2012.
 • Quality of Data - The Department is looking into quantifying the environmental functions provided by CRP wetland restoration. When
   available, these estimates may also be used to track performance.


Challenges for the Future
In FY 2010, the Food, Conservation, and Energy Act of 2008 dropped CRP enrollment authority to no
more than 32 million acres. FY 2011 enrollment is expected to end at about 31.3 million acres. The 6.5
million acres of CRP expiring in FY 2012, combined with relatively high commodity prices, will present
USDA with a challenge in maintaining CRP’s conservation benefits.
The Department remains strongly committed to attaining its conservation objectives. Special focus will be
placed on accelerating the protection of clean, abundant water resources, one of USDA’s Agency Priority
Goals. USDA will seek new wetland contracts for more than 50,000 acres in FY 2012 and pursue contracts
covering 40,000 acres to fulfill riparian buffer and grass filter strip goals. The Department will also continue
to support initiatives designed to improve wildlife habitat, including the 350,000-acre upland bird buffer,
the 150,000-acre Duck Nesting Habitat Initiative, and the State Acres for Wildlife Enhancement initiative
(an 850,000-acre initiative announced in FY 2007 to improve habitat for endangered, threatened, or high-
priority fish and wildlife species). In addition, USDA will continue the 250,000-acre initiative to restore the
longleaf pine.
2.1.2 CTA: Cropland with conservation applied to improve soil quality; and
2.1.3 EQIP: Cropland with conservation plans applied to improve soil quality
Overview
USDA assists private landowners and managers in improving soil quality. Soil is the foundation for
maintaining working productive farms and ranches. The Department measures the impact of maintaining or
enhancing sustained production of a safe, healthy, and abundant food supply. The two primary focuses for
soil quality on cropland are reducing erosion and increasing organic matter. Reducing soil erosion saves the
“topsoil” — the rich upper layer that supports the majority of the plant’s life cycle. Intensive agricultural
work can reduce soil organic matter (carbon) over time. This process reduces the soil’s ability to efficiently
hold nutrients and water. Maintaining and increasing the percentage of organic matter in our soils is vital to
retaining the ability to feed ourselves as a nation. Conservation practices that improve soil quality keep the
soil from eroding off the land, improve water infiltration, reduce soil temperature, and increase soil carbon.
USDA establishes technical specifications for conservation practices. These specifications ensure that public
investment for conservation is in accordance with scientific data demonstrating the desired outcome.




                                                        Annual Performance Report
                                                                    49
Analysis of Results
USDA met this performance measure. The Department offers various conservation planning efforts and
programs. In turn, agricultural producers apply various conservation practices and implement recommended
best management practices. This work led to measurable progress in reducing soil erosion, improving water
quality by reducing sedimentation, and improving organic matter content in agricultural soils by
sequestering carbon.

                                                                                                                           Fiscal Year 2011
          Annual Performance Goals,                 2007             2008           2009           2010
            Indicators, and Trends                                                                                Target         Actual       Result

  2.1.2    Cropland with conservation
           applied to improve soil quality           7.3              8.3            7.6            8.2             7.7            7.0          Met
           (CTA - millions of acres)
  2.1.3    Cropland with conservation
           plans applied to improve soil             5.3              5.6            4.8            4.8             4.8            4.3          Met
           quality (EQIP - millions of acres)
  Rationale for Met Range: Estimated performance October 1, 2010 through September 30, 2011. Data assessment metrics to meet the target allow for an
  actual number in the range 6.9 (90 percent) – 8.5 (110 percent) for CTA and 4.3 (90 percent) – 5.3 (110 percent) for EQIP.
  The sources of data for all performance measures are the National Conservation Planning Database (NCP), the Program Contracts
  Database (ProTracts) and the Performance Results System (PRS).
  • Completeness of Data—The performance reported for these measures is based on actual data reported for FY 2011. Numerous data
     quality mechanisms within PRS ensure the completeness of each performance record entered into the system. All conservation practices
     that are applied have been certified in NCP by a qualified conservation planner, and certified as complete and final by the State
     conservationist by September 30 of each fiscal year.
  • Reliability of Data—For FY 2011, the data reported for these performance measures were calculated within PRS based on information
     validated and retrieved from the NCP and ProTracts. Conservation practices are planned in consultation with the customer and included
     in conservation plans stored in NCP. Periodic reviews are conducted to assess the accuracy of reported data.
  • Quality of Data—Overall, quality of the data is good. Field staffs, trained and skilled in conservation planning, and application suited to
     the local resource conditions, report performance where the conservation work is occurring. Error checking enhancements and reports
     within the PRS application maintain data quality allowing users at local, State and national levels to monitor data inputs. Data on the
     linkage of programs and conservation practices applied are accurate because the conservation program responsible for applying each
     practice is documented in the conservation plan developed in Toolkit. The same land unit may benefit from the application of more than
     one conservation practice and program. Where multiple practices are applied with multiple programs on the same land unit, each program
     is credited under the performance measure.
Challenges for the Future
Improved soil quality on America’s cropland is vital to meeting the challenges of the future, especially with
respect to climate change. Organic matter increases the capacity of the soil to take in and hold onto water.
Thus during periods of heavier rainfall, more water is retained by the soil. During periods of lesser rainfall
the water can be extracted by the plant, much in the same manner as a sponge releases water when squeezed.
Increasing organic matter through carbon sequestration reduces the amount of carbon dioxide (considered a
greenhouse gas) in the atmosphere, possibly mitigating impacts of carbon emissions elsewhere.
Demands for agricultural products, food, fiber, and energy continue to increase as populations grow. These
demands can easily compromise soil heath and quality, reducing its ability to produce at previous levels.
Sustainable agricultural, producing agricultural products in a manner so that the natural resources are
maintained or enhanced, is necessary to meet the demands of tomorrow.




                                                      Annual Performance Report
                                                                  50
2.1.4  CTA: Grazing land and forest land with conservation applied to protect and improve the resource base;
       and
2.1.5 EQIP: Grazing land and forest land with conservation plans applied to protect and improve the
       resource base
Overview
Grazed forest, range, and grasslands comprise nearly 55 percent of the Nation’s total land area. Applying
properly planned conservation practices to improve and protect these lands is essential to maintaining the
productive working farms and ranches necessary to provide for sustainable production of sufficient food and
fiber for an ever-increasing population. In turn, the health and prosperity of the rural communities that
depend on agriculture is insured. Maintaining the ability to produce a cheap and bountiful supply of food
and fiber will allow Americans to continue to have the lowest percentage of annual income spent on food,
clothing, and shelter of any nation in the world.
Analysis of Results
USDA met the targets for these measures. These conservation practices benefit the public with sustained
grazing and forest land ecological health while making the resource base more resilient to climate. These
benefits include improved water quantity and off-site water quality, by reduced run-off and soil erosion,
increased carbon sequestration, and reduced competition from invasive species on native plants.
Forest land, range, and grasslands further enhance the quality of rural life through such additional
environmental benefits as clean air and abundant wildlife habitat.

                                                                                                                               Fiscal Year 2011
       Annual Performance Goals,                         2007             2008            2009           2010
         Indicators, and Trends                                                                                       Target       Actual       Result
 2.1.4 Grazing land and forest land with
       conservation applied to protect and               12.2              16.5           16.0            17.6          15.6         16.4         Met
       improve the resource base (CTA –
       millions of acres)
 2.1.5 Grazing land and forest land with
       conservation plans applied to                     16.5              16.9           17.2            17.5          15.7         15.2         Met
       protect and improve the resource
       base (EQIP – millions of acres)
 Rationale for Met Range: Estimated performance October 1, 2010, through September 30, 2011. Data assessment metrics to meet the target allow for an
 actual number in the range 14.0 (90 percent) – 17.2 (110 percent) for CTA and EQIP.
 The sources of data for all performance measures are the National Conservation Planning Database (NCP), the Program Contracts Database
 (ProTracts) and the Performance Results System (PRS).
  •   Completeness of Data— The performance reported for these measures is based on actual data reported for FY 2011. Numerous data
    quality mechanisms within PRS ensure the completeness of each performance record entered into the system. All conservation practices
    that are applied have been certified in NCP by a qualified conservation planner, and certified as complete and final by the State
    conservationist by September 30 of each fiscal year.
 • Reliability of Data— For FY 2011, the data reported for these performance measures were calculated within PRS based on information
   validated and retrieved from the NCP and ProTracts. Conservation practices are planned in consultation with the customer and included in
   conservation plans stored in NCP. Periodic reviews are conducted to assess the accuracy of reported data.
 • Quality of Data— Overall, quality of the data is good. Field staffs, trained and skilled in conservation planning, and application suited to
   the local resource conditions report performance where the conservation work is occurring. Error checking enhancements and reports
   within the PRS application maintain data quality allowing users at local, State and national levels to monitor data inputs. Data on the
   linkage of programs and conservation practices applied are accurate because the conservation program responsible for applying each
   practice is documented in the conservation plan developed in Toolkit. The same land unit may benefit from the application of more than
   one conservation practice and program. Where multiple practices are applied with multiple programs on the same land unit, each program
   is credited under the performance measure.




                                                      Annual Performance Report
                                                                  51
Challenges for the Future
Producers’ willingness and ability to implement conservation measures on private forest land, range, and
grasslands is affected by economic conditions, climate variability, drought, and invasive species. An
uncertain economic climate will increase the threat of conversion of these lands to non-agricultural uses.
In many areas, especially in the west, watersheds and landscapes include public land managed by several
Federal agencies intermingled with private, State and Tribal lands. Protecting the natural resources in these
areas requires cooperation among a large number of stakeholders, especially when taking a watershed
approach.
2.1.6  FRPP: Prime, unique, or important farmland protected from conversion to non-agricultural uses by
       conservation easements
Overview
Prime, unique and important farmland is critical to sustainable food production and the nation’s food
security. Farmland has the best combination of physical and chemical characteristics for producing food and
fiber. USDA maintains productive working farms and ranches by providing the financial and technical
assistance to protect prime, unique, and important farmland from conversion to other uses. Through the
Farm and Ranch Protection Program (FRPP), the Department partners with private farm and ranch land
owners, State and local Governments, and non-profit organizations to preserve working farms permanently.
Analysis of Results
USDA met its goal. The farms and ranches enrolled in FRPP ensure the preservation of open space along
with the natural amenities they provide.
Support and participation among State, tribal, local entities, non-Governmental organizations, and
landowners was strong and resulted in leveraging $2 for every Federal dollar invested. USDA also develops
conservation plans for those acres accepted into FRPP. The Department reviews and monitors the
cooperative agreements and easements, and processes payments.




                                       Annual Performance Report
                                                   52
         Annual Performance Goals                       2007            2008             2009             2010                    Fiscal Year 2011
           Indicators, and Trends                                                                                         Target       Actual       Result
 2.1.6   FRPP: Prime, unique, or important
         farmland protected from                        53.6            38.3             38.2             53.9             45.0         51.0       Exceeded
         conversion to nonagricultural uses
         by conservation easements
         (thousands of acres)
 Prior year data for 2007 and 2008 recomputed for FY11 with no change in “met” status.
 Rationale for Met Range: Estimated performance October 1, 2010, through September 30, 2011. Data assessment metrics to meet the target allow for an
 actual number in the range 40.5 (90 percent) – 49.5 (110 percent).
 The sources of data for this measure is National Easements Staging Tool (NEST) and the Performance Results System (PRS).
 • Completeness of Data— The performance reported for these measures is based on actual data reported for FY 2011. All easements
    have been recorded at the courthouse as of the closing date. The data are certified as complete and final by the State Conservationist by
    September 30 of each fiscal year.
 • Reliability of Data— For FY 2011, the data reported for these performance measures were calculated within PRS based on information
    validated and retrieved from the NCP and NEST. Periodic reviews are conducted to assess the accuracy of reported data.
 • Quality of Data— Overall, quality of the data is good. State and National staff trained in easement acquisition and agreement
    management oversee the quality of the program and all FRPP operations.


Challenges for the Future
The value of farmland is increasing. This rise may decrease the amount of prime, unique, and important
farmland acreage FRPP can protect. Although local farmland protection programs have grown in the last
decade, the demand for agricultural easements outpaces available funds. Economic and budget challenges in
State and local Governments will affect their ability to match FRPP funds.
2.1.7 WHIP: Non-Federal land with conservation applied to improve fish and wildlife habitat quality
Overview
Nearly 70 percent of the fish and wildlife habitat in the U.S. is on privately owned lands. USDA provides
private landowners financial and on-site technical assistance. This assistance helps them assess the quality of
wildlife habitat practices necessary to restore or enhance that habitat, and a management plan to sustain the
habitat.
Analysis of Results
USDA exceeded the performance target. The expanded wildlife initiatives generated additional interest this
fiscal year, bringing about more participation. In addition, USDA received more allocation for the program,
along with streamlined operations that contributed to a 98-percent rate of contract obligation. More than
1.2 million acres of habitat were improved for wildlife on Federal and State Threatened and Endangered
Species Lists, and other species of concern through focused initiatives.

                                                                                                                                   Fiscal Year 2011
          Annual Performance Goals,                         2007            2008            2009             2010
             Indicators, and Trends                                                                                       Target       Actual        Result
2.1.7    WHIP: Non-Federal land with
         conservation applied to improve fish and           388.8           316.9           335.4            876.9         1,000        1,200      Exceeded
         wildlife habitat quality (thousands of
         acres)
Rationale for Met Range: Measure definition was revised in FY 2010 from 3 wildlife management practices to the full suite of 17 practices used to provide
improvements to wildlife habitat. While these practices have always been used for wildlife habitat improvement, they were excluded from the measure definition.
Values for FY 2007 through FY 2009 are estimates based on the revised definition. They reflect the long-term use of these practices. Estimated performance runs
from October 1, 2010, through September 30, 2011. Data assessment metrics to meet the target allow for an actual number in the range 900,000 (90 percent) –
1,100,000 (110 percent).




                                                        Annual Performance Report
                                                                    53
                                                                                                                                   Fiscal Year 2011
          Annual Performance Goals,                         2007            2008            2009             2010
            Indicators, and Trends                                                                                        Target       Actual        Result
The sources of data for all performance measures are the National Conservation Planning Database (NCP), the Program Contracts Database
(ProTracts), and the Performance Results System (PRS).
• Completeness of Data— The performance reported for these measures is based on actual data reported for FY 2011. Numerous data
   quality mechanisms within PRS ensure the completeness of each performance record entered into the system. All conservation practices
   that are applied have been certified in NCP by a qualified conservation planner, and certified as complete and final by the State
   Conservationist by September 30 of each fiscal year.
• Reliability of Data— For FY 2011, the data reported for these performance measures were calculated within PRS based on information
   validated and retrieved from the NCP and ProTracts. Conservation practices are planned in consultation with the customer and included in
   conservation plans stored in NCP. Periodic reviews are conducted to assess the accuracy of reported data.
• Quality of Data— Overall, quality of the data is good. Field staffs, trained and skilled in conservation planning, and application suited to the
   local resource conditions, report performance where the conservation work is occurring. Error checking enhancements and reports within the
   PRS application maintain data quality allowing users at local, State and national levels to monitor data inputs. Data on the linkage of
   programs and conservation practices applied are accurate because the conservation program responsible for applying each practice is
   documented in the conservation plan developed in Toolkit. The same land unit may benefit from the application of more than one
   conservation practice and program. Where multiple practices are applied with multiple programs on the same land unit, each program is
   credited under the performance measure.


Challenges for the Future
USDA works with other agencies and private organizations to provide producers with technical and
financial assistance, information and other resources to evaluate and encourage the adoption of conservation
measures, and management practices beneficial to wildlife. Many wildlife projects are supported by a
combination of Federal, State, local, and private funds. With State and local budget issues continuing,
constraints may impact project evaluations and implementation. Commodity prices, economic conditions,
weather, and developmental pressures can impact the ability and willingness of agricultural producers to
invest in wildlife habitat unless there are clearly multiple benefits, like improved grazing conditions, as well.
2.1.8 Acres protected from conversion through easements and fee-simple purchases
Overview
USDA is working with farmers, ranchers, and forest landowners to maintain working lands and preserve
open space. Conservation across a landscape is essential to address large-scale conservation issues, such as
resilience to climate change, conservation of water resources, reduction of wildfire risk, and protection of at-
risk species. Conservation also ensures that traditional uses of private lands and public values of forest
resources are protected for future generations.
Analysis of Results
USDA did not meet the target for this measure. The Department makes strategic investments to purchase
land or conservation easements. These projects are focused where public benefits are highest, the conversion
to non-forest uses is likely, watershed and critical habitat are protected, wetlands are maintained, cultural
resources are preserved, and previous conservation investments are leveraged.

                                                  2007           2008         2009          2010                         Fiscal Year 2011
      Annual Performance Goals,
        Indicators and Trends                                                                                Target               Actual            Result
 2.1.8   Acres protected from                     1,574         1,727         1,924         2,225             2,494               2,245             Unmet
         conversion through easements                                                                                          (estimated)
         and fee-simple purchases
         (thousands of acres,
         cumulative)
 Rationale for Met Range: A variance within 5 percent of the target would be considered met for this measure. Actual accomplishment is projected to be closer




                                                         Annual Performance Report
                                                                     54
                                                  2007           2008           2009         2010                  Fiscal Year 2011
      Annual Performance Goals,
        Indicators and Trends                                                                          Target              Actual           Result
 to a 10-percent variance.

                                                   Data Assessment of Performance Measure 2.1.8
 •   Completeness of Data — Values shown are estimated FY 2011 data.
 •   Reliability of Data — All data for land acquisition programs are reported through the Forest Legacy Information System and the Land
   Status Record system within the National Forest System. Forest Legacy and land acquisition program managers collect, compile and
   analyze the data.
 • Quality of Data -- The data for open space conservation are reliable and of good quality.


Descriptions of Actions for Unmet Measures
Annual acres protected vary due to the difficulty of predicting the timing of real estate transaction closings.
Landowner preferences play a large role. Although the demand was met, it was not as high as the target.
Challenges for the Future
Since real estate negotiations are very unpredictable, it can take longer for a project to be completed than
was originally predicted. In addition, real estate transactions typically take about 2 years to close, so there
can be a time lag between annual funding and accomplishments.
OBJECTIVE 2.2: PROTECT AND ENHANCE AMERICAS WATER RESOURCES
2.2.1 CTA: Comprehensive nutrient management plans applied (CTA, number of plans); and
2.2.2 EQIP: Comprehensive nutrient management plans applied (EQIP, number of plans)
Overview
USDA assists landowners and managers in keeping the water, soil, nutrients, and pesticides on-site. The
Department measures success in this objective through the number of Comprehensive Nutrient
Management Plans (CNMP) applied during the fiscal year. A CNMP is an integrated set of conservation
practices, which together address the agricultural sources of nutrients that could be carried offsite. These
elements include feed and fertilizer, secure storage, nutrient inputs, and erosion control. CNMP, when fully
implemented, helps maximize use of nutrient resources, i.e. manure, and protect ground and surface water
quality.
Analysis of Results
The targets for both CTA and EQIP measures were met. Almost 3,000 CNMPs were applied during 2011.
These efforts resulted in millions of acres of conservation practices applied to improve surface and
groundwater quality. The impact of these plans and practices is the direct reduction of nutrients and
sediment in ground and surface water. This process reduces the number of watersheds that are listed by the
U.S. Environmental Protection Agency as having impaired water quality.

                                                                                                                        Fiscal Year 2011
       Annual Performance Goals,                         2007            2008              2009     2010
          Indicators, and Trends                                                                             Target       Actual           Result
2.2.1. CTA: Comprehensive nutrient
       management plans applied (number                  1,911          1,745              1,485    1,349     1,350        1,230            Met
       of plans)
2.2.2 EQIP: Comprehensive nutrient
       management plans applied*                         2,490          2,520              2,019    1,739     1,500        1,350            Met
       (number of plans)
*Language differs from Annual Performance Plan due to a typographical error in the Plan.
The measure “CNMPs Applied” will become a legacy measure after FY 2011. A more accurate measure of USDA impacts on water resource protection on



                                                         Annual Performance Report
                                                                     55
                                                                                                                            Fiscal Year 2011
        Annual Performance Goals,                       2007           2008            2009           2010
          Indicators, and Trends                                                                                 Target       Actual           Result
agricultural lands will be used beginning in FY 2012.

Rationale for Met Range: Estimated performance runs from October 1, 2010, to September 30, 2011. Data assessment metrics to meet the target allow for an
actual number in the range 1,215 (90 percent) – 1,485 (110 percent) for CTA, and 1,350 (90 percent) – 1,650 (110 percent), for EQIP.
The sources of data for all performance measures are the National Conservation Planning Database (NCP), the Program Contracts Database
(ProTracts) and the Performance Results System (PRS).
• Completeness of Data— The performance reported for these measures is based on actual data reported for FY 2011. Numerous data
   quality mechanisms within PRS ensure the completeness of each performance record entered into the system. All conservation practices
   that are applied have been certified in NCP by a qualified conservation planner, and certified as complete and final by the State
   conservationist by September 30 of each fiscal year.
• Reliability of Data— For FY 2011, the data reported for these performance measures were calculated within PRS based on information
   validated and retrieved from NCP and ProTracts. Conservation practices are planned in consultation with the customer and included in
   conservation plans stored in NCP. Periodic reviews are conducted to assess the accuracy of reported data.
• Quality of Data— Overall, quality of the data is good. Field staffs, trained and skilled in conservation planning, and application suited to the
   local resource conditions, report performance where the conservation work is occurring. Error checking enhancements and reports within the
   PRS application maintain data quality allowing users at local, State and national levels to monitor data inputs. Data on the linkage of
   programs and conservation practices applied are accurate because the conservation program responsible for applying each practice is
   documented in the conservation plan developed in Toolkit. The same land unit may benefit from the application of more than one
   conservation practice and program. Where multiple practices are applied with multiple programs on the same land unit, each program is
   credited under the performance measure.


Challenges for the Future
The quality of ground and surface waters to support intended uses is a continuing concern, as is the supply
of these waters to meet expanding demand. Since CNMPs are reported only after all identified practices are
installed, postponing installation of one or more practices will seriously impact performance relative to
anticipated targets. In most cases, low- or no-cost agronomic and management practices are applied on
schedule. It is the capital costs associated with engineered practices for which there is no immediate
financial return that are most impacted by an uncertain economy. The installation of completed and
integrated CNMPs is getting increasingly difficult for economic reasons. Additionally, there are a limited
number of producers that are willing to pursue a complete CNMP. USDA is developing a more accurate
measure of water quality outcomes from its work with producers. It will be developing baselines and targets
for this measure in 2012.
2.2.3  CTA: Priority landscapes with high-impact targeted conservation practices applied to improve water
       quality
Overview
USDA ensures that national forests and private working lands enhance water resources, and are conserved,
restored, and made more resilient to climate change. Secretary Vilsack has identified protecting the nation’s
water resources as one of his top conservation objectives. He also has elevated it as one of USDA’s High
Priority Performance Goals (HPPGs) that the President is spotlighting in a special initiative. This initiative
is designed to publicly track Government-wide performance. To accelerate the protection of clean, abundant
water resources, the Department implemented high impact targeted (HIT) practices in priority watersheds.
These HIT practices represent an integrated approach to achieve measurable results in water quality and
water use efficiency as measured by the 2-year HPPG for water (FY 2010 and FY 2011):
To measure this goal’s progress, USDA focused on landscapes of national interest: Chesapeake Bay,
Mississippi River, Great Lakes, and Bay Delta-Sierra Nevada basins. They were selected based on a
combination of scientific principles and a collaboration of Federal, State and local officials. In these four


                                                        Annual Performance Report
                                                                    56
priority watershed basins, the Department focused and measured the investment in conservation activities
that improve water quality.
Analysis of Results
USDA has met its performance target for HIT practices in priority watersheds. The Department used
existing funding and programs in targeted areas to protect the water supply.

        Annual Performance Goals,                     2007            2008             2009              2010                   Fiscal Year 2011
          Indicators, and Trends                                                                                        Target        Actual       Result
2.2.3   CTA: Priority landscapes with high
        impact targeted conservation                   N/A             N/A             N/A                1.9             2.0           1.8          Met
        practices applied to improve water
        quality (millions of acres)
Rationale for Met Range: Estimated performance runs from October 1, 2010, to September 30, 2011. Data assessment metrics to meet the target allow for an
actual number in the range 1.8 (90 percent) – 2.2 (110 percent).
The sources of data for all performance measures are the National Conservation Planning Database (NCP), the Program Contracts Database
(ProTracts) and the Performance Results System (PRS).
• Completeness of Data — The performance reported for these measures is based on actual data reported for FY 2011. Numerous data
   quality mechanisms within PRS ensure the completeness of each performance record entered into the system. All conservation practices that
   are applied have been certified in the NCP by a qualified conservation planner
• Reliability of Data — For FY 2011, the data reported for these performance measures were calculated based on information retrieved from
   the NCP through a spatial layer of priority landscape boundaries and sorted by priority area. While the data are reliable, as they are based on
   NCP applied and certified practices, the spatial layer boundaries were not housed in the same database as the NCP and ProTracts data. A
   special query and data collation was needed, requiring an update to the data calculation methodology in FY 2012.
• Quality of Data — Overall, quality of the data is good. Field staffs, trained and skilled in conservation planning, and application suited to the
   local resource conditions report performance where the conservation work is occurring. Error checking enhancements and reports within the
   PRS application maintain data quality allowing users at local, State, and national levels to monitor data inputs. Data on the linkage of
   programs and conservation practices applied are accurate because the conservation program responsible for applying each practice is
   documented in the conservation plan developed in Toolkit. The same land unit may benefit from the application of more than one
   conservation practice and program. Where multiple practices are applied with multiple programs on the same land unit, each program is
   credited under the performance measure.


Challenges for the Future
Attention is now turning toward developing a collective three-agency performance metric for water
conservation. To do this, USDA uses the multi-agency Conservation Effects Assessment Project to quantify
the environmental benefits of conservation practices. Watershed-based assessments are directed at
evaluating interactions among practices and hydrology in the landscape. With additional knowledge of the
dynamic relationship between conservation activities undertaken on individual farms and ranches and the
resulting off-site benefits, the Department can more effectively utilize its programs on the ground, and
measure outcomes of public investment.
2.2.4 WRP: Wetlands created, restored or enhanced
Overview
The continental U.S. has lost more than 50 percent of the historical 220 million wetland acres that once
existed. Some States have lost more than 90 percent of their wetland acreage. Protection and restoration,
creation or enhancement of wetland ecosystems is important in protecting source water and improving water
quality. This work also provides fish and wildlife habitat, sequesters carbon, stores floodwaters, and
maintains surface water flows during seasonal dry periods. The greatest potential for wetland restoration
exists on private lands since more than 70 percent of our land is owned privately.




                                                      Annual Performance Report
                                                                  57
Analysis of Results
USDA met the target. Restoration, creation, or enhancement of wetlands and their associated functions and
values directly impacts the protection and enhancement of America’s water resources. This process reduces
impairments to all bodies of water. Healthy and productive wetland ecosystems filter sediment and other
pollutants from surface and ground water. They also slow run-off, aid ground water re-charge, and reduce
the overall temperature in surrounding waters.
These restored, created, or enhanced wetlands also provide critical habitat for wildlife, especially species
listed as threatened or endangered. More than one-third of listed threatened and endangered species depend
on wetlands — home to almost one-third of plant species. A study by the U.S. Fish and Wildlife Service
(FWS) examined the effect of wildlife land restoration in North Dakota, South Dakota, and northeastern
Montana. FWS estimated that the duck population grew by an average of 2 million birds annually between
1994 and 2004. This 30-percent increase compares to the same area without USDA’s assistance.
Wetlands are a valuable source of recreational benefits. They generate billions of dollars annually in
wetland-related hunting, fishing, and non-consumptive wildlife related activities.

    Annual Performance Goals,                  2007             2008              2009             2010                     Fiscal Year 2011
      Indicators, and Trends                                                                                       Target          Actual         Result
 2.2.4   WRP: Wetlands created,
         restored or enhanced                  149.3            128.9             106.4           129.1             125.0           115.0          Met
         (thousands of acres)
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 112,500 (90 percent) – 137,000 (110 percent).
 The sources of data for all performance measures are the National Conservation Planning Database (NCP), the Program Contracts Database
 (ProTracts), and the Performance Results System (PRS).
 • Completeness of Data— The performance reported for these measures is based on actual data reported for FY 2011. Numerous data
    quality mechanisms within PRS ensure the completeness of each performance record entered into the system. All conservation practices
    that are applied have been certified in the NCP by a qualified conservation planner, and certified as complete and final by the State
    conservationist by September 30 of each fiscal year.
 • Reliability of Data— For FY 2011, the data reported for these performance measures were calculated within PRS based on information
    validated and retrieved from the NCP and ProTracts. Conservation practices are planned in consultation with the customer and included in
    conservation plans stored in NCP. Periodic reviews are conducted to assess the accuracy of reported data.
 • Quality of Data— Overall, quality of the data is good. Field staff, trained and skilled in conservation planning, and application suited to
    the local resource conditions, report performance where the conservation work is occurring. Error checking enhancements and reports
    within the PRS application maintain data quality allowing users at local, State and national levels to monitor data inputs. Data on the
    linkage of programs and conservation practices applied are accurate because the conservation program responsible for applying each
    practice is documented in the conservation plan developed in Toolkit. The same land unit may benefit from the application of more than
    one conservation practice and program. Where multiple practices are applied with multiple programs on the same land unit, each program
    is credited under the performance measure.


Challenges for the Future
Commodity prices, economic conditions, weather, and developmental pressures can impact the ability and
willingness of agricultural producers to restore and protect wetland and habitat areas. In hard or uncertain
economic times, producers are less willing to make long-term commitments regarding the use of their land,
particularly when it requires removing land from direct production of food and fiber.
2.2.5   Acres of High Impact Targeted (HIT) practices implemented on National Forest Service (NFS) lands and
       private lands in priority landscapes to protect clean, abundant water
Overview
USDA is applying high impact targeted (HIT) practices to accelerate the protection of clean, abundant
water resources. HIT practices include such actions as implementing soil and water improvements,

                                                       Annual Performance Report
                                                                   58
maintaining and decommissioning roads, reclaiming abandoned mines, establishing vegetation in burned
over areas, reducing hazardous fuels, and treating insect and disease issues within forested landscapes. These
actions are focused in landscapes of national importance, which include the Bay–Delta, Sierra Nevada, the
Great Lakes, the Chesapeake Bay, and the Mississippi River.
Analysis of Results
The target was unmet. The target of 600,000 acres for FY 2011 was established in 2010, based on an earlier
version of Landscapes of National Interest. The earlier version assumed a higher number of contributing
national forests. In subsequent refinements, the HPPG water team dropped some key areas of potential FS
contribution.

     Annual Performance Goals, Indicators and
                     Trends                                      2007          2008           2009         2010                  Fiscal Year 2011
                                                                                                                        Target         Actual        Result
 2.2.5   Acres of HIT practices implemented on NFS
         and private lands in priority landscapes to
         protect clean, abundant water (millions of              N/A            N/A           N/A           .41           .60            .33         Unmet
         acres)
                                                   Data Assessment of Performance Measure 2.2.5
 The data for HIT practices acres are reliable and of good quality. USDA watershed and other program managers collected, compiled, and analyzed the data.
 Rationale for Met Range: The target of 600,000 acres for FY 2011 was established in 2010, based on an earlier version of landscapes of national interest. The
 earlier version assumed a higher number of contributing national forests. In subsequent refinements, the High-Priority Performance Goal (HPPG) water team
 dropped some key areas of potential contribution. Based on the current boundaries, the 2010 target of 410,000 acres may also be a more appropriate level for
 FY 2011. The Department is on track to achieve this level.
 •   Completeness of Data — Values shown are estimated FY 2011 data.
 •   Reliability of Data — All data for HIT practices were reported through several systems of record and are pulled from the Performance
   Accountability System. (PAS). Program staff calculate the final acre total, which is the sum of acres treated and recorded under several
   measure codes in PAS.
 • Quality of Data — The quality of these data is monitored continuously, and being improved with focused training and policy direction on
   reporting requirements. Data are projected based on historical performance and year-to-date actual accomplishments.

Descriptions of Actions for Unmet Measures
USDA adjusted its priority after the target was established, which resulted in less acreage eligible to be
counted under this measure. An adjusted target level for subsequent years—based on new boundaries—will
more accurately reflect all contributions to the USDA HIT practices measure. A more encompassing
measure, one of the President’s High Priority Performance Goals, includes the acreage represented by the
measure above, as well important acreage in more populous areas with crucial need for clean water. The
High Priority measure was met, and is discussed in the Management’s Discussion and Analysis section of
this report (Section 1).
Challenges for the Future
The Department continues to work with its partner agencies to identify a meaningful outcome measure.
The measure would better demonstrate the long-term impact of HIT practices on priority landscapes. It
also would better determine ways to translate those outcomes into tangible benefits for the general public.
USDA is also working on improving its monitoring of the priority landscapes to better ensure achievement
of its long-term goals in protecting clean water.
2.2.6 Annual economic contribution of recreation on NFS lands
Overview
USDA provides a variety of outdoor recreation opportunities on America’s National Forest System (NFS)
lands and water. These activities generate substantial economic benefits to the country. Visitors spend


                                                        Annual Performance Report
                                                                    59
money on goods and services associated with outdoor recreation participation and Department program
expenditures to provide and maintain recreational infrastructure. This spending helps contribute to or
sustain significant employment in rural communities across America.
Spending by recreation visitors to national forests and grasslands is considered to support rural economies
when it occurs within about 50 miles of the forest or grassland. Visitors generally purchase goods and
services for their recreational activities. Expenditures supporting local employment may include hiring
outfitter and guide services for whitewater rafting and big game hunting, alpine and cross country ski area
fees, camping expenses, and the purchase of supplies, such as groceries, fishing tackle, and bicycle, canoe, or
other equipment rentals.
Analysis of Results
USDA met this performance target according to the established criteria.

                                                                   2007          2008           2009              2010                  Fiscal Year 2011
         Annual Performance Goals, Indicators
                     and Trends                                                                                                 Target       Actual        Result
 2.2.6    Annual economic contribution of recreation                N/A           238            238               238            238          238           Met
          on NFS lands (thousands of jobs)
 Rationale for Met Range: The annual economic contribution of recreation on NFS lands, measured in thousands of jobs, is updated on a 4-year cycle due to
 the complexity of assessing job impacts, and the periodicity of new data to recalculate the modeled effects. This outcome measure is highly dependant on
 recreation visitor participation in the opportunities provided on NFS lands substantially influenced by external factors outside the agency’s control, such as the
 overall economy, motor fuel prices, and weather. The measure will retain its “Met” status throughout the first 4-year update cycle after which the economic
 contribution of recreation on NFS lands will be reassessed. Due to the overwhelming influence of external factors impacting this measure, a minimum threshold
 change of -10 percent would be required to trigger a revision in status to “Unmet” for the initial year of an update cycle. In subsequent years through the balance
 of the 4-year measure update cycle, future targets will be adjusted to the revised economic contribution job estimate.
                                                    Data Assessment of Performance Measure 2.2.6
 The data for the economic contribution of recreation are reliable and of good quality. The IMPLAN economic software and data system, an
 input-output model of the U.S. economy, is applied to estimate the job effects. USDA recreation and other program managers collected,
 compiled, and analyzed the data.
 • Completeness of Data — Values shown are estimated FY 2011 data.
 • Reliability of Data — National Visitor Use Monitoring (NVUM) provides statistically reliable estimates of visitation and visitor use
    characteristics.
 • Quality of Data — Recreation visitation and spending profiles are drawn from NVUM program data. These data update visitation
    estimates on individual national forests on a 5-year cycle and regional and national estimates every year.


Challenges for the Future
While recreational activity supported by national forests has a substantial impact on the local economic well
being of rural forest and grassland dependent communities, USDA faces limitations in the ability to affect
the results exclusively through management of recreation resources. This outcome measure is significantly
influenced by external factors such as the overall economy, weather, snowfall, motor fuel prices, and
landscape disturbances like forest fires. In addition, higher levels of recreation activity, which increase
economic contribution, may require greater management investment to sustain natural resources and
infrastructure.
2.3.1 Acres of WUI fuels treated to reduce the risk of catastrophic fire
Overview
USDA’s hazardous fuel reduction program conducts fuel reduction treatments on lands to restore and
maintain fire-adapted ecosystems and reduce wildfire risk. Fuels treatments are focused on activities to
mitigate hazard and enhance the ability to control fires in the Wildland Urban Interface (WUI). WUI is an
area within or adjacent to an at-risk community that is identified in recommendations to the Secretary of
Agriculture in a Community Wildlife Protection Plan (CWPP). CWPPs are designed to enable


                                                          Annual Performance Report
                                                                      60
communities to determine the best ways to reduce the risk of wildfire. Funding is focused in communities
that have identified acres to be treated in CWPPs, and invested in implementing local solutions to protect
against wildland fire.
Analysis of Results
USDA met the target for this measure. WUI treatments have become more expensive and increasingly more
complex. This is due to the treatment proximity to communities and infrastructure, and the associated air
quality regulations and safety concerns. The Department provides cost-effective protection to communities
and resources by shifting its focus to the highest priority areas. As a result of a more focused application of
resources, the FY 2011 target was met.

                                                           2007           2008            2009                2010                     Fiscal Year 2011
     Annual Performance Goals, Indicators
                 and Trends                                                                                                   Target        Actual        Result
 2.3.1    Acres of WUI fuels treated to reduce            1.138          1.944            2.190              1.955             1.600         1.520         Met
          the risk of catastrophic fire (millions
          of acres)
 Figures for fiscal years 2007-2010 have been recomputed since the FY10 report, but prior year met/unmet status was not affected.
 Rationale for Met Range: Acres treated as of August of 2011, and projections based on historical averages of acres treated during the fourth quarter,
 indicate that USDA will meet this target.
                                                    Data Assessment of Performance Measure 2.3.1
 The data for hazardous fuels treatments are reliable, of good quality, and certified by the respective line officer. USDA wildfire and other program managers
 collected, compiled, and analyzed the data.
 •    Completeness of Data — Values shown are estimated FY 2011 data.
 •    Reliability of Data — All data for hazardous fuels were reported through the National Fire Plan Operations Reporting System. USDA and
   the U.S. Department of Interior land-management agencies co-developed the system. Its data are collected, compiled, and analyzed by
   program managers, and certified by the respective line officer.
 • Quality of Data — Data quality has been assessed at about 90 percent for project data in all regions. The quality of these data is
   monitored continuously, and being improved with focused training and policy direction on reporting requirements. Data are projected based
   on historical performance and year-to-date actual accomplishments. If information is not entered into the systems of record immediately
   upon completion of the project, the quality of the projection will be compromised. USDA uses clear business rules and program direction to
   ensure the timely entry of project completions. In FY 2010, USDA redesigned its data entry system to increase overall product quality.


Challenges for the Future
In FY 2012, USDA will focus on complex high-priority work in WUIs where CWPPs or equivalent plans
have been completed. WUI treatment costs per acre are more than four times the cost per acre for other
areas because most of it is done mechanically – by hand crews or with machinery. There is no economy of
scale when working on lands adjacent to or in between homes.
2.3.2  Percentage of acres treated in the Wildland Urban Interface (WUI) that have been identified in
       Community Wildlife Protection Plans
Overview
USDA works with other Federal and State foresters, local communities, and non-Governmental
organizations in developing CWPPs. This collaboration helps establish clear objectives for hazardous fuel
reduction and wildfire prevention efforts. There are also other equivalent plans and efforts to help make a
community more fire adapted in the WUI where treatments are effective and important.
Analysis of Results
USDA did not meet the performance target. The Department focuses on treating hazardous fuels acres
identified in CWPPs. It works closely with communities at risk in the WUI. While the accomplishments



                                                         Annual Performance Report
                                                                     61
for this measure have trended upward in recent years, the Department failed to reach the FY 2011 ambitious
target of 75 percent.




                                     Annual Performance Report
                                                 62
                                                               2007          2008           2009              2010                   Fiscal Year 2011
      Annual Performance Goals, Indicators
                  and Trends                                                                                                Target        Actual       Result
 2.3.2   Percentage of acres treated in the WUI                 25%          36%            41%               45%             75%         51.8%         Unmet
         that have been identified in Community
         Wildfire Protection Plans
                                                   Data Assessment of Performance Measure 2.3.2
 •   Completeness of Data — Values shown are estimated FY 2011 data.
 •   Reliability of Data — All data for hazardous fuels were reported through the National Fire Plan Operations Reporting System. USDA and
   the U.S. Department of the Interior land-management agencies co-developed the system. Its data are collected, compiled, and analyzed
   by program managers, and certified by the respective line officer.
 • Quality of Data — The data for hazardous fuels treatments are reliable, of good quality, and certified by the respective line officer. USDA
   wildfire and other program managers collected, compiled, and analyzed the data.

Descriptions of Actions for Unmet Measures
USDA will continue treating hazardous fuel acres identified in CWPPs to achieve the incremental
accomplishments needed to meet this ambitious target. While the accomplishments for this measure have
trended upward in recent years, the Department failed to reach the FY 2011 target of 75 percent. We make
the best investment of resources for the best overall results, which sometimes requires us to focus on areas
that do not have CWPPs.
Challenges for the Future
An even greater emphasis on high priority WUI treatments is planned. These treatments will take place in
more costly and complex areas.
2.3.3 Cumulative Acres in NFS that are in a desired condition relative to fire regime
Overview
USDA develops and implements hazardous fuels reduction and ecosystem restoration projects to reduce the
risk of unnaturally severe fire, and make lands more resilient. Emphasis is specifically placed on restoring or
maintaining National Forest System lands in a condition that is within their natural (historical) range of
variability in vegetation characteristics, fuel composition, and fire frequency, severity of effects, and pattern.
The Department also strategically and safely manages wildfire, and promotes the appropriate use of
prescribed fire to restore fire as a natural ecological process on the landscape, improve forest and habitat
conditions, and reduce fuel loads and unnaturally severe fire risk.
Analysis of Results
USDA met the target for this measure. A variety of factors influence the ability to meet this goal, including
weather, resource availability, and the number of treatments required. It often takes multiple treatments to
move an area toward its desired condition, and it may take repeated entries over time to move an area to the
desired condition.

                                                2007            2008            2009            2010                         Fiscal Year 2011
     Annual Performance Goals,
       Indicators and Trends                                                                                      Target              Actual           Result
 2.3.3   Cumulative Acres in NFS
         that are in a desired                                                                                                        59.185
         condition relative to fire              N/A           58.323          58.500          58.770             59.611                                Met
                                                                                                                                    (estimated)
         regime (millions of acres)
 Rationale for Met Range: Acres treated as of August and projections based on historical averages of acres treated during the fourth quarter indicate that the
 Department will meet this target (the current year-end projection is within 1 percent of the target).




                                                         Annual Performance Report
                                                                     63
                                            2007          2008         2009           2010                     Fiscal Year 2011
     Annual Performance Goals,
       Indicators and Trends                                                                         Target            Actual         Result
                                              Data Assessment of Performance Measure 2.3.3
 •   Completeness of Data — Values shown are estimated FY 2011 data.
 •   Reliability of Data — This measure is derived from the Forest Activity Tracking System database by hazardous fuels program managers.
     It is calculated so that it accounts for cumulative changes from year to year.
 •   Quality of Data -- The data for desired condition relative to fire regime are of good quality. USDA wildfire and other program managers
     collected, compiled, and analyzed the data.


Challenges for the Future
Rising costs, such as fuel and aviation, contribute to increased expenditures, not all of which could be offset
by cost management actions. Other integrated accomplishments will decrease due to reduced budgets in
programs that contribute to this target. These reductions will affect progress towards the desired conditions.


Strategic Goal 3:            Help America Promote Agricultural Production and Biotechnology Exports
                             as America Works to Increase Food Security
A productive agricultural sector is critical to increasing global food security. For many crops, a substantial
portion of domestic production is bound for overseas markets. USDA helps American farmers and ranchers
use efficient, sustainable production, biotechnology, and other emergent technologies to enhance food
security around the world and find export markets for their products.
Food security is measured by the availability of food and the ability to purchase food. A family is considered
food secure when its members do not live in hunger or fear of starvation. Food security in foreign countries
is affected by a number of factors, including the extent of the domestic food supply; the proportion of a
nation’s total volume of commodities used for such nonfood uses as feed or fuel; post-harvest losses due to
waste and decay; the ability to finance food and agricultural imports; population income levels; and the
proportion of income that must be devoted to food.
The Department is working to ensure U.S. agricultural resources contribute to enhanced global food
security; enhance America’s ability to develop and trade agricultural products derived from new
technologies; and promote sustainable and productive agricultural systems that enable food-insecure nations
to feed themselves.
OBJECTIVE 3.1: ENHANCE AMERICA'S ABILITY TO DEVELOP AND TRADE AGRICULTURAL PRODUCTS DERIVED FROM NEW
TECHNOLOGIES
3.1.1  Cumulative number of genetically engineered plant lines reviewed by USDA and found safe for use in
       the environment
Overview
USDA oversees a science-based regulatory framework for the safe development and use of genetically
engineered (GE) organisms, and facilitates the review and acceptance of agricultural biotechnology products
at home and in foreign markets. USDA regulates the importation, interstate movement, and field release of
GE organisms that may pose a pest risk to plant health.
The number of new crops, traits, and combinations tested due to biotechnology related advancements
increased by approximately 28 percent in FY 2011. The Coordinated Framework for the Regulation of


                                                   Annual Performance Report
                                                               64
Biotechnology ensures that complex decisions regarding GE products are coordinated with other agencies.
These agencies include the U.S. Environmental Protection Agency and the U.S. Food and Drug
Administration (FDA). USDA also complies with regulations that safeguard the environment, such as the
National Environmental Policy Act (NEPA). NEPA requires all Federal agencies to consider the effects of
their projects and programs on the environment.
This measure shows the number of GE organisms no longer regulated by USDA. Once a GE organism is
issued a determination of non-regulated status, the developer is free to sell the product without oversight,
making it available to growers for commercial use. Thus, new and innovative GE technologies can enter the
marketplace. Safe GE crops can enter markets to meet the needs of both grower and consumer choices.
Analysis of Results
USDA exceeded the target by approving six GE plant lines. In the FY 2012 Budget Summary and Annual
Performance Plan in the President’s budget, the Department set a goal to approve 4 GE plant lines in
FY 2011. The Department also approved and published six petitions for herbicide-tolerant alfalfa and sugar
beets, amylase corn, “seed production technology” (SPT) corn, insect resistant cotton, and an altered-
colored rose. The approval brings the cumulative total to 87 plant lines reviewed and found safe. SPT is an
innovative, proprietary seed production process that is expected to dramatically increase the efficiency of
hybrid seed production.
The biotechnology regulatory program is currently reviewing 24 petitions for non-regulated status, including
7 new submittals. The Department is also working to improve its environmental review processes for
petitions for non-regulated status. These improvements will allow USDA to reach determinations of non-
regulated status more quickly, making agricultural products available to producers and growers. The
Department analyzed its petition process; recommended improvements to the petition review process; and
has scheduled implementation of the recommendations for FY 2012. This will result in more timely and
consistent review of petitions for non-regulated status. It also will ensure that all determinations are made in
accordance with the Plant Protection Act (PPA) and NEPA. PPA consolidated all or part of 10 USDA
plant health laws into 1 comprehensive law, including the authority to regulate plants, plant products,
certain biological control organisms, noxious weeds, and plant pests.

             Annual Performance Goals,                    2007        2008        2009        2010                 Fiscal Year 2011
               Indicators, and Trends                                                                     Target       Actual     Result
 3.1.1   Cumulative number of genetically engineered
         plant lines reviewed by USDA and found safe       74*         76*        78*          81           85           87      Exceeded
         for use in the environment
 * USDA revised the calculation methodology for this performance measure and discovered that a previous deregulation of a plant line was
 accounted for in the wrong fiscal year – that data for 2007 was off by one and the following fiscal years were adjusted accordingly.
 Data Source: Data regarding the cumulative number of genetically engineered (GE) plant lines reviewed by USDA are available at
 http://www.aphis.usda.gov/biotechnology/not_reg.html . The Department conducts a thorough scientific analysis and considers public
 comments for each submitted petition. Once USDA determines whether to deregulate a crop, it publishes the determination and associated
 environmental documents in the Federal Register and on its Web site. Petition determination numbers increase by one once the Department
 has published them in the Federal Register.
 The cumulative number of GE plant lines reviewed by the USDA and found safe for use in the environment is an indicator of the GE
 technologies that can be commercialized by developers. The Department established a target to increase the number of deregulation
 decisions because there are implications of deregulation decisions on GE developers and agricultural producers who may choose the
 technology. The FY 2011 target was to have 85 petitions published by the end of FY 2011and 87 petitions were published by that time.




                                                 Annual Performance Report
                                                             65
Challenges for the Future
USDA supports the safe and appropriate use of science and technology, including biotechnology, to help
meet the agricultural challenges and consumer needs of the 21st century. Feeding the growing world
population by 2050 will require doubling food production and improving distribution, according to the
United Nations Food and Agricultural Organization. Accomplishing this goal will necessitate significant
increases in the amount of food produced per acre, or crop yield. The Department plays a key role in
assuring that products produced through biotechnology are safe to be grown and used in the U.S. Once
these products enter commerce, USDA supports bringing these and other products to the worldwide
marketplace. In the face of these pressures, the Department must maintain a regulatory system that balances
safety and security needs in the face of rapid advances in technology.
Biotechnology advances spark debate among the different sectors of agriculture. This debate creates a
challenge in balancing the needs of competing agricultural industries. The rapid adoption of GE crops has
coincided with the rapid expansion of demand for organic and other non-GE products. These increases
have brought the issue of biotechnology and coexistence to the forefront of political issues. Sectors of the
population will continue to scrutinize the development of GE agricultural products and the ability to
effectively regulate them.
USDA is committed to strategies designed to strengthen coexistence. The Department supports all forms of
agriculture – conventional, organic, and genetically engineered – to meet the need for food security, energy
production, carbon offsets, and the economic sustainability of farms. USDA ensures public participation in
its regulatory decision making, and continued discussions with diverse groups and interested stakeholders,
including GE, organic, and non-GE sectors. The Department will communicate with consumer interests
regarding possible approaches to coexistence and support grower and consumer choices. Agricultural issues
are almost always complex and rarely lend themselves to simple solutions. Meeting these challenges requires
and increased investment in resources, and cooperation from many different players to ensure an effective
solution.
Biotechnology is an ever-changing field of science and the cost of developing GE products is significant.
Technology continues to expand and develop, presenting challenges for the regulatory system. As GE
organisms (animals, plants, or insects) develop in other countries and are imported into the U.S., it is
important to have adequate domestic regulatory systems in place to address their safety. In turn, it is
important to coordinate with other countries to allow the U.S. to export GE products.

Strategic Goal 4:     Ensure that All of America’s Children Have Access to Safe, Nutritious, and
                      Balanced Meals
Nutrition is the link between agriculture and the Nation’s health. USDA made strong progress in advancing
its nutrition and health goal. The Department’s leadership of the Federal nutrition assistance programs
made a healthier diet available for millions of children and low-income families. In addition, the cutting-
edge nutrition promotion efforts of the Center for Nutrition Policy and Promotion harnessed interactive
technologies to motivate all Americans to make positive dietary behavioral changes consistent with the
Dietary Guidelines for Americans and the HealthierUS initiative. Key 2011 accomplishments include:
• Promoting access to the Supplemental Nutrition Assistance Program (SNAP). SNAP is the Nation’s
     largest nutrition assistance program, serving 45.2 million people. The latest information on the rate of
     participation among eligible people showed that, in 2009, 72 percent of all who were eligible
     participated, as compared with 54 percent in 2001.
• Promoting Nutrition Education by Using the MyPlate Food Guidance System. MyPlate—a network
     of nutrition education tools that translates the Dietary Guidelines for Americans into understandable
     concepts for consumers—offers the American public an individualized approach to nutritional well-


                                       Annual Performance Report
                                                   66
    being and active living. ChooseMyPlate.gov’s Web-based educational tools help Americans assess and
    personalize their diet and physical activity plans. The newest tool was the MyPlate for Preschoolers
    (ages 2 to 5 years old) to help parents use MyPlate to help their young children eat well, be active, and
    be healthy. Consumers continue to respond enthusiastically to this educational approach. Thus, CNPP
    continues to develop new educational tools to promote nutrition education to specific population groups
    to help stem the trends in obesity and nutrition-related diseases. In 2011, transitions occurred with the
    release of the 2010 Dietary Guidelines for Americans in January 2011, and ChooseMy Plate.gov in May
    2011.
•   Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy rate for
    FY 2010, announced in June 2011, was 96.19 percent, a new record high that reflects effective
    partnerships with State administering agencies, and extensive use of policy options to streamline
    program administration while improving access for working families.
USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply, and better knowledge and education to promote healthier food
choices. The Department pursued national policies and programs to ensure that everyone has access to a
healthy diet regardless of income, and that the information is available to support and encourage good
nutrition choices.
USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition
assistance education programs relies heavily on research. This research provides critical knowledge of what
we need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner that leads
to true changes in our diets. Research also supports development of new healthy and tasty food products
providing another avenue for helping consumers eat well.
OBJECTIVE 4.1: INCREASE ACCESS TO NUTRITIOUS FOODS
4.1.1 Participation levels for major Federal nutrition assistance programs SNAP
Overview
The Supplemental Nutrition Assistance Program (SNAP) is the foundation of America’s nutrition
assistance program system. SNAP provides benefits that can be used to purchase food at authorized retailers
for preparation and consumption at home. It makes resources that can be used for food available to most
households with little income. Benefit levels are based on the Thrifty Food Plan, a representative healthful
and minimal-cost meal plan that shows how a nutritious diet may be achieved with limited resources. The
amount received by a household depends on its income, expenses, and size.
Analysis of Results
USDA met the target for this performance measure. Average monthly participation reached 44.3 million in
2011 (Oct 2010-June 2011), within the range (43.2 million-45.4 million) for the 2011 target of 45.0
million.
Program participation increased more than 5 percent. The Department’s efforts to support and encourage
SNAP participation included:
• Continued efforts with States to develop outreach strategies. Forty-five out of 53 State agencies — up
   from 40 in FY 2009 — now have formal outreach plans or other documented outreach activity;
• Supported innovative State practices to promote access by simplifying the application process. Thirty
   States use an Internet-based application filing system. A total of 47 States allow telephone interviews. A
   total of 27 States use call centers; and
• Provided numerous strategies to help States manage workloads because of increasing participation and
   decreasing State resources due to the economic downturn. These strategies include policy waivers, a


                                              Annual Performance Report
                                                          67
    workload management matrix tool, a program access toolkit, and the encouragement of broad-based
    categorical eligibility (42 States) to improve access to applicants and simplify policies for State
    administration.

         Annual Performance Goals, Indicators                    2007          2008           2009               2010               Fiscal Year 2011
                     and Trends
                                                                                                                            Target       Actual        Result
 4.1.1     Participation levels for the major Federal
           nutrition assistance programs (millions per
           month): Supplemental Nutrition Assistance              26.5         28.4           33.5               40.3        45.0         44.3          Met
           Program Avg.(monthly) participation
           (millions per month)
 Rationale for Met Range: The actual number represents information as of June 30. Thresholds for 4.1.1 reflect the margin of error in forecasts of future
 participation. For SNAP participation, results from 2 independent assessments suggest that predictions of the number of SNAP participants are accurate to
 within plus-or-minus 7.5 percent on average.
 This percentage thus allows for actual performance that meets the target range of 43.2-45.4 million for SNAP.

                                                   Data Assessment of Performance Measure 4.1.1
 SNAP participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
 offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National
 Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the
 report and the State agency is contacted. The Department reviews data posted by regional personnel into NDB. If data are reasonable and
 consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional offices and States to
 resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and reliable as possible
 • Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly before
     being declared annual data. Reported estimates are based on data through June 30, 2011, as available September 2011.
 • Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
     analyses, studies, and reports. They also are used to support dialogue with and information requests from the Government Accountability
     Office, the Office of Inspector General, and the Office of Management and Budget.
 • Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
     outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


Challenges for the Future
Studies and analyses show that one reason that SNAP-eligible people do not participate is because they may
be unaware of their eligibility. Efforts to improve access to and promote awareness of SNAP, and improve
policy and operations that make applying easier are ongoing challenges.
The quality of program delivery by third parties—hundreds of thousands of State and local Government
workers and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition. Proper
program administration, including timely determination of eligibility, is of special concern.
4.1.2 Improve SNAP payment accuracy
Overview
Ensuring that SNAP and other Federal nutrition assistance programs are administered with integrity is
central to USDA’s mission. Waste and abuse draw scarce resources away from those who need them the
most. Just as importantly, the programs are ultimately not sustainable without public confidence that
benefits go to those who qualify, are used appropriately, and achieve their intended purposes. The
Department seeks to increase food security and reduce hunger in a manner that inspires public confidence
that taxpayer dollars are used wisely.
Designed to respond to economic conditions, participation in the program has recently grown and benefits
have increased, yet USDA remains strongly committed to program integrity. The Department takes its
stewardship responsibilities for tax payer dollars seriously through an established Quality Control (QC)


                                                        Annual Performance Report
                                                                    68
system and long-standing support for payment accuracy initiatives. USDA continuously works to improve
payment accuracy through partnerships with States, and regulatory and statutory requirements for a system
that rewards exemplary program performance while holding low-performing States accountable. It also uses
an early detection system to target States that may be experiencing a higher incidence of errors based on
preliminary QC data. Actions then are taken by regional offices to address these situations in the individual
States.
Analysis of Results
SNAP payment accuracy reached a record-high 96.19 percent in 2010, the latest for which data are
available. The number reflects the excellent performance by State agencies in administering the program.
This combined rate reflects 3.05 percent in overpayments and .76 percent in underpayments for a total of
3.81 in erroneous payments.
Forty-seven States had a payment accuracy rate greater than 94 percent, including 23 States with rates
greater than 96 percent. This is the same number of States with 94 percent accuracy and 6 less States with
96 percent accuracy than in the previous year.

           Annual Performance Goals                           2007         2008           2009             2010                    Fiscal Year 2011
             Indicators and Trends
                                                                                                                          Target        Actual        Result
4.1.2   Improve SNAP Payment Accuracy Rate                   94.4%        95.0%          95.6%           96.19%           95.6%          N/A          Deferred
FY 2011 data will be available in 2012.
Rationale for Met Range: The 95.0 percent confidence interval around the estimate of payment accuracy is ±.33.
•    For 2011, this confidence level allows for actual performance that meets the target in the range 95.31 – 95.97 percent.
                                                   Data Assessment of Performance Measure 4.1.2
SNAP, formerly the Food Stamp Program, uses annual payment accuracy data from the Quality Control (QC) process to support program
management. The data are based upon statistically valid methodology. The QC process uses a systematic random sampling of SNAP
participants to determine a combined payment error rate for each State. The combined error rate is composed of over-issuances and under-
issuances of SNAP benefits. A regression formula is applied to the results of the reviews to calculate official error rates. State agencies review
selected cases monthly to determine the accuracy of the eligibility and benefit-level determination. The process includes a client interview and
verification of all elements of eligibility and the basis of issuance. Federal reviewers validate a sample of the State’s reviews by conducting a re-
review. The process has proven to be a sound method of calculating reliable data.
• Completeness of Data—The most current data available for this measure are for FY 2010. The payment accuracy rate of 96.19 percent
   exceeded the performance goal/measure target. FY 2011 performance will be deferred until next year’s report.
• Reliability of Data— QC data are valid and accepted by State SNAP agencies as a basis for performance-incentive payments and
   penalties. The U.S. Government Accountability Office and the Office of Inspector General also use it regularly.
• Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
   outside USDA. The measure itself is frequently cited as an important, high-quality indicator of program performance.


Challenges for the Future
The most critical challenge impacting future success is continuing resource limitations for State agencies.
State budgets have been and will continue to be extremely tight. This factor could hurt State performance in
payment accuracy. USDA will continue to provide technical assistance and support to maintain payment
accuracy in the context of this difficult program environment.
4.1.3 Participation levels for the major Federal nutrition assistance programs
Overview
The National School Lunch Program (NSLP) and the School Breakfast Program (SBP) support schools in
ensuring access to nutritious food for the children they serve. The programs provide per-meal
reimbursement to State and local Governments for meals and snacks served. All meals must meet Federal
nutrition standards to qualify for reimbursement.


                                                         Annual Performance Report
                                                                     69
NSLP served lunches and snacks in more than 100,700 schools and residential child-care facilities. More
than 66 percent of meals are served to low-income children for free or at reduced price.
SBP helps school children start the day ready to learn by serving breakfast in more than 88,700 schools and
residential child-care facilities. Nearly 84 percent of meals are served free or at reduced price to low-income
children.
Analysis of Results
In FY 2011, USDA and its program delivery partners sustained effective access to school meals. The
increased use of direct certification for free school meals for children enrolled in means-tested programs
such as SNAP or the Temporary Assistance for Needy Families (TANF) program has helped to provide
easy access to school meal benefits. During the 2009-10 school year, 82 percent of school districts used
direct certification, up from 78 percent in the prior year. TANF provides financial assistance for children
and their parents or relatives who are living with them.
NSLP participation levels reached 31.8 million in FY 2011; within the Met range (30.5 million-33.7
million) for the 2011 target of 32.1 million. Participation increased slightly from FY 2010, continuing the
trend of increases in recent years. Average SBP participation levels reached 12.1 million in FY 2011; within
the Met range (11.8 million – 13.0 million) for the 2011 target of 12.4 million. These numbers also continue a
trend of increases during the last several years.

                 Annual Performance Goals                              2007          2008          2009         2010                  Fiscal Year 2011
                   Indicators and Trends
                                                                                                                             Target          Actual        Result
 4.1.3 Participation levels for the major Federal
       nutrition assistance programs (millions per day)
 • National School Lunch Program                                        30.5          30.9         31.6         31.7           32.1           31.8           Met
 • School Breakfast Program                                             10.1          10.6         11.0         11.7           12.4           12.1           Met
 Rationale for Met Range: Thresholds for 4.1.3 reflect the margin of error in forecasts of future participation, estimated at 5 percent for school meals programs.
 This reflects the pattern of variance between actual and target performance for both programs during the past 5 years. For FY 2011, this percentage range
 allows for actual performance that meets the targets in the range of 30.5-33.7 million for the National School Lunch Program and 11.8-13.0 million for the
 School Breakfast Program.

                                                    Data Assessment of Performance Measure 4.1.3
 School meals participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
 regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the
 National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject
 the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and
 consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional offices and States to
 resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and reliable as possible.
 • Completeness of Data— Figures for NSLP and SBP are based on 9-month (school year) averages. Participation data are collected and
    validated monthly before being declared annual data. Reported estimates are based on data through June 30, 2011, as available
    September 2011.
 • Reliability of Data — Participation-data reporting is used to support program financial operations. All of the data are used in published
    analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
    Office, the Office of Inspector General, and the Office of Management and Budget.
 • Quality of Data — As described above, the data used to develop this measure are used widely for multiple purposes, both within and
    outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


Challenges for the Future
While almost all school children have access to Federally-subsidized school lunches, significantly fewer
schools operate school breakfast programs. USDA will continue to pursue strategies to ensure that all
students are able to start the day with a nutritious breakfast, at home or at school.


                                                         Annual Performance Report
                                                                     70
As with other nutrition assistance programs, the Department relies on its partnerships with third parties—
hundreds of thousands of State and local Government workers and their cooperators— to sustain effective
school meals program delivery.
4.1.4  Participation Levels for the Major Federal Nutrition Assistance Programs (millions per month) WIC
       Program
Overview
The Special Supplemental Nutrition Program for Women, Infants and Children (WIC) is a critical
component of the nutrition assistance safety net. WIC’s major objective is to address the nutrition needs of
low-income pregnant, breastfeeding, and postpartum women, infants, and children up to 5 years of age
found to be at nutritional risk.
Analysis of Results
USDA met this measure.

      Annual Performance Goals, Indicators                    2007          2008          2009            2010                     Fiscal Year 2011
                  and Trends
                                                                                                                          Target         Actual        Result
 4.1.4   Participation levels for the major Federal
         nutrition assistance programs (millions per           8.3           8.7           9.1              9.2             9.3            8.9          Met
         month): WIC Program (average)
 Rationale for Met Range: Range of tolerance was established to be 8.9 to 9.6. WIC participation data for FY 2011 show the birth rate is down and therefore
 less participation in the program than estimated in prior fiscal year.
                                                   Data Assessment of Performance Measure 4.1.4
 WIC participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
 offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National
 Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the
 report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and
 consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional offices and States to
 resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and reliable as possible.
 • Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly before
     being declared annual data. Reported estimates are based on data through June 30, 2011, as available September 2011.
 • Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
     analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
     Office, the Office of Inspector General, and the Office of Management and Budget.
 • Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and
     outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


Challenges for the Future
Ensuring that adequate, timely funding is available to USDA’s program partners to support participation
among all eligible applicants is an ongoing challenge. The Department and its partners must continue to
work together to manage funds carefully and maintain efficient operations to serve all those in need.
OBJECTIVE 4.2: PROMOTE HEALTHY DIET AND PHYSICAL ACTIVITY BEHAVIOR
4.2.1 Application and usage level of nutritional guidance tools.
Overview
Good nutrition and regular physical activity are important throughout the life cycle and can help reduce the
rate of overweight and obesity in the U.S. population, especially among the Nation’s children. Good
nutrition and physical activity are also essential to helping prevent diet-related chronic diseases, such as



                                                        Annual Performance Report
                                                                    71
diabetes, cardiovascular disease, and high blood pressure. Thus, achieving and sustaining appropriate body
weight across the lifespan is vital to maintaining good health and quality of life.
USDA is committed to using Federal nutrition policy and information—both based on the most recent,
credible science—to encourage the U.S. population to develop and maintain healthy diets and active
lifestyles that benefit each individual, each family, and the Nation. As USDA Secretary Thomas Vilsack said
at the January, 2011 release of the 2010 Dietary Guidelines for Americans, “We are at a time when the
majority of adults and one in three children is overweight or obese; this is a crisis that we can no longer
ignore.” USDA uses the Dietary Guidelines — established jointly with the U.S. Department of Health and
Human Services — to form the basis of Federal nutrition policy, education, outreach, and food-assistance
programs.
The Department depends on the Nutrition Evidence Library (NEL) to develop the sound assessment of
nutritional science on which to base the Dietary Guidelines for Americans (available at
www.dietaryguidelines.gov). ChooseMyPlate.gov is the electronic portal to plain-language guidance and
advice for Americans to apply the Dietary Guidelines for improving their overall health. USDA uses NEL to
conduct transparent systematic reviews of the science that forms the conclusions on which nutrition policy is
based. This science-based resource is available at www.nutritionevidencelibrary.gov. It uses electronic tools,
print materials, and other resources to communicate the importance of healthy eating and physical activity
to consumers. The MyPlate icon and guidance materials and tools allow the Department to empower the
American public with actionable information to make healthful food choices and to achieve healthy and
active lifestyles. USDA also continues to encourage “information multipliers”—community and national
strategic partners—to extend the reach and impact of nutrition guidance messages, both with Federal
nutrition assistance programs and with the general public.
Analysis of Results
The goal for this performance measure was unmet. A transition occurred with the release of the 2010
Dietary Guidelines for Americans this past year. During this transition, materials were being developed and
electronic tools were being enhanced. In addition, historical data on usage of educational materials and
electronic tools show that schoolchildren, college students, and educational professionals are a large
audience for the use of the Dietary Guidelines materials and the electronic toolkits. Thus, USDA expects a
more positive result during non-transition years.

      Annual Performance Goals, Indicators                   2007         2008          2009            2010                    Fiscal Year 2011
                  and Trends
                                                                                                                       Target         Actual       Result
 4.2.1     Application and usage level of
           nutrition guidance tools(billions of
           pieces of nutrition guidance
                                                                     2.6           3.2             3.5            1.5           3.0           1.7     Unmet
           distributed) Baseline 2006 = 1.5
 Rationale for Met Range: The precision of USDA’s tracking system and forecasting allows for actual figures to be used to determine the degree to which the
 2011 target range of 2.8 to 3.2 billion is met. Thresholds reflect trends of “hits” at the former MyPyramid.gov, the new ChooseMyPlate.gov, and
 www.nutritionevidencelibrary.gov, as well as the distribution of MyPlate and Dietary Guidelines print materials.

                                                  Data Assessment of Performance Measure 4.2.1
 Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with MyPlate.gov, survey
 analysis, and inventory records of print materials.
 • Completeness of Data—Data related to MyPlate.gov are collected instantaneously, indicating the number of e-hits to the Web site and
    the number of registrations to MyPlate Tracker. However, data for October-December 2010 were unavailable for all parts of the site due to
    system problems. Estimates based on prior year performance were used for this portion of the performance period. For print materials,
    data from national headquarters represent counts of what USDA distributed.
 • Reliability of Data— The number of hits is instantaneously recorded, the online survey is continual and well-tested, and the number of
    distributed print materials is tracked.



                                                       Annual Performance Report
                                                                   72
         Annual Performance Goals, Indicators                2007        2008         2009           2010                   Fiscal Year 2011
                     and Trends
                                                                                                                   Target         Actual       Result
    •   Quality of Data—The data are used to report on the success of the MyPlate Food Guidance System. Because of the simultaneous
        recording of MyPlate.gov usage, and the thoroughness and continual nature of the customer satisfaction survey, usage and customer
        satisfaction levels are a high-quality indicator of the degree to which USDA promotes, and customers respond to, interactive tools and print
        materials designed to help Americans personalize their diets. With a change in the system used to record MyPlate.gov usage, the
        Department will again be able to rely on the quality of the data to report whether performance goals have been met.

Description of Actions for Unmet Measures
This measure shows a combined output of:
• Printed nutrition materials that were requested and distributed; and
• “Hits,” or visits to these Web sites: the former MyPyramid.gov and its replacement, the new
   ChooseMyPlate.gov, and www.nutritionevidencelibrary.gov.
The transition from MyPyramid.gov to ChooseMyPlate.gov resulted in a decline in the number of “hits”
received. The target, which is based on demand, was set prior to the planning of the conversion to a new,
updated Web site, and, thus, was not met due to site development and implementation issues. The number
of “hits” in FY 2012 is expected to rise, since the conversion is now complete.
Challenges for the Future
Individuals and families make choices every day about what they will eat and drink and how physically active
they will be. Today, Americans must make these choices within an environment that promotes
overconsumption of calories and discourages physical activity. The ability of existing nutrition guidance and
promotional materials to achieve behavior change remains challenging. Physical activity and other lifestyle
issues also significantly impact body weight and health.
Crafting understandable, science-based, consistent, and consumer-friendly nutrition messages and nutrition
education programs in ways that promote positive behavioral change to help people make better food
choices will continue to be challenging. The relationships between choices people make and their attitudes
towards and knowledge of diet/health links are key factors that must be addressed. The data that can
address this information gap, however, are limited. Work is planned to develop helpful metrics to measure
the success of communications and promotion programs.
OBJECTIVE 4.3           PROTECT PUBLIC HEALTH BY ENSURING FOOD IS SAFE
4.3.1  Reduce overall public exposure to Salmonella from broiler carcasses;
4.3.2  Reduce total illnesses from all regulated products; and
4.3.3  Increase the percentage of establishments with a functional Food Defense Plan (large, small and very
       small establishments)
Overview
Each year, one in six Americans experiences a foodborne illness.1 To reduce and prevent these illnesses,
USDA uses a farm-to-table approach to ensure the safety of the food supply. The Department invests in its
workforce and data infrastructure to protect consumers by reducing the incidence of food contaminants, and
quickly identifying and preventing outbreaks. Effective food safety inspections and enforcement depend
upon timely, quality data and analysis.

1
 Scallan E, Hoekstra RM, Angulo FJ, Tauxe RV, Widdowson M-A, Roy SL, et al. Foodborne illness acquired in the United States—major
pathogens. Emerg Infect Dis [serial on the Internet]. [September 6, 2011]. http://www.cdc.gov/EID/content/17/1/7.htm


                                                       Annual Performance Report
                                                                   73
USDA ensures that meat, poultry, and processed egg products are safe, secure, wholesome, and correctly
labeled and packaged. Currently, the Department’s efforts are focused on preventing illnesses from
Salmonella, Listeria monocytogenes (Lm), and E. coli O157:H7. These three bacterial pathogens are known to
cause human illness, hospitalization, and even death.
USDA is also working to better verify that effective food safety systems are being implemented in
Department-regulated slaughter and processing establishments. USDA trains inspection personnel and has
developed an automated system to alert inspectors about potential food safety problems through effective
inspection data analysis according to risk. These actions give inspection personnel greater and timelier access
to establishment performance data.
USDA uses three key measures to assess its performance to ensure that food is safe:
• Increase the percentage of Federally inspected establishments in “Category 1,” reducing overall public
  exposure to generic Salmonella from broiler carcasses. Establishments are placed in Category 1 if they
  demonstrate consistent process control in USDA Salmonella verification testing 2;
• Total illnesses from all Food Safety and Inspection Service (FSIS)-regulated products: Salmonella, Lm,
  and E. coli O157:H7 (All-Illness Measure). The All-Illness Measure is used to assess efforts to reduce
  Salmonella, Lm, and E. coli O157:H7 illnesses from USDA-regulated products. Of the illnesses
  attributed to USDA-regulated products in the third quarter of 2011, 99 percent of illnesses came from
  Salmonella, .83 percent from Lm, and .16 percent from E. coli O157:H7. This is the equivalent of 1
  illness for every 351,885 servings of meat and poultry products consumed annually3; and
• Increase the percentage of Federally inspected establishments (large, small, and very small
  establishments) with a functional food defense plan. USDA measures the industry adoption of
  functional food defense plans. These plans assist industry in preventing intentional contamination of
  food products, thereby protecting public health and reducing the negative economic impact on the food
  infrastructure.
Analysis of Results
The target goals for 4.3.1 was unmet. However USDA did meet its goal for 4.3.2, and exceeded its goal for
4.3.3.
4.3.1      Reduce overall public exposure to Salmonella from broiler carcasses
USDA employs a “category” system to measure the Salmonella performance of establishments producing
raw products. Selection of the category system was partially based on the long-term evidence from USDA
regulatory samples (collected between 1998 and 2004). USDA compares how many establishments are in
Category 1 from one quarter to the next and from one year to the next. Category 1 represents the best
performance attainable – establishments with results from their two most recent completed sample sets that
are, at a minimum, at or below half of the performance standard or baseline guidance. Category 2 represents
establishments found to have Salmonella positives at a rate between half the standard and the standard level.
Category 3 represents establishments that have exceeded the performance standard or baseline guidance on
the most recent USDA test set. As more establishments attain Category 1 status, the Department believes
that fewer people will be exposed to Salmonella from raw classes of USDA-regulated products.




2USDA   has tightened its Salmonella performance measure for broilers, which will require a downward adjustment to a lower percentage attained
for the FY 2015 performance goal for Salmonella broiler carcasses in the first quarter of FY 2012.
3Data for this measurement is obtained using FSIS illness estimates and food availability data from ERS. ERS data are available at the following

Web site: http://www.ers.usda.gov/Data/FoodConsumption/app/reports/displayCommodities.aspx?reportName=Total%20meat&id=39#startForm


                                                    Annual Performance Report
                                                                74
4.3.2      Reduce total illnesses from all regulated products
The Department calculates a measure that estimates all foodborne illnesses for Salmonella, Lm, and E. coli
O157:H7 from USDA-regulated products. Objectives for this measure are set using a combination of data
from published case rates from the U.S. Centers for Disease Control and Prevention’s (CDC) FoodNet data
and National Outbreak Reporting System outbreak data. These case rates are aligned with Healthy People
2010 goals. Healthy People 2010 is an initiative designed to decrease the rate of diseases caused by
microorganisms transmitted mainly by food. To measure progress in meeting these objectives, USDA uses
Pathogen Verification Testing to estimate the total number of foodborne illnesses from Salmonella, Lm, and
E. coli O157:H7.
4.3.3      Increase the percentage of establishments (large, small and very small establishments) with a
           functional Food Defense Plan
The food defense measure was developed with the goal of increasing the number of establishments with a
functional food defense plan, which USDA considers an important measure for preventing intentional
product adulteration. Such plans should be developed, written, implemented, assessed, and maintained by
establishments if they are to be considered functional. The Department has developed guidance materials to
assist in the development and understanding of what constitutes a food defense plan for establishments.
This performance metric is measured by the annual USDA Food Defense Plan Survey which is based on
data about industry’s voluntary adoption of food defense plans. Results from the first survey, conducted in
August 2006, established a baseline adoption rate of food defense plans by industry of 34 percent of all
establishments (large, small, and very small). USDA’s goal for the adoption of food defense plans by
FY 2015 is that 90 percent of all establishments will voluntarily implement a functional plan.

                                                                                                                                   Fiscal Year 2011
        Annual Performance Goals,
                                                        2007           2008             2009             2010
          Indicators, and Trends                                                                                        Target           Actual           Result

4.3.1    Reduce overall public exposure to               73%            83%           82% in          83.6% in          92% in           87% in           Unmet
         Salmonella from broiler carcasses                                          Category 1       Category 1       Category 1       Category 1
4.3.2    Reduce total illnesses from all               598,087       656,702         615,014          584,335          571,406          510,230             Met
         regulated products
4.3.3 Percent of establishments with a                   39%            46%             62%             73.6%             74%              75%          Exceeded
      functional food defense plan
• Large Establishment                                    91%            96%             96%              97%              90%              96%
• Small Establishment                                    53%            64%             72%              82%              78%              84%
• Very Small Establishment                               21%            25%             49%              64%              63%              65%
Rationale for Met Range: 4.3.1 —USDA measures its Salmonella performance in terms of a percentage of broiler chicken establishments that are in Salmonella
performance Category 1. Establishments are placed in Category 1 if they demonstrate consistent process control in Department verification testing. USDA
selected the 92 percent goal because it represents an ambitious objective to be achieved.
4.3.2 — USDA measures its performance for Salmonella, Listeria monocytogenes and E. coli O157:H7 in terms of a volume-adjusted percent-positive rate for
each pathogen in the Department’s Hazard Analysis and Critical Control Point (HACCP) verification testing. USDA is working to reduce the number of foodborne
illnesses. Hence, the FY 2011 ‘actual’ number is 61,176 illnesses lower than the set target. Up to April 2010, the performance standards were anchored to 1999
illness data and objectives were set for each pathogen using the Healthy People Goals for 2010. USDA shifted to using CDC FoodNet data for setting objectives,
which are pathogen-specific case rates updated annually to calculate foodborne illnesses. These case rates are superior data as they are an up-to-date, actual
measure of foodborne illness. Another shift in methodology occurred in August 2010 when, at the request of the CDC, USDA shifted to using only simple foods
when calculating pathogen-specific attribution fractions. The simple foods methodology only takes illnesses from simple foods, such as chicken or steak, into
account when calculating the pathogen-specific attribution fraction, rather than using complex (chicken salad sandwich, for example) plus simple foods.
4.3.3 — Data from 2007-2008 represent the percentage of facilities with a written plan, while the data from 2009-2011 represent the percentage of facilities with a
functional plan, as defined above. USDA has been working with establishments to encourage them to voluntarily adopt functional food defense plans. USDA
established a goal of getting 90 percent of industry to adopt food defense plans by 2015.




                                                         Annual Performance Report
                                                                     75
                                                                                                                       Fiscal Year 2011
       Annual Performance Goals,
                                                   2007          2008          2009            2010
         Indicators, and Trends                                                                              Target          Actual         Result

                                       Data Assessment of Performance Measure 4.3.1, 4.3.2, and 4.3.3
Through consultations with its stakeholders, USDA continuously examines the Nation’s changing food safety system and practices. The
Department articulates a long-term view in regard to its performance and the benefits to public health. USDA also monitored its performance
against the Healthy People 2010 for these three critical pathogens — Salmonella, Lm and E. coli O157:H7. The Department developed an
attribution model to determine what percentage of all Salmonella, Lm, and E. coli illnesses result from USDA-regulated contaminated products.
These data quality statements reflect data collected for performance measures 4.3.1 and 4.3.3.
• Completeness of Data — Results are based upon USDA’s laboratory results analyzed as of June 30, 2011. They are the best available
    indication of the third quarter of FY 2011 results. Quarterly and annual data are based on sampling at a range of establishments, from very
    small to large.
• Reliability of Data — The data are reliable because they are based on testing and verification from USDA’s field service laboratories for
    regulated establishments. Each sample is subjected to highly specific verification testing. The primary goal of these sampling programs is to
    monitor how well each establishment is maintaining control of food safety through its HAACP, sanitation, and supporting programs. USDA
    recognizes that its verification testing samples for Salmonella in raw classes of product and for Lm in ready-to-eat foods are biased in favor of
    being collected at establishments with poor process controls and/or higher volume. This factor likely results in over-estimates in public
    exposure to these two pathogens. This factor is not the case for E. coli O157:H7 because USDA programs sample every establishment and
    take into account establishment production volume.
• Quality of Data — USDA collects pathogen verification samples at a range of establishments and testing is conducted to verify establishment
    pathogen reduction activities.


Descriptions of Actions for Unmet Measures
The Department did not meet the FY 2011 goal of reducing overall public exposure to Salmonella from
broiler carcasses, though the poultry industry (broiler and turkey carcass establishments) improved
performance in the second quarter (results were 85 percent) and third quarter (87 percent).
USDA has developed new tightened performance guidance based on results from the year long Nationwide
Young Chicken Microbiological Baseline completed in mid-2008. This baseline data-collection program is
designed to estimate the prevalence and quantitative level of bacteria on broiler carcasses. It also obtains
microbiological data for use in the development of risk assessments.
A Federal Register notice announcing the new guidance policies was published in May 2010 with a targeted
implementation of July 2010. USDA published a Federal Register notice responding to the comments
received in March 2011 providing for implementation in July 2011, due to the substantive nature of the
comments. The Department will track the regulated industry’s overall progress in meeting the USDA
Salmonella performance target and will continue to post summary results of its Salmonella verification-
testing program on its FSIS Web site.
USDA is reviewing all not-ready-to-eat (NRTE) Salmonella-related policies and associated issuances and
developing new measures to assess whether these policies are being implemented effectively. The
Department will develop outcome measures around the key NRTE Salmonella-related policies and
associated issuances to determine their contribution to the larger All-Illness Measure. In addition, USDA is
developing a Salmonella risk profile for poultry that will focus on areas within pre-harvest and post-harvest
for which policies for Salmonella reduction could be most effectively developed and applied.
Challenges for the Future
Ensuring the safety of the Nation’s food supply is a significant challenge that requires a strong and robust
infrastructure coupled with sound science. USDA uses a data-driven, scientific approach to food safety,
incorporating public health data critical to combating the evolving threats to public health. Educating




                                                    Annual Performance Report
                                                                76
producers about best practices on the farm, and educating retailers and the public on best food handling
practices are important tools for USDA to utilize.
While the Department firmly believes that its day-to-day activities directly impact the prevention of
foodborne illness in this country, it is often challenging to link USDA activities, such as pathogen
verification testing, to reductions in foodborne illness.
USDA is also a key partner in the President’s Food Safety Working Group (FSWG), which is co-chaired
by Agriculture Secretary Tom Vilsack. As part of FSWG’s recommendation to intensify efforts to meet the
performance goal of reducing Salmonella illnesses, the Department implemented a new, lower Salmonella
performance standard for broilers in July 2011, as mentioned above. This new standard lowers the
acceptable number of positives in a verification set of 51 samples from 12 to 5. The new standard was based
on results from the 2008 Nationwide Young Chicken Microbiological Baseline. The aim is to reduce the
occurrence of Salmonella, thereby diminishing the public’s exposure to it in USDA-regulated products.
Another food safety challenge is that small and very small establishments often lack the technical knowledge
to design and implement food safety systems. To assist these establishments, USDA has released a
Compliance Guide for Poultry Slaughter to reduce Salmonella and Campylobacter exposure. This guide includes
the most recent information available on technologies to reduce those pathogens’ occurrence in USDA-
regulated products. As consumers are increasingly purchasing raw poultry products in ‘parts’ rather than
whole birds, USDA has also initiated a nationwide young chicken parts microbiological baseline study to
learn more about the public’s possible exposure to Salmonella.
In its work to control Lm and meet illness reduction goals, USDA is continually challenged as illnesses may
occur due to re-contamination in retail slicing operations, or during the distribution process. While the
Department performs surveillance activities at the retail level, it is performing a joint survey with the U.S.
Food and Drug Administration to determine the levels of Lm in ready-to-eat foods at retail delis. This
survey is designed to improve surveillance methods. This study will provide information that can be used to
develop new actions to control Lm at retail facilities in the future. USDA also maintains a risk-based
sampling program for Lm in regulated establishments. It is designed to identify and address establishments
with poor sanitation where Lm could be harbored.
The Department is also working to improve its trace back of production in response to positive E. coli
O157:H7 test results. USDA is working on a new traceback methodology that it will begin using when the
Department’s verification sampling of raw beef product tests presumptive positive for E. coli O157:H7.
USDA is working to ensure that its policies evolve to address a broader range of pathogens, beyond E. coli
O157:H7. This work will ensure that public health and food safety policy corresponds with the
demonstrated advances in science and data about foodborne illness to best protect consumers.
Finally, the Department’s “Food Safe Families” campaign, developed in partnership with the Ad Council,
seeks to increase public awareness about the relationship between safe food handling practices and the
prevention of foodborne illness. By promoting the “Clean, Separate, Cook, and Chill” food handling
behaviors, USDA hopes to reduce foodborne illness attributed to improper in-home food preparation.
However, to more precisely determine the extent to which consumer food handling practices contribute to
the overall incidence of foodborne illness in the U.S., additional research is needed.




                                       Annual Performance Report
                                                   77
OBJECTIVE 4.4: PROTECT AGRICULTURAL HEALTH BY MINIMIZING MAJOR DISEASES AND PESTS TO ENSURE ACCESS TO SAFE, PLENTIFUL, AND
NUTRITIOUS FOOD
4.4.1  Value of damage prevented and mitigated annually as a result of selected plant and animal health
       monitoring and surveillance efforts
Overview
USDA ensures access to a diverse supply of fruits, vegetables, meat, and poultry. The Department protects
the agriculture production system and defends against plant and animal pests and diseases. Several programs
contribute towards preventing and easing economic and environmental damage to U.S. agricultural
resources. The Department’s monitoring and surveillance programs assist with documenting the health
status of U.S. agricultural products. This work results in the prevention and early detection of plant and
animal pests and diseases. USDA also conducts various pest and disease programs to limit the damage
caused by known pests and diseases. Together, these efforts contribute towards the Nation’s overall
agricultural health. USDA monitors the health status of agricultural resources and quickly detects and
responds to pests and diseases to prevent their spread.
Analysis of Results
USDA met the target for this performance measure by preventing and mitigating $1.11 billion in damage to
agricultural resources. Several efforts contributed towards meeting the target. USDA enhanced the Nation’s
capabilities of finding and responding to plant and animal diseases. This work pre-empted any potentially
significant damage to the agricultural production system and food supply. The Department’s animal health
monitoring and surveillance efforts focus on finding diseases quickly, tracing them to their origin, and
preventing their spread.
There were no significant outbreaks of animal diseases in FY 2011. As a result of the increasing diversity of
livestock and poultry rearing facilities in the U.S., a more flexible animal disease traceability system is
needed to effectively respond to animal disease concerns, and minimize harm to producers. To replace the
original effort—the National Animal Identification System, which was perceived as being too intrusive—in
February 2010, USDA announced a new approach to animal disease traceability. The Department gathered
input from the public. It then developed a comprehensive understanding of how to design and deliver an
animal disease traceability program. In August 2011, USDA published a proposed rule on traceability that is
more flexible than the previous system. The new system allows States, tribes, territories, and producers to
use their expertise to develop the animal disease traceability approach that works best for them. Detecting
an animal disease before many animals have been exposed to it limits the spread of the disease. The system
allows for more timely eradication and management efforts. The Department estimates that a half week
delay in intervention can increase total costs by $135 million, including production and trade losses related
to a major disease event. Therefore, the monitoring and surveillance activities are crucial to minimizing and
preventing damages to the U.S. livestock industry, and ensuring access to a variety of meat and poultry
products.
USDA also continues to help ensure the availability of fresh fruits like grapes through controlling such pests as
the European Grapevine Moth (EGVM). EGVM is a significant pest of grapes and other specialty crops. It
damages grape production when larvae feed on the flowers and berries. Subsequent fungal infection causes
further damage. High population densities of EGVM can destroy entire vineyards, resulting in a total loss of
grapes at harvest. The Department believes that many of the impacts have been avoided due to the rapid response
to the initial discovery of the pest. USDA, State, county, and university cooperators continue to conduct survey
and regulatory activities, as well as education and outreach efforts. Growers in affected areas also conducted
treatments to suppress the moth. Regulatory controls, extensive surveys, and grower treatments conducted in
2010 reduced populations by more than 99 percent. Survey, regulator, and treatment activities are continuing and


                                              Annual Performance Report
                                                          78
have been effective. Between February and August 2011, the program detected 143 moths, compared to 100,665
moths detected during the same time period in 2010.




                                     Annual Performance Report
                                                 79
                    Annual Performance Goals,                                2007        2008         2009       2010               Fiscal Year 2011
                      Indicators, and Trends                                                                               Target       Actual          Result
 4.4.1   Value of damage prevented and mitigated annually as a
         result of selected plant and animal health monitoring and            1.37        1.38        1.05       1.07        1.11         1.11           Met
         surveillance efforts ($ billions)
 Rationale for Met Range: The value of the agricultural resources protected can vary year to year and are disease and commodity specific. A threshold
 boundary equal to the economic assumptions for a given year should be considered acceptable.
                                                  Data Assessment of Performance Measure 4.4.1
 •   Data Source: Data for animal health programs are entered by State partners into a USDA database. They are verified by agency officials
   to document the results of surveillance efforts, and document the health status of the U.S. herd. Data for plant health programs are
   maintained in the Cooperative Agricultural Pest Survey program database. The estimated value of savings is a calculation of the costs
   associated with conducting monitoring and surveillance programs, versus potential losses of not having these programs in place.
 • Completeness of Data — USDA maintains the databases and results are entered directly into the system. Should a pest or disease be
   detected, the agency keeps its Web site up to date – detection and response efforts to plant and animal pests and diseases are updated
   daily at: http://www.aphis.usda.gov/. The pests and diseases of highest concern are easily identified from the agency’s Web site.
 • Reliability of Data — The surveillance results are used by both internal managers and external partners and stakeholders as an
   authoritative source of information.
 • Quality of Data — USDA ensures the information reported on its Web site accurately reflects the status of U.S. plant and animal health.



Challenges for the Future
USDA is faced with prioritizing and determining an appropriate Federal response to an increasing number
of agricultural health threats. This requires it to continually prioritize the list of major pest and disease
threats. Such threats are increasing domestically and around the world. In addition, the Department’s
monitoring and surveillance efforts will need to be adjusted to respond to these threats to protect agricultural
resources and help ensure that America has access to nutritious foods.

Selected Results in Research, Extension, and Statistics
USDA engages in scientific research and extension work that helps farmers and others involved in
producing food and fiber, and statistical analysis designed to aid understanding of agricultural issues. This
important facet of USDA’s role supports its mission through its strategic goals, as outlined below. The
examples provided are a small selection from a large effort to further our understanding.
STRATEGIC GOAL 1: ASSIST RURAL COMMUNITIES TO CREATE PROSPERITY SO THEY ARE SELF-SUSTAINING, REPOPULATING, AND
ECONOMICALLY THRIVING
Effects of Increased Biofuels on the U.S. Economy in 2022. Achieving greater energy security by reducing
dependence on foreign petroleum is a goal of U.S. energy policy. The Energy Independence and Security
Act of 2007 calls for a Renewable Fuel Standard (RFS-2). RFS-2 mandates that the U.S. increase the
volume of biofuel that is blended into transportation fuel from 9 billion gallons in 2008, to 36 billion gallons
by 2022. Long-term technological advances are needed to meet this mandate. USDA research examined
how meeting RFS-2 would affect various key components of the U.S. economy. If biofuel production
advances with cost-reducing technology and petroleum prices continue to rise as projected, the RFS-2 could
provide significant economic benefits. The actual level of benefits (or costs) to the U.S. economy depends
importantly on future oil prices and whether tax credits are retained in 2022. If oil prices stabilize or decline
from current levels and tax credits are retained, then benefits to the economy would diminish. See:
http://www.ers.usda.gov/Publications/ERR102/ERR102_ReportSummary.pdf




                                                       Annual Performance Report
                                                                   80
Extension and Research Programs are Creating Jobs. The total economic impact of 1 dairy animal is about
$14,000. The price includes the ripple effects from the milk being produced on the farm through the
creation of a product for human consumption. The USDA-funded University of Missouri Extension
provided educational programs to increase the knowledge and understanding of pasture-based dairy systems,
including classroom and on-farm workshops, discussion groups and mass media. In 2010, a new pasture-
based dairy was started. Additionally, several other producers began work toward establishing systems as the
economy improves. As a result of such recent extension programs, growth in Missouri by new grazing
dairies created $100 million in new investment, generated $40 million in annual milk sales, added $124
million in total output, and added 1,100 additional jobs to the State.
Atlas of Rural and Small Town America. USDA has placed new emphasis on mobilizing local and regional
assets that foster economic growth and prosperity. The Department is also deploying resources to better
serve the strategic planning and development needs of rural communities nationwide. This new approach to
public investment and regional collaboration has increased demand for comprehensive, accessible, and
interactive rural data tools to support Federal, regional, and local development efforts. USDA responded to
the challenge by designing and implementing the Atlas of Rural and Small Town America. This Web-
based mapping and data access service brings together more than 80 demographic, economic, and
agricultural statistics for every county in all 50 States. It assembles statistics in four broad categories, on
people, jobs, agriculture, and geography that can be mapped or downloaded in an Excel file for later
analysis. See: http://www.ers.usda.gov/Data/RuralAtlas/index.htm.
Facing the Future in a Global Economy. Fruit and vegetable production is a labor-intensive process. More than
half of the hired workers employed by growers are believed to be unauthorized immigrants. Reforms to
immigration laws, if they reduce the labor supply, may increase the cost of farm labor. USDA research
assessed how particular fruit and vegetable commodities might adjust if labor rates increased. Analysis of
case studies suggests a range of possible adjustment scenarios. These scenarios include increased
mechanization for some crops, reduced U.S. output for a few crops, and the increased use of labor aids to
improve labor productivity for others.
Development of High Oleic Acid Soybeans. Soybean oil can be improved for its nutritional value in human
foods, and industrial biodiesel use by altering its fatty acid composition. Vegetable oils with high oleic acid
contents are desirable for the health benefits of the monounsaturated fatty acids. These acids have recently
made olive and canola oils very popular. High oleic acid content also dramatically improves oxidative and
temperature stability of the oil, and improves cold flow properties in diesel engines. USDA scientists in
Columbia, Missouri, identified and combined mutant alleles of two soybean fatty acid desaturase genes.
This experiment created a high oleic acid soybean oil. The researchers developed a technology to directly
select the 16 genes conferring the desired fatty acid profile, which accelerated the rate at which new soybean
varieties containing this important trait can be made available to producers.
Water Savings from Conservation Tillage of Peanuts and Cotton. USDA scientists in Dawson, Georgia,
demonstrated that the use of conservation tillage for peanut and cotton lowered crop water usage by 20
percent versus conventional tillage, while crop yield and quality were maintained. Conservation tillage also
resulted in lower emissions and lower production costs.


STRATEGIC GOAL 2: ENSURE OUR NATIONAL FORESTS AND PRIVATE WORKING LANDS ARE CONSERVED, RESTORED, AND MADE
MORE RESILIENT TO CLIMATE CHANGE, WHILE ENHANCING OUR WATER RESOURCES
Cooperative Extension is Conserving the Nation’s Forests State by State. Healthy, sustainable forests are
critical to New Hampshire's forest products industry, forest-related tourism, and recreation industries.
These industries contribute more than $2 billion annually to the State's economy. USDA-funded extension


                                       Annual Performance Report
                                                   81
foresters referred 406 landowners owning 33,026 acres to licensed foresters who wrote forest stewardship
plans on more than 15,210 acres. More than 550 coverts cooperators and natural resource stewards are
actively involved in conservation in their communities. Volunteers contributed more than 18,000 hours in
2010. Extension funding provided cost-share dollars for practices that improve and protect forestland,
wildlife habitat, and water quality, and act as the catalyst for the forest products industry in New
Hampshire. These funds provided a financial stimulus for the forest-based economy during challenging
market conditions. Six communities used information from New Hampshire's Wildlife Action Plan in
natural resource inventories and conservation plans. Two towns are collaborating on land conservation
projects along town boundaries. More than 10,500 acres of forest and field have been permanently protected
as a result of assistance provided by the Department-funded University of New Hampshire Cooperative
Extension.
Climate Change Policy and the Adoption of Methane Digesters on Livestock Operations. Methane digesters—
biogas recovery systems that use methane from manure to generate electricity—have not been widely
adopted in the U.S. because costs have exceeded benefits to operators. Burning methane in a digester
reduces greenhouse gas emissions from manure management. A policy or program that pays producers for
these emission reductions—through a carbon offset market or directly with payments—could increase the
number of livestock producers who would profit from adopting a methane digester. An economic model
developed by USDA illustrates how dairy and hog operation size, location, and manure management
methods, along with electricity and carbon prices, could influence methane digester profits. The model
shows that a relatively moderate increase in the price of carbon could induce significantly more dairy and
hog operations, particularly large ones, to adopt a methane digester. Thus, greenhouse gases would decrease
significantly. See: http://www.ers.usda.gov/Publications/EB16/EB16.pdf
Reducing Greenhouse Gases. USDA-funded agricultural researchers in Wisconsin evaluated the effectiveness
of using portable soil moisture sensors to manage crop irrigation. Potato growers participating in a related
summer project got hands-on experience with soil moisture sensors. Additionally, 280 vegetable growers
and crop consultants increased their knowledge of managing groundwater with this method. Eliminating,
through use of soil moisture sensors, the need to apply 1 inch of water to irrigated land would save 27,000
gallons of water for each acre of vegetables grown, or 5.3 billion gallons in central Wisconsin alone. Cost
savings for not needing to pump that inch of water ($4.00 per acre-inch) would amount to around
$785,000. If overwatering could be avoided, nutrient and pesticide leaching into the groundwater, and the
release of the greenhouse gas nitrous oxide into the atmosphere would be minimized.
Nitrogen in Agricultural Systems: Implications for Conservation Policy. While nitrogen is critical to crop
production, large amounts of it can damage water, terrestrial, and atmospheric resources. USDA research
finds that about two-thirds of U.S. cropland is not meeting three criteria for good nitrogen management
related to the rate, timing, and method of application. Several policy approaches, including financial
incentives, nitrogen management as a condition of farm program eligibility, and regulation, could induce
farmers to improve their nitrogen management and reduce nitrogen losses to the environment.
Sediment and Nutrient Benefits of Conservation Reserve Program (CRP) Land Use Conversion Quantified.
While billions of dollars have been invested to remove cultivated lands from production for conservation
purposes via CRP, the resulting environmental benefits have rarely been quantified. USDA scientists in
Oxford, Mississippi, showed that, in the Mississippi Delta, converting 280 hectares of cropped land to trees
reduced sediment concentrations and nutrient loads in runoff by an order of magnitude relative to adjacent
sites with similar topography and soils that were under reduced tillage crop production. A single hectare is
roughly 10,000 square meters. Associated positive impacts on the water quality of the receiving water body,
Beasley Lake, have also been measured. These findings support future federal investment in the CRP.




                                      Annual Performance Report
                                                  82
STRATEGIC GOAL 3: HELP AMERICA PROMOTE AGRICULTURAL PRODUCTION AND BIOTECHNOLOGY EXPORTS AS AMERICA WORKS
TO INCREASE FOOD SECURITY

Food Security Assessment, 2011-2012. USDA analysis finds that the number of food-insecure people in
developing countries is estimated to decline by almost 9 million, from 861 million in 2010 to 852 million in
2011. That number is projected to fall by 16 percent, or nearly 140 million over the next decade. Food
security in Asia and the Latin America and the Caribbean region is projected to improve, whereas food
security in Sub-Saharan Africa is expected to deteriorate. See:
http://www.ers.usda.gov/Publications/GFA22/GFA22_ReportSummary.pdf
Aquaculture for the World. Aquaculture is expected to provide sources of income from new products and add
value to existing commodities in Micronesia. USDA-funded extension agents in Micronesia facilitated
public displays of products, from aquaculture projects, to hands-on training, and on-site visits, and
broadcasted information via local radio stations. Communities have now been educated on the importance
and contribution of aquaculture for the country’s food security and economic development. Of special note
are pearl and sea cucumber projects that have received immediate attention from domestic and overseas
stakeholders, and international journals on high quality products and skill training methodologies.
Trade and Global Climate Change Analysis. A USDA-funded researcher at Oregon State University explored
how global climate change will affect the location of agricultural production and patterns of trade. This
activity identified various roles of certain countries in international trade transactions, with attention to
making the transitions and alleviating the costs associated with climate change. This research found that
countries’ welfare would decline only very modestly if yield amounts decreased, and international trade was
unrestricted. It would appear that increased variability is here, and that freer international agricultural trade
is a straightforward, low-tech way by which the U.S. can adapt to it.
Distillers Dried Grains with Solubles (DDGS) as a High-Protein, High-Fiber Food Additive. USDA researchers,
in collaboration with South Dakota State University, conducted studies using various blends of DDGS (a
co-product of ethanol production) in Asian flat breads (naan and barbari). DDGS, which cost only $0.05/
pound, were found to replace corn-based food ingredients, which cost $3/pound, at levels up to 20 percent
with only minimal reductions in bread performance and consumer acceptability. The successful commercial
use of DDGS as a human food ingredient represents an opportunity to increase the value of DDGS. See:
http://www.ers.usda.gov/Publications/FDS/2011/09Sep/FDS11I01/
FDS11I01.pdf
Assessment of Afghanistan Agricultural Statistics Capacity. Afghanistan’s Ministry of Agriculture, Irrigation,
and Livestock (MAIL) and its Central Statistics Organization struggle to collect, analyze, and disseminate
the basic statistical information necessary to understand and react to food and agricultural conditions in the
country. USDA conducted an assessment of Afghanistan’s agricultural statistics program during FY 2011,
and offered a path for improving the capacity of the program. Based on this initial assessment, the
Department contracted with Purdue University to enhance the planning, data collection, and analysis of
agricultural statistics to improve outcomes for the Afghan people. See: http://www.fas.usda.gov/
country/Afghanistan/FAS%20Afghanistan%20Fact%20Sheet_11.10.10.pdf


STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN HAVE ACCESS TO SAFE, NUTRITIOUS, AND BALANCED MEALS
Household Food Security in the United States. Food security for a household means that it can access, at all
times, enough food for an active, healthy life. To inform policy makers and the public about the extent to
which U.S. households consistently have economic access to enough food, USDA publishes an annual
statistical report on household food security in the U.S. The latest report, “Household Food Security in the


                                        Annual Performance Report
                                                    83
United States, 2010,” based on data from the December 2010 Food Security Survey and published in
FY 2011, provides the most recent statistics on the food security of U.S. households. It documents how
much was spent for food, and the extent to which food-insecure households participated in Federal and
community food assistance programs. Results show that 85.5 percent of American households were food
secure throughout 2008. The remaining 14.5 percent of households were food insecure at least some time
during that year. See: http://www.ers.usda.gov/publications/err125/.
Food Desert Locator. The USDA Food Desert Locator is an Internet-based mapping tool
(www.ers.usda.gov/data/fooddesert) that pinpoints the location of "food deserts," or low-income
communities that lack ready access to healthy food, around the country. It provides data on population
characteristics of census tracts where residents have limited access to affordable and nutritious foods. This
tool is has been used by USDA, Wal-Mart. and other firms to identify underserved areas for future
investment in large grocery stores.
Year-Round Spawning Achieved with Pompano. Lack of sustained year-round production of juveniles for
grow-out operations is one of the foremost bottlenecks of marine finfish aquaculture. Spawning induction
protocols were developed and tested. Spawning performance of Florida pompano broodstock, measured as
number of eggs, fertilization, egg quality, and hatch rate was quantified through a 12-month period.
Spawning was achieved in 10 months of the year having an average production of 1.9 million eggs/year with
no discernable diminishment in egg quality over time. This work demonstrates that Florida pompano
seedstock can be produced year-round from a small population of broodstock, overcoming one of the key
bottlenecks to marine finfish aquaculture.
How Much Do Fruits and Vegetables Cost? Federal dietary guidance advises Americans to consume more
vegetables and fruits because most fail to consume the recommended quantities or variety. Food prices,
along with taste, convenience, income, and awareness of the link between diet and health, shape food
choices. USDA analysis of prices at retail stores of 153 commonly consumed fresh and processed fruits and
vegetables showed that average prices ranged from less than 20 cents to more than $2 per edible cup
equivalent. Research also showed that, in 2008, an adult on a 2,000- calorie diet could satisfy
recommendations for vegetable and fruit consumption in the 2010 Dietary Guidelines for Americans (amounts
and variety) at an average price of $2 to $2.50 per day, or approximately 50 cents per edible cup equivalent.
See http://www.cnpp.usda.gov/dietaryguidelines.htm.
Starch-Oil Composite Gel Fat Replacer for Ground Meat Applications. This technology was developed by
scientists in Peoria, Illinois, and commercialized resulting in the large-scale production of a fat-replacer gel,
and reduced-fat ground beef patties. Use of the gel enables the conversion of 93 to 95 percent lean beef,
which tends to yield a chewy and dry cooked patty, to a low-fat alternative which consistently provides
tenderness, juiciness, and flavor. Similar results of this technology were also demonstrated in meatballs and
pork sausages. The company plans to expand the marketing of the low-fat patties to large volume
institutional customers as well as broaden the product line to include emulsified meat products, such as
frankfurters and lunch meats. The availability of this technology, which delivers significant fat (and calorie)
reduction while enhancing product quality, will ultimately enable progress in addressing consumer obesity,
and increasing the acceptance of healthier alternatives to traditionally high fat foods.
Increasing Efficiency in the Food Safety System. Several food safety recall events stemming from bulk food
products have demonstrated the need for more precise food safety management. It also calls for the
improved ability to trace products through their supply chain. Systems were developed by USDA-funded
Iowa State University scientists for process mapping, geo-location of traceable units, bulk grain tracking,
and cost-benefit analysis that simplified quality or food safety/quality management systems (QMS or
FS/QMS). This work allowed collaborating grain firms to report significant economic benefits for
operational improvements/efficiencies. Additionally, enhanced public health through compliance to new


                                        Annual Performance Report
                                                    84
food safety legislation results from organized QMS or FS/QMS. This has large implications for the ways in
which food safety, quality management, and occupational safety compliance support each other (and at
significant cost savings to organizations). Savings in the billions of dollars from reduced redundant audits
could result through development of a uniform audit schema around the ISO22000 Standard.
Toxigenic E. coli in Produce Growing Areas in California. Many outbreaks of fresh produce-associated
foodborne illness have been linked to California's Salinas Valley, which has been called "the salad bowl of
the world." The initial source of the contamination in outbreaks of E. coli O157 linked to leafy greens
produced in the Salinas Valley remains unknown. There has been a need to establish a baseline for the
environmental prevalence of E. coli O157 and non-O157 E. coli in this important agricultural region. In
collaboration with the University of California Davis, USDA researchers at Albany, California, isolated
more than 3,000 strains of E. coli O157 and non-O157:H7 Shiga-toxin-positive E. coli from 12,000 samples
from water, animals and their feces, crops, and soil. They have determined the pathogens’ genotypes and
virulence gene profiles. The Department has submitted data to the U.S. Food and Drug Administration,
and CDC PulseNet. While data indicate that O157 and non-O157 E. coli prevalence varies considerably
among sources, with the highest prevalence associated with cattle feces (7 percent and 33 percent,
respectively), other animal species are also a significant source of the pathogens. This information, which
provides the industry and public health agencies with the first scientific data for E. coli in the Salinas Valley,
will be used to develop good agricultural practices for produce production.
Too Much Disinfectant Is a Bad Thing. Disinfectants are routinely used in the commercial rearing of livestock
and poultry as a means of keeping facilities clean and healthy for both animals and the personnel working in
the facilities. Very little is known about how pathogenic or food-poisoning microorganisms associated with
animals and their surroundings can become resistant to disinfectants. USDA researchers at College Station,
Texas, and Clay Center, Nebraska, showed that a significant percentage of the E coli O157:H7 bacteria
isolated from living cattle, cattle-processing plants, and ground beef resisted the effects of some common
disinfectants used in cattle-rearing facilities. The work also showed that, if disinfectant used in the animal
facilities was applied at higher than recommended levels, E. coli resistance posed an even bigger problem.
The study’s impact for the cattle industry was important because it showed that disinfectants must be used
wisely in animal production facilities. Proper usage ensures that their positive effects are not offset by certain
harmful bacteria becoming even more problematic in animal production and human food safety.
The National Plant Diagnostic Network (NPDN) to develop links to laboratories in every State. NPDN
provides a nationwide network of public agricultural institutions with a cohesive, distributed system. This
system will quickly detect high-consequence pests and pathogens introduced into agricultural and natural
ecosystems, identify them, and immediately report them to appropriate responders and decision makers.
See: http://www.npdn.org/.

Priority Goal Summaries
Priority Goals
As part of the Administration’s efforts to operate in a goal-focused, data-driven way, USDA identified nine
outcome focused, near-term priority goals. This initial set of priority goals was identified in the FY 2011
President’s Budget. Consistent with the GPRA Modernization Act of 2010, USDA is selecting its new
priority goals, which will be included with the FY 2013 President’s Budget. The nine goals that USDA
pursued for FY 2010 and 2011 are set out below.
Reduce Non-Tariff Trade Barriers and increase U.S. agricultural exports
Goal Statement
By the end of 2011, reduce non-tariff trade barriers for 5 major markets and increase agricultural exports in
those markets by $2 billion.


                                        Annual Performance Report
                                                    85
Overview and Progress Summary
Foreign trade barriers limit exports, thereby reducing farm income and preventing job growth throughout
rural America. USDA’s Economic Research Service estimates that, in 2009, every $1 billion worth of
agricultural exports supported an estimated 8,400 jobs throughout the economy. While U.S. farmers and
ranchers are among the most productive and efficient in the world, they face complex, frequently unfair
obstacles in the global marketplace, where 95 percent of the world’s consumers live. USDA’s negotiators, its
overseas representatives, and its technical experts work to overcome barriers to U.S. agricultural exports,
contributing directly to the prosperity of communities across America through increased sales, higher
commodity prices, and job growth.
Overcoming market barriers requires exceptional coordination across USDA, as well as with other agencies
of the U.S. Government, the private sector, and officials of foreign countries who share our views. The
strategy for achieving this goal entails the interagency identification of key issues and markets through
vehicles like USDA’s Global Market Strategy (GMS). To overcome each non-tariff barrier to U.S.
agricultural exports, USDA draws on a toolbox that ranges from exchanges of technical information, to high
level political dialogue, and formal dispute settlement proceedings in the World Trade Organization.
USDA exceeded the trade goal by working with the US Trade Representative and other partners to reduce
trade barriers in 9 major markets, facilitating $1.03 billion in additional trade for FY 2010. FY 2011 trade
data, available in late November 2011, are expected to show that the Department significantly exceeded its
$2 billion goal. Achievements included the lifting of import bans, favorable decisions from international
bodies on pesticide residues and biotech products, and USDA continuing to support grant proposals for
resolution of technical trade issues.
Increase the Number of Provinces in Afghanistan that Are Deemed "Generally Food Secure."
Goal Statement
Increase the average number of provinces in Afghanistan that are deemed “Generally Food Secure” from an
annual average of 11 in 2008 to an annual average of 14 in 2011, in support of the President’s Afghanistan
and Pakistan Strategy. As a result, 41 percent of Afghanistan’s provinces will be food secure.
Overview and Progress Summary
Approximately 80 percent of the Afghan labor force is employed in the agriculture sector. There is
significant need for technical assistance to provide competitive alternatives to illicit crops, while also
strengthening sustainable agricultural production and addressing food insecurity. Agricultural programs that
enable growth across the entire value chain will enable Afghanistan to become more stable and economically
viable. Afghanistan’s ability to produce, distribute, and access the food needed to sustain the population is a
vital component of USDA efforts in Afghanistan. A fully functional Agriculture Ministry with the ability to
implement and oversee agricultural reconstruction projects, employ competent personnel from the national-
level to district-level who are able to provide expertise to Afghan farmers, and implement a science based
agricultural regulatory regime all contribute to improving food security.
Agricultural experts from a wide range of USDA agencies have been deployed to support the Government
of Afghanistan’s agricultural programs throughout the country and implement U.S. technical assistance,
capacity building, and agricultural support programs. These experts engage both Afghan farmers and
Ministry of Agriculture, Irrigation, and Livestock (MAIL) personnel at all levels providing expertise on
improved agronomic practices, water utilization, marketing techniques, and other agricultural practices to
increase productivity and income of Afghan farmers. Milestones for this goal have focused on the
deployment of USDA’s agricultural experts, the training of Afghans, and wheat crop productivity.
With an average of 16 provinces considered food secure in 2011, USDA reached the target for this priority
goal. USDA made a positive impact in Afghanistan by training and assisting 25,261 Afghan farmers,


                                       Annual Performance Report
                                                   86
exceeding the milestone of 20,000 farmers by June 2011. USDA built capacity within the Afghan
Agriculture Ministry by working with Afghan officials responsible for 79 Districts, exceeding the milestone
of 70 Districts.
Accelerate the Protection of Clean, Abundant Water Resources
Goal Statement
By the end of 2011, accelerate the protection of clean, abundant water resources by implementing high
impact targeted (HIT) practices on six million acres of national forest and private working lands in priority
watersheds.
Overview and Progress Summary
Protecting the nation's water resources is an urgent priority that has been widely recognized by the
agricultural and business communities, local and state government, and leading scientific experts. Eighty-
seven percent of America's surface supply of drinking water originates on lands that USDA impacts in some
way. The Department plays a key role in addressing the challenges facing this nation's water resources, and
has an array of statutory authorities, expertise and tools with which to take action. Secretary Vilsack has
identified protecting and enhancing water resources for humans and the environment as one of his top
conservation and USDA objectives.
The strategy for this priority goal has been to ensure that limited resources are strategically targeted to
improve water quality and availability. A team was created to identify priority landscapes, define HIT
practices, and use science and local expertise to apply these HIT practices. The team ensured that
participating USDA agencies — the Forest Service, the Natural Resources Conservation Service, and the
Farm Service Agency — worked together to make best use of resources. USDA exceeded this priority goal
by implementing HIT practices on 6.7 million acres by the end of FY 2011.
Strengthen USDA's program for the regulation of genetically engineered (GE) plants
Goal Statement
Strengthen USDA’s biotechnology regulatory program by enhancing compliance and improving the petition
process for non-regulated status, while working toward the prevention of unauthorized releases.
Overview and Progress Summary
USDA oversees a science-based regulatory framework for the safe development and use of genetically
engineered (GE) organisms. USDA’s Animal and Plant Health Inspection Service (APHIS) regulates the
importation, interstate movement, and field release of GE organisms that may pose a pest risk to plant
health. APHIS has safely authorized more than 31,000 permit and notification applications involving GE
organisms. APHIS evaluates the potential risk associated with a GE organism to ensure it is unlikely to pose
a risk to plant health or the environment before authorizing its movement or field testing. If an organization
can demonstrate that the newly developed and tested biotechnology derived organism does not pose a risk to
plant health, APHIS conducts a thorough scientific analysis to determine whether to issue a determination
of nonregulated status, often a first step towards making a GE organism available to growers for commercial
use.
Implementing this goal included the following:
• Improving APHIS' ability to create timely and high-quality documents in support of the National
   Environmental Policy Act (NEPA) requirements;
• Completing a process analysis to improve the efficiency of the petition process, thereby increasing the
   number of petition determinations;




                                       Annual Performance Report
                                                   87
•   Increasing the number of participants in the Biotechnology Quality Management System (BQMS)
    Program to enable universities, small businesses, and large companies to develop sound management
    practices to help prevent unauthorized releases of regulated articles;
•   Strengthening the biotechnology inspection and compliance program by increasing inspections of
    regulated permittees and notifiers; and
•   Collaborating with other USDA agencies to address critical biotechnology issues.
USDA has met or exceeded five of six performance metric targets for this goal. Accomplishments included
publishing (cumulatively) 15 determinations on biotechnology petitions in the Federal Register between
FY 2007 and FY 2011, including 6 in FY 2011, and conducting 828 biotechnology compliance inspections
in FY 2011. USDA strengthened the biotechnology compliance program by enrolling a total of 18
companies in the BQMS program, falling slightly short of the goal of 20 companies after two companies
withdrew. The 18 enrolled entities account for more than 90 percent of all notifications and permits
processed by USDA. In addition, USDA conducted a process improvement review for the petition review
function, and anticipates implementing changes based on the findings from the review in FY 2012. Also in
FY 2011, USDA initiated a NEPA pilot project to test new approaches to developing environmental
documents and how these approaches improve the quality, timeliness, and cost of the process.
Improve Food Sold in Schools
Goal Statement
By 2011, partner with local schools, propose national standards and take other actions that will result in
improved quality of food sold in schools throughout the school day.
Overview and Progress Summary
Improving the quality of food at schools ultimately relies on high-quality program delivery in more than
100,000 schools across the nation. Therefore, USDA's implementation strategy for this goal focuses on
setting standards and providing technical assistance and collaboration opportunities to support schools and
the state agencies responsible for school meals programs.
To pursue this goal, the Department has been working to:
• Update and implement improved school meals nutrition standards, based on Institute of Medicine
   (IOM) recommendations to conform to Dietary Guidelines for Americans. USDA will complete proposed
   and final rulemaking within 2 years, work with Congress to increase State program resources
   conditioned on improved meal quality, and provide technical assistance and support to implementing
   schools;
• Improve the quality of other foods offered and sold at schools under current authority, by rapidly
   expanding the number of HealthierUS School Challenge schools;
• Make available and promote more nutritious USDA commodity foods for use in the school meals
   programs, and encourage the use of more locally-grown produce through the Farm to School Initiative;
• Propose science-based national standards for all foods sold at school based on IOM recommendations;
   and
• Promote effective implementation of local wellness policies, by engaging State, local, and school food
   service leaders, providing guidance and technical assistance to communities, and seeking authority for
   national monitoring and compliance.
USDA exceeded its key target to expand the number of schools in the HealthierUS School Challenge. As of
September 30, 2011, there were 1,631 certified schools, well above the target of 1,350. These schools must
meet rigorous standards for the quality of the food they offer at school. USDA is updating nutrition
standards for Federally-subsidized school meals to ensure consistency with the Dietary Guidelines for


                                       Annual Performance Report
                                                   88
Americans. In January, 2011, the Department published a proposed rule to update school meals nutrition
standards based on IOM recommendations.
Reduce the Number of Households with Children Who Experience Very Low Food Security
Goal Statement
By the end of 2011, reduce the number of households with children who experience very low food security
by 100,000.
Overview and Progress Summary
USDA’s nutrition assistance programs form the first line of the Nation’s defense against hunger. While
these programs serve millions of low-income Americans, some who need benefits do not participate – they
are not aware of their eligibility, do not realize the size and value of the benefits available to them, or find
the application process too difficult. About 20 percent of all households with food insecurity among children
in 2006-07 did not participate in any of the major nutrition assistance programs.
USDA’s Food and Nutrition Service (FNS) is taking actions to end childhood hunger, both by making our
existing programs as effective as possible and through our participation in broader efforts which include
other federal agencies and our stakeholders. Key partners include the Agricultural Marketing Service and
Farm Service Agency within USDA, as well as the Department of Health and Human Service and
Department of Education. Core actions include:
• Increasing participation rates in USDA nutrition programs through outreach, customer service
    improvements, media activities, and research and analysis to identify reasons for participation gaps;
• Streamlining applications, and making other policy and operational changes to programs and policies to
    make for easier access to nutrition assistance programs, especially for children;
• Engaging state, local, and community leaders; forming partnerships with allied organizations, advocacy
    groups, and local, state, and Federal communities;
• Identifying and publicizing issues surrounding childhood hunger;
• Utilizing media to communicate food sources for families in need; and
• Conducting research to better understand the characteristics and circumstances of children with low and
    very low food security to inform outreach, partnership, and policy initiatives.
USDA’s indicators suggest it did not achieve the target of 100,000 fewer children with very low food
security. The number of households with low food security among children is estimated at 434,000 while
the fourth quarter FY 2011 target was 350,000. Annual survey data for 2010, however, show a lower
prevalence of very low food security among children than predicted by the quarterly estimates. Since the
quarterly estimates are based only on changes in unemployment and food prices, this difference may show
the positive impact of nutrition assistance programs in addressing food insecurity.
USDA successfully delivered all 11 milestones for this goal. Accomplishments include awarding Hunger
Free Community Grants and launching a partnership to end child hunger. The Department also
strengthened the Summer Food Service Program through incentives to extend the duration of program
operations; funding for enrichment activities at summer sites; non-congregate meals-on-wheels in rural
areas, and “backpack” food packages for consumption over weekends.
Creating Access to Healthy and Affordable Food
Goal Statement
By the end of 2011, evaluate USDA-supported strategies that made healthy food available to low-income
Americans to demonstrate private and public sector efforts that can increase the availability of healthy foods.




                                       Annual Performance Report
                                                   89
Overview and Progress Summary
Research suggests that a scarcity of healthy foods makes it more difficult for residents of low-income neighborhoods
to adhere to a nutritious diet. Neighborhood residents with better access to supermarkets and limited access to
convenience stores tend to have healthier diets and lower levels of obesity.
USDA estimates that 23.5 million people, including 6.5 million children, live in low-income areas that are more
than a mile from a supermarket. As the department that houses the nation’s nutrition programs, funds projects that
provide underserved areas with greater access to fresh produce, and conducts research on how food systems impact
consumers, USDA is a key partner in increasing access to healthy food in underserved communities.
USDA is on target to achieve the priority goal on healthy and affordable food. USDA is completing a Healthy
Food Access Report that evaluates food access strategies. Over the course of the past 2 years, USDA's interventions
in food deserts and support for increasing healthy food access have been organized into three broad categories: retail,
infrastructure, and education. USDA has been an active partner in the Tri-Agency effort to improve access to
healthy food with the Departments of Treasury and Health and Human Services to increase retail outlets for
healthy food access in underserved communities. The USDA has also prioritized investments in infrastructure to
increase healthy food access through various programs and projects across agencies and mission areas including
Rural Development (RD), the Agricultural Marketing Service (AMS), and the National Institute of Food and
Agriculture (NIFA). Finally, the Department has developed a suite of educational tools and platforms, including the
Food Desert Locator, the SNAP Retail Locator and the Food Environmental Atlas to help identify communities in
need. Likewise, the USDA has funded projects directed at education and skill building in targeted underserved
communities through AMS, NIFA and FNS.
Reduce Number of Salmonella Illnesses
Goal Statement
By 2011, reduce the case rate due to Salmonella in USDA’s Food Safety and Inspection Service (FSIS)
regulated products to 5.3 cases per 100,000. Compared to the baseline period, this represents a reduction of
approximately 22,600 illnesses and an illness cost reduction of $404 million as a result of FSIS regulated
establishments reducing the presence of Salmonella.
Overview and Progress Summary
The overarching goal of FSIS is to reduce the burden of foodborne illness in the population from meat, poultry, and
processed egg products. FSIS seeks to reach this goal by enforcing the provisions of the Federal Meat Inspection
Act, the Poultry Products Inspection Act, and the Egg Products Inspection Act. One major focus area for FSIS is
the reduction of Salmonella in the products inspected by the Agency.
Salmonella is the leading known cause of bacterial foodborne illness and death in the U.S. Salmonella lives in the
intestinal track of humans and other animals, including birds. Salmonella contamination of raw meat and poultry
products occurs during the slaughter operation. Currently, such contamination cannot be eliminated, but can be
measurably minimized. Salmonella present on and in raw meat and poultry products can survive and cause illness if
the product is not cooked thoroughly before consumption, or if the product is improperly handled so as to cause
cross contamination with other foods or through food contact surfaces.
During the period of time FSIS spent working on the Food Safety Priority Goal, the Agency attained the majority
of its Priority Goal milestones. This effort resulted in advancements in the fight against Salmonella illnesses. The
Agency implemented the Salmonella Initiative Program in establishments, published a Federal Register Notice on
the program, published tighter performance standards for Salmonella, began phased-in implementation of a new
Public Health Information System (PHIS) and trained personnel on this system, and began conducting baseline
studies relating to Salmonella prevalence on hogs, chicken parts and pre-pasteurized egg products. USDA and the
Department of Health and Human Services also jointly launched a national multimedia campaign, including
national television ads by the Ad Council, to help families prevent foodborne illness.


                                          Annual Performance Report
                                                      90
Despite these efforts, many of which are longer-term in nature, the third-quarter, FY 2011 target for reducing
Salmonella was not met. CDC data lags real time by at least one full fiscal year quarter. CDC reports a case rate of
6.28 cases of Salmonella per 100,000 people as compared to a goal of 5.32 cases. Due to the data lag, FSIS will not
be in a position to definitively report on whether the Agency has achieved its FY 2011 Food Safety Priority Goal,
until early calendar year 2012.
Create Strong Local and Regional Communities
Goal Statement
By 2011, increase the prosperity of rural communities by concentrating and strategically investing in 8-10
regions, resulting in the creation of strong local and regional economies, with a particular emphasis on food
systems, renewable energy, broadband-based economies, and rural recreation.
Overview and Progress Summary
USDA’s Regional Innovation Initiative (RII) has catalyzed, developed and sustained innovation and
entrepreneurship in rural and urban economies. The initiative is intended to speed the development of
innovative cluster-based economic growth. Data collected during this initiative will substantiate the value of
cluster-based economic development in achieving greater productivity, innovation, higher wage jobs,
entrepreneurship, regional diversity and economic activity. RII process focuses diverse resources to:
• Promote rural prosperity by encouraging regional collaboration; and
• Prioritize investments, policy and implementation throughout the Department.
The Regional Innovation Team (RIT), lead by the Rural Development mission area, aims to link, leverage and
align existing national, regional and local organizations to implement the RII. RIT’s mission is to deploy
USDA’s programs to each of USDA’s targeted RIIs, as well as direct regions to other federal programs that they
may benefit from. The RIT group has representation from several USDA mission areas and seeks to increase
networks, knowledge and exchanges among targeted region participants. RIT’s outreach includes live and virtual
seminars, educational and networking events.
In FY 2011, USDA made great strides through this goal to foster, develop and sustain innovation and
entrepreneurship in rural and urban economies. The Department developed a portfolio of targeted regional
innovation projects for the RII, all derived from the Rural Business Opportunity Grant (RBOG) program. The
regional projects are in California, Iowa, North Dakota, South Carolina, the Pacific Northwest, Vermont, and
tribal lands in Washington State.
Accomplishments of the regional projects include:
• California — expanding rural-urban collaboration for movement of farm goods and biofuels and related
   infrastructure deployment;
• Iowa — providing one-year business training for new food producer businesses;
• North Dakota — engaging more than 400 people in community and economic development to sustain
   and empower a rural network of community leaders;
• South Carolina — increasing the number of agribusiness projects that have considered marketing in the
   targeted region;
• Pacific Northwest — increasing connections between producers, consumers, and emergency food
   assistance;
• Vermont — developing links with other programs to address goat milk producer’s needs; and
• Washington tribal lands — completing a draft feasibility study for the use of woody biomass in the
   Quinault Indian Nation.




                                          Annual Performance Report
                                                      91
Selected FY 2011 Program Evaluations
  Performance
                        Title              Findings and Recommendations/Actions                              Availability
    Measure
 1.3.1          “American Recovery     Overall, for these 120 borrowers, the Office of          http://www.usda.gov/oig/webdocs/03703
                and Reinvestment       Inspector General (OIG) found that FSA generally         -2-TE.pdf
                Act Direct Farm        made direct operating loans to eligible producers
                Operating Loans”       and for eligible purposes. The agency had adequate
                (Phase 2) (PDF),       control over its loan-making process. Also, its
                (Report No: 03703-2-   employees generally complied with FSA’s operating
                TE, Issued January     procedures for processing loans. While OIG also
                2011                   found agency employees involved in processing
                                       these loans sometimes did not follow all of FSA’s
                                       procedures, the deficiencies were not considered
                                       significant.
 1.3.2          “American Recovery     OIG found that FSA should develop procedures to          http://www.usda.gov/oig/webdocs/03703
                and Reinvestment       ensure it has supporting documentation for all           -01-IT.pdf
                Act Spending for       transactions made with its Recovery Act funds. FSA
                Farm Service Agency    will work with the servicing agencies to improve the
                Information            language in the reimbursable agreements. This will
                Technology” (PDF),     ensure that FSA has the necessary supporting
                (Report No: 03703-     financial documentation for all transactions executed
                01-IT, Issued March    against these agreements, whether using Recovery
                2011                   Act funding or other funding accounts.
 2.1.8          “Forest Service        Summary: The Forest Legacy Program (FLP) is a            http://www.usda.gov/oig/webdocs/08601
                Legacy Program”        Federal program that supports States’ efforts to         -56-SF.pdf
                (OIG Report issued     protect environmentally sensitive forest lands.
                April 2011)            States voluntarily participate in the program. FLP
                                       focuses on the acquisition of partial interests in
                                       privately owned forest lands through conservation
                                       easements. Conservation easements are legally
                                       binding agreements that transfer a negotiated set of
                                       property rights from the landowner to the State
                                       without removing the property from private
                                       ownership. Most FLP conservation easements
                                       restrict development, require sustainable forest
                                       practices, and protect other values.
                                       Findings/Recommendations: FS needs to
                                       strengthen its oversight of the appraisal process,
                                       ensure States meet the annual monitoring
                                       requirement, strengthen controls over accounting
                                       and record keeping, and standardize conservation
                                       agreements. FS will develop and implement a
                                       national conservation easement review policy to
                                       incorporate recommendations.
 2.2.5          “Forest Service        Summary: As part of the Forest Service’s (FS)            http://www.usda.gov/oig/webdocs/08601
                Invasive Species       mission to sustain the health, diversity, and            -7-AT.pdf
                Program” (OIG          productivity of the Nation’s forests and grasslands,
                Report issued          the agency is responsible for preventing the
                September 2010)        introduction of invasive species into the lands it
                                       manages, and combating those invasive species
                                       that have already been introduced. The Office of
                                       Inspector General (OIG) initiated this audit to assess
                                       FS’ controls over the administration of its invasive
                                       species program, and evaluate the efficiency and
                                       effectiveness of the agency’s efforts to control these
                                       threats to the health of the Nation’s forests.




                                           Annual Performance Report
                                                       92
Performance
              Title       Findings and Recommendations/Actions                Availability
  Measure
                      Findings/Recommendations: Develop an adequate,
                      cohesive internal control environment for managing
                      the invasive species program. Develop a plan for
                      inventorying all invasive species, including the risk
                      each species poses and the efficacy of available
                      treatments. Document all of the invasive species
                      program’s internal policies and procedures. Develop
                      and implement controls for reporting accurately how
                      much the agency is spending to combat invasive
                      species, both locally and nationally. Revise the
                      agency’s overall strategy for the invasive species
                      program, and establish a control for revising that
                      strategy once every 5 years. Implement a monitoring
                      plan to assess the invasive species program and
                      related internal controls. Develop a standard for how
                      many acres should be affected by each of the
                      agency’s treatments, and require the regions to
                      follow those standards when reporting performance
                      results. Conduct an overall review of the agency’s
                      information systems for the invasive species
                      program, and take steps to ensure that the systems
                      are adequate to report valid data.




                          Annual Performance Report
                                      93
                        Financial Statements, Notes, Supplemental
                           and Other Accompanying Information

3.   Financial Statements, Notes, Supplemental and Other Accompanying Information
Message from the Chief Financial Officer
The Office of the Chief Financial Officer leads the U.S. Department of Agriculture (USDA) with fiscally
sound, cost-effective program delivery. Our efforts are supported by reliable financial management
information and infrastructure. Because we are accountable to the American taxpayer, we strive for peak
performance in all facets of the Department. We continually adjust our operations to improve the quality of
services we provide to the American people.
The purpose of Sections 3 and 4 of this Fiscal Year 2011 Performance Accountability Report is to provide
factual data that clearly characterize our accomplishments in managing USDA resources with maximum
efficiency. Sections 3 and 4 include detailed information regarding:
• Financial Statements;
• Audit Reports;
• Findings and Recommendations;
• Balance Sheets;
• Supplemental Notes; and
• Other Accompanying Information.
Through the leadership and collaborative efforts of USDA managers, employees, business partners, and
stakeholders, we have made significant strides in fiscal year 2011, advancing the Department’s impressive
record of excellence in financial management.
Highlights of USDA’s significant progress in financial management during FY 2011 include:
• Received another clean financial audit opinion;
• Continued implementation of a core financial system to replace USDA’s 9 general ledger systems;
• Of the 29 agencies and offices that form the Department, 25 have implemented the Financial
   Management Modernization Initiative system;
• Completed the assessment of internal control over financial reporting as required by Office of
   Management and Budget Circular A-123, Appendix A, “Internal Control over Financial Reporting.”
   As a result of testing, USDA identified 307 new control deficiencies. In FY 2011, the Department also
   closed 46 business-process corrective action plans and 165 general-computer-control plans of action and
   milestones from prior years’ assessments;
• Reduced USDA’s total inventory of open audits by 20 percent;
• Reduced USDA’s inventory of audits open 1 or more years without final action by 34 percent;
• Reduced improper payments from 5.37 percent to 5.26 percent; and



         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              94
•   Provided cost-effective and secure payroll, and other administrative services reliably and accurately
    Government-wide through our National Finance Center.
Though we are continually making progress in financial management, we cannot yet give unqualified
assurance of compliance with the Federal Managers’ Financial Integrity Act, nor with the financial systems
requirements of the Federal Financial Management Improvement Act. We will continue to focus on these
efforts in the coming year.
We remain proud of the accomplishments of our hard working employees at USDA. All of us are
committed to the sound management of resources under our stewardship. We look forward to more
financial management improvements in fiscal year 2012.




Jon M. Holladay
Acting Chief Financial Officer
November 15, 2011




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            95
                                      Consolidated Balance Sheet
                                    As of September 30, 2011 and 2010
                                               (In Millions)
                                                                                    2011          2010
Assets (Note 2):
Intragovernmental:
     Fund Balance with Treasury (Note 3)                                        $    74,126   $    75,805
     Investments (Note 5)                                                               138           154
     Accounts Receivable, Net (Note 6)                                                  224           288
     Other (Note 11)                                                                      2            83
   Total Intragovernmental                                                           74,490        76,330

  Cash and Other Monetary Assets (Note 4)                                               248           161
  Investments (Note 5)                                                                    3             3
  Accounts Receivable, Net (Note 6)                                                   8,001         7,320
  Direct Loan and Loan Guarantees, Net (Note 7)                                      92,042        89,405
  Inventory and Related Property, Net (Note 8)                                           51            47
  General Property, Plant, and Equipment, Net (Note 9)                                3,050         2,964
  Other (Note 11)                                                                       243           178

Total Assets                                                                        178,128       176,408

  Stewardship PP&E (Note 10)

Liabilities (Note 12):
  Intragovernmental:
     Accounts Payable                                                                    21             7
    Debt (Note 13)                                                                   89,583        87,915
     Other (Note 15)                                                                 11,052        11,735
  Total Intragovernmental                                                           100,656        99,657

  Accounts Payable                                                                      709           580
  Loan Guarantee Liability (Note 7)                                                   3,621         2,857
  Federal Employee and Veteran Benefits                                                 904           881
  Environmental and Disposal Liabilities (Note 14)                                        9             9
  Benefits Due and Payable                                                            3,500         3,356
  Other (Notes 15 & 16)                                                              26,853        21,584
  Total Liabilities                                                                 136,252       128,924

  Commitments and Contingencies (Note 17)

Net Position:
 Unexpended Appropriations - Earmarked Funds (Note 18)                                   74           375
 Unexpended Appropriations - Other Funds                                             30,395        35,886
 Cumulative Results of Operations - Earmarked Funds (Note 18)                         1,730         1,795
 Cumulative Results of Operations - Other Funds                                       9,677         9,428
 Total Net Position                                                                  41,876        47,484

Total Liabilities and Net Position                                              $ 178,128     $ 176,408




                               Consolidated Financial Statements


                        The accompanying notes are an integral part of these statements.


Financial Statements, Notes, Supplemental and Other Accompanying Information
                                     96
                                  Consolidated Statement of Net Cost
                           For the Years Ended September 30, 2011 and 2010
                                              (In Millions)


                                                                                        2011             2010

Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
 Gross Costs                                                                        $       36,398   $    25,912
 Less: Earned Revenue                                                                        8,450         5,301
     Net Costs                                                                              27,948        20,611

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
 Gross Costs                                                                                12,997        11,804
 Less: Earned Revenue                                                                          869           670
   Net Costs                                                                                12,128        11,134

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
  Gross Costs                                                                                3,397         3,231
  Less: Earned Revenue                                                                         294           375
    Net Costs                                                                                3,103         2,856

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
  Gross Costs                                                                           106,551           98,684
  Less: Earned Revenue                                                                      883              847
    Net Costs                                                                           105,668           97,837


Total Gross Costs                                                                       159,343          139,631
Less: Total Earned Revenue                                                               10,496            7,193

Net Cost of Operations (Note 19)                                                    $ 148,847        $ 132,438




                         The accompanying notes are an integral part of these statements.




    Financial Statements, Notes, Supplemental and Other Accompanying Information
                                         97
                                Consolidated Statement of Changes in Net Position
                                         For The Year Ended September 30, 2011
                                                       (In Millions)

                                                         Earmarked
                                                           Funds               All Other                     Consolidated
                                                          (Note 18)             Funds        Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                      $     1,795       $        9,428     $         -    $    11,223

 Budgetary Financing Sources:
     Other Adjustments (recissions, etc.)                          -                 (205)              -           (205)
     Appropriations Used                                         312              139,266               -        139,578
     Non-exchange Revenue                                          -                   21               -             21
     Donations and Forfeitures of Cash and Equivalents             1                    -               -              1
     Transfers In (Out) without Reimbursement                  1,834                7,067               -          8,901
 Other Financing Sources (Non-Exchange):
     Transfers In (Out) without Reimbursement                    (67)                 212               -            145
     Imputed Financing                                            59                4,409          (2,744)         1,724
     Other                                                        65               (1,199)              -         (1,134)
 Total Financing Sources                                       2,204              149,571          (2,744)       149,031

 Net Cost of Operations                                       (2,269)            (149,322)         2,744         (148,847)

 Net Change                                                      (65)                 249               -            184

    Cumulative Results of Operations                           1,730                9,677               -         11,407

Unexpended Appropriations:
 Beginning Balances                                             375                35,886               -         36,261

 Budgetary Financing Sources:
   Appropriations Received                                        11              142,475               -         142,486
   Appropriations Transferred In (Out)                             -                   10               -              10
   Other Adjustments                                               -               (8,710)              -          (8,710)
    Appropriations Used                                         (312)            (139,266)              -        (139,578)
 Total Budgetary Financing Sources                              (301)              (5,491)              -          (5,792)

   Unexpended Appropriations                                      74               30,395               -         30,469

 Net Position                                            $     1,804       $       40,072     $         -    $    41,876




                                The accompanying notes are an integral part of these statements.



    Financial Statements, Notes, Supplemental and Other Accompanying Information
                                         98
                               Consolidated Statement of Changes in Net Position
                                         For The Year Ended September 30, 2010
                                                         (In Millions)

                                                         Earmarked
                                                           Funds             All Other                      Consolidated
                                                          (Note 18)           Funds        Eliminations        Total
Cumulative Results of Operations:
 Beginning Balances                                      $    3,125      $        3,488    $           -    $     6,613

 Budgetary Financing Sources:
     Other Adjustments (recissions, etc.)                         -                 (44)               -            (44)
     Appropriations Used                                          2             130,001                -        130,003
     Non-exchange Revenue                                         -                   5                -              5
     Donations and Forfeitures of Cash and Equivalents            1                   -                -              1
     Transfers In (Out) without Reimbursement                 1,438               5,818                -          7,256
 Other Financing Sources (Non-Exchange):
     Transfers In (Out) without Reimbursement                   (60)                220                -            160
     Imputed Financing                                           57               3,982           (2,949)         1,090
     Other                                                       44              (1,467)               -         (1,423)
 Total Financing Sources                                      1,482             138,515           (2,949)       137,048

 Net Cost of Operations                                       (2,812)          (132,575)          2,949         (132,438)

 Net Change                                                   (1,330)             5,940                -          4,610

    Cumulative Results of Operations                          1,795               9,428                -         11,223

Unexpended Appropriations:
 Beginning Balances                                             366              37,936                -         38,302
 Adjustments:
     Changes in Accounting Principles (Note 24)                   -                (444)               -           (444)
     Beginning Balance, as Adjusted                             366              37,492                -         37,858

 Budgetary Financing Sources:
   Appropriations Received                                       11             131,258                -         131,269
   Appropriations Transferred In (Out)                            -                 172                -             172
   Other Adjustments                                              -              (3,035)               -          (3,035)
    Appropriations Used                                          (2)           (130,001)               -        (130,003)
 Total Budgetary Financing Sources                                9              (1,606)               -          (1,597)

   Unexpended Appropriations                                    375              35,886                -         36,261

 Net Position                                            $    2,170      $       45,314    $           -    $    47,484




                               The accompanying notes are an integral part of these statements.



  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                       99
                                          Combined Statement of Budgetary Resources
                                        For The Years Ended September 30, 2011 and 2010
                                                           (In Millions)

                                                                             2011                                        2010
                                                                                 Non-Budgetary                               Non-Budgetary
                                                                                  Credit Reform                               Credit Reform
                                                             Budgetary         Financing Accounts        Budgetary         Financing Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 21)    $     28,420         $     8,297            $    33,120          $     4,689
Recoveries of prior year unpaid obligations                         4,036                 964                  3,721                1,106
Budget Authority -
  Appropriation                                                   152,007                   2                144,701                    -
  Borrowing Authority                                              31,369              12,628                 39,063               21,852
  Earned -
    Collected                                                      21,404              11,315                 21,285               10,988
    Change in receivables from Federal Sources                          9                  (1)                   189                    1
  Change in unfilled customer orders -
    Advances received                                                   -                    -                   426                    -
    Without advance from Federal Sources                              281                 (135)                  309                  (34)
  Previously unavailable                                               13                    -                     -                    -
  Expenditure transfers from trust funds                              932                    -                   937                    -
Nonexpenditure transfers, net, anticipated and actual                (374)                   -                  (253)                   -
Temporarily not available pursuant to Public Law                     (397)                   -                  (134)                   -
Permanently not available                                         (45,511)             (10,787)              (50,335)              (6,246)
Total Budgetary Resources                                         192,189               22,283               193,029               32,356

Status of Budgetary Resources:
Obligations Incurred -
   Direct                                                         143,050              16,679                138,924               24,059
   Reimbursable                                                    23,901                   -                 25,685                    -
Unobligated Balance -
   Apportioned                                                      9,935               4,596                 10,349                4,233
   Exempt from Apportionment                                        1,736                   9                  1,392                    5
Unobligated balance not available                                  13,567                 999                 16,679                4,059
Total Status of Budgetary Resources                               192,189              22,283                193,029               32,356

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                  35,810               29,111                 29,604               23,298
Obligations incurred                                              166,951               16,679                164,609               24,059
Gross outlays                                                    (163,818)             (17,377)              (154,185)             (17,174)
Recoveries of prior year unpaid obligations, actual                (4,036)                (964)                (3,721)              (1,106)
Change in uncollected payments from Federal Sources                  (290)                 136                   (498)                  34
Obligated balance, net, end of period -
  Unpaid obligations                                               36,637              28,532                 37,540               30,193
  Uncollected customer payments from Federal Sources               (2,019)               (947)                (1,730)              (1,082)
Obligated Balance, net, end of period                              34,618              27,585                 35,810               29,111

Net Outlays:
Gross outlays                                                     163,818               17,377               154,185                17,174
Offsetting collections                                            (22,336)             (11,315)              (22,648)              (10,989)
Distributed offsetting receipts                                    (1,814)                (225)               (1,512)                 (576)
Net Outlays                                                  $    139,668         $      5,837           $   130,025          $      5,609




                                      The accompanying notes are an integral part of these statements.



          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               100
                                Notes to the Consolidated Financial Statements
                                          As of September 30, 2011 and 2010
                                                      (In Millions)


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around
the world. USDA is organized into seven distinct mission areas and their agencies that execute these
missions.
Listed below are the missions and the agencies within each mission including three Government
corporations:
Farm and Foreign Agricultural Services (FFAS)
• Farm Service Agency (FSA)
    − Commodity Credit Corporation (CCC)
•   Foreign Agricultural Service (FAS)
•   Risk Management Agency (RMA)
    − Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
• Food and Nutrition Service (FNS)
Food Safety
• Food Safety and Inspection Service (FSIS)
Marketing and Regulatory Programs (MRP)
• Agricultural Marketing Service (AMS)
• Animal and Plant Health Inspection Service (APHIS)
• Grain Inspection, Packers and Stockyards Administration (GIPSA)
Natural Resources and Environment (NRE)
• Forest Service (FS)
• Natural Resources Conservation Service (NRCS)
Research, Education, and Economics (REE)
• Agricultural Research Service (ARS)
• National Institute of Food and Agriculture (NIFA)
• Economic Research Service (ERS)
• National Agricultural Statistics Service (NASS)
Rural Development
• Rural Development (RD)
    − Alternative Agricultural Research and Commercialization Corporation (AARC)
Effective October 1, 2009, Section 7511(f) (2) of the Food, Conservation, and Energy Act of 2008
transferred all authorities administered by the Cooperative State Research, Education, and Extension
Service (CSREES) to the newly established National Institute of Food and Agriculture (NIFA).


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             101
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and
balances are eliminated, except for the Statement of Budgetary Resources that is presented on a combined
basis. The financial statements are prepared in accordance with generally accepted accounting principles for
the Federal Government.
Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation.
RMA reclassified the FCIC from earmarked funds to other funds, absent explicit authority to retain
revenues and other financing sources not used in the current period for future use, consistent with the
change in accounting principle (Note 21) made in FY 2010. The Balance Sheet, Statement of Changes in
Net Position, and related Earmarked Funds note reflects this change. RMA also reclassified liabilities
covered by budgetary resources of $3,920 million to liabilities not covered by budgetary resources as a result
of this change.
CCC reclassified other financing sources of $250 million on the Statement of Changes in Net Position and
related Reconciliation of Budgetary Resources Obligated to Net Cost of Operations note to comply with
Treasury General Fund Receipt Account Guide, Scenario 6 - Collection of Downward Reestimate of
Subsidy Expense.
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect
the amounts reported in the financial statements and accompanying notes. Actual results could differ from
those estimates.
Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists,
delivery has occurred or services have been rendered, sales price is fixed or determinable, and collection is
reasonably assured. In certain cases, the prices charged by the Department are set by law or regulation,
which for program and other reasons may not represent full cost. Prices set for products and services offered
through the Department’s working capital funds are intended to recover the full costs incurred by these
activities. Revenue from non-exchange transactions is recognized when a specifically identifiable, legally
enforceable claim to resources arises, to the extent that collection is probable and the amount is reasonably
estimable. Appropriations are recognized as a financing source when used. An imputed financing source is
recognized for costs subsidized by other Government entities.
Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried
at cost. Investments in market-based Treasury securities are classified as held to maturity and are carried at
amortized cost. The amortized cost of securities is based on the purchase price adjusted for amortization of
premiums and accretion of discounts using the straight-line method over the term of the securities.
Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The
adequacy of the allowance is determined based on past experience and age of outstanding balances.
Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present
value of the net cash-flows estimated over the life of the loan or guarantee. The difference between the


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             102
outstanding principal of the loans and the present value of their net cash inflows is recognized as a subsidy
cost allowance; the present value of estimated net cash outflows of the loan guarantees is recognized as a
liability for loan guarantees. The subsidy expense for direct or guaranteed loans disbursed during the year is
the present value of estimated net cash outflows for those loans or guarantees. A subsidy expense also is
recognized for modifications made during the year to loans and guarantees outstanding and for reestimates
made as of the end of the year to the subsidy allowances or loan guarantee liability for loans and guarantees
outstanding.
Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value
method. Under the present-value method, the outstanding principal of direct loans is reduced by an
allowance equal to the difference between the outstanding principal and the present value of the expected
net cash flows. The liability for loan guarantees is the present value of expected net cash outflows due to the
loan guarantees.
Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are
valued on the basis of historical cost using a first-in, first-out method. Commodities are valued at the lower
of cost or net realizable value using a weighted average method.
Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is
determined using the straight-line method over the estimated useful lives of the assets. Useful lives for
PP&E are disclosed in Note 9. Capitalization thresholds for personal property and real property are $25,000
and $100,000 for internal use software. There are no restrictions on the use or convertibility of PP&E.
Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at
the time the employees’ services are rendered. The expense is equal to the actuarial present value of benefits
attributed by the pension plan’s benefit formula, less the amount contributed by the employees. An imputed
cost is recognized for the difference between the expense and contributions made by and for employees.
Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized
when a future outflow or other sacrifice of resources is probable and measurable on the basis of events
occurring on or before the reporting date. The liability for long-term other post-employment benefits is the
present value of future payments.
Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, the Department has reported
the earmarked funds for which it has program management responsibility when the following three criteria
are met: (1) a statute committing the Federal Government to use specifically identified revenues and other
financing sources only for designated activities, benefits or purposes; (2) explicit authority for the earmarked
fund to retain revenues and other financing sources not used in the current period for future use to finance
the designated activities, benefits or purposes; and (3) a requirement to account for and report on the
receipt, use, and retention of the revenues and other financing sources that distinguishes the earmarked fund
from the Government’s general revenues.
Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future
outflow or other sacrifice of resources is probable, and the future outflow or sacrifice of resources is
measurable.


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             103
Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent)
entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its
authority to obligate budget authority and outlay funds to another department. A separate fund account
(allocation account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and subsequent
obligations and outlays incurred by the child entity are charged to this allocation account as they execute the
delegated activity on behalf of the parent entity.
The Department allocates funds, as the parent, to the Department of Transportation, Department of the
Interior, Department of Defense, Department of Housing and Urban Development, U.S. Agency for
International Development and the Small Business Administration. The Department receives allocation
transfers, as the child, from the Department of Labor, Department of Transportation, Department of the
Interior, Economic Development Administration, Appalachian Regional Commission and the Delta
Regional Authority.
Inter-Entity Costs
Each entity’s full cost should incorporate the full cost of goods and services that it receives from other
entities. The entity providing the goods or services has the responsibility to provide the receiving entity with
information on the full cost of such goods or services either through billing or other advice.
Recognition of inter-entity costs that are not fully reimbursed is limited to material items that (1) are
significant to the receiving entity, (2) form an integral or necessary part of the receiving entity’s output, and
(3) can be identified or matched to the receiving entity with reasonable precision. Broad and general support
services provided by an entity to all or most other entities should not be recognized unless such services form
a vital and integral part of the operations or output of the receiving entity.
Fiduciary Activities
Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment
and disposition by the Federal Government of cash or other assets in which non-Federal individuals or
entities have an ownership interest that the Federal Government must uphold. Fiduciary assets are not
assets of the Federal Government and are not recognized on the balance sheet.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             104
NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract performance
bonds, employer contributions and payroll taxes withheld for agencies serviced by the National Finance
Center, interest, fines and penalties.
                                                                    FY 2011                FY 2010
 Intragovernmental:
   Fund balance with Treasury                                   $             176      $         121
   Accounts Receivable                                                         23                 25
 Subtotal Intragovernmental                                                   199                146

 With the Public:
   Cash and other monetary assets                                               -                    -
   Accounts receivable                                                         73                 89
 Subtotal With the Public                                                      73                 89

 Total non-entity assets                                                      272                235

 Total entity assets                                                     177,856             176,173

 Total Assets                                                   $        178,128       $     176,408



NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include deposit and clearing accounts. Borrowing Authority not yet Converted to Fund
Balance represents un-obligated and obligated amounts recorded at year-end that will be funded by future
borrowings. Non-Budgetary Fund Balance with Treasury includes special fund receipt accounts; and
clearing and suspense account balances awaiting disposition or reclassification. Unprocessed
Intragovernmental Payment and Collection (IPAC) transactions were not reported to Treasury at the end of
FY 2011 and FY 2010 because the proper Treasury Account Symbol was unknown which reduced Fund
Balance with Treasury by $52 million and $48 million, respectively.




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            105
                                                                          FY 2011                FY 2010
Fund Balances:
   Trust Funds                                                        $          550         $           472
   Special Funds                                                             17,777                  15,230
   Revolving Funds                                                           12,397                  11,270
   General Funds                                                             43,294                  48,735
   Other Fund Types                                                              108                     98
Total                                                                        74,126                  75,805


Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                                 16,276                  15,979
   Unavailable                                                               14,690                  20,738
Obligated Balance not yet Disbursed                                          61,956                  64,797
Borrowing Authority not yet Converted to Fund Balance                        (35,133)                (39,613)
Non-Budgetary Fund Balance with Treasury                                     16,337                  13,904
Total                                                                 $      74,126          $       75,805




NOTE 4. CASH AND OTHER MONETARY ASSETS
In FY 2011 and FY 2010, cash includes Federal crop insurance escrow amounts of $247 million and $123
million respectively. In FY 2010, cash includes certificates of deposit of $37 million.
                                                                   FY 2011                 FY 2010


   Cash                                                        $           248         $           161




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             106
NOTE 5. INVESTMENTS

FY 2011                                                               Amortized                                                  Market
                                 Amortization                         (Premium)             Interest        Investments,          Value
                                   Method            Cost             Discount             Receivable           Net             Disclosure
Intragovernmental:
  Non-marketable
    Par value                                    $            -   $               -    $                -   $           -   $            -
    Market-based                 Straight Line              135                  (1)                    4             138              138
Total                                            $          135   $              (1)   $                4   $         138   $          138


With the Public:
  AARC                                           $           3    $               -    $                -   $          3    $             3
Total                                            $           3    $               -    $                -   $          3    $             3


FY 2010                                                               Amortized                                                  Market
                                 Amortization                         (Premium)             Interest        Investments,          Value
                                   Method            Cost             Discount             Receivable           Net             Disclosure
Intragovernmental:
  Non-marketable
    Par value                                    $            -   $               -    $                -   $           -   $                -
    Market-based                 Straight Line              152                  (1)                    3             154              154
Total                                            $          152   $              (1)   $                3   $         154   $          154


With the Public:
  AARC                                           $           3    $               -    $                -   $          3    $             3
Total                                            $           3    $               -    $                -   $          3    $             3




NOTE 6. ACCOUNTS RECEIVABLE, NET
                     FY 2011
                                                   Accounts                Allowance for                      Accounts
                                                 Receivable,                Uncollectible                   Receivable,
                                                    Gross                    Accounts                           Net
                   Intragovernmental             $       224               $             -                  $       224
                   With the Public                     8,049                          (48)                        8,001
                   Total                         $     8,273               $          (48)                  $     8,225

                     FY 2010
                                                   Accounts                Allowance for                      Accounts
                                                 Receivable,                Uncollectible                   Receivable,
                                                    Gross                    Accounts                           Net
                   Intragovernmental             $       288               $             -                  $       288
                   With the Public                     7,354                          (34)                        7,320
                   Total                         $     7,642               $          (34)                  $     7,608


NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct loans or loan
guarantees are reported at net present value.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               107
Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform
Act of 1990 as amended governs the resulting direct loan or loan guarantees. The Act requires agencies to
estimate the cost of direct loans and loan guarantees at present value for the budget. Additionally, the
present value of the subsidy costs (i.e. interest rate differentials, interest subsidies, delinquencies and
defaults, fee offsets and other cash flows) associated with direct loans and loan guarantees are recognized as
a cost in the year the loan or loan guarantee is disbursed. The net present value of loans or defaulted
guaranteed loans receivable at any point in time is the amount of the gross loan or defaulted guaranteed
loans receivable less the present value of the subsidy at that time.
The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the
proceeds that might be expected if these loans were sold on the open market.
Direct Loan and Loan Guarantees, Net at the end of FY 2011 was $92,042 million compared to $89,405
million at the end of FY 2010. Loans exempt from the Federal Credit Reform Act of 1990 represent $338
million of the total compared to $673 million in FY 2010. Table 1 illustrates the overall composition of the
Department’s credit program balance sheet portfolio by mission area and credit program for FY 2011 and
FY 2010.
During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by
the value of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications
and reestimates all contribute to the change of the subsidy cost allowance throughout the year. The subsidy
cost allowance moved from $5,576 million to $6,017 million during FY 2011, an increase of $441 million.
Table 2 shows the reconciliation of subsidy cost allowance balances from FY 2010 to FY 2011.
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the
current year, modifications to existing loans, and interest rate and technical reestimates to existing loans.
Total direct loan subsidy expense in FY 2011 was $539 million compared to $429 million in FY 2010. Table
3 illustrates the breakdown of total subsidy expense for FY 2011 and FY 2010 by program.
Direct loan volume increased from $11,144 million in FY 2010 to $11,147 million in FY 2011. Volume
distribution between mission area and program is shown in Table 4.
Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95
percent of the principal loan amount. Under the guaranteed loan programs, the lender is responsible for
servicing the borrower’s account for the life of the loan. The Department, however, is responsible for
ensuring borrowers meet certain qualifying criteria to be eligible and monitoring the lender’s servicing
activities. Borrowers interested in guaranteed loans must apply to a conventional lender, which then arranges
for the guarantee with a Department agency. Estimated losses on loan and foreign credit guarantees are
reported at net present value as Loan Guarantee Liability. Defaulted guaranteed loans are reported at net
present value as Loans Receivable and Related Foreclosed Property, Net.
Guaranteed loans outstanding at the end of FY 2011 were $89,317 million in outstanding principal and
$79,858 million in outstanding principal guaranteed, compared to $75,688 and $67,793 million, respectively
at the end of FY 2010. Table 5 shows the outstanding balances by credit program.
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee
liability held against those loans. Current year subsidy expense, modification and reestimates all contribute
to the change of the loan guarantee liability through the year. The loan guarantee liability is a combination
of the liability for losses on pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability
moved from $2,857 million to $3,621 million during FY 2011, an increase of $764 million. Table 7 shows
the reconciliation of total loan guarantee liability.



       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            108
Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans
disbursed in the current year, modifications to existing loans, and interest rate and technical reestimates to
existing loans. Total guaranteed loan subsidy expense in FY 2011 was $721 million compared to $702
million in FY 2010. Table 8 illustrates the breakdown of total subsidy expense for FY 2011 and FY 2010 by
program.
Guaranteed loan volume decreased from $26,892 million in FY 2010 to $23,664 million in FY 2011.
Volume distribution between mission area and program is shown in Table 9.
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct
Federal administrative expenses. Administrative expenses for FY 2011 and FY 2010 are shown in Table 10.
Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses. The subsidy rates disclosed in Tables 11 and
12 pertain only to the FY 2011 cohorts. These rates cannot be applied to the direct and guaranteed loans
disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new loans
reported in the current year could result from disbursements of loans from both current year cohorts and
prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.
Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area
through the FSA and the CCC, and in the RD mission area.
The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America’s farmers and ranchers in business as they face the uncertainties
of weather and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance
programs that help strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the
farm sector with programs that encourage the expansion of export markets for U.S. agriculture.
FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial
credit and nonprofit entities that are engaged in the improvement of the nation’s agricultural community.
Often, FSA borrowers are beginning farmers who cannot qualify for conventional loans due to insufficient
financial resources. Additionally, the agency helps established farmers who have suffered financial setbacks
from natural disasters, or have limited resources to maintain profitable farming operations. FSA officials also
provide borrowers with supervision and credit counseling.
FSA’s mission is to provide supervised credit. FSA works with each borrower to identify specific strengths
and weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA
is able to provide certain loan servicing options to assist borrowers whose accounts are distressed or
delinquent. These options include reamortization, restructuring, loan deferral, lowering interest rate,
acceptance of easements, and debt write-downs. The eventual goal of FSA’s farm credit programs is to
graduate its borrowers to commercial credit.
CCC’s foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both credit guarantee
and direct credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food
assistance.
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is
an internationally recognized organization under the leadership of the French Ministry of Economics and
Finance. Its sole purpose is to assess, on a case-by-case basis, liquidity problems faced by economically


       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            109
disadvantaged countries. The general premise of the Club’s activities is to provide disadvantaged nations
short-term liquidity relief to enable them to re-establish their credit worthiness. The Departments of State
and Treasury lead the U.S. Delegation and negotiations for all U.S. Agencies.
CCC also provides loans for Farm and Sugar Storage Facilities (FSFL). FSFL provides low-interest
financing for producers to build or upgrade farm storage and handling facilities. The 2008 Farm Bill added
hay and renewable biomass as eligible FSFL commodities, extended the maximum loan term to 12 years and
increased the maximum loan amount to $500,000.
Farm and Foreign Agricultural Service List of Programs

                                Farm Service Agency                   Commodity Credit Corporation
                      Direct Farm Ownership                      General Sales Manager Guarantee Credit
                      Direct Farm Operating                      Program
                      Direct Emergency Loans                     Facility Program Guarantee
                      Direct Indian Land Acquisition             P.L. 480 Title 1 Program
                      Direct Boll Weevil Eradication             Direct Farm Storage Facility
                      Direct Seed Loans to Producers             Direct Sugar Storage Facilities
                      Direct Conservation
                      Guaranteed Farm Operating
                      Subsidized/Unsubsidized
                      Agricultural Resource Demonstration Fund
                      Bureau of Reclamation Loan Fund
                      Guaranteed Farm Ownership
                      Unsubsidized
                      Guaranteed Conservation
                      American Recovery and Reinvestment
                      Fund



The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the
quality of rural housing. To leverage the impact of its programs, RD is working with State, local and Indian
tribal Governments, as well as private and not-for-profit organizations and user-owned cooperatives.
Through its rural housing loan and grant programs, RD provides affordable housing and essential
community facilities to rural communities. Rural housing programs help finance new or improved housing
for moderate, low, and very low-income families each year. The programs also help rural communities
finance, construct, enlarge or improve fire stations, libraries, hospitals and medical clinics, industrial parks,
and other community facilities.
The Rural Business Program goal is to promote a dynamic business environment in rural America. RD
partners with the private sector and community-based organizations to provide financial assistance and
business planning. It also provides technical assistance to rural businesses and cooperatives, conducts
research into rural economic issues, and provides cooperative educational materials to the public.
The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan
programs for electric energy, telecommunications, and water and environmental projects. This program




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             110
leverages scarce Federal funds with private capital for investing in rural infrastructure, technology and
development of human resources.
RD programs provide certain loan servicing options to borrowers whose accounts are distressed or
delinquent. These options include reamortization, restructuring, loan deferral, lowering interest rate,
acceptance of easements and debt write-downs. The choice of servicing options depends on the loan
program and the individual borrower.
Rural Development List of Programs
             Rural Housing Program                    Rural Business Program                     Rural Utilities Program
 Single Family Housing Direct Loans            Business and Industry Direct Loans      Water and Environmental Direct Loans
 Single Family Housing Guaranteed Loans        Business and Industry Guaranteed        Water and Environmental Guaranteed
 Self Help Housing Direct Loans                Loans                                   Loans
 Single Family Housing Credit Sales            Intermediary Relending Program Direct   Electric Direct Loans
 Site Development Loans                        Loans                                   Electric Guaranteed Loans
 Farm Labor Housing Direct Loans               Rural Economic Development Direct       Telecommunications Direct Loans
 Multi-Family Housing Direct Loans             Loans                                   Federal Financing Bank-Electric
 Multi-Family Housing Guaranteed Loans         Biorefinery Guaranteed Loans            Federal Financing Bank-Telephone
 Multi-Family Housing-Credit Sales             Renewable Energy Guaranteed Loans       Distance Learning and Telemedicine Direct
 Multi-Family Housing Relending Program        Rural Microenterprise Direct Loans      Broadband Telecommunications Services
 Multi-Family Housing Revitalization Program
 Community Facilities Direct Loans
 Community Facilities Guaranteed Loans



Events and Changes Having a Significant and Measurable Effect on Subsidy Rates, Subsidy Expense, and
Subsidy Reestimates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting
treatment of direct and guaranteed loans. The long-term cost to the Government for direct loans or loan
guarantees is referred to as “subsidy cost.” Under the act, subsidy costs for loans obligated beginning in
FY 1992 are recognized at the net present value of projected lifetime costs in the year the loan is disbursed.
Subsidy costs are revalued annually. Components of subsidy include interest subsidies, defaults, fee offsets,
and other cash flows.
The annual reestimate process updates the budget assumptions with actual portfolio performance, interest
rates and updated estimates for future loan performance. The FY 2011 reestimate process resulted in an
$177 million increase in the post 1991 estimated cost of the direct loan portfolio and a $588 million increase
in the post 1991 estimated cost of the guaranteed loan portfolio.
The net upward reestimate for direct loans was mostly due to an upward reestimate for Housing less a
downward reestimate for Electric and Water and Environmental:
The Housing programs had an overall upward reestimate of $352 million. The Single Family Housing
program accounted for the largest portion of this reestimate. Although the private sector is offering record
low interest rates, Section 502 direct borrowers appear to be unable to take advantage of this opportunity to
refinance their loans. The resulting effect of home values declining and the tightening credit requirements
have resulted in fewer prepayments than forecasted. As borrowers did not obtain credit from commercial
organizations, the costs associated with retaining loans were realized to include anticipating costs for the
future years. Reduced cash flows resulted from additional interest rate payment assistance being granted for


         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              111
the loans remaining, coupled with lower property values. Reduced recapture of payment assistance, if and
when the homes are sold, results in less cash flows. Assumptions beginning with the 2011 forecasts has
reduced the expected prepayments of loans and payment assistance recapture in the out years. The
adjustments primarily affect the more current year cohorts as these cohorts have the largest amounts
disbursing in the current year and the most significant long term cash flows.
The upward reestimate amount for cohort 201 was due to a decrease in the average rate of interest charged
to borrowers from 4.88 to 4.69 percent, while the average Treasury discount rate for this cohort increased
from 3.73 to 3.82 percent. The increased spread between cost of borrowing and the borrower interest rate
explains the majority of the $89 million reestimate.
The increase in Defaulted Guaranteed Housing Loans in FY 2011 were a result of additional purchases of
Guaranteed Housing Loans from third parties as well as increased write-off activity. Collections are
relatively low in the purchased receivables which would be expected due to the weak housing market.
The Electric programs had an overall downward reestimate of $108 million. The majority of this reestimate
is a result of a downward reestimate of $108 million in the Electric FFB program, a downward reestimate of
$59.6 million in the Electric Hardship, and a $59.5 million upward reestimate in the Electric Underwriters.
The Electric loan programs have large disbursements that disburse over several years in many cases. The
Treasury discount rate will continue to weight current year disbursements at the current year’s Treasury
discount rate until the cohort year is 90 percent disbursed and the Treasury discount rate becomes fixed for
the cohort year. This averaging of the Treasury discount rate, the disbursement pattern between fiscal years
and the borrowers’ flexibility to accept long or short term interest rates factor into larger reestimate
fluctuations during the early cohort years of these programs. These variables factor into the variations that
are included in the analysis of cohort year reestimates and one reason changes in the FFB reestimates vary
by cohort.
In cohort years 2009 and 2010, disbursements exceeding $1 billion occurred in the 2011 cash flow year for
each cohort. Originally the 2009 cohort year was formulated with a negative subsidy rate, with consideration
of the actual discount rate and borrower’s interest rate, a higher subsidy rate was indicated. The effect of a
revised (increased) subsidy rate from the formulated rate is accounted for when disbursements actually occur.
In the 2010 cohort year, the subsidy rate decreased which resulted in a downward reestimate of
$155 million. This was also due to disbursements being trued up at a revised reduced subsidy rate.
Reestimate adjustments resulting from the effects of the Treasury discount rate differential to the borrower
rates were also noticeable in the 2006 through 2009 cohort years.
The Electric Hardship program’s downward reestimate of $59.6 million is a result of the bank offered
refinancing to borrowers. Many borrowers chose to refinance their 5 percent loans to the lower rates. This
refinancing resulted in larger than projected prepayments causing a downward reestimate.
The Underwriters program experienced a downward reestimate of $59.5 million due to improvements in the
methodology of the Underwriter model. Three of the changes are the main drivers of the subsidy rate
changes that have large impacts on the modeled cash flows. First, the new model uses advance-specific
forecasts for roll-over terms resulting in higher forecasted interest payments. Consequently, the new model
changed the disbursement timing from the beginning of the year to the middle of the year, which modified
the present value factors used to discount the cash flows. Third, the new model corrected the forecasted
recovery cash flows. In the previous model, the recovery cash flows did not flow through to the subsidy rate
calculation. This change resulted in additional recovery cash flows, which decreased the subsidy rate.
The Water and Environmental program had a downward reestimate of $110 million. The majority of the
dollar amount of the reestimate is in cohort years 2006 to 2010. With the exception of cohort year 2009, the
subsidy rates decreased which was the contributing factor for the overall downward reestimate. This


       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            112
decrease is due to the reduction of the spread between the Treasury discount rate and the weighted average
borrower rate. As this program disburses over multiple years, the aforementioned cohort years had
disbursements that are now adjusted to the lower subsidy rates. The costs associated with the cohort cash
flows are now anticipated to be lower than at the time of formulation. The decreased rates are due to the
current economic environment of lower interest rates.
The net upward reestimate for loan guarantees was mostly due to an upward reestimate for Housing and
Business and Industry:
The Guaranteed Housing programs had an overall upward reestimate of $357 million. The Guaranteed
Single Family Housing Section 502 program had a significant upward reestimate of $364.7 million. During
FY 2011, calculation changes were made that had an impact on the reestimate. The calculation of the loss
settlements paid curve, and the recovery curve were changed to be weighted average in place of a simple
average. In addition, weak activity in the nation’s housing sector and continuous restraint by excess supply,
tight lending standards, and uncertainty about future home price values resulted in increased actual default
payments as well as the change in the curve calculation for the out years. The total recovery assumption also
decreased.
The Business and Industry program had an upward reestimate of $235 million. During FY 2011, the same
changes made in Housing were made in Business and Industry resulting in an upward reestimate. First, the
change in the calculation of the loss settlements paid curve to be weighted average in place of a simple
average and second, the change of the calculation of the recovery curve to be weighted average in place of a
simple average. In cohort years 2002 to 2004, the upward reestimates were primarily a result of an increase
in projected default payments and decreases in projected recoveries. Cohort years 2007 through 2009
experienced large actual loss payments as compared to their loss payment projected executed in the FY 2010
financial cycle. In the 2010 cohort year, the upward reestimate was a result of a decrease in projected
recoveries.
The Business and Industry – ARRA upward reestimate is due to a decrease in projected recoveries
paralleling the regular Business and Industry Guaranteed program. Overall, the increase defaulted activity is
reflective of the current economic environment where businesses are struggling and spending is down.
Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference
between the budgeted and actual interest for both borrower and Treasury remain the key components for
the subsidy formulation and reestimate rates of many USDA direct programs. USDA uses the
Governmentwide interest rate projections provided by the OMB in order to do its calculations and analysis.
The Inter-agency Country Risk Assessment System (ICRAS) is a Federal interagency effort chaired by
OMB under the authority of the Federal Credit Reform Act of 1990 as amended. The system provides
standardized risk assessment and budget assumptions for all direct credits and credit guarantees provided by
the Government, to foreign borrowers. ICRAS identification for each country is still the basis for a given
country’s risk rating, but a set of program specific default and recovery rates by ICRAS grade has been
established for each program. Domestic programs have always utilized program-specific default and recovery
assumptions.
In accordance with the General Fund Receipt Account Guide, a liability for non-entity assets is accrued for
downward reestimate of subsidy. When more subsidy was collected than is necessary to fund future net cash
outflows, the financing fund must transfer the excess subsidy, with interest, to a designated general fund
receipt account in the following year.




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            113
Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the subsidy
cost, such as a change in the terms of the loan contract. The cost of a modification is the difference between
the present value of the cash flows before and after the modification.
Multiple-family housing direct loan program modifications related to the revitalization project, which began
in FY 2006, continued throughout FY 2011. The revitalization project is used to rehabilitate ailing housing
developments. In this program, RD determines whether the development owner should be offered a
financial restructuring plan and what type of incentives, if any, should be offered to the owner to rehabilitate
an ailing housing development and to provide affordable rents for tenants.
In 2011, the Home Affordable Modification Program (HAMP) and the Helping Families Save Their
Homes Act of 2009 were initiated as a joint effort of Rural Development and the U. S. Department of
Treasury. These enactments will assist the Agency in preventing the destructive impact of foreclosures on
families, communities, and the national economy. As a part of this legislation, the Rural Housing Service
(RHS) is amending its regulations to add new servicing options to the Single Family Housing Guaranteed
Loan program. Lenders may utilize these servicing options while still maintaining the loan guarantee.
Additionally, the Agency will allow lenders to extend loans for up to 40 years from the date of modification.
The Agency will also allow lenders to advance funds, on behalf of borrowers, in the amounts necessary to
bring defaulted loans current. These advances can be up to 30 percent of the loan’s unpaid principal balance.
The intended effect is to allow new servicing options so that Guaranteed Single Family Housing borrowers
can better afford their loan payments resulting in reduced mortgage foreclosures.
The Debt Reduction Fund is used to account for CCC’s “modified debt.” Debt is considered to be modified
if the original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until
paid. With one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund and is
governed by the Federal Credit Reform Act of 1990 as amended.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated
with loans are reported at their market value at the time of acquisition. The projected future cash flows
associated with acquired properties are used in determining the related allowance (at present value).
As of September 30, 2011 and 2010, foreclosed property consisted of 1,253 and 1,209 rural single-family
housing dwellings, with an average holding period of 16 months, respectively. As of September 30, 2011
and 2010, FSA-Farm Loan Program properties consist primarily of 67 and 59 farms, respectively. The
average holding period for these properties in inventory for FY 2011 and FY 2010 was 51 and 61 months,
respectively. Certain properties can be leased to eligible individuals.
Other Information
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on
rescheduling agreements until such time two consecutive payments have been made following the
rescheduling. When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue
is deferred. Late interest is accrued on arrears.
Approximately $19,100 million and $19,000 million of RHS unpaid loan principal as of September 30,
2011, and 2010 were receiving interest credit, respectively. If those loans receiving interest credit had
accrued interest at the full-unreduced rate, interest income would have been approximately $963 million and
$966 million higher for FY 2011 and FY 2010 respectively.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             114
At the end of FY 2011 and FY 2010, the RD portfolio contained approximately 69,500 and 70,100
restructured loans with an outstanding unpaid principal balance of $2,600 million. At the end of FY 2011
and FY 2010, the farm loan portfolio contained approximately 19,959 and 20,683 restructured loans with an
outstanding unpaid principal balance of $1,177 million and $1,189 million, respectively. Direct credit and
credit guarantee principal receivables in the food aid and export programs under rescheduling agreements as
of September 30, 2011 and 2010, were $2,667 million and $2,819 million, respectively.

Table 1. Direct Loan and Loan Guarantees, Net
FY 2011                                        Loans                                  Present       Value of Assets
Direct Loans                                 Receivable,    Interest    Foreclosed     Value          Related to
                                               Gross       Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $       855   $      58    $      13    $       (51)   $          875
  Export                                               -           -            -              -                 -
  Food Aid                                         3,820          11            -         (2,026)            1,805
  Housing                                          9,036          78           33         (4,284)            4,863
  Electric                                         2,178          41            -         (1,467)              752
  Telecommunications                                 420           1            -            (21)              400
  Water and Environmental                          1,000           9            -           (111)              898
  Business and Industry                                -           -            -              -                 -
  Economic Development                                27           -            -            (12)               15
Pre-1992 Total                                    17,336         198           46         (7,972)            9,608

Obligated Post-1991
  Farm                                             7,664         194            9           (471)            7,396
  Export                                               -           -            -              -                 -
  Food Aid                                         1,387           -            -           (478)              909
  Housing                                         21,485         134           56         (2,939)           18,736
  Electric                                        40,071          28            -           (672)           39,427
  Telecommunications                               4,031           2            -             59             4,092
  Water and Environmental                         10,871         105            -           (731)           10,245
  Business and Industry                               33           -            -            (11)               22
  Economic Development                               550           2            -           (154)              398
Post-1991 Total                                   86,092         465           65         (5,397)           81,225
Total Direct Loan Program Receivables            103,428         663          111        (13,369)           90,833

Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -            -            -              -                 -
    Export                                          124            1            -            (75)               50
    Food Aid                                          -            -            -              -                 -
    Housing                                           -            -            -              -                 -
    Electric                                          -            -            -              -                 -
    Telecommunications                                -            -            -              -                 -
    Water and Environmental                           -            -            -              -                 -
    Business and Industry                             1            -            -              -                 1
    Economic Development                              -            -            -              -                 -
 Pre-1992 Total                                     125            1            -            (75)               51

  Post-1991
    Farm                                             115           -            -           (113)                2
    Export                                           870           7            -           (286)              591
    Food Aid                                           -           -            -              -                 -
    Housing                                          192           -            -           (177)               15
    Electric                                           -           -            -              -                 -
    Telecommunications                                 -           -            -              -                 -
    Water and Environmental                            -           -            -              -                 -
    Business and Industry                            255           -            -            (43)              212
    Economic Development                               -           -            -              -                 -
  Post-1991 Total                                  1,432           7            -           (619)              820
Total Defaulted Guarantee Loans                    1,557           8            -           (694)              871

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   337            1            -              -               338
  Other Foreign Receivables                           -            -            -              -                 -
Total Loans Exempt                                  337            1            -              -               338

Total Direct Loan and Loan Guarantees, Net                                                          $       92,042




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            115
Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
FY 2010                                        Loans                                  Present       Value of Assets
Direct Loans                                 Receivable,    Interest    Foreclosed     Value          Related to
                                               Gross       Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $     1,040   $      70    $      11    $      (108)   $        1,013
  Export                                               -           -            -              -                 -
  Food Aid                                         4,150          43            -         (1,517)            2,676
  Housing                                          9,505          76           36         (4,462)            5,155
  Electric                                         3,994           7            -         (1,457)            2,544
  Telecommunications                                 565           2            -            (27)              540
  Water and Environmental                          1,122          10            -           (123)            1,009
  Business and Industry                                -           -            -              -                 -
  Economic Development                                30           -            -            (14)               16
Pre-1992 Total                                    20,406         208           47         (7,708)           12,953

Obligated Post-1991
  Farm                                             7,070         181            8           (344)            6,915
  Export                                               -           -            -              -                 -
  Food Aid                                         1,473          18            -           (511)              980
  Housing                                         20,143         120           53         (2,671)           17,645
  Electric                                        36,723          32            -           (751)           36,004
  Telecommunications                               3,732           1            -             56             3,789
  Water and Environmental                          9,891          95            -           (740)            9,246
  Business and Industry                               28           -            -             (3)               25
  Economic Development                               551           1            -           (168)              384
Post-1991 Total                                   79,611         448           61         (5,132)           74,988
Total Direct Loan Program Receivables            100,017         656          108        (12,840)           87,941
Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -            -            -              -                 -
    Export                                          134            1            -            (70)               65
    Food Aid                                          -            -            -              -                 -
    Housing                                           -            -            -              -                 -
    Electric                                          -            -            -              -                 -
    Telecommunications                                -            -            -              -                 -
    Water and Environmental                           -            -            -              -                 -
    Business and Industry                             4            -            -              -                 4
    Economic Development                              -            -            -              -                 -
 Pre-1992 Total                                     138            1            -            (70)               69
  Post-1991
    Farm                                              85           -            -            (83)                2
    Export                                           731          10            -           (226)              515
    Food Aid                                           -           -            -              -                 -
    Housing                                          130           1            -           (108)               23
    Electric                                           -           -            -              -                 -
    Telecommunications                                 -           -            -              -                 -
    Water and Environmental                            -           -            -              -                 -
    Business and Industry                            206           2            -            (26)              182
    Economic Development                               -           -            -              -                 -
  Post-1991 Total                                  1,152          13            -           (443)              722
Total Defaulted Guarantee Loans                    1,290          14            -           (513)              791

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   671            2            -              -               673
  Other Foreign Receivables                           -            -            -              -                 -
Total Loans Exempt                                  671            2            -              -               673

Total Direct Loan and Loan Guarantees, Net                                                          $       89,405




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            116
Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
                                                                                   FY 2011       FY 2010

Beginning balance of the subsidy cost allowance                                $    5,576    $    5,284
Add: Subsidy expense for direct loans disbursed during the year by component
  Interest rate differential costs                                                     93          (216)
  Default costs (net of recoveries)                                                   208           234
  Fees and other collections                                                           (8)           (1)
  Other subsidy costs                                                                  58           319
Total subsidy expense prior to adjustments and reestimates                            351           336

Adjustments
  Loan modifications                                                                   11            41
  Fees received                                                                        54            49
  Loans written off                                                                  (464)         (498)
  Subsidy allowance amortization                                                     (141)          (56)
  Other                                                                               453           368
Total subsidy cost allowance before reestimates                                     5,840         5,524

Add or subtract subsidy reestimates by component
  Interest rate reestimate                                                           (412)          284
  Technical/default reestimate                                                        589          (232)
Total reestimates                                                                     177            52
Ending balance of the subsidy cost allowance                                   $    6,017    $    5,576




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            117
Table 3. Subsidy Expense for Direct Loans by Program and Component

    FY 2011
                                             Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                            Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
    Direct Loan Programs
     Farm                                    $       3     $ 106      $          (1)   $ (10)   $  98       $         -    $       (60)    $      126    $       66    $        164
     Export                                          -         -                  -        -        -                 -              8              5            13              13
     Food Aid                                        -         -                  -        -        -                 -              -              -             -               -
     Housing                                         5        58                 (1)      93      155                11            135            192           327             493
     Electric                                      (60)       19                 (6)     (16)     (63)                -           (268)           160          (108)           (171)
     Telecommunications                             (3)       18                  -       (4)      11                 -            (22)            13            (9)              2
     Water and Environmental                       136         7                  -       (5)     138                 -            (81)           (30)         (111)             27
     Business and Industry                           1         -                  -        -        1                 -              4              4             8               9
     Economic Development                           11         -                  -        -       11                 -           (128)           119            (9)              2
    Total Direct Loan Subsidy Expense        $      93     $ 208      $          (8)   $ 58     $ 351      $         11    $      (412)    $      589    $      177    $        539
                                                                                           .


    FY 2010
                                             Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                            Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
    Direct Loan Programs
     Farm                                    $     (16)    $ 121      $           -    $   -    $ 105       $         -    $        41      $    (272)    $    (231)   $       (126)
     Export                                          -         -                  -        -        -                34             23             17            40              74
     Food Aid                                        -         -                  -        -        -                 -              -              -             -               -
     Housing                                      (237)       74                 (1)     326      162                 7             42            262           304             473
     Electric                                      (75)       24                  -       (2)     (53)                -            205           (202)            3             (50)
     Telecommunications                             (5)       11                  -       (1)       5                 -             (2)             1            (1)              4
     Water and Environmental                       101         4                  -       (4)     101                 -            (18)           (32)          (50)             51
     Business and Industry                           -         -                  -        -        -                 -             (2)            (5)           (7)             (7)
     Economic Development                           16         -                  -        -       16                 -             (5)            (1)           (6)             10
    Total Direct Loan Subsidy Expense        $    (216)    $ 234      $          (1)   $ 319    $ 336      $         41    $       284     $     (232)   $       52    $        429
                                                                                           .




                                        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                             119
Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                              FY 2011    FY 2010
        Direct Loan Programs
          Farm                                                $ 1,929    $ 2,106
          Export                                                     -          -
          Food Aid                                                   -          -
          Housing                                                2,138      2,622
          Electric                                               4,967      4,745
          Telecommunications                                       749        675
          Water and Environmental                                1,311        949
          Business and Industry                                      8          -
          Economic Development                                      45         47
        Total Direct Loans Disbursed                          $ 11,147   $ 11,144




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            120
Table 5. Guaranteed Loans Outstanding
                                                   Pre - 1992    Post - 1991      Total       Pre - 1992   Post - 1991      Total
                                                  Outstanding    Outstanding   Outstanding   Outstanding   Outstanding   Outstanding
                    FY 2011
                                                   Principal,     Principal,    Principal,    Principal,    Principal,    Principal,
                                                   Face Value    Face Value    Face Value    Guaranteed    Guaranteed    Guaranteed
                Loan Guarantee Programs
                  Farm                             $       17    $   12,484    $   12,501    $       15    $   11,230    $   11,245
                  Export                                     -        6,115         6,115              -        5,992         5,992
                  Food Aid                                   -             -             -             -             -             -
                  Housing                                   3        63,275        63,278             3        56,923        56,926
                  Electric                                132           199           331           132           199           331
                  Telecommunications                         -             -             -             -             -             -
                  Water and Environmental                   7            62            69             6            54            60
                  Business and Industry                     2         7,021         7,023             1         5,303         5,304
                  Economic Development                       -             -             -             -             -             -
                Total Guarantees Disbursed         $      161    $   89,156    $   89,317    $      157    $   79,701    $   79,858


                                                    Pre - 1992   Post - 1991      Total       Pre - 1992   Post - 1991      Total
                                                   Outstanding   Outstanding   Outstanding   Outstanding   Outstanding   Outstanding
                    FY 2010
                                                    Principal,    Principal,    Principal,    Principal,    Principal,    Principal,
                                                   Face Value    Face Value    Face Value    Guaranteed    Guaranteed    Guaranteed
                Loan Guarantee Programs
                  Farm                             $       24    $   11,771    $   11,795    $       21    $   10,585    $   10,606
                  Export                                     -        6,645         6,645              -        6,513         6,513
                  Food Aid                                   -             -             -             -             -             -
                  Housing                                   3        50,947        50,950             3        45,833        45,836
                  Electric                                148           202           350           147           202           349
                  Telecommunications                         -             -             -             -             -             -
                  Water and Environmental                    -           64            64              -           55            55
                  Business and Industry                     5         5,879         5,884             1         4,433         4,434
                  Economic Development                       -             -             -             -             -             -
                Total Guarantees Disbursed         $      180    $   75,508    $   75,688    $      172    $   67,621    $   67,793




                                Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                     121
Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)

                                             Liabilities for   Liabilities for Loan
                                              Losses on          Guarantees on
          FY 2011
                                               Pre-1992            Post-1991
                                             Guarantees           Guarantees          Total Liabilities for
                                            Present Value        Present Value        Loan Guarantees
      Loan Guarantee Programs
        Farm                                $             -    $              209      $             209
        Export                                            -                   115                    115
        Food Aid                                          -                     -                      -
        Housing                                           -                 2,452                  2,452
        Electric                                          -                     -                      -
        Telecommunications                                -                     -                      -
        Water and Environmental                           -                     -                      -
        Business and Industry                             1                   844                    845
        Economic Development                              -                     -                      -
      Total Liability for Loan Guarantees   $             1     $           3,620      $           3,621



                                             Liabilities for   Liabilities for Loan
                                              Losses on          Guarantees on
          FY 2010
                                               Pre-1992            Post-1991
                                             Guarantees           Guarantees          Total Liabilities for
                                            Present Value        Present Value        Loan Guarantees
      Loan Guarantee Programs
        Farm                                $             -    $              283      $             283
        Export                                            -                   184                    184
        Food Aid                                          -                     -                      -
        Housing                                           -                 1,833                  1,833
        Electric                                          -                     -                      -
        Telecommunications                                -                     -                      -
        Water and Environmental                           -                     -                      -
        Business and Industry                             -                   557                    557
        Economic Development                              -                     -                      -
      Total Liability for Loan Guarantees   $             -     $           2,857      $           2,857




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            122
Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                   FY 2011      FY 2010
Beginning balance of the loan guarantee liability                                 $   2,857    $   1,842
Add:Subsidy expense for guaranteed loans disbursed during the year by component
  Interest supplement costs                                                               4           19
  Default costs (net of recoveries)                                                     665          876
  Fees and other collections                                                           (531)        (402)
  Other subsidy costs                                                                     3            2
Total of the above subsidy expense components                                           141          495

Adjustments
 Loan guarantee modifications                                                            (8)           -
 Fees received                                                                          608          458
 Interest supplements paid                                                              (29)         132
 Claim payments to lenders                                                             (275)        (301)
 Interest accumulation on the liability balance                                          66           64
 Other                                                                                 (328)         (40)
Ending balance of the subsidy cost allowance before reestimates                       3,032        2,650

Add or subtract subsidy reestimates by component:
  Interest rate reestimate                                                              110           42
  Technical/default reestimate                                                          478          165
Total of the above reestimate components                                                588          207
Ending balance of the loan guarantee liability                                    $   3,620    $   2,857




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             123
Table 8. Subsidy Expense for Loan Guarantees by Program and Component
       FY 2011
                                                                                                                                                       Total
                                                Interest          Fees and Other                    Total      Interest Rate Technical    Total      Subsidy
       Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates   Expense
         Farm                                  $       7  $ 63     $         (27)  $ -   $ 43     $         -     $      (9) $     (70) $     (79)   $    (36)
         Export                                         -     (1)              1     -        -             -           14          48         62          62
         Food Aid                                       -      -               -     -        -             -             -          -          -            -
         Housing                                      (3)   448            (463)     -      (18)           (8)          62        308        370          344
         Electric                                       -      -               -     -        -             -             -          -          -            -
         Telecommunications                             -      -               -     -        -             -             -          -          -            -
         Water and Environmental                        -      -               -     -        -             -             -          -          -            -
         Business and Industry                          -   155              (42)    3     116              -           43        192        235          351
         Economic Development                           -      -               -     -        -             -             -          -          -            -
       Total Loan Guarantee Subsidy Expense    $       4  $ 665    $       (531)   $3    $ 141    $       (8)    $     110   $    478   $    588     $ 721

       FY 2010
                                                                                                                                                       Total
                                                Interest          Fees and Other                    Total      Interest Rate Technical    Total      Subsidy
       Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates   Expense
         Farm                                  $      21   $ 72    $         (27)  $ -   $ 66     $         -    $      (13) $     (60) $     (73)    $    (7)
         Export                                         -     11              (5)    -       6              -           (41)       (22)       (63)        (57)
         Food Aid                                       -       -              -     -        -             -             -          -          -            -
         Housing                                       (2)   569           (325)     -     242              -            80       193        273         515
         Electric                                       -       -              -     -        -             -             -          -          -            -
         Telecommunications                             -       -              -     -        -             -             -          -          -            -
         Water and Environmental                        -       -              -     -        -             -             -          1          1            1
         Business and Industry                          -    224             (45)    2     181              -            16         53         69         250
         Economic Development                           -       -              -     -        -             -             -          -          -            -
       Total Loan Guarantee Subsidy Expense    $      19   $ 876   $       (402)  $2     $ 495    $         -    $       42  $    165   $    207     $ 702




                                 Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                      124
Table 9. Guaranteed Loans Disbursed
                                                      FY 2011                      FY 2010
                                            Principal,       Principal,    Principal,    Principal,
                                           Face Value       Guaranteed    Face Value    Guaranteed
                                            Disbursed        Disbursed     Disbursed     Disbursed
Loan Guarantee Programs
    Farm                                   $     3,060       $    2,753   $    3,117     $    2,803
    Export                                       3,497            3,427        2,891          2,835
    Food Aid                                         -                -            -              -
    Housing                                     15,283           13,750       18,711         16,834
    Electric                                         -                -            -              -
    Telecommunications                               -                -            -              -
    Water and Environmental                          4                3            1              1
    Business and Industry                        1,820            1,439        2,172          1,768
    Economic Development                             -                -            -              -
Total Guaranteed Loans Disbursed           $    23,664       $   21,372   $   26,892    $    24,241




Table 10. Administrative Expenses
                                                           FY 2011          FY 2010
             Direct Loan Programs                        $       535      $       533
             Guaranteed Loan Programs                            432              485
           Total Administrative Expenses                 $       967      $     1,018




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            125
Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                            Fees and
   FY 2011                                        Interest                   Other
                                                 Differential   Defaults   Collections    Other    Total
 Direct Loan Programs
   Farm Ownership                                      3.16        5.59            -      (1.83)     6.92
   Farm Operating                                     (0.55)       6.86            -      (0.25)     6.06
   Emergency Disaster                                  2.16        9.04            -      (0.71)    10.49
   Indian Tribe Land Acquisition                      (6.53)        -              -        -       (6.53)
   Boll Weevil Eradication                            (1.80)        -              -      (0.29)    (2.09)
   Indian Highly Fractionated Land                    (7.43)       9.57            -      (0.01)     2.13
   Conservation—Direct                                (3.17)       6.63            -      (0.48)     2.98
   Farm Storage Facility Loan Program                 (1.66)       0.03          (0.27)   (0.11)    (2.01)
   Sugar Storage Facility Loan Program                (0.33)       0.28            -      (0.16)    (0.21)
   Section 514 Farm Labor Housing                     39.08        0.12            -      (0.82)    38.38
   Multi-Family Housing Relending Demo                41.34         -              -        -       41.34
   Multi-Family Housing Revitalization Seconds        62.71         -              -        -       62.71
   Multi-Family Housing Revitalization Zero           45.18         -              -        -       45.18
   Community Facility Loans                            0.05        2.15            -      (0.88)     1.32
   Section 502 Single-Family Housing                   2.06        3.35            -       0.85      6.26
   Section 515 Multi-Family Housing                   34.94        0.10            -      (1.31)    33.73
   Section 504 Housing Repair                         24.70         -              -      (5.77)    18.93
   Single-Family Housing Credit Sales                (17.48)       3.24            -       3.12    (11.12)
   Multi-Family Housing Credit Sales                  38.29         -              -       0.08     38.37
   Rural Microenterprise Direct Loans                 18.87        2.52            -        -       21.39
   Intermediary Relending Program                     39.19        0.22            -      (0.83)    38.58
   Rural Economic Development Loans                   17.93        0.01            -      (0.04)    17.90
   Water and Waste Disposal Loans                     10.17        0.12            -      (1.71)     8.58
   Electric Hardship Loans                            (8.16)       0.03            -       0.75     (7.38)
   FFB Electric Loans                                 (3.01)       0.10            -      (1.53)    (4.44)
   Telecommunication Hardship Loans                   (7.36)       0.04            -      (0.05)    (7.37)
   Treasury Telecommunication Loans                     -          0.42            -      (0.74)    (0.32)
   FFB Telecommunications Loans                        1.53        0.18            -      (6.35)    (4.64)
   Distance Learning and Telemedicine Loans             -          4.10            -      (2.62)     1.48
   Broadband Treasury Loans                             -          6.49            -      (0.90)     5.59




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            126
Table 12. Subsidy Rates for Loan Guarantees (percentage)

                                                                               Fees and
  FY 2011                                            Interest                   Other
                                                    Differential   Defaults   Collections    Other   Total
Guaranteed Loan Programs
 Farm Ownership—Unsubsidized                               -          1.26          (0.88)     -      0.38
 Farm Operating—Unsubsidized                               -          3.22          (0.90)     -      2.32
 Farm Operating—Subsidized                               11.72        2.11            -        -     13.83
 Conservation—Guaranteed                                   -          1.26          (0.88)     -      0.38
 GSM 102                                                   -         (0.27)         (0.59)     -     (0.86)
 Export Guarantee Program—Facilities                       -         18.67          (0.19)     -     18.48
 Community Facility Loans                                  -          4.82          (0.87)     -      3.95
 Guaranteed 538 Multi-Family Housing                       -          9.69            -        -      9.69
 Guaranteed 502 Single-Family Housing                      -          3.24          (3.43)     -     (0.19)
 Business and Industry Loan Guarantees                     -          8.05          (2.99)     -      5.06
 Renewable Energy Loan Guarantees                          -         47.84          (1.48)     -     46.36
 Biorefinery Assistance Loan Guarantees                    -         33.77          (4.69)    2.02   31.10
 Water and Waste Disposal Loans                            -           -            (0.85)     -     (0.85)




NOTE 8. INVENTORY AND RELATED PROPERTY, NET
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters,
providing emergency food assistance in developing countries and providing price support and stabilization.
Commodity loan forfeitures in FY 2010 were $3 million.




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            127
                                                      FY 2011                               FY 2010
Inventories                                                     $      -                              $      1

                                               Volume                          Volume
Commodities:
                                            (in millions)       Amount      (in millions)             Amount
  Corn (In Bushels):
   On hand at the beginning of the year                -              -                -                     -
   Acquired during the year                            2             50                -                     -
   Disposed of during the year
      Sales                                             -              -               -                     -
      Donations                                        (2)           (51)              -                     -
      Other                                             2              6               -                     -
   On hand at the end of the year                       2              5               -                     -

  Wheat (In Bushels):
   On hand at the beginning of the year                -              -               -                     -
   Acquired during the year                           19            134              36                   208
   Disposed of during the year
      Sales                                            -               -            (33)                  (187)
      Donations                                      (19)           (137)            (3)                   (21)
      Other                                            -               3              -                      -
   On hand at the end of the year                      -               -              -                      -

  Nonfat Dry Milk (In Pounds):
   On hand at the beginning of the year                6               6            224                   184
   Acquired during the year                            -               -              -                     -
   Disposed of during the year
      Sales                                            -              -              (1)                    (1)
      Donations                                       (9)            (9)            (52)                   (59)
      Other                                           13             13            (165)                  (118)
   On hand at the end of the year                     10             10               6                      6

  Other:
    On hand at the beginning of the year                             42                                    21
    Acquired during the year                                        532                                   738
    Disposed of during the year
        Sales                                                          -                                141
        Donations                                                   (596)                              (978)
        Other                                                         60                                120
    On hand at the end of the year                                    38                                 42
Allowance for losses                                                  (2)                                (2)
Total Commodities                                                     51                                 46
Total Inventory and Related Property, Net                       $     51                              $ 47




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             128
NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
FY 2011                                             Useful                                              Net
                                                     Life                         Accumulated          Book
   Category                                        (Years)           Cost         Depreciation         Value

Land and Land Rights                                             $         77     $          -     $         77
Improvements to Land                               10 - 50                738             (650)              88
Construction-in-Progress                                                1,045                -            1,045
Buildings, Improvements and Renovations            15 - 30              2,039           (1,377)             662
Other Structures and Facilities                    15 - 50              1,789           (1,436)             353
Equipment                                           5 - 20              1,630           (1,248)             382
Assets Under Capital Lease                          3 - 20                 69              (45)              24
Leasehold Improvements                               10                    69              (48)              21
Internal-Use Software                               5-8                   618             (436)             182
Internal-Use Software in Development                                      216                -              216
    Total                                                        $      8,290     $     (5,240)    $      3,050

FY 2010                                             Useful                                              Net
                                                     Life                         Accumulated          Book
   Category                                        (Years)           Cost         Depreciation         Value

Land and Land Rights                                             $         76     $          -     $         76
Improvements to Land                               10 - 50                721             (631)              90
Construction-in-Progress                                                  988                -              988
Buildings, Improvements and Renovations            15 - 30              2,023           (1,322)             701
Other Structures and Facilities                    15 - 50              1,795           (1,390)             405
Equipment                                           5 - 20              1,602           (1,247)             355
Assets Under Capital Lease                          3 - 20                 74              (44)              30
Leasehold Improvements                               10                    75              (48)              27
Internal-Use Software                               5-8                   521             (338)             183
Internal-Use Software in Development                                      170              (61)             109
    Total                                                        $      8,045     $     (5,081)    $      2,964




NOTE 10. STEWARDSHIP PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that are
traditionally capitalized in the financial statements. Due to the nature of these assets however, valuation
would be difficult and matching costs with specific periods would not be meaningful. Stewardship PP&E
include heritage assets and stewardship land.
Heritage Assets
Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may be
unique because they have historical or natural significance, are of cultural, educational or artistic importance,
or have significant architectural characteristics. The assets are reported in terms of physical units rather than
cost, fair value, or other monetary values. No amounts are shown on the balance sheet for heritage assets,
except for multi-use heritage assets in which the predominant use of the asset is in general government
operations. The costs of acquisition, betterment, or reconstruction of multi-use heritage assets is capitalized
as general PP&E and depreciated. The costs of acquiring, constructing, improving, reconstructing, or
renovating heritage assets, other than multi-use is considered an expense in the period incurred when
determining the net cost of operations. Heritage assets consist of collection type, such as objects gathered
and maintained for exhibition, for example library collections; and non-collection-type, such as memorials,
monuments and buildings.
National Forests, National Grasslands and Other Sites—FS manages its heritage assets by site. Sites include
National Forests, National Grasslands, other Forest Service-managed sites, and non Forest Service-



          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               129
managed sites such as museums and university laboratories. The mission of the FS is to sustain the health,
diversity, and productivity of the Nation’s forests and grasslands to meet the needs of present and future
generations. The FS strives to achieve quality land management under the sustainable multiple-use
management concept to deliver the necessary products and services that are essential for enhancing natural
resource stewardship and to meet the diverse needs of people.
Heritage Asset categories can include the following:
Priority Heritage Assets (PHA): Heritage assets of distinct public value that are, or should be, actively
maintained, and meet one or more of the following criteria:
• The property is recognized through an official designation; such as a listing on the National Register of
    Historic Places, State register, etc.
• The property is recognized through prior investment in preservation, interpretation, and use. Any
    improvement to a PHA that meets real property designation criteria is considered real property.
• The property is recognized in an agency-approved management plan.
• The property exhibits critical deferred maintenance needs, and those needs have been documented.
Other Heritage Assets: Assets that may have potential important historical or cultural significance, but lack
formal listing and the demonstrated need for active maintenance.
Assemblage Assets: Any grouping of artifacts or archival materials aggregated through donation, agency
events, site-specific or other field collection, other acquisition method, or combination therein. Assemblage
assets include materials donated to the FS; artifact or archival materials collected from a single site, FS
administrative unit, or event; or any combination thereof.
Research Centers—ARS conducts research at centers nationwide to develop and transfer solutions to
agricultural problems of high national priority and provides information access and dissemination to ensure
high-quality, safe food and other agricultural products; assess the nutritional needs of Americans; sustain a
competitive agricultural economy; enhance the natural resource base and the environment; and provide
economic opportunities for rural citizens, communities, and society as a whole. NRCS currently owns one
heritage asset, the Tucson Plant Materials Center (TPMC) which is included in general PP&E as a multi-
use asset. It was listed in the National Register of Historic Places (NRHP) on July 2, 1997. The TPMC
develops and evaluates native plants and addresses an array of resource issues in the areas of rangeland,
mined land, urban lands, cropland riparian areas, and desert lands. The TPMC provides technical assistance
to NRCS field offices, Resource Conservation and Development (RC&D) groups, conservation districts,
Federal, State, and Tribal agencies, and private landowners through the greater Southwest. Research centers
are considered heritage assets because one or more buildings or structures at these centers is on the National
Register of Historic Places or have been identified as eligible for inclusion on the National Register.
Library Collections—The National Agricultural Library (NAL) as a whole is the largest collection of
materials devoted to agriculture in the world. The collections are in constant use to support the research
activities of USDA, departmental operations and to answer citizen inquiries. NAL houses and provides
access to millions of books and periodicals. The overwhelming number of these items were published more
than 25 years ago and almost all of them are out-of-print and unavailable for purchase. By statute, NAL is
the primary depository of publications and information concerning the research and other activities of
USDA. Included in the collection are government documents and many items that are unique and
irreplaceable. NAL collects, preserves and provides access to manuscripts, rare books, photographs, posters,
oral histories and other unique materials. Collection concentrations include the fields of agriculture,
horticulture, entomology, poultry sciences, botany, natural history and agricultural history. Although
focused primarily on American agriculture and related sciences, NAL holds numerous items of international
origin.



       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            130
Acquisition and Withdrawal of Heritage Assets—The FS generally does not construct heritage assets,
although in some circumstances important site-structural components may be rehabilitated or reconstructed
into viable historic properties to provide forest visitors with use and interpretation. Heritage assets may be
acquired through the procurement process, but this rarely occurs. Normally, heritage assets are part of the
land acquisition and inventory process. Withdrawal occurs through land exchange or natural disasters. Most
additions occur through inventory activities where previously undocumented sites are discovered and added
to the total.
Stewardship Land
Stewardship land is land and land rights not acquired for or in connection with items of general PP&E.
Land is defined as the solid surface of the earth, excluding natural resources. Stewardship land is valued for
its environmental resources, recreational and scenic value, cultural and paleontological resources, vast open
spaces, and resource commodities and revenue provided to the Federal government, states, and counties.
These assets are reported in terms of physical units rather than cost, fair value, or other monetary values. No
asset amount is shown on the balance sheet for stewardship land. The acquisition cost of stewardship land is
considered an expense in the period acquired when determining the net cost of operations. Stewardship land
consists primarily of the national forests and grasslands owned by the FS and conservation easements
purchased by NRCS.
National Forests—National forests are formally established and permanently set aside and reserved for
national forest purposes, including National Wilderness, National Primitive, National Wild and Scenic
River, National Recreation, National Scenic Research, National Game Refuges and Wildlife Preserve, and
National Monument areas.
National Grasslands—National grasslands are designated by the Secretary of Agriculture and permanently
held by the USDA under Title III of the Bankhead-Jones Farm Tenant Act.
Research and Experimental Areas—Research and experimental areas are reserved and dedicated by the
Secretary of Agriculture for forest and range research experimentation. Areas reported are located outside
the exterior boundaries of a national forest or national grassland.
National Preserves and Other Areas—National preserves are units established to protect and preserve
scientific, scenic, geologic, watershed, fish, wildlife, historic, cultural and recreational values; and provide for
multiple use and sustained yield of its renewable resources. Other areas include areas administered by the FS
that are not included in one of the above groups.
Conservation Easements— NRCS’s mission objectives in administering the conservation easement programs
are to provide landowners with financial and technical assistance in return for maintaining and
improving high quality productive soils, clean and abundant water, healthy plant and animal
communities, clean air, an adequate energy supply, and working farm and ranch land.
NRCS’s objectives in managing, monitoring and enforcing the terms and conditions of easement deeds are
to ensure that: (1) taxpayer investments are properly used in accordance with the intent of the program; (2)
the agency is a good steward of the land; and (3) the land is properly maintained. The specific uses for the
land are identified under each program. Landowners are not allowed to withdraw from the program;
however termination or expiration may occur.
Stewardship resources involve substantial investment in order to gain long-term benefits for the American
public and help the Agency satisfy its mission. The purpose of purchasing easements is to restore or enhance
wetlands, protect farmland, restore and protect grassland, restore and protect forest ecosystems, and restore,
protect, maintain, and enhance the functions of floodplains.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             131
NRCS, on behalf of USDA, administers and owns conservation easements on private lands through five
different programs. For the purpose of stewardship asset reporting, all easements where NRCS is the
grantee of the easement are included as stewardship land. Also included are easements that are administered
by NRCS on behalf of other USDA agencies. During FY 2011 NRCS conducted a rigorous review to
ensure all stewardship land was correctly included for reporting. This effort identified 1,330 conservation
easements not included in the ending balance for FY 2010. There were 732 Emergency Wetland Reserve
Program (EWRP) enrollments that were not included in the FY 2010 ending / FY 2011 beginning balance.
Additional adjustments are due to on-going National Easement Staging Tool (NEST) quality assurance
efforts conducted during FY 2011.
Acquisition and Withdrawal of Stewardship Lands—The Land and Water Conservation Fund (L&WCF)
Land Acquisition Program acquires land for the FS NFS. The program coordinates with a variety of
partners, including State, local, and Tribal governments, and private landowners through statewide planning
for development of a land-adjustment strategy.
The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for the
public and provides permanent access to public lands for recreation, commodity production, resource
management, public safety, and community economic viability.
The L&WCF statutory authority specifically defines the purpose to also include protecting the quality of
scientific, scenic, historical, ecological, environmental, air and atmospheric, water resource, archeological
values, as well as food and habitat for fish and wildlife, and managing the public lands for minerals, food,
timber and fiber.
From these several allowable uses of program funding, the program concentrates on protecting habitat for
priority species identified in the national forest and grassland’s Land Management Plans (LMPs) and
enhancing recreational opportunities for areas with high demand for recreation. The program focuses
acquisitions on inholdings and areas adjacent to existing NFS lands.


                                              FY 2011          Additions       Withdrawals         FY 2010
  Heritage Assets
    National Forests                                 155                -                 -               155
    National Grasslands                               20                -                 -                20
    Other Sites                                      167               18                (6)              155
    Research Centers                                  36                -                 -                36
    Library Collections                                1                -                 -                 1
  Total                                              379               18                (6)              367

  Stewardship Land
    National Forests                                 155                -                 -               155
    National Grasslands                               20                -                 -                20
    Research and Experimental Areas                    3                -                 -                 3
    National Preserves and Other Areas                 3                -                 -                 3
    Conservation Easements                        13,977            2,892                 -            11,085
  Total                                           14,158            2,892                 -            11,266




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             132
                                             FY 2010           Additions           Withdrawals     FY 2009
  Heritage Assets
    National Forests                                155                   -                   -          155
    National Grasslands                              20                   -                   -           20
    Other Sites                                     155                  20                   -          135
    Research Centers                                 36                   -                  (1)          37
    Library Collections                               1                   -                   -            1
  Total                                             367                  20                  (1)         348

  Stewardship Land
    National Forests                                155                    -                  -          155
    National Grasslands                              20                    -                  -           20
    Research and Experimental Areas                   3                    -                  -            3
    National Preserves and Other Areas                3                    -                  -            3
    Conservation Easements                       11,085                  251                  -       10,834
  Total                                          11,266                  251                  -       11,015




NOTE 11. OTHER ASSETS
In FY 2011 and FY 2010, other assets include investments in trust for loan asset sales of $35 million.
                                                           FY 2011                 FY 2010
                   Intragovernmental:
                      Advances to Others               $             2         $             70
                     Other Assets                                    -                       13
                   Subtotal Intragovernmental                        2                       83

                   With the Public:
                     Advances to Others                         206                       142
                     Other Assets                                37                        36
                   Total Other Assets                  $        245            $          261




NOTE 12. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In FY 2011 and FY 2010, other intragovernmental liabilities not covered by budgetary resources include
accruals for Federal Employee Compensation Act (FECA) of $167 million and $169 million, contract
disputes claims payable to Treasury’s Judgment Fund of $20 million and $19 million, deposit funds and
clearing accounts of $41 million and $40 million, unemployment compensation of $24 million and $16
million, and custodial of $5 million and $5 million, respectively.
In FY 2011 and FY 2010, other liabilities with the public not covered by budgetary resources include,
Tobacco Transition Payment Program of $2,857 million and $3,797million, future funded indemnity costs
of $9,284 million and $2,299 million, underwriting gain on crop insurance of $1,007 million and $2,334
million, unfunded leave of $640 million and $647 million, Payments to States $357 million and $409
million, contingent liabilities of $1,162 million and $1,157 million, estimated program delivery costs to
reinsurer of $54 million and $11 million, and deposit funds and clearing accounts of $16 million and $25
million, respectively. In FY 2010, custodial was $1 million.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             133
                                                                                 FY 2011             FY 2010
     Intragovernmental:
       Other                                                                $            257     $             249
     Subtotal Intragovernmental                                                          257                   249
     With the Public:
       Accounts Payable                                                                    2                     1
       Federal employee and veterans' benefits                                           904                   881
       Environmental and disposal liabilities                                              8                     8
      Other                                                                           15,376             10,681
     Subtotal With the Public                                                         16,290             11,571

     Total liabilities not covered by budgetary resources                             16,547             11,820

     Total liabilities covered by budgetary resources                               119,705             117,104

     Total Liabilities                                                      $       136,252      $      128,924



NOTE 13. DEBT
                                                            Beginning                                Ending
       FY 2011
                                                             Balance            Net Borrowing        Balance
       Intragovernmental
          Debt to the Treasury                          $       56,599          $      (1,242)   $      55,357
          Debt to the Federal Financing Bank                    31,316                  2,910           34,226
       Total Intragovernmental                                  87,915                  1,668           89,583

       Agency Debt:
         Held by the Public                                             -                   -                   -

       Total Debt                                       $       87,915          $      1,668     $      89,583

                                                            Beginning                                Ending
       FY 2010
                                                             Balance            Net Borrowing        Balance
       Intragovernmental
          Debt to the Treasury                          $       55,629          $        970     $      56,599
          Debt to the Federal Financing Bank                    28,490                 2,826            31,316
       Total Intragovernmental                                  84,119                 3,796            87,915

       Agency Debt:
         Held by the Public                                             -                   -                   -

       Total Debt                                       $       84,119          $      3,796     $      87,915




NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability
Act, the Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous
waste. In FY 2011 and FY 2010, the CCC and FS estimate the liability for total cleanup costs for sites
known to contain hazardous waste to be $8 million and $1 million, respectively, based on actual cleanup


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             134
costs at similar sites. These estimates will change as new sites are discovered, remedy standards change and
new technology is introduced.
NOTE 15. OTHER LIABILITIES
In FY 2011, other liabilities with the public include estimated losses on crop insurance claims of $8,034
million, estimated underwriting gains on crop insurance of $1,007 million, crop insurance premium subsidy
deficiency reserve of $1,250 million, Payments to States of $357 million, Brazilian Cotton Industry of $146
million, estimated program delivery cost to reinsurer of $54 million, credit reform programs of $14 million,
loans paid in advance for multi-family housing of $11 million, and purchaser road credits of $1 million.
In FY 2010, other liabilities with the public include estimated losses on crop insurance claims of $1,575
million, estimated underwriting gains on crop insurance of $2,334 million, crop insurance premium subsidy
deficiency reserve of $724 million, Payments to States of $409 million, Brazilian Cotton Industry of $286
million, estimated program delivery cost to reinsurer of $11 million, loans paid in advance for multi-family
housing of $11 million, undistributed credits for insured loans of $10 million, credit reform programs of $8
million, and purchaser road credits of $1 million.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             135
FY 2011                                                    Non-Current       Current          Total
Intragovernmental:
  Other Accrued Liabilities                            $           20    $       56    $       76
  Employer Contributions and Payroll Taxes                          -           109           109
  Unfunded FECA Liability                                           -           167           167
  Other Unfunded Employment Related Liability                       -            24            24
  Advances from Others                                              -            80            80
  Liability for Deposit Funds, Clearing Accounts                    -           (32)          (32)
  Liability for Subsidy Related to Undisbursed Loans                -            44            44
  Resources Payable to Treasury                                     -        10,516        10,516
  Custodial Liability                                               -            64            64
  Other Liabilities                                                 -             4             4
Subtotal Intragovernmental                                         20        11,032        11,052

With the Public:
 Other Accrued Liabilities                                          -        12,453        12,453
 Accrued Funded Payroll and Leave                                   -           500           500
 Unfunded Leave                                                     -           640           640
 Advances from Others                                               -           117           117
 Deferred Credits                                                   -           821           821
 Liability for Deposit Funds, Clearing Accounts                     -           175           175
 Contingent Liabilities                                             -         1,237         1,237
 Capital Lease Liability                                           19             8            27
 Custodial Liability                                                -            (1)           (1)
 Other Liabilities                                                 22        10,862        10,884
Subtotal With the Public                                           41        26,812        26,853

Total Other Liabilities                                $           61    $   37,844    $   37,905


FY 2010                                                    Non-Current       Current         Total
Intragovernmental:
   Other Accrued Liabilities                           $           19    $       22    $       41
  Employer Contributions and Payroll Taxes                          -            96            96
  Unfunded FECA Liability                                           -           169           169
  Other Unfunded Employment Related Liability                       -            17            17
  Advances from Others                                              -            69            69
  Liability for Deposit Funds, Clearing Accounts                    -            29            29
  Liability for Subsidy Related to Undisbursed Loans                -           179           179
  Resources Payable to Treasury                                     -        11,084        11,084
  Custodial Liability                                               -            37            37
  Other Liabilities                                                 -            14            14
Subtotal Intragovernmental                                         19        11,716        11,735

With the Public:
 Other Accrued Liabilities                                          -        13,154        13,154
 Accrued Funded Payroll and Leave                                   -           437           437
 Unfunded Leave                                                     -           647           647
 Advances from Others                                               -            63            63
 Deferred Credits                                                   -           505           505
 Liability for Deposit Funds, Clearing Accounts                     -           112           112
 Contingent Liabilities                                             -         1,257         1,257
 Capital Lease Liability                                           22            11            33
 Custodial Liability                                                3             1             4
 Other Liabilities                                                 21         5,351         5,372
Subtotal With the Public                                           46        21,538        21,584

Total Other Liabilities                                $           65    $   33,254    $   33,319




Financial Statements, Notes, Supplemental and Other Accompanying Information
                                     136
NOTE 16. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA)
leased facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, and
South Building) is a government owned facility, which is part of the GSA Federal Buildings Inventory. As
the result of a 1998 Agreement between GSA and USDA, a moratorium was placed on the rental billings
for the Headquarters complex beginning in FY 1999.
At current market rate, the estimated yearly rental payment for the above mentioned space would be $63
million. This agreement is still in effect and as a result, USDA activities located in the Headquarter complex
are not billed for rental costs.

FY 2011
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $             69
   Machinery and Equipment                                        -
   Accumulated Amortization                                     (45)

  Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
                                                                        Equipment
    Fiscal Year
    2012                                                         12                  -               -            12
    2013                                                         11                  -               -            11
    2014                                                         10                  -               -            10
    2015                                                          9                  -               -             9
    2016                                                          8                  -               -             8
    After 5 Years                                                27                  -               -            27
Total Future Lease Payments                                      77                  -               -            77
Less: Imputed Interest                                           34                  -               -            34
Less: Executory Costs                                            16                  -               -            16
Less: Lease Renewal Options                                       -                  -               -             -
Net Capital Lease Liability                                      27                  -   $           -            27

Lease liabilities covered by budgetary resources                 27

Operating Leases:
 Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
    Fiscal Year                                                         Equipment
    2012                                                        119                  1               1            121
    2013                                                        102                  -               1            103
    2014                                                         91                  -               1             92
    2015                                                         81                  -               -             81
    2016                                                         72                  -               -             72
    After 5 Years                                               339                  -               1            340
  Total Future Lease Payments                      $            804    $             1   $           4   $        809




         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              137
FY 2010
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $             73
   Machinery and Equipment                                        -
   Accumulated Amortization                                     (44)

  Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
                                                                        Equipment
    Fiscal Year
    2011                                                         13                  -               -            13
    2012                                                         12                  -               -            12
    2013                                                         11                  -               -            11
    2014                                                         10                  -               -            10
    2015                                                          9                  -               -             9
    After 5 Years                                                35                  -               -            35
Total Future Lease Payments                                      90                  -               -            90
Less: Imputed Interest                                           39                  -               -            39
Less: Executory Costs                                            18                  -               -            18
Less: Lease Renewal Options                                       -                  -               -             -
Net Capital Lease Liability                                      33                  -   $           -            33

Lease liabilities covered by budgetary resources                 33

Operating Leases:
 Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
    Fiscal Year                                                         Equipment
    2011                                                        126                  1               1            128
    2012                                                        111                  -               1            112
    2013                                                         97                  -               1             98
    2014                                                         89                  -               -             89
    2015                                                         80                  -               1             81
    After 5 Years                                               468                  -               2            470
  Total Future Lease Payments                      $            971    $             1   $           6   $        978



NOTE 17. COMMITMENTS AND CONTINGENCIES
The Department is subject to various claims and contingencies related to lawsuits as well as commitments
under contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability has
been estimated, $1,237 million and $1,257 million has been accrued in the financial statements as of
September 30, 2011 and 2010, respectively.
No amounts have been accrued in the financial statements for claims where the amount is uncertain or
where the probability of judgment against USDA is remote. The Department’s potential liability for claims
where a judgment against the Department is reasonably possible ranges from $747 million to $1,493 million
as of September 30, 2011, compared to $2,136 million to $3,663 million as of September 30, 2010.
CRP rental payments are estimated to be $1,800 million annually through FY 2017. Commitments to
extend loan guarantees are estimated to be $5,949 million and $4,802 million in FY 2011 and FY 2010,
respectively.
NOTE 18. EARMARKED FUNDS
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing sources
are required by statute to be used for designated activities, benefits or purposes and must be accounted for
separately from the Government’s general revenues.



         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              138
Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose
shown below.
Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and
other necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets.
The fund is permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts
collected during each calendar year and is automatically appropriated for expanding outlets for perishable,
non-price supported commodities. An amount equal to 30 percent of receipts collected on fishery products
is transferred to the Food and Nutrition Service and is used to purchase commodities under section 6 of the
National School Lunch Act and other authorities specified in the child nutrition appropriation. Funds are
available under section 32 of the Act of August 24, 1935, as amended (7 U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide variety
of fresh and processed food commodities using federally approved grade standards and purchase
specifications. This fund is financed by the collection of fees charged to producers of various food
commodities who request, on a voluntary basis, inspection and grading of agricultural food commodities.
This program is authorized by the Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).
Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural
Quarantine Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal
Agriculture Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service
(APHIS) the authority to charge user fees for AQI services, and to use the revenue to fund AQI activities.
In March of 2003, a portion of the AQI program was transferred to the Department of Homeland Security
(DHS); however, APHIS retained the authority to collect AQI revenue. APHIS transfers a portion of the
revenue to DHS periodically throughout the year to fund their expenditures. The revenue in the fund is
collected from airlines, air passengers, vessels, trucks, and railroad cars that are subject to AQI inspection at
ports of entry. These user fees are an inflow of revenue from the public that is used to fund AQI inspections
that are required by APHIS and DHS. The authority is codified in 21 U.S.C. 136(a).
Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of
the agreement between the cooperator and the Forest Service. Cooperators include timber purchasers, not-
for-profit organizations, and local hunting and fishing clubs. The governing authorities are the Cooperative
Funds Act of June 30, 1914 (16 U.S.C. 498), and the Knutson-Vandenberg Act.
Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s
Land and Water Conservation Fund, to be used for the acquisition of land or waters, or interest therein,
including administrative expenses, to carry out the provisions of the Land and Water Conservation Fund
Act of 1965, as amended (16 U.S.C. 460l-4-11), pertaining to the preservation of watersheds. The Land
Acquisition program is authorized by the Interior and Related Agencies Appropriations Act of December
30, 1982 (96 Stat. 1983, Public Law 97-394).




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             139
Payments to States, National Forest Fund
The Act of May 23, 1908, as amended (16 U.S.C. 500), commonly known as “Payments to States”, requires
with a few exceptions, that 25.0 percent of all monies received from the national forests and deposited into
the National Forest Fund during a fiscal year from timber, grazing, special-use permits, power and mineral
leases, and admission and user fees be paid to the States in which the national forests are located, for public
schools and public roads in the county or counties in which the national forests are situated. The Secure
Rural Schools and Community Self-Determination Act of 2000 (P.L. 106-393) as amended by § 601 of
The Emergency Economic Stabilization Act of 2008, (H.R. 1424) (P.L. 110-343), provides stabilized
education and road maintenance funding through predictable payments to counties, job creation in those
counties, and other opportunities associated with the restoration, maintenance, and stewardship of Federal
lands.
Timber Salvage Sales
The Timber Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire,
wind, insects, disease, or other events. Amounts collected from the sale of salvaged timber are used on other
qualifying salvage sales to cover the cost of preparing and administering the sales. The Timber Salvage Sales
program is authorized by 16 USC 472(a).
State, Private, and International Forestry, Land and Water Conservation Fund
The Fiscal Year 2004 Department of the Interior and Related Agencies Appropriation Act (Public Law
108-108) authorizes the Forest Service to receive a transfer of receipts from the Department of the Interior’s
Land and Water Conservation Fund to finance the existing Forest Legacy Program, funded previously by
State and Private Forestry general appropriation. To accommodate the new financing arrangement and at
OMB’s request, the U.S. Department of Treasury established a new special fund, “State, Private and
International Forestry Land and Water Conservation Fund”. The program expenditures include grants and
an occasional land purchase, but no real property will be procured or constructed.
Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects
that are part of the Recreation Fee Demonstration Program. These monies are retained and used for
backlog repair and maintenance of recreation areas, sites or projects. These funds are also used for
interpretation, signage, habitat or facility enhancement, resource preservation, annual operation,
maintenance, and law enforcement related to public use of recreation areas and sites. The Recreation Fee
Demonstration Program is authorized by 16 U.S.C. 4601-6(a).
Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) states any monies received by
the United States with respect to lands under the administration of the Forest Service (a) as a result of the
forfeiture of a bond or deposit by a permittee or timber purchaser for failure to complete performance of
improvement, protection, or rehabilitation work required under the permit or timber sale contract or (b) as a
result of a judgment, compromise, or settlement of any claim, involving present or potential damage to lands
or improvements, shall be deposited into the United States Treasury and are appropriated and made
available until expended to cover the cost to the United States of any improvement, protection, or
rehabilitation work on lands under the administration of the Forest Service rendered necessary by the action
which led to the forfeiture, judgment, compromise, or settlement: Provided, that any portion of the monies
received in excess of the amount expended in performing the work necessitated by the action which led to
their receipt shall be transferred to miscellaneous receipts.




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            140
Payments to Counties, National Grasslands
Payments to Counties, Title III, Bankhead-Jones Farm Tenant Act (Act) authorizes national grassland or
land utilization project receipts to be shared through grants with local governments for the purposes stated
in the Act. At the end of each calendar year twenty-five percent of the net revenues from each national
grassland or land utilization project are paid to the counties in which such lands are located. These payments
are not in lieu of taxes. Receipts from the Act designated as either national grasslands or land utilization
projects are to be credited to a special account.
Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes, this program is funded annually by congressional appropriation action, with
forest revenues generated by the occupancy of public land or from the sale of natural resources other than
minerals. All funds appropriated that remain unobligated at the end of the fiscal year are returned to the
receipts of the affected national forests. These funds are used to purchase land and for related expenditures
such as title search, escrow, recording, and personnel costs when the purchase is considered necessary to
minimize soil erosion and flood damage. This appropriation is available for land acquisition within the
exterior boundaries of the national forests.
National Institute of Food and Agriculture (NIFA)
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund was authorized by Public Law 103-382, and provided
an initial installment to establish an endowment to benefit the 1994 land grant institutions. The public law
states that “This program will enhance educational opportunities for Native Americans by building
educational capacity at these institutions in the areas of student recruitment and retention, curricula
development, faculty preparation, instruction delivery systems, and scientific instrumentation for teaching.”
While the principal (corpus) of the fund cannot be used, the interest that is earned on the endowment fund
investments in Treasury instruments can be used for the purposes described above. After the close of a fiscal
year, the income is distributed after making adjustments for the cost of administering the fund.
Farm Service Agency
Agricultural Disaster Assistance Transition – Recovery Act and Agricultural Disaster Relief Trust Fund
The Agricultural Disaster Assistance Transition – Recovery Act and the Agricultural Disaster Relief Trust
Fund shall make amounts available for the purpose of expenditures to meet the obligations of the United
States incurred under section 901 or section 531 of the Federal Crop Insurance Act. The trust funds will be
used to make payments to farmers and ranchers under seven disaster assistance programs: (1) Supplemental
Revenue Assistance Payments (SURE) Program, (2) Livestock Feed Program (LFP), (3) Livestock
Indemnity Program (LIP), (4) Tree Assistance Program (TAP), (5) Emergency Assistance for Livestock,
Honey Bees, and Farm-Raised Fish Program (ELAP), (6) Recovery Act for the Supplemental Revenue
Assistance Payments Program, and (7) Recovery Act for the Tree Assistance Program. The funds are
appropriated an amount equivalent to 3.08 percent of the amounts received in the general fund of the
Treasury of the United States during fiscal years 2008 through 2011 attributable to the duties collected on
articles entered, or withdrawn from warehouse, for consumption under the Harmonized Tariff Schedule of
the United States.
Other
Financial information is summarized for all other earmarked funds with total assets less than $50 million
listed below.
Agricultural Marketing Service
• Perishable Agricultural Commodities Act
• Wool Research, Development and Promotion Trust Fund


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             141
Animal Plant Health Inspection Service
• Miscellaneous Contributed Funds
Forest Service
• National Forest Fund Receipts
• Roads and Trails for States, National Forest Fund
• Reforestation Trust Fund
• Timber Sales Pipeline Restoration Fund
• Operation and Maintenance of Forest Service Quarters
• Timber Roads, Purchaser Elections
• Expenses, Brush Disposal
• Range Betterment Fund
• Acquisition of Lands for National Forests, Special Acts
• Construction of Facilities or Land Acquisition
• Recreation Fees for Collection Costs
• Payment to Minnesota (Cook, Lake and Saint Louis Counties)
• Licensee Program
• Tongass Timber Supply Fund
• Resource Management Timber Receipts
• Quinault Special Management Area
• MNP Rental Fee Account
• Midewin National Tallgrass Prairie Restoration Fund
• Land Between the Lakes Management Fund
• Administration of Rights-of-Way and Other Land Uses Fund
• Valles Caldera Fund
• Hardwood Technology Transfer and Applied Research Fund
• Stewardship Contracting Product Sales
• Mount Saint Helens Highway
• Gifts, Donations and Bequests for Forest and Rangeland Research
• Land Between the Lakes Trust Fund
• Gifts and Bequests
Natural Resources Conservation Service
• Miscellaneous Contributed Funds
Agricultural Research Service
• Concessions Fees and Volunteer Services
• Gifts and Bequests
• Miscellaneous Contributed Funds
Rural Development
• Alternative Agricultural Research and Commercialization Revolving Fund
Foreign Agricultural Service
• Miscellaneous Contributed Funds
• Gifts and Bequests

       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            142
Grain Inspection, Packers and Stockyards Administration
• Inspection and Weighing Services
Food Safety and Inspection Service
• Expenses and Refunds, Inspection of Farm Products
Office of the Inspector General
Inspector General Assets Forfeiture, Department of Justice
• Inspector General Assets Forfeiture, Department of Treasury
National Agricultural Statistics Service
• Miscellaneous Contributed Funds
Economic Research Service
• Miscellaneous Contributed Funds
Departmental Offices
• Gifts and Bequests




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             143
Earmarked Funds


                                                   AMS                  AMS                APHIS                 FS                 FS                   FS                 FS                FS
                                                                                                                                                                                         State, Private,
                                                                    Expenses and                                                                                                        and International
                                                 Funds for             Refunds,          Agricultural                                                                                    Forestry, Land
                                               Strengthening        Inspection and       Quarantine                                                 Payments to                            and Water
                                             Markets, Income,      Grading of Farm    Inspection User                                             States, National    Timber Salvage      Conservation
Balance Sheet As of September 30, 2011          and Supply             Products         Fee Account        Cooperative Work   Land Acquisition      Forests Fund          Sales               Fund
                                                  12X5209              12X8015            12X5161              12X8028           12X5004              12X5201            12X5204            12X5367
Fund Balance with Treasury                   $             283     $            101   $             128    $            376   $             29    $            207    $           51    $            123
Investments                                                   -                   -                   -                   -                  -                    -                 -                   -
Other Assets                                               288                   16                 126                  18                 46                   3                 2                    -
Total Assets                                               571                  117                 254                 394                 75                 210                53                 123

Other Liabilities                                             2                 64                  79                  81                  1                  333                 4                 29
Total Liabilities                                             2                 64                  79                  81                  1                  333                 4                 29

Unexpended Appropriations                                    -                   -                   -                   -                  -                    -                 -                  -
Cumulative Results of Operations                           569                  53                 175                 313                 74                 (123)               49                 94

Total Liabilities and Net Position                         571                 117                 254                 394                 75                  210                53                123




Statement of Net Cost For the Period
Ended September 30, 2011
Gross program costs                                      1,184                 194                  177                101                 39                   48                24                 42
Less Earned Revenue                                          1                 150                  537                 88                  -                  116                26                  -
Net Cost of Operations                                   1,183                  44                 (360)                13                 39                  (68)               (2)                42




Statement of Changes in Net Position
For the period Ended September 30, 2011
Net Position Beginning of Period                           623                  53                 134                 326                 80                 (191)               47                 83

Other Financing Sources                                   1,129                 44                 (319)                 -                 33                    -                 -                  53
Net Cost of Operations                                   (1,183)               (44)                 360                (13)               (39)                  68                 2                 (42)

Change in Net Position                                      (54)                  -                 41                 (13)                 (6)                 68                 2                 11

Net Position End of Period                   $             569     $            53    $            175     $           313    $            74     $           (123)   $           49    $            94




                                         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                              144
Earmarked Funds


                                                     FS                 FS                  FS                 FS                 NIFA                FSA



                                                                   Restoration of      Payments to        Acquisition of     Native American
                                               Recreation Fee       Forest Lands         Counties,          Lands to           Institutions       Agricultural
                                               Demonstration            and              National        Complete Land         Endowment         Disaster Relief
Balance Sheet As of September 30, 2011            Program          Improvements         Grasslands         Exchanges               Fund            Trust Fund             Other            Total
                                                  12X5268             12X5215             125896            12X5216              12X5205            12X5531
Fund Balance with Treasury                    $             72    $           170     $            62    $            37     $              9   $            500      $       334      $       2,482
Investments                                                   -                   -                 -                    -                139                    -              3                142
Other Assets                                                 6                   2                  -                 39                    -                    3             31                580
Total Assets                                                78                172                  62                 76                  148                503              368              3,204

Other Liabilities                                            6                   2                  -                    -                  -                 706                 93           1,400
Total Liabilities                                            6                   2                  -                    -                  -                 706                 93           1,400

Unexpended Appropriations                                    -                   -                 -                    -                 74                    -               -                 74
Cumulative Results of Operations                            72                 170                62                   76                 74                 (203)            275              1,730

Total Liabilities and Net Position                          78                 172                62                   76                148                  503             368              3,204




Statement of Net Cost For the Period
Ended September 30, 2011
Gross program costs                                         91                  19                  -                   8                 10                1,125             425              3,487
Less Earned Revenue                                         66                  19                  2                   9                  5                    -             199              1,218
Net Cost of Operations                                      25                   -                 (2)                 (1)                 5                1,125             226              2,269




Statement of Changes in Net Position
For the period Ended September 30, 2011
Net Position Beginning of Period                            97                 171                41                   75                140                   (16)           507              2,170

Other Financing Sources                                      -                  (1)               19                    -                 13                   938             (6)             1,903
Net Cost of Operations                                     (25)                  -                 2                    1                 (5)               (1,125)          (226)            (2,269)

Change in Net Position                                     (25)                 (1)               21                    1                  8                 (187)           (232)                 (366)

Net Position End of Period                    $             72    $            170    $           62     $             76    $           148    $            (203)    $       275      $       1,804




                                       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                            145
Earmarked Funds


                                                AMS                 AMS                 APHIS                 FS                 FS                  FS                 FS                 FS
                                                                                                                                                                                      State, Private,
                                                                Expenses and                                                                                                         and International
                                              Funds for            Refunds,           Agricultural                                                                                    Forestry, Land
                                            Strengthening       Inspection and        Quarantine                                                Payments to                             and Water
                                          Markets, Income,     Grading of Farm     Inspection User                                            States, National    Timber Salvage       Conservation
Balance Sheet As of September 30, 2010       and Supply            Products          Fee Account        Cooperative Work   Land Acquisition     Forests Fund          Sales                Fund
                                               12X5209             12X8015             12X5161              12X8028           12X5004             12X5201            12X5204             12X5367
Fund Balance with Treasury                $             141    $             52    $               91   $            357   $             35   $            197    $           49     $            124
Investments                                                -                 20                     -                  -                  -                   -                 -                    -
Other Assets                                            486                  46                  117                  21                 46                  4                 3                    8
Total Assets                                            627                 118                  208                 378                 81                201                52                  132

Other Liabilities                                         4                 65                    74                 52                  1                 392                 5                  49
Total Liabilities                                         4                 65                    74                 52                  1                 392                 5                  49

Unexpended Appropriations                               302                  -                     -                  -                  -                   -                 -                   -
Cumulative Results of Operations                        321                 53                   134                326                 80                (191)               47                  83

Total Liabilities and Net Position                      627                118                   208                378                 81                 201                52                 132




Statement of Net Cost For the Period
Ended September 30, 2010
Gross program costs                                     854                195                   192                111                 54                  38                27                  73
Less Earned Revenue                                       1                151                   504                 79                  -                 119                21                   -
Net Cost of Operations                                  853                 44                  (312)                32                 54                 (81)                6                  73




Statement of Changes in Net Position
For the period Ended September 30, 2010
Net Position Beginning of Period                        677                 54                   129                359                 71                (272)               54                  80

Other Financing Sources                                 799                 43                  (307)                (1)                63                   -                 (1)                 76
Net Cost of Operations                                 (853)               (44)                  312                (32)               (54)                 81                 (6)                (73)

Change in Net Position                                  (54)                 (1)                   5                (33)                 9                  81                 (7)                  3

Net Position End of Period                $             623    $            53     $             134    $           326    $            80    $           (191)   $           47     $            83




                                       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                            146
Earmarked Funds


                                                   FS                 FS                  FS                 NIFA                FSA                 FSA

                                                                                                                              Agricultural
                                                                 Restoration of      Acquisition of     Native American        Disaster
                                             Recreation Fee       Forest Lands         Lands to           Institutions        Assistance         Agricultural
                                             Demonstration            and           Complete Land         Endowment           Transition -      Disaster Relief
Balance Sheet As of September 30, 2010          Program          Improvements         Exchanges               Fund           Recovery Act         Trust Fund             Other            Total
                                                12X5268             12X5215            12X5216              12X5205           129/05591            12X5531
Fund Balance with Treasury                  $             98    $           169     $            38     $              14   $           287    $              87     $       319      $       2,058
Investments                                                 -                   -                   -                126                   -                    -              9                155
Other Assets                                               4                   3                 37                     -                  1                    5             34                815
Total Assets                                             102                172                  75                  140                288                   92             362              3,028

Other Liabilities                                          5                   1                    -                   -                47                  108                 55               858
Total Liabilities                                          5                   1                    -                   -                47                  108                 55               858

Unexpended Appropriations                                  -                   -                   -                  69                  -                     -              4                375
Cumulative Results of Operations                          97                 171                  75                  71                241                   (16)           303              1,795

Total Liabilities and Net Position                       102                 172                  75                140                 288                   92             362              3,028




Statement of Net Cost For the Period
Ended September 30, 2010
Gross program costs                                       96                  37                   6                   3                624                1,459             220              3,989
Less Earned Revenue                                       65                  33                   6                   6                  -                    -             192              1,177
Net Cost of Operations                                    31                   4                   -                  (3)               624                1,459              28              2,812




Statement of Changes in Net Position
For the period Ended September 30, 2010
Net Position Beginning of Period                         128                 175                  75                125                    -               1,531             305              3,491

Other Financing Sources                                    -                   -                    -                 12                865                   (88)            30              1,491
Net Cost of Operations                                   (31)                 (4)                   -                  3               (624)               (1,459)           (28)            (2,812)

Change in Net Position                                   (31)                 (4)                   -                 15                241                (1,547)               2           (1,321)

Net Position End of Period                  $             97    $            171    $             75    $           140     $           241    $              (16)   $       307      $       2,170




                                       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                            147
NOTE 19. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
       FY 2011                                                                            FSA                                  CCC                                  FAS
                                                                           Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




       Assist Rural Communities to Create Prosperity so They Are
       Self-Sustaining, Repopulating, and Economically Thriving:
       Gross Costs                                                         $           1,603   $        2,241   $           1,110    $       5,466   $            256    $         169
       Less: Earned Revenue                                                              173              222                  15              121                 85                1
       Net Costs                                                                       1,430            2,019               1,095            5,345                171              168

       Ensure Our National Forests and Private Working Lands Are
       Conserved, Restored, and Made More Resilient to Climate Change,
       While Enhancing Our Water Resources:
       Gross Costs                                                                      203              284                 467             1,907                   -                -
       Less: Earned Revenue                                                              22               28                  39                 1                   -                -
       Net Costs                                                                        181              256                 428             1,906                   -                -

       Help America Promote Agricultural Production and
       Biotechnology Exports as America Works to Increase Food Security:
       Gross Costs                                                                         -                -                  79            2,815                 65               43
       Less: Earned Revenue                                                                -                -                 192              167                 22                -
       Net Costs                                                                           -                -                (113)           2,648                 43               43

       Ensure that All of America's Children Have Access
       to Safe, Nutritious, and Balanced Meals:
       Gross Costs                                                                         -                -                   -                -                   -                -
       Less: Earned Revenue                                                                -                -                   -                -                   -                -
       Net Costs                                                                           -                -                   -                -                   -                -

       Total Gross Costs                                                               1,806            2,525               1,656           10,188                321              212
       Less: Total Earned Revenue                                                        195              250                 246              289                107                1
       Net Cost of Operations                                              $           1,611   $        2,275   $           1,410    $       9,899   $            214    $         211




                                          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                               148
FY 2011                                                                            RMA                                  FNS                                  FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             68    $       14,888   $               -   $            -   $               -    $            -
Less: Earned Revenue                                                               -             3,660                   -                -                   -                 -
Net Costs                                                                         68            11,228                   -                -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                856           102,385                 383              956
Less: Earned Revenue                                                                -                -                  1                56                   2              169
Net Costs                                                                           -                -                855           102,329                 381              787

Total Gross Costs                                                                 68            14,888                856           102,385                 383              956
Less: Total Earned Revenue                                                         -             3,660                  1                56                   2              169
Net Cost of Operations                                              $             68    $       11,228   $            855    $      102,329   $             381    $         787




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        149
FY 2011                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            123    $         922    $             48    $         126    $             36    $          66
Less: Earned Revenue                                                               2              148                   5               77                   1               49
Net Costs                                                                        121              774                  43               49                  35               17

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 33               86                    -                -
Less: Earned Revenue                                                                -                -                  3               53                    -                -
Net Costs                                                                           -                -                 30               33                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 20               52                    -                -
Less: Earned Revenue                                                                -                -                  2               32                    -                -
Net Costs                                                                           -                -                 18               20                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                       60              449                 303              792                    -                -
Less: Earned Revenue                                                               1               72                  32              487                    -                -
Net Costs                                                                         59              377                 271              305                    -                -

Total Gross Costs                                                                183             1,371                404             1,056                 36               66
Less: Total Earned Revenue                                                         3               220                 42               649                  1               49
Net Cost of Operations                                              $            180    $        1,151   $            362    $          407   $             35    $          17




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        150
FY 2011                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            269    $        1,068   $             11    $          62    $             91    $         336
Less: Earned Revenue                                                              23               133                  3                -                  23               12
Net Costs                                                                        246               935                  8               62                  68              324

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                     1,172            4,651                664             3,744                 57              213
Less: Earned Revenue                                                              100              577                171                 3                 14                7
Net Costs                                                                       1,072            4,074                493             3,741                 43              206

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  1                5                  42              155
Less: Earned Revenue                                                                -                -                  -                -                  10                5
Net Costs                                                                           -                -                  1                5                  32              150

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                136              506
Less: Earned Revenue                                                                -                -                   -                -                 34               18
Net Costs                                                                           -                -                   -                -                102              488

Total Gross Costs                                                               1,441            5,719                676             3,811                326             1,210
Less: Total Earned Revenue                                                        123              710                174                 3                 81                42
Net Cost of Operations                                              $           1,318   $        5,009   $            502    $        3,808   $            245    $        1,168




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        151
FY 2011                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              29    $         740    $             16    $          21    $             60    $         140
Less: Earned Revenue                                                               24                -                   -                -                  23                2
Net Costs                                                                           5              740                  16               21                  37              138

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         7              174                   6                8                    -               1
Less: Earned Revenue                                                                6                -                   -                -                    -               -
Net Costs                                                                           1              174                   6                8                    -               1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         6              153                  11               14                    -                -
Less: Earned Revenue                                                                5                -                   -                -                    -                -
Net Costs                                                                           1              153                  11               14                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         8              205                  11               15                   3                8
Less: Earned Revenue                                                                7                -                   -                -                   1                -
Net Costs                                                                           1              205                  11               15                   2                8

Total Gross Costs                                                                  50             1,272                 44               58                  63              149
Less: Total Earned Revenue                                                         42                 -                  -                -                  24                2
Net Cost of Operations                                              $               8    $        1,272   $             44    $          58    $             39    $         147




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        152
FY 2011                                                                             RD                                   DO                                  Total
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,053   $        3,654   $             201    $        375    $            7,974   $       30,274
Less: Earned Revenue                                                              460            3,300                 324               6                 1,161            7,731
Net Costs                                                                       3,593              354                (123)            369                 6,813           22,543

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                118              219                 2,727           11,287
Less: Earned Revenue                                                                -                -                190                5                   545              674
Net Costs                                                                           -                -                (72)             214                 2,182           10,613

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 11               19                  235             3,256
Less: Earned Revenue                                                                -                -                 17                1                  248               205
Net Costs                                                                           -                -                 (6)              18                  (13)            3,051

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                 169             315                 1,929          105,631
Less: Earned Revenue                                                                -                -                 272               5                   350              807
Net Costs                                                                           -                -                (103)            310                 1,579          104,824

Total Gross Costs                                                               4,053            3,654                 499             928               12,865           150,448
Less: Total Earned Revenue                                                        460            3,300                 803              17                2,304             9,417
Net Cost of Operations                                              $           3,593   $          354   $            (304)   $        911    $          10,561    $      141,031




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        153
FY 2011                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,850)   $     36,398
Less: Earned Revenue                                                             (442)          8,450
Net Costs                                                                      (1,408)         27,948

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                    (1,017)         12,997
Less: Earned Revenue                                                             (350)            869
Net Costs                                                                        (667)         12,128

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                       (94)          3,397
Less: Earned Revenue                                                             (159)            294
Net Costs                                                                          65           3,103

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                    (1,009)        106,551
Less: Earned Revenue                                                             (274)            883
Net Costs                                                                        (735)        105,668

Total Gross Costs                                                              (3,970)        159,343
Less: Total Earned Revenue                                                     (1,225)         10,496
Net Cost of Operations                                              $          (2,745)   $    148,847




                                 Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                      154
FY 2010                                                                            FSA                                  CCC                                  FAS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            998    $        4,253   $           1,077   $        5,342   $            102    $         144
Less: Earned Revenue                                                             240               200                  21              174                 44                3
Net Costs                                                                        758             4,053               1,056            5,168                 58              141

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      111              471                 415             2,012                   -                -
Less: Earned Revenue                                                              27               22                   -                 1                   -                -
Net Costs                                                                         84              449                 415             2,011                   -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                161             2,566                 50               70
Less: Earned Revenue                                                                -                -                137               188                 21                2
Net Costs                                                                           -                -                 24             2,378                 29               68

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                   -                -
Less: Earned Revenue                                                                -                -                   -                -                   -                -
Net Costs                                                                           -                -                   -                -                   -                -

Total Gross Costs                                                               1,109            4,724               1,653            9,920                152              214
Less: Total Earned Revenue                                                        267              222                 158              363                 65                5
Net Cost of Operations                                              $             842   $        4,502   $           1,495   $        9,557   $             87    $         209




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        155
FY 2010                                                                            RMA                                  FNS                                  FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             74    $        4,201   $               -   $            -   $               -    $            -
Less: Earned Revenue                                                               -               603                   -                -                   -                 -
Net Costs                                                                         74             3,598                   -                -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -               1,129           94,460                 382              936
Less: Earned Revenue                                                                -                -                   2               49                   2              157
Net Costs                                                                           -                -               1,127           94,411                 380              779

Total Gross Costs                                                                 74             4,201               1,129           94,460                 382              936
Less: Total Earned Revenue                                                         -               603                   2               49                   2              157
Net Cost of Operations                                              $             74    $        3,598   $           1,127   $       94,411   $             380    $         779




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        156
FY 2010                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             98    $         465    $             54    $         146    $             35    $          68
Less: Earned Revenue                                                               2               92                   6               82                   1               49
Net Costs                                                                         96              373                  48               64                  34               19

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 35               93                    -                -
Less: Earned Revenue                                                                -                -                  4               52                    -                -
Net Costs                                                                           -                -                 31               41                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 21               56                    -                -
Less: Earned Revenue                                                                -                -                  2               32                    -                -
Net Costs                                                                           -                -                 19               24                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                      113              540                 298              800                    -                -
Less: Earned Revenue                                                               1              107                  33              450                    -                -
Net Costs                                                                        112              433                 265              350                    -                -

Total Gross Costs                                                                211             1,005                408             1,095                 35               68
Less: Total Earned Revenue                                                         3               199                 45               616                  1               49
Net Cost of Operations                                              $            208    $          806   $            363    $          479   $             34    $          19




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        157
FY 2010                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            241    $         976    $             45    $         224    $             87    $         336
Less: Earned Revenue                                                              24               89                   8                1                  11                6
Net Costs                                                                        217              887                  37              223                  76              330

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                     1,088            4,396                542             2,749                 54              213
Less: Earned Revenue                                                              108              402                 94                10                  7                4
Net Costs                                                                         980            3,994                448             2,739                 47              209

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  1                4                  40              155
Less: Earned Revenue                                                                -                -                  -                -                   5                3
Net Costs                                                                           -                -                  1                4                  35              152

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                130              506
Less: Earned Revenue                                                                -                -                   -                -                 17                9
Net Costs                                                                           -                -                   -                -                113              497

Total Gross Costs                                                               1,329            5,372                588             2,977                311             1,210
Less: Total Earned Revenue                                                        132              491                102                11                 40                22
Net Cost of Operations                                              $           1,197   $        4,881   $            486    $        2,966   $            271    $        1,188




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        158
FY 2010                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              20    $         650    $             13    $          20    $             55    $         141
Less: Earned Revenue                                                               16                -                   -                -                  23               11
Net Costs                                                                           4              650                  13               20                  32              130

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         5              151                   5                7                    -               1
Less: Earned Revenue                                                                4                -                   -                -                    -               -
Net Costs                                                                           1              151                   5                7                    -               1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         4              134                   8               13                    -                -
Less: Earned Revenue                                                                3                -                   -                -                    -                -
Net Costs                                                                           1              134                   8               13                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         6              192                  10               15                   3                8
Less: Earned Revenue                                                                6                -                   -                -                   1                1
Net Costs                                                                           -              192                  10               15                   2                7

Total Gross Costs                                                                  35             1,127                 36               55                  58              150
Less: Total Earned Revenue                                                         29                 -                  -                -                  24               12
Net Cost of Operations                                              $               6    $        1,127   $             36    $          55    $             34    $         138




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        159
FY 2010                                                                             RD                                    DO                                  Total
                                                                    Intragovernmental  With the Public    Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,023   $        3,144    $             201    $        365    $            7,123   $       20,475
Less: Earned Revenue                                                              496            3,224                  328              (3)                1,220            4,531
Net Costs                                                                       3,527              (80)                (127)            368                 5,903           15,944

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 117              213                 2,372           10,306
Less: Earned Revenue                                                                -                -                 192               (2)                  436              489
Net Costs                                                                           -                -                 (75)             215                 1,936            9,817

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  12               22                  297             3,020
Less: Earned Revenue                                                                -                -                  20                -                  188               225
Net Costs                                                                           -                -                  (8)              22                  109             2,795

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                  156             286                 2,227           97,743
Less: Earned Revenue                                                                -                -                  256              (2)                  318              771
Net Costs                                                                           -                -                 (100)            288                 1,909           96,972

Total Gross Costs                                                               4,023            3,144                  486             886               12,019           131,544
Less: Total Earned Revenue                                                        496            3,224                  796              (7)               2,162             6,016
Net Cost of Operations                                              $           3,527   $          (80)   $            (310)   $        893    $           9,857    $      125,528




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        160
FY 2010                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,686)   $     25,912
Less: Earned Revenue                                                             (450)          5,301
Net Costs                                                                      (1,236)         20,611

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      (874)         11,804
Less: Earned Revenue                                                             (255)            670
Net Costs                                                                        (619)         11,134

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                       (86)          3,231
Less: Earned Revenue                                                              (38)            375
Net Costs                                                                         (48)          2,856

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                    (1,286)         98,684
Less: Earned Revenue                                                             (242)            847
Net Costs                                                                      (1,044)         97,837

Total Gross Costs                                                              (3,932)        139,631
Less: Total Earned Revenue                                                       (985)          7,193
Net Cost of Operations                                              $          (2,947)   $    132,438




                                 Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                      161
NOTE 20. COST OF STEWARDSHIP PP&E
The acquisition cost of stewardship land in FY 2011 and FY 2010 was $678 million and $449 million,
respectively.
NOTE 21. ADJUSTMENT TO BEGINNING BALANCE OF BUDGETARY RESOURCES DUE TO CHANGE IN ACCOUNTING PRINCIPLE
FCIC has permanent indefinite appropriations available to fund premium subsidy, delivery expenses, losses
in excess of premiums and research and development costs. Beginning in FY 2010, FCIC returned to the
U.S. Treasury all unobligated balances in its indefinite appropriation in excess of the amount FCIC is
authorized by statue to retain which includes the capital stock, paid-in capital, and the contingency fund.
Prior to this change, FCIC carried over its unobligated balances each year. As a result of this change, FCIC
adjusted the unobligated balance brought forward on the Statement of Budgetary Resources and the
unexpended appropriations beginning balance on the Statement of Changes in Net Position in FY 2010 for
the amount that would have been returned had the change been made in FY 2009. This reduced beginning
balances by $444 million.
NOTE 22. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the
purpose of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and
debt related to foreign assistance programs. The permanent indefinite borrowing authority includes both
interest bearing and non–interest bearing notes. These notes are drawn upon daily when disbursements
exceed deposits. Notes payable under the permanent indefinite borrowing authority have a term of one year.
On January 1 of each year, USDA refinances its outstanding borrowings, including accrued interest, at the
January borrowing rate.
In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export
credit programs to finance disbursements on post-credit reform, direct credit obligations, and credit
guarantees. In accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows from
Treasury on October 1, for the entire fiscal year, based on annual estimates of the difference between the
amount appropriated (subsidy) and the amount to be disbursed to the borrower. Repayment under this
agreement may be, in whole or in part, prior to maturity by paying the principal amount of the borrowings
plus accrued interest to the date of repayment. Interest is paid on these borrowings based on weighted
average interest rates for the cohort, to which the borrowings are associated. Interest is earned on the daily
balance of uninvested funds in the credit reform financing funds maintained at Treasury. The interest
income is used to reduce interest expense on the underlying borrowings.
USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of
Beneficial Ownership (CBO) or loans executed directly between the borrower and FFB with an
unconditional USDA repayment guarantee. CBO’s outstanding with the FFB are generally secured by
unpaid loan principal balances. CBO’s outstanding are related to pre-credit reform loans and no longer are
used for program financing.
FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings
made to finance loans directly between the borrower and FFB mature and are repaid as the related group of
loans become due. Interest rates on the related group of loans are equal to interest rates on FFB borrowings,
except in those situations where an FFB funded loan is restructured and the terms of the loan are modified.
Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on
FFB CBO’s, without a penalty.



        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             162
Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount
of its borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by
agencies and others. All bonds, notes, debentures, and similar obligations issued by the Department are
subject to approval by the Secretary of the Treasury. Reservation of borrowing authority for these purposes
has not been required for many years.
NOTE 23. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2011 and 2010 was $35,016 million and $39,385 million,
respectively.
NOTE 24. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

FY 2011
                                                            Direct          Reimbursable          Total
Apportionment by Fiscal Quarter                         $     36,418    $           2,456     $     38,874
Apportionment for Special Activities                         122,306               21,444          143,750
Exempt from Apportionment                                      1,005                   1             1,006
Total Obligations Incurred                              $    159,729    $          23,901     $    183,630


FY 2010
                                                            Direct          Reimbursable          Total
Apportionment by Fiscal Quarter                         $     35,605    $           2,075     $     37,680
Apportionment for Special Activities                         126,313               23,609          149,922
Exempt from Apportionment                                      1,065                   1             1,066
Total Obligations Incurred                              $    162,983    $          25,685     $    188,668



NOTE 25. UNDELIVERED ORDERS AT THE END OF THE PERIOD
Budgetary resources obligated for undelivered orders as of September 30, 2011 and 2010 was $51,654
million and $54,799 million, respectively.
NOTE 26. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit
reform programs, 2) certain costs of the crop insurance program, (3) certain commodity program costs and
4) certain costs associated with FS programs.
The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements
incurred under the liquidating accounts. These appropriations become available pursuant to standing
provisions of law without further action by Congress after transmittal of the Budget for the year involved.
They are treated as permanent the first year they become available, as well as in succeeding years. However,
they are not stated as specific amounts but are determined by specified variable factors, such as cash needs
for liquidating accounts, and information about the actual performance of a cohort or estimated changes in
future cash flows of the cohort in the program accounts.
The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy,
delivery expenses, losses in excess of premiums and research and delivery costs.
The permanent indefinite appropriation for commodity program costs is used to encourage the exportation
of agricultural commodities and products, to encourage domestic consumption of agricultural products by


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             163
diverting them, and to reestablish farmers’ purchasing power by making payments in connection with the
normal production of any agricultural commodity for domestic consumption.
The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs,
Brush Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and
Improvements, Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections,
Timber Salvage Sales and Operations, and Maintenance of Quarters. Each of these permanent indefinite
appropriations is funded by receipts made available by law, and is available until expended.
NOTE 27. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended
balance. It represents that portion of the unexpended balance unencumbered by recorded obligations.
Appropriations are provided on an annual, multi-year, and no-year basis. An appropriation expires on the
last day of its period of availability and is no longer available for new obligations. Unobligated balances
retain their fiscal-year identity in an expired account for an additional five fiscal years. The unobligated
balance remains available to make legitimate obligation adjustments, i.e., to record previously unrecorded
obligations and to make upward adjustments in previously underestimated obligations for five years. At the
end of the fifth year, the authority is canceled. Thereafter, the authority is not available for any purpose.
Any information about legal arrangements affecting the use of the unobligated balance of budget authority
is specifically stated by program and fiscal year in the appropriation language or in the alternative provisions
section at the end of the appropriations act.
NOTE 28. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES
GOVERNMENT
The differences between the FY 2010 Statement of Budgetary Resources and the FY 2010 actual numbers
presented in the FY 2012 Budget of the United States Government (Budget) are summarized below.
The Budget excludes expired accounts that are no longer available for new obligations.
Adjustments were made prior to the Budget submission as follows:
CCC adjusted obligations for the Tobacco Transition Payment Program and Conservation Reserve
Program; and reported additional activity from USAID, a child entity, subsequent to yearend close.
RD adjusted obligations for the Distance Learning Telemedicine Direct Loan Financing Account and
Rural Electrification and Telephone Direct Loan Financing Account.
The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for use by
the Department.
A comparison between the FY 2011 Statement of Budgetary Resources and the FY 2011 actual numbers
presented in the FY 2013 Budget cannot be performed as the FY 2013 Budget is not yet available. The
FY 2013 Budget is expected to be published in February 2012 and will be available from the Government
Printing Office.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             164
           FY 2010
                                                                                                         Distributed
                                                                 Budgetary      Obligations              Offsetting
                                                                 Resources       Incurred                 Receipts                Net Outlays


           Combined Statement of Budgetary Resources             $   225,385    $       188,668          $       2,088            $   137,722
             Reconciling items:
             Expired accounts                                        (13,600)              (961)                       -                    -
             CCC TTPP and CRP Adjustments                             (2,053)            (2,055)                       -                    -
             Timing differnce betw een CCC and USAID                    111                111                         -                    -
             RD Obligation Adjustments                                   (95)               (95)                       -                    -
             Milk Market Orders Fund                                     56                 56                         -                    -
             Other                                                       17                 (17)                       -                    5
           Budget of the United States Government                $   209,821    $       185,707          $       2,088            $   137,727




NOTE 29. INCIDENTAL CUSTODIAL COLLECTIONS
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest
products, miscellaneous general fund receipts such as collections on accounts receivable related to canceled
year appropriations, civil monetary penalties and interest, and commercial fines and penalties. Custodial
collection activities are considered immaterial and incidental to the mission of the Department.


        Revenue Activity:                                                               FY 2011                  FY 2010
            Sources of Collections:
            Miscellaneous                                                           $             84         $             80
        Total Cash Collections                                                                    84                       80
        Accrual Adjustments                                                                        (2)                      (4)
        Total Custodial Revenue                                                                   82                       76
        Disposition of Collections:
        Transferred to Others:
            Treasury                                                                           (77)                        (69)
        ( Increase )/Decrease in Amounts Yet to be Transferred                                     (5)                      (7)
        Net Custodial Activity                                                      $               -        $               -




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             165
NOTE 30. FIDUCIARY ACTIVITIES
Rural Housing Insurance Fund (RHIF) was established by Public Law 89-117 pursuant to section 517 of
title V of the Housing Act of 1949, which authorized RD to collect escrow payments on behalf of new and
existing Single Family Housing borrowers. Other fiduciary activities by RD include but are not limited to
collections from borrowers, interest paid on escrow accounts, payments to insurance agencies and taxing
authorities.



                                         Schedule of Fiduciary Activity
                           For the Years Ended September 30, 2011 and 2010


                                                                      Rural Housing                  Rural Housing
                                                                              Insurance                  Insurance
                                                                                  Fund                     Fund
                                                                                  2011                     2010
  Fiduciary net assets, beginning of year                                 $              100         $            97
    Fiduciary revenues                                                                     -                         -
    Contributions                                                                        480                      474
    Investment earnings                                                                    -                         -
    Gain (Loss) on disposition of investments, net                                         -                         -
    Administrative and other expenses                                                      -                         -
    Disbursements to and on behalf of beneficiaries                                  (473)                     (471)
  Increases/(Decrease) in fiduciary net assets                                            7                          3
  Fiduciary net assets, end of year                                       $              107         $            100



                                     Fiduciary Net Assets
                               As of September 30, 2011 and 2010


                                                             Rural Housing         Rural Housing
                                                               Insurance             Insurance
                                                                   Fund                  Fund
                                                                   2011                  2010
  Fiduciary Assets
   Cash and cash equivalents                                   $          4          $          2
   Investments                                                        103                      98
   Other assets                                                               -                  -
  Fiduciary Liabilities
   Less: Liabilities                                                          -                  -
  Total Fiduciary Net Assets                                   $      107            $         100




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             166
NOTE 31. RECONCILIATION OF BUDGETARY RESOURCES OBLIGATED TO NET COST OF OPERATIONS
Budgetary and proprietary accounting information are inherently different because of the types of
information and the timing of their recognition. The reconciliation of budgetary resources obligated and the
net cost of operations provides a link between budgetary and proprietary accounting information. It serves
not only to explain how information on net obligations relates to the net cost of operations but also to assure
integrity between budgetary and proprietary accounting.
Net obligations and the net cost of operations are different because (1) the net cost of operations may be
financed by non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary
resources used may finance activities which are not components of the net cost of operations; and (3) the net
cost of operations may contain components which do not use or generate resources in the current period.




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            167
                                                                                                             2011         2010
Resources Used to Finance Activities:
Budgetary Resources Obligated -
   Obligations Incurred                                                                                    $ 183,630    $ 188,668
   Less: Spending authority from offsetting collections and recoveries                                        38,805       38,928
   Obligations net of offsetting collections and recoveries                                                  144,825      149,740
   Less: Distributed Offsetting receipts                                                                       2,039        2,088
   Net Obligations                                                                                           142,786      147,652

Other Resources -
   Transfers in(out) without reimbursement                                                                       145          160
   Imputed financing from costs absorbed by others                                                             1,724        1,090
   Other                                                                                                      (1,134)      (1,423)
   Net other resources used to finance activities                                                                735         (173)

    Total resources used to finance activities                                                               143,521      147,479

Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in undelivered orders                                                                                2,958      (10,505)
   Resources that fund expenses recognized in prior periods                                                   (3,495)      (5,638)
   Budgetary offsetting collections and receipts that do not affect net cost of operations -
     Credit program collections which increase liabilities for loan guarantees or allowances for subsidy      15,047       15,770
     Change in Unfilled Customer Orders                                                                        1,771          656
     Decrease in exchange revenue receivable from public                                                       6,229        7,054
     Other                                                                                                       806          493
   Resources that finance the acquisition of assets                                                          (22,924)     (25,033)
   Other resources or adjustments to net obligated resources that do not affect net cost of operations        (2,488)       2,055

    Total resources used to finance items not part of the net cost of operations                              (2,096)     (15,148)

    Total resources used to finance the net cost of operations                                               141,425      132,331

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods -
   Increase in annual leave liability                                                                              7           21
   Increase in environmental and disposal liability                                                                1            -
   Upward/Downward reestimates of credit subsidy expense                                                       1,624        1,502
   Increase in exchange revenue receivable from the public                                                         -            -
   Other                                                                                                       4,767       (1,154)
   Total components of Net Cost of Operations that will require or generate
     resources in future periods                                                                               6,399         369

Components not Requiring or Generating Resources -
   Depreciation and amortization                                                                                230          262
   Revaluation of assets or liabilities                                                                          39           27
   Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                                                            (79)        (531)
     Cost of Goods Sold                                                                                          488          835
   Other                                                                                                         345         (855)
   Total components of Net Cost of Operations that will not require or generate resources                      1,023         (262)

    Total components of Net Cost of Operations that will not require or generate
      resources in the current period                                                                          7,422         107

    Net Cost of Operations                                                                                 $ 148,847    $ 132,438




NOTE 32. SUBSEQUENT EVENTS
On October 27, 2011, the District Court Judge gave final approval of the proposed class settlement In re
Black Farmer Discrimination Lawsuit, Civil Action No. 08-0511 (D.D.C.), also known as Pigford II. All
cases that were consolidated as part of the In re Black Farmers Discrimination Litigation were dismissed
with prejudice. The claims period for the agreement begins on November 14, 2011 and ends on May 11,
2012.


         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              168
Required Supplementary Stewardship Information
STEWARDSHIP INVESTMENTS (UNAUDITED)
                                                FY 2011   FY 2010   FY 2009   FY 2008   FY 2007
                                                Expense   Expense   Expense   Expense   Expense
Non-Federal Physical Property:
Food and Nutrition Service
    Supplemental Nutrition Assistance Program   $   40    $   41    $   55    $   32    $    20
    Special Supplemental Nutrition Program          17        17        15        10         15
National Institute of Foods and Agriculture
    Extension 1890 Facilities Program               19        19        17        17         17
Total Non-Federal Property                      $   76    $   77    $   87    $   59    $    52

Human Capital:
National Institute of Foods and Agriculture
    Higher Education and Extension Programs     $   547   $   559   $   547   $   521   $   524
Food and Nutrition Service
    Supplemental Nutrition Assistance Program       45        63        19        36         51
Agricultural Research Service
    National Agricultural Library                   21        24        23        22         22
Risk Management Agency
    Risk Management Education                        10         6         6        10        11
Total Human Capital                             $   623   $   652   $   595   $   589   $   608




         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              169
                                              FY 2011   FY 2010   FY 2009   FY 2008   FY 2007
                                              Expense   Expense   Expense   Expense   Expense
Research and Development:

Basic Research:
Agricultural Research Service
    Human Nutrition                           $    43   $    45   $    43   $    42   $     42
    Collaborative Research Program                  -         -         2         2          2
    Product Quality/Value Added                    52        56        54        51         52
    Livestock Production                           41        44        43        42         42
    Crop Production                               116       119       102        99         99
    Food Safety                                    53        53        53        51         51
    Livestock Protection                           40        45        42        40         41
    Crop Protection                               102       103       100        96         97
    Environmental Stewardship                     101       103       112       109        110
National Institute of Foods and Agriculture
    Land-grant University System                  274       283       256       245        245
Forest Service                                     75        94        87        82         60
Economic Research Service
    Economic and Social Science                    8         8         8         8           7
National Agricultural Statistics Service
    Statistical                                     3         3         3         3          3
Total Basic Research                          $   908   $   956   $   905   $   870   $    851

Applied Research:
Agricultural Research Service
    Human Nutrition                           $   34    $   35    $   34    $   35    $     35
    Collaborative Research Program                  -         -        1         2           1
    Product Quality/Value Added                   42        44        43        43          43
    Livestock Production                          33        35        34        35          35
    Crop Production                               93        96        82        82          83
    Food Safety                                   43        43        42        43          43
    Livestock Protection                          32        36        33        34          34
    Crop Protection                               81        82         81        80         81
    Environmental Stewardship                      80        83        90        92         92
National Institute of Foods and Agriculture
    Land-grant University System                  467       461       435       418        416
Forest Service                                    200       227       220       207        154
Economic Research Service
    Economic and Social Science                   74        74        71        69          68
National Agricultural Statistics Service
    Statistical                                     4         4         5         5           3
Total Applied Research                        $ 1,183   $ 1,220   $ 1,171   $ 1,145   $   1,088

Development:
Agricultural Research Service
    Human Nutrition                           $    9    $    9    $    8    $    8    $      9
    Product Quality/Value Added                   11        11        11        11          11
    Livestock Production                           8         9         9         8           8
    Crop Production                               23        24        20        20          20
    Food Safety                                   11        11        11        10          11
    Livestock Protection                           7         9         8         8           8
    Crop Protection                               20        20        20        20          20
    Environmental Stewardship                     20        21        23        22          22
Forest Service                                     52        17        16        15         47
Total Development                             $   161   $   131   $   126   $   122   $    156


Total Research and Development                $ 2,252   $ 2,307   $ 2,202   $ 2,137   $   2,095




      Financial Statements, Notes, Supplemental and Other Accompanying Information
                                           170
Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by State
and local governments for the purpose of administering the Supplemental Nutrition Assistance Program
(SNAP). The total SNAP expense for ADP Equipment & Systems has been reported as of the date of
FNS’ financial statements. FNS’ non-Federal physical property also consists of computer systems and other
equipment obtained by the State and local governments for the purpose of administering the Special
Supplemental Nutrition Program for Women, Infants and Children.
National Institute of Food and Agriculture
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of
new facilities that permit faculty, students, and communities to benefit fully from the partnership between
USDA and the historically African-American land-grant universities.
Human Capital
National Institute of Food and Agriculture
The Higher Education programs include graduate fellowship grants, competitive challenge grants,
Secondary/2-year Post Secondary grants, Hispanic serving institutions education grants, a multicultural
scholars program, a Native American institutions program, a Native American institutions endowment
fund, an Alaska Native Serving and Native Hawaiian Serving institutions program, a resident instruction
grant program for insular areas, and a capacity building program at the 1890 institutions. These programs
enable universities to broaden their curricula, increase faculty development and student research projects,
and increase the number of new scholars recruited in the food and agriculture sciences. NIFA also supports
extension-related work at 1862 and 1890 land-grant institutions throughout the country through formula
and competitive programs. NIFA supported the Outreach and Assistance for Disadvantaged Farmers
Program for the first time in fiscal 2003. The purpose is to enhance the ability of minority and small farmers
and ranchers to operate farming or ranching enterprises independently to assure adequate income and
maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the SNAP. The E&T program
requires recipients of SNAP benefits to participate in an employment and training program as a condition to
SNAP eligibility.
Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’
E&T program has placed 688,630 work registrants subject to the 3 - month SNAP participant limit and
1,417,671 work registrants not subject to the limit in either job-search, job-training, job-workfare,
education, or work experience.
Agricultural Research Service
As the Nation’s primary source for agricultural information, the National Agricultural Library (NAL) has a
mission to increase the availability and utilization of agricultural information for researchers, educators,
policymakers, consumers of agricultural products, and the public. The NAL is one of the world’s largest and
most accessible agricultural research libraries and plays a vital role in supporting research, education, and
applied agriculture.
The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962.
One of four national libraries of the U.S. (with the Library of Congress, the National Library of Medicine,
and the National Library of Education), it is also the coordinator for a national network of State land-grant
and USDA field libraries. In its international role, the NAL serves as the U.S. center for the international
agricultural information system, coordinating and sharing resources and enhancing global access to


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             171
agricultural data. The NAL collection of over 50 million items and its leadership role in information services
and technology applications combine to make it the foremost agricultural library in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the
Federal Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with
the NIFA, the Commodity Futures Trading Commission, the USDA National Office of Outreach,
Economic Research Service, and private industry to leverage the federal government’s funding of its RME
program by using both public and private organizations to help educate their members in agricultural risk
management. The RME effort was launched in 1997 with a Risk Management Education Summit that
raised awareness of the tools and resources needed by farmers and ranchers to manage their risks. RMA has
built on this foundation since 2003 by expanding State and Regional education partnerships; encouraging
the development of information and technology decision aids; supporting the National Future Farmers of
America (FFA) foundation with an annual essay contest; facilitating local training workshops; and
supporting Cooperative Agreements with Educational and outreach organizations.
During fiscal years 2011 and 2010, the RME worked toward the goals by funding risk management
sessions, most of which targeted producers directly. The number of producers reached through these
sessions is approximately 79,500 and 47,100 in fiscal years 2011 and 2010, respectively. Additionally, some
training sessions helped those who work with producers, such as lenders, agricultural educators, and crop
insurance agents, better understand those areas of risk management with which they may be unfamiliar.
Total RME obligations incurred by the FCIC were approximately $9.6 million and $6 million for fiscal year
2011 and fiscal year 2010, respectively. The following table summarizes the RME initiatives since fiscal year
2007:

                      (dollars in millions)                 2011     2010     2009     2008     2007
           RME Obligations                              $    9.6       6        6       10       11
           Number of producers attending RME sessions       79,500   47,100   20,000   49,000   49,000



One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational
and outreach efforts in certain areas of the country that have been historically underserved by the Federal
crop insurance program. The Secretary determined that fifteen states met the underserved criteria. These
states are Maine, Massachusetts, Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada,
Pennsylvania, Vermont, Maryland, Utah, Rhode Island, New Hampshire, and West Virginia.
Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high
national priority and provide information access and dissemination to: ensure high quality, safe food, and
other agricultural products; assess the nutritional needs of Americans; sustain a competitive agricultural
economy; enhance the natural resource base and the environment; and provide economic opportunities for
rural citizens, communities, and society as a whole. ARS’ programs are aligned under the Department’s
priorities as follows:
USDA Strategic Goal 1: Assist Rural Communities to Create Prosperity So They Are Self-Sustaining,
Repopulating, and Economically Thriving
Product Quality/Value Added – Many agricultural products are marketed as low value commodities and
harvested commodities often suffer losses due to spoilage or damage during shipping, storage, and handling.



       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            172
Healthy foods are often not convenient and/or are not widely accepted by many consumers. Biobased
product represent small fraction of the market for industrial products and their performance is often
uncertain. Biofuels and some biobased products are not yet economically competitive with petroleum-based
products.
ARS has active research programs directed toward: 1) improving the efficiency and reducing the cost for the
conversion of agricultural products into biobased products and biofuels; 2) developing new and improved
products to help establish them in domestic and foreign markets; and 3) providing higher quality, healthy
foods that satisfy consumer needs in the United States and abroad. Note: Some of ARS’ Livestock and Crop
Production research is carried out under this Strategic Goal and Strategic Goal 3.
National Agricultural Library – The Library, the world’s largest library serving agriculture, delivered more
than 97.5 million direct customer service transactions in FY 2011, a .9 percent increase from the FY 2010
level.
Buildings and Facilities – ARS has over 100 laboratories, primarily located throughout the United States.
ARS’ facilities programs are designed to meet the needs of its scientists and support personnel to accomplish
the agency’s mission.
USDA Strategic Goal 2: Ensure Our National Forests and Private Working Lands Are Conserved, Restored, and
Made More Resilient to Climate Change, While Enhancing Our Water Resources
Environmental Stewardship – ARS’ research programs in environmental stewardship support scientists at
seventy locations. Emphasis is given to developing technologies and systems that support profitable
production and enhance the Nation’s vast renewable natural resource base.
ARS is currently developing the scientific knowledge and technologies needed to meet the challenges and
opportunities facing U.S. agriculture in managing water resource quality and quantity under different
climatic regimes, production systems, and environmental conditions. ARS’ air resources research is
developing measurements, prediction, and control technologies for emissions of greenhouse gases,
particulate matter, ammonia, hydrogen sulfide, and volatile organic compounds affecting air quality and
land-surface climate interactions. The agency is a leader in developing measurement and modeling
techniques for enhancing the health and productivity of soils, including developing predictive tools to assess
the sustainability of alternative land management practices. Finding mechanisms to aid agriculture in
adapting to changes in atmospheric composition and climatic variations are also important components of
ARS’ research program.
ARS’ grazing and range land research includes the conservation and restoration of the Nation’s range land
and pasture ecosystems and agroecosystems through improved management of fire, invasive weeds, grazing,
global change, and other agents of ecological change. ARS is currently developing improved grass and
forage legume germplasm for livestock, conservation, bioenergy, and bioproduct systems as well as grazing-
based livestock systems that reduce risk and increase profitability. In addition, the agency is developing
whole system management strategies to reduce production costs and risks.
USDA Strategic Goal 3: Help America Agricultural Production and Biotechnology Exports As America Works to
Increase Food Security
Livestock Production—ARS’ livestock production program is directed toward: 1) safeguarding and utilizing
animal genetic resources, associated genetic and genomic databases, and bioinformatics tools; 2) developing
a basic understanding of the physiology of livestock and poultry; and 3) developing information, tools, and
technologies that can be used to improve animal production systems. The research is heavily focused on the
development and application of genomics technologies to increase the efficiency and product quality of beef,
dairy, swine, poultry, aquaculture, and sheep systems.



       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            173
Current areas of emphasis include increasing efficiency of nutrient utilization; increasing animal well-being
and reducing stress in production systems; increasing reproductive rates and breeding animal longevity;
developing and evaluating non-traditional production systems (e.g., organic, natural); and evaluating and
conserving animal genetic resources.
Crop Production—ARS’ crop production program focuses on developing and improving ways to reduce crop
losses while protecting and ensuring a safe and affordable food supply. The research program concentrates
on effective production strategies that are environmentally friendly, safe to consumers, and compatible with
sustainable and profitable crop production systems. Research activities are directed at safeguarding and
utilizing plant genetic resources and their associated genetic, genomic, and bioinformatics databases that
facilitate selection of varieties and/or germplasm with significantly improved traits.
Current research activities attempt to minimize the impacts of crop pests while maintaining healthy crops
and safe commodities that can be sold in markets throughout the world. ARS is conducting research to:
discover and exploit naturally occurring and engineered genetic mechanisms for plant pest control; develop
agronomic germplasm with durable defensive traits, and transfer genetic resources for commercial use. ARS
is also providing taxonomic information on invasive species that strengthen prevention techniques, aid in
detection/identification of invasives, and increase control through management tactics which restore
habitats and biological diversity.
USDA Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious, and Balanced
Meals
Food Safety—Assuring that the United States has the highest levels of affordable, safe food requires that the
food system be protected at each stage from production through processing and consumption from
pathogens, toxins, and chemical contaminants that cause diseases in humans. The U.S. food supply is very
diverse, extensive, easily accessible, and thus vulnerable to the introduction of biological and chemical
contaminants through natural processes, intentional means, or by global commerce.
ARS’ current food safety research is designed to yield science-based knowledge on the safe production,
storage, processing, and handling of plant and animal products, and on the detection and control of toxin
producing and/or pathogenic bacteria and fungi, parasites, chemical contaminants, and plant toxins. ARS’
research activities involve a high degree of cooperation and collaboration both within the USDA-REE
agencies as well as with USDA’s Food Safety and Inspection Service and the Animal and Plant Health
Inspection Service, and with other entities, including the Food and Drug Administration, the Centers for
Disease Control, the Department of Homeland Security, and the Environmental Protection Agency. ARS
also collaborates in international research programs to address and resolve global food safety issues.
Specific research efforts are directed toward developing new technologies that assist ARS stakeholders and
customers, that is, regulatory agencies, industry, and commodity and consumer organizations in detecting,
identifying, and controlling foodborne diseases that affect human health.
Livestock Protection—ARS’ animal health program is directed at protecting and ensuring the safety of the
Nation’s agriculture and food supply through improved disease detection, prevention, control, and
treatment. Basic and applied research approaches are used to solve animal health problems of high national
priority. Emphasis is given to methods and procedures to control animal diseases.
The research program has ten strategic objectives: 1) establish ARS’ laboratories into a fluid, highly effective
research network to maximize use of core competencies and resources; 2) access specialized high
containment facilities to study zoonotic and emerging diseases; 3) develop an integrated animal and
microbial genomics research program; 4) establish centers of excellence in animal immunology; 5) launch a
biotherapeutic discovery program providing alternatives to animal drugs; 6) build a technology driven
vaccine and diagnostic discovery research program; 7) develop core competencies in field epidemiology and


        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             174
predictive biology; 8) develop internationally recognized expert collaborative research laboratories; 9)
establish a best in class training center for our Nation’s veterinarians and scientists; and 10) develop a model
technology transfer program to achieve the full impact of ARS’ research discoveries.
ARS’ current animal research program includes eight core components: 1) biodefense research, 2) animal
genomics and immunology, 3) zoonotic diseases, 4) respiratory diseases, 5) reproductive and neonatal
diseases, 6) enteric diseases, 7) parasitic diseases, and 8) transmissible spongiform encephalopathies.
Crop Protection—ARS research on crop protection is directed toward epidemiological investigations to
understand pest and disease transmission mechanisms, and to identify and apply new technologies that
increase our understanding of virulence factors and host defense mechanisms.
Currently, ARS’ research priorities include: 1) identification of genes that convey virulence traits in
pathogens and pests; 2) factors that modulate infectivity, gene functions, and mechanisms; 3) genetic
profiles that provide specified levels of disease and insect resistance under field conditions, and 4)
mechanisms that facilitate the spread of pests and infectious diseases.
ARS is developing new knowledge and integrated pest management approaches to control pest and disease
outbreaks as they occur. Its research will improve the knowledge and understanding of the ecology,
physiology, epidemiology, and molecular biology of emerging diseases and pests. This knowledge will be
incorporated into pest risk assessments and management strategies to minimize chemical inputs and increase
production. Strategies and approaches will be available to producers to control emerging crop diseases and
pest outbreaks.
Human Nutrition—Maintenance of health throughout the lifespan along with prevention of obesity and
chronic diseases via food-based recommendations are the major emphasis of ARS’ human nutrition research
program. These health-related goals are based on the knowledge that deficiency diseases are no longer the
most important public health concerns. Excessive consumption has become the primary nutrition problem
in the American population. This is reflected by increased emphasis on prevention of obesity from basic
science through intervention studies to assessments of large populations. ARS’ research programs also
actively study bioactive components of foods that have no known requirement but have health promotion
activities.
Four specific areas of research are currently emphasized: 1) nutrition monitoring and the food supply, e.g., a
national diet survey and the food composition databank; 2) dietary guidance for health promotion and
disease prevention, i.e., specific foods, nutrients, and dietary patterns that maintain health and prevent
diseases; 3) prevention of obesity and related diseases, including research as to why so few of the population
do not follow the Dietary Guidelines for Americans; and 4) life stage nutrition and metabolism, in order to
better define the role of nutrition in pregnancy, growth of children, and for healthier aging.
National Institute of Food and Agriculture
NIFA participates in a nationwide land-grant university system of agriculture related research and program
planning and coordination between State institutions and USDA. It assists in maintaining cooperation
among the State institutions, and between the State institutions and their Federal research partners. NIFA
administers grants and formula payments to State institutions to supplement State and local funding for
agriculture research.
Forest Service
Forest Service R&D has an integrated portfolio that supports achievement of the agency’s strategic goals
with an emphasis in seven strategic program areas:




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             175
Wildland Fire and Fuels—R&D provides managers the knowledge and tools to reduce the negative impacts
of fire and enhance the beneficial effects of fire, as a natural process, and the human process of fire and fuels
management on society and the environment.
Research focuses on understanding and modeling fundamental fire processes; interactions of fire with
ecosystems and the environment; social and economic aspects of fire; evaluation of integrated management
strategies and disturbance interactions at multiple scales; and application of fire research to address
management problems.
Invasive Species—R&D provides the scientific information, methods, and technology to reduce or eliminate
the introduction, spread, and impact of invasive species, and to restore or improve the functionality of
ecosystems affected by invasives species.
Research focuses on plants, animals, fish, insects, diseases, invertebrates, and other species not native to an
ecosystem whose introduction is likely to cause economic or environmental harm.
Water, Air, and Soil—R&D enables the sustainable management of these essential resources by providing
clear air and safe drinking water, by protecting lives and property from wildlife fire and smoke, and through
adapting to climate variability and change.
The program features ecosystem services with a high level of integration between water, air, and soil
research, such as the effects of climate variability and change on water budgets or carbon sequestration from
an ecosystem perspective.
Wildlife and Fish—R&D relies upon interdisciplinary research to inform policy initiatives affecting wildlife
and fish habitat on private and public lands, and the recovery of threatened or endangered species.
Scientists investigate the complex interactions among species, ecosystem dynamics and processes, land use
and management, and any emerging broadscale threats, including global climate change, loss of open space,
invasive species, and disease.
Resource Management and Use—R&D provides the scientific and technology base to sustainably manage
and use forest resources and forest fiber-based products.
Research focuses on the plant sciences, soil sciences, social sciences, silviculture, productivity, forest and
range ecology management, harvesting and operations, forest and biomass products and utilization,
economics, urban forestry, and climate change.
Outdoor Recreation—R&D promotes human and ecological sustainability by researching environmental
management, activities, and experiences that connect people with the natural world.
Research in outdoor recreation is interdisciplinary, focusing on nature-based recreation and the changing
trends in American society; connections between recreation visitors, communities, and the environment;
human benefits and consequences of recreation and nature contact; the effectiveness of recreation
management and decision-making; and sustaining ecosystems affected by recreational use.
Inventory and Monitoring—R&D provides the resource data, analysis, and tools needed to monitor forest
ecosystems at greatest risk from rapid change due to threats from fire, insects, disease, natural processes, or
management actions. From their research, scientists determine the status and trend of the health of the
Nation’s forests and grasslands, and the potential impact from climate change.
Their research integrates the development and use of science, technology, and remotely sensed data to better
understand the incidences of forest fragmentation over time from changes in land use or from insects,
disease, fire, and extreme weather events.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             176
A representative summary of FY 2011 accomplishments include the following:
• 32 new interagency agreements and contracts
• 12 interagency agreements and contracts continued
• 3,083 articles published in journals
• 1,178 articles published in all other publications
• 3 patents granted
• 2 patent licenses excuted
Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on
agriculture, food, natural resources, and rural America. Research results and economic indicators on these
important issues are fully disseminated through published and electronic reports and articles; special staff
analyses, briefings, presentations, and papers; databases; and individual contacts. ERS’ objective information
and analysis helps public and private decision makers attain the goals that promote agricultural
competitiveness, food safety and security, a well-nourished population, environmental quality, and a
sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used
in developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS
estimation program through development of better estimators at lower cost and with less respondent
burden. This means greater efficiency in sampling and data collection coupled with higher quality data upon
which to base the official estimates. Two additional high priority items are significance editing, or cleaning
of the respondent data; and research on quality operations for the new National Operations Center. The
significance editing has potential to enhance the quality of survey data and reduce manual operations in
preparing the survey responses for summary. While the research on quality process increases data quality
through the processes of the National Operations Center. In addition, products for data users are being
improved using technologies such as remote sensing and geographic information systems. Continued service
to users will be increasingly dependent upon methodological and technological efficiencies.




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             177
Required Supplementary Information
DEFERRED MAINTENANCE (UNAUDITED)
Deferred maintenance is maintenance that was scheduled to be performed but was delayed until a future
period. Deferred maintenance represents a cost that the Federal Government has elected not to fund and,
therefore, the costs are not reflected in the financial statements.
Maintenance is defined to include preventive maintenance, normal repairs, replacement of parts and
structural components, and other activities needed to preserve the asset so that it continues to provide
acceptable service and achieve its expected life. Maintenance excludes activities aimed at expanding the
capacity of an asset or otherwise upgrading it to service needs different from, or significantly greater than,
those originally intended.

Forest Service
                                                  Cost to Return to     Cost of Critical   Cost of Non-critical
           FY 2011
                                                 Acceptable Condition    Maintenance         Maintenance


     Asset Class
         Bridges                                 $               185    $           34     $              151
         Buildings                                             1,064                83                    981
         Dam                                                      23                 8                     15
         Minor Constructed Features                              109                 -                    109
         Fence                                                   293               293                      -
         Handling Facility                                        22                22                      -
         Heritage                                                 26                 7                     19
         Road                                                  3,333               333                  3,000
         Trail Bridge                                             10                 3                      7
         Wastewater                                               36                19                     17
         Water                                                   109                61                     48
         Wildlife, Fish, TES                                       7                 5                      2
         Trails                                                  296                 6                    290
         General Forest Area                                       -                 -                      -
     Total Forest Service                        $             5,513    $          874     $            4,639


                                                  Cost to Return to     Cost of Critical   Cost of Non-critical
           FY 2010
                                                 Acceptable Condition    Maintenance         Maintenance
     Asset Class
         Bridges                                 $               172    $           34     $              138
         Buildings                                             1,038               125                    913
         Dam                                                      24                 6                     18
         Minor Constructed Features                              115                 -                    115
         Fence                                                   297               297                      -
         Handling Facility                                        22                22                      -
         Heritage                                                 26                 8                     18
         Road                                                  3,108               311                  2,797
         Trail Bridge                                             11                 4                      7
         Wastewater                                               37                23                     14
         Water                                                   117                66                     51
         Wildlife, Fish, TES                                       7                 5                      2
         Trails                                                  296                 7                    289
         General Forest Area                                       -                 -                      -
     Total Forest Service                        $             5,270    $          908     $            4,362




        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             178
Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets, and
stewardship land. It is also reported separately for critical and noncritical amounts of maintenance needed to
return each class of asset to its acceptable operating condition. Critical maintenance is defined as a serious
threat to public health or safety, a natural resource, or the ability to carry out the mission of the
organization. Noncritical maintenance is defined as a potential risk to the public or employee safety or
health (e.g., compliance with codes, standards, or regulations) and potential adverse consequences to natural
resources or mission accomplishment.
The Forest Service uses condition surveys to estimate deferred maintenance on all major classes of its
PP&E. Over the past decade, the Forest Service has implemented a national effort to collect detailed data
on infrastructure condition and maintenance and improvement needs. No deferred maintenance exists for
fleet vehicles as they are managed through the agency’s working capital fund. Each fleet vehicle is
maintained according to schedule. The cost of maintaining the remaining classes of equipment is expensed.
The agency is committed to sustaining a manageable level of infrastructure—disinvesting in infrastructure
that can no longer be managed to appropriate standards, rightsizing its asset portfolio, and eliminating the
substantial backlog of deferred maintenance.
Deferred maintenance estimates for most assets—except bridges—are based on condition surveys performed
on a 5-year maximum revolving schedule. The bridge class is on a 2-year maximum revolving schedule. To
date, surveys of all administrative buildings, dams, bridges, roads open to passenger cars, and recreation sites
have been accomplished. The agency’s deferred maintenance for National Forest System (NFS) roads is
determined annually from random sample surveys, providing an 80-percent level of confidence.
The overall condition of major asset classes range from poor to good depending on the location, age, and
type of property. The standards for acceptable operating condition for various classes of general PP&E,
stewardship, and heritage assets are as follows.
Conditions of roads and bridges within the National Forest System (NFS) road system are measured by
various standards:
• Federal Highway Administration regulations for the Federal Highway Safety Act;
• Best management practices for the nonpoint source provisions of the Clean Water Act from
    Environmental Protection Agency and States;
• Road management objectives developed through the National Forest Management Act forest planning
    process; and
• Forest Service directives—Forest Service Manual (FSM) 7730, Operation and Maintenance (August
    25, 2005, amendment was superseded with October 1, 2008, revision); Forest Service Handbook (FSH)
    7709.56a, Road Preconstruction, and FSH 7709.56b, Transportation Structures Handbook.
Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11,
Dams Management Handbook. The condition of a dam is acceptable when the dam meets current design
standards and does not have any deficiencies that threaten the safety of the structure or public. For dams to
be rated in acceptable condition, the agency needs to restore the dams to the original functional purpose,
correct unsightly conditions, or prevent more costly repairs.
Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety
Handbook, and the Occupational Safety Health Administration as determined by condition surveys. These
requirements are found in FSM 7310, Buildings and Related Facilities, revised November 19, 2004. The
condition of administrative facilities ranges from poor to good, with approximately 35 percent needing
major repairs or renovations; approximately 14 percent in fair condition; and 51 percent of the facilities in
good condition.



        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             179
The agency is currently developing an integrated strategy to realign our administrative facility infrastructure
to meet current organizational structure and to reduce the maintenance liability for unneeded buildings, free
up land for use by local communities and private enterprise, and provide added funds for infrastructure
maintenance and development. Forest Service anticipates maximum benefits from a combination of
appropriations, facility conveyance receipts, and decommissioning of unneeded facilities.
Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads, trails,
water and wastewater systems, interpretive facilities, and visitor centers. These components are included in
several asset classes of the deferred maintenance exhibit. All developed sites are managed in accordance with
Federal laws and regulations (Code of Federal Regulations (CFR) 36).
Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation Opportunities,
and forest- and regional-level user guides. Quality standards for developed recreation sites were established
as Meaningful Measures for health and cleanliness, settings, safety and security, responsiveness, and the
condition of the facility.
The condition assessment for range structures (fences and stock handling facilities) is based on (1) a
determination by knowledgeable range specialists or other district personnel of whether the structure would
perform the originally intended function, and (2) a determination through the use of a protocol system to
assess conditions based on age. A long-standing range methodology is used to gather this data.
Heritage assets include archaeological sites that require determinations of National Register of Historic
Places status, National Historic Landmarks, and significant historic properties. Some heritage assets may
have historical significance, but their primary function in the agency is as visitation or recreation sites and,
therefore, may not fall under the management responsibility of the heritage program.
Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific
direction is contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH
2309.18, Trails Management Handbook.
Deferred maintenance of structures for wildlife, fish, and threatened and endangered species is determined
by field biologists using their professional judgment. The deferred maintenance is considered critical if
resource damage or species endangerment would likely occur if maintenance were deferred much longer.
Condition of Heritage Assets and Stewardship Lands
Heritage Assets
Heritage professionals are responsible for documenting and maintaining cultural resource condition
assessments to standard. Periodic monitoring and condition assessments are the basis for applying protective
measures and treatments to vulnerable, deteriorating, or threatened cultural resources. The condition of
heritage assets depends on the type of asset and varies from poor to fair.
Stewardship Land
The condition of NFS lands varies by purpose and location. The Forest Service monitors the condition of its
stewardship lands based on information compiled by two national inventory and monitoring programs—
Forest Inventory and Analysis (FIA) and Forest Health Monitoring (FHM).
Although most of the estimated 193 million acres of stewardship lands continue to produce valuable benefits
– clean air and water, habitat for wildlife, and products for human use – significant portions are at risk to
pest outbreaks or catastrophic fires.
There are 25 million acres of NFS forest lands at risk to future mortality from insects and diseases, based on
the 2006 publication of Mapping Risk from Forest Insects and Diseases. Invasive species of insects, diseases,



        Financial Statements, Notes, Supplemental and Other Accompanying Information
                                             180
and plants continue to affect our native ecosystems by causing mortality to, or displacement of, native
vegetation.
The FY 2011 accomplishments on NFS and State and Private Forestry lands include treatment of 254,883
acres for invasives and 28,581 acres for native pests. These numbers should be considered preliminary, with
final amounts of acres treated for invasives and native pests on NFS lands available in February 2012 at
www.fs.fed.us.
Agricultural Research Service

                                             FY 2011        FY 2010
  Asset Class
     Buildings                               $     261      $     251
     Structures                                     21             21
     Heritage                                       95             94
  Total Agricultural Research Service        $     377      $     366



Deferred Maintenance (DM) includes work needed to meet laws, regulations, codes and other legal
direction as long as the original intent or purpose of the fixed asset is not changed. Also includes work
performed to bring an asset up to present environmental standards or correction of safety problems. Critical
DM is DM that is identified for critical systems including HVAC, electrical, roofing, and plumbing tasks.
Non-critical DM is all other systems. DM is reported for buildings, structures and heritage assets.
Executive Order (EO) 13327 requires all Federal agencies to assess the condition of their facilities and plan
for their full life cycle management. The Condition Index (CI) is a general measure of the constructed
asset’s condition at a specific point in time. It is calculated as the ration of repair needs, or DM, to plant
replacement value (PRV). PRV can be calculated systematically and without much effort. The condition of
the constructed asset is a more difficult figure to determine. A repair need is the amount necessary to ensure
a constructed asset is restored to a condition substantially equivalent to the originally intended and designed
capacity, efficiency or capability. Ideally, with enough money and time, repair needs would be determined
for each asset by inspection, evaluation of the repairs required, and consistent estimating of the repairs
throughout ARS. ARS does not have available manpower in-house to complete this type of inspection and
estimating, nor the funding to contract. ARS looked at approaches to model ARS assets and evaluate the
results for management purposes.
Whitestone Research is a company that estimates DM based on the age of the facility, geographic location,
typical major components and size of the structure. Whitestone first inspected a sample of 1207 buildings
from 39 ARS sites (roughly 53 percent of the total inventory) and used parametric models to estimate DM
and PRV. The results were generalized to the entire population of ARS facilities. Assuming a PRV of $4
billion, the CI ratio (1 - $DM/PRV) is 92 percent, an outcome commonly classified as “adequate.”




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            181
STATEMENT OF BUDGETARY RESOURCES (UNAUDITED)

FY 2011                                                                FSA                         CCC                  FAS           RMA            FNS            FSIS            AMS            APHIS
                                                                      Non-Budgetary               Non-Budgetary
                                                                        Financing                   Financing
                                                            Budgetary   Accounts        Budgetary   Accounts        Budgetary     Budgetary     Budgetary       Budgetary       Budgetary      Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 21)   $   1,427     $   3,245     $    2,287     $   1,110    $     584     $     563     $    14,579     $          50   $     115      $      288
Recoveries of prior year unpaid obligations                       516            91            828            38           40             6           1,237                12          36             285
Budget Authority:
  Appropriation                                                 4,530             -         17,733            -           387          7,072         99,116          1,021           6,969           1,413
  Borrowing Authority                                             400         2,465         30,969          743             -              -              -              -               -               -
  Earned -
    Collected                                                     554         1,862         11,323          569           192          3,148            136            155                74          157
    Change in receivables from Federal Sources                     99             -           (193)          (1)           10              -              -             (7)                3           (6)
  Change in unfilled customer orders -
    Advances received                                               -              -            (42)           -             1             -              2              -               -               2
    Without advance from Federal Sources                           11              3              -            -            55             -              -             (9)              -              58
  Previously unavailable                                            -              -              -            -             -             -              -              -              13               -
  Expenditure transfers from trust funds                            -              -            932            -             -             -              -              -               -               -
Nonexpenditure transfers, net, anticipated and actual               -              -         (3,589)           -            37             -          5,410              -          (5,410)           (253)
Temporarily not available pursuant to Public Law                    -              -              -            -             -             -           (125)             -            (261)              -
Permanently not available                                        (857)        (4,056)       (35,147)        (969)          (94)         (375)        (5,705)            (2)             (4)            (17)
 Total Budgetary Resources                                      6,680          3,610         25,101        1,490         1,212        10,414        114,650          1,220           1,535           1,927

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                        3,482         2,557          2,987          834           631          9,849        103,867          1,026           1,346           1,433
  Reimbursable                                                    418             -         20,244            -           126              -             57            177              63             170
Unobligated Balance:
  Apportioned                                                     644           274            526           537           118           562          4,179              7             114             304
  Exempt from Apportionment                                       600             -          1,136             9             -             -              -              -               -               -
Unobligated balance not available                               1,536           779            208           110           337             3          6,547             10              12              20
Total Status of Budgetary Resources                             6,680         3,610         25,101         1,490         1,212        10,414        114,650          1,220           1,535           1,927

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                1,031           522          9,648           80           (89)          230           6,272            150            179             415
Obligations incurred                                             3,900         2,557         23,231          834           757         9,849         103,924          1,203          1,409           1,603
Gross outlays                                                   (3,778)       (2,570)       (22,373)        (823)         (663)       (9,613)       (102,299)        (1,199)        (1,333)         (1,334)
Recoveries of prior year unpaid obligations, actual               (516)          (91)          (828)         (38)          (40)           (6)         (1,237)           (12)           (36)           (285)
Change in uncollected payments from Federal Sources               (110)           (3)           193            1           (65)            -               -             16             (3)            (52)
Obligated balance, net, end of period -
 Unpaid obligations                                               652           438          9,925           210           235          460           6,661            185            222             422
  Uncollected customer payments from Federal Sources             (125)          (22)           (53)         (158)         (336)           -               -            (28)            (5)            (75)
  Obligated balance, net, end of period                           527           416          9,872            52          (101)         460           6,661            157            217             347

Net Outlays:
 Gross outlays                                                  3,778          2,570       22,373            823           663         9,613      102,299            1,199           1,333           1,334
 Offsetting collections                                          (554)        (1,862)     (12,213)          (569)         (192)       (3,148)        (138)            (155)            (74)           (159)
 Distributed offsetting receipts                                 (456)             -            -           (225)            -             -            -              (11)           (156)             (9)
 Net Outlays                                                $   2,768 $          708    $ 10,160 $            29    $      471    $    6,465    $ 102,161       $    1,033      $    1,103     $     1,166




                                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                        182
FY 2011                                                         GIPSA         FS             NRCS           ARS           NIFA           ERS             NASS                RD                     DO                 TOTAL
                                                                                                                                                                             Non-Budgetary                              Non-Budgetary
                                                                                                                                                                               Financing                                  Financing
                                                            Budgetary     Budgetary      Budgetary      Budgetary     Budgetary      Budgetary       Budgetary     Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 21)   $       17    $   2,361      $    1,689     $     322     $      275     $          5    $      29     $   3,630     $    3,942     $     199     $    28,420     $    8,297
Recoveries of prior year unpaid obligations                          7           94             390            20            112                2            6           391            835            54           4,036            964
Budget Authority:
  Appropriation                                                     39        5,823             914          1,166         1,242               82          157         3,799              2           544         152,007              2
  Borrowing Authority                                                -            -               -              -             -                -            -             -          9,420             -          31,369         12,628
  Earned -
    Collected                                                       51             496          160           102             42                -            44        3,818          8,884           952          21,404         11,315
    Change in receivables from Federal Sources                      (1)            137           18             8             (3)               -           (19)           1              -           (38)              9             (1)
  Change in unfilled customer orders -
    Advances received                                                -           50              (1)             1             1                -           (3)             -             -           (11)              -               -
    Without advance from Federal Sources                             -           38              (3)             5            60                1           (5)             -          (138)           70             281            (135)
  Previously unavailable                                             -            -               -              -             -                -            -              -             -             -              13               -
  Expenditure transfers from trust funds                             -            -               -              -             -                -            -              -             -             -             932               -
Nonexpenditure transfers, net, anticipated and actual                -           (2)          3,128              -           126                -            -            158             -            21            (374)              -
Temporarily not available pursuant to Public Law                     -            -               -              -           (11)               -            -              -             -             -            (397)              -
Permanently not available                                            -         (411)            (31)          (238)           (5)              (1)           -         (2,571)       (5,762)          (53)        (45,511)        (10,787)
 Total Budgetary Resources                                         113        8,586           6,264          1,386         1,839               89          209          9,226        17,183         1,738         192,189          22,283

Status of Budgetary Resources:
Obligations Incurred:
   Direct                                                           47        6,065           4,190          1,201         1,445               83          170         4,652         13,288           576         143,050         16,679
  Reimbursable                                                      46          614             201            128           117                2           34           542              -           962          23,901              -
Unobligated Balance:
  Apportioned                                                       18        1,194             276             41           276                1            -         1,506          3,785           169           9,935          4,596
  Exempt from Apportionment                                          -            -               -              -             -                -            -             -              -             -           1,736              9
Unobligated balance not available                                    2          713           1,597             16             1                3            5         2,526            110            31          13,567            999
Total Status of Budgetary Resources                                113        8,586           6,264          1,386         1,839               89          209         9,226         17,183         1,738         192,189         22,283

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                    4         2,762           4,098           432          1,903           41                3         8,635         28,509            96          35,810         29,111
Obligations incurred                                                93         6,679           4,391         1,329          1,562           85              204         5,194         13,288         1,538         166,951         16,679
Gross outlays                                                      (87)       (6,885)         (3,989)       (1,388)        (1,279)         (88)            (187)       (5,787)       (13,984)       (1,536)       (163,818)       (17,377)
Recoveries of prior year unpaid obligations, actual                 (7)          (94)           (390)          (20)          (112)          (2)              (6)         (391)          (835)          (54)         (4,036)          (964)
Change in uncollected payments from Federal Sources                  1          (175)            (15)          (13)           (57)          (1)              24            (1)           138           (32)           (290)           136
Obligated balance, net, end of period -
  Unpaid obligations                                                10        2,771           4,254            494         2,136               40           44         7,664         27,884           462          36,637         28,532
  Uncollected customer payments from Federal Sources                (5)        (485)           (159)          (154)         (118)              (6)          (7)          (15)          (767)         (448)         (2,019)          (947)
  Obligated balance, net, end of period                              5        2,286           4,095            340         2,018               34           37         7,649         27,117            14          34,618         27,585

Net Outlays:
 Gross outlays                                                      87        6,885           3,989          1,388         1,279               88          187          5,787        13,984         1,536       163,818            17,377
 Offsetting collections                                            (51)        (545)           (159)          (103)          (43)               -          (41)        (3,818)       (8,884)         (943)      (22,336)          (11,315)
 Distributed offsetting receipts                                     -         (467)             (3)           (31)           (5)               -            -           (672)            -            (4)       (1,814)             (225)
 Net Outlays                                                $       36    $   5,873      $    3,827     $    1,254    $    1,231     $         88    $     146     $    1,297 $       5,100     $     589     $ 139,668 $           5,837




                                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                        183
FY 2010                                                                FSA                         CCC                   FAS            RMA           FNS            FSIS           AMS            APHIS
                                                                      Non-Budgetary               Non-Budgetary
                                                                        Financing                   Financing
                                                            Budgetary   Accounts        Budgetary   Accounts         Budgetary      Budgetary     Budgetary      Budgetary      Budgetary      Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 21)   $   2,692     $   1,726     $    2,020     $     971     $     368      $     557     $    15,471    $       32     $     497      $      299
Recoveries of prior year unpaid obligations                        71            97          1,332            34            24              3             990           132            18             128
Budget Authority:
  Appropriation                                                 4,274             -         18,014             -           391           6,979         87,130         1,028          8,316           1,443
  Borrowing Authority                                               -         3,034         39,063         1,199             -               -              -             -              -               -
  Earned -
    Collected                                                     660         2,389         11,294           500               48        2,449           129            141               57          143
    Change in receivables from Federal Sources                     (1)            -             14             1               21            -             -             19                -           (4)
  Change in unfilled customer orders -
    Advances received                                               -              -            382            -              1              -              -             -              -               -
    Without advance from Federal Sources                            4            (16)             -          (19)           135              -              -             9              -               -
  Expenditure transfers from trust funds                            -              -            937            -              -              -              -             -              -               -
Nonexpenditure transfers, net, anticipated and actual               -              -         (3,618)           -            143              1          7,039             -         (7,068)           (200)
Temporarily not available pursuant to Public Law                    -              -              -            -              -              -              -             -           (122)              -
Permanently not available                                        (469)        (1,309)       (41,586)        (348)           (82)        (2,353)          (313)           (2)          (134)             (2)
 Total Budgetary Resources                                      7,231          5,921         27,852        2,338          1,049          7,636        110,446         1,359          1,564           1,807

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                        5,383         2,676          3,127         1,228           345           7,073         95,816         1,168          1,396           1,379
  Reimbursable                                                    421             -         22,438             -           120               -             51           141             53             140
Unobligated Balance:
  Apportioned                                                     460           822            305           861            176            559          3,774            46            100             268
  Exempt from Apportionment                                       204             -          1,188             5              -              -              -             -              -               -
Unobligated balance not available                                 763         2,423            794           244            408              4         10,805             4             15              20
Total Status of Budgetary Resources                             7,231         5,921         27,852         2,338          1,049          7,636        110,446         1,359          1,564           1,807

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                  594           479          9,308           (18)           71            392          5,347            169           168             360
Obligations incurred                                             5,804         2,676         25,565         1,228           465          7,073         95,867          1,309         1,449           1,519
Gross outlays                                                   (5,294)       (2,552)       (23,881)       (1,115)         (446)        (7,233)       (93,951)        (1,169)       (1,420)         (1,341)
Recoveries of prior year unpaid obligations, actual                (71)          (97)        (1,332)          (34)          (24)            (3)          (990)          (132)          (18)           (128)
Change in uncollected payments from Federal Sources                 (3)           15            (14)           19          (156)             -              -            (28)            -               4
Obligated balance, net, end of period -
  Unpaid obligations                                            1,046           541          9,895           238            182           230           6,272           194           181             438
  Uncollected customer payments from Federal Sources              (15)          (19)          (247)         (158)          (271)            -               -           (44)           (2)            (23)
 Obligated balance, net, end of period                          1,031           522          9,648            80            (89)          230           6,272           150           179             415

Net Outlays:
 Gross outlays                                                  5,294          2,552       23,881          1,115           446           7,233         93,951         1,169          1,420           1,341
 Offsetting collections                                          (660)        (2,389)     (12,613)          (501)          (49)         (2,449)          (129)         (141)           (57)           (143)
 Distributed offsetting receipts                                 (213)             -            -           (576)            -               -              -           (10)          (154)            (19)
 Net Outlays                                                $   4,421 $          163    $ 11,268 $            38     $     397      $    4,784    $    93,822    $    1,018     $    1,209     $     1,179




                                                     Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                          184
FY 2010                                                         GIPSA         FS              NRCS           ARS           NIFA           ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                               Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                 Financing                                  Financing
                                                            Budgetary     Budgetary       Budgetary      Budgetary     Budgetary      Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 21)   $       13    $   2,747       $    1,768     $     423     $      204     $          6    $          7   $    5,910    $    1,992     $     106     $    33,120     $    4,689
Recoveries of prior year unpaid obligations                          5           40              384            20            318                -               1          233           975            22           3,721          1,106
Budget Authority:
  Appropriation                                                     42        6,094            1,010          1,264         1,386               83          162           6,453             -           632         144,701              -
  Borrowing Authority                                                -            -                -              -             -                -            -               -        17,619             -          39,063         21,852
  Earned -
    Collected                                                       49             495           113             75            15                1           18           4,886         8,099           712          21,285         10,988
    Change in receivables from Federal Sources                       1             (50)            1            (22)            7                -           19               4             -           180             189              1
  Change in unfilled customer orders -
    Advances received                                                -            8               (3)             2            23                -            3               -             -            10             426              -
    Without advance from Federal Sources                             -            8               46             74           (32)               4            8              (2)            1            55             309            (34)
  Expenditure transfers from trust funds                             -            -                -              -             -                -            -               -             -             -             937              -
Nonexpenditure transfers, net, anticipated and actual                -           (1)           2,940              2           123                -            -             356             -            30            (253)             -
Temporarily not available pursuant to Public Law                     -            -                -              -           (12)               -            -               -             -             -            (134)             -
Permanently not available                                           (1)           -                -             (2)           (5)              (1)           -          (5,381)       (4,589)           (4)        (50,335)        (6,246)
 Total Budgetary Resources                                         109        9,341            6,259          1,836         2,027               93          218          12,459        24,097         1,743         193,029         32,356

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                            46        6,571            4,414          1,394         1,754               83          161           8,209        20,155           605         138,924         24,059
  Reimbursable                                                      46          409              156            120            (2)               5           28             620             -           939          25,685              -
Unobligated Balance:
  Apportioned                                                       16        1,362              403            289           232                1           20           2,225         2,550           113          10,349          4,233
  Exempt from Apportionment                                          -            -                -              -             -                -            -               -             -             -           1,392              5
Unobligated balance not available                                    1          999            1,286             33            43                4            9           1,405         1,392            86          16,679          4,059
Total Status of Budgetary Resources                                109        9,341            6,259          1,836         2,027               93          218          12,459        24,097         1,743         193,029         32,356

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                    6         2,290            3,225           342          1,630           26               22          5,516         22,837           138          29,604         23,298
Obligations incurred                                                92         6,980            4,570         1,514          1,752           88              189          8,829         20,155         1,544         164,609         24,059
Gross outlays                                                      (87)       (6,509)          (3,265)       (1,353)        (1,185)         (69)            (180)        (5,474)       (13,507)       (1,328)       (154,185)       (17,174)
Recoveries of prior year unpaid obligations, actual                 (5)          (40)            (384)          (20)          (318)           -               (1)          (233)          (975)          (22)         (3,721)        (1,106)
Change in uncollected payments from Federal Sources                 (1)           42              (47)          (51)            25           (4)             (27)            (2)            (1)         (236)           (498)            33
Obligated balance, net, end of period -
  Unpaid obligations                                                10        3,072            4,242            574         1,965               46            33          8,649        29,414           511          37,540         30,193
  Uncollected customer payments from Federal Sources                (6)        (310)            (144)          (142)          (62)              (5)          (30)           (14)         (905)         (415)         (1,730)        (1,082)
  Obligated balance, net, end of period                              4        2,762            4,098            432         1,903               41             3          8,635        28,509            96          35,810         29,111

Net Outlays:
 Gross outlays                                                      87        6,509            3,265          1,353         1,185               69          180           5,474        13,507         1,328       154,185            17,174
 Offsetting collections                                            (49)        (503)            (110)           (77)          (38)              (1)         (21)         (4,886)       (8,099)         (722)      (22,648)          (10,989)
 Distributed offsetting receipts                                     -         (429)               1            (13)           (4)               -            -            (661)            -           (10)       (1,512)             (576)
 Net Outlays                                                $       38    $   5,577       $    3,156     $    1,263    $    1,143     $         68    $     159      $      (73) $      5,408     $     596     $ 130,025 $           5,609




                                                    Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                         185
RISK ASSUMED INFORMATION (UNAUDITED)
Risk assumed is generally measured by the present value of unpaid expected losses net of associated
premiums based on the risk inherent in the insurance or guarantee coverage in force. Risk assumed
information is in addition to the liability for unpaid claims from insured events that have already occurred.
The assessment of losses expected based on the risk assumed are based on actuarial or financial methods
applicable to the economic, legal and policy environment in force at the time the assessments are made. The
FCIC has estimated the loss amounts based on the risk assumed for its programs to be $8,757 million and
$7,546 million as of September 30, 2011 and 2010, respectively.




       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                            186
                                    Other Accompanying Information


4.   Other Accompanying Information
Appendix A — Response to Management Challenges
Improved interagency communication and internal control systems, improved food safety, and reduced
Forest Service costs have been identified as some of the most serious and significant challenges faced by the
Department. USDA’s Office of Inspector General (OIG) issued a report that identified 9 management
challenges for fiscal year (FY) 2011 – 1 less than the FY 2010 report. As a result of management’s continued
efforts to improve agency services, 2 challenges, Departmental Efforts and Initiatives in Homeland Security
Need to be Maintained and Implementation of Renewable Energy Programs at USDA, from OIG’s 2010 report
were removed this year. One new challenge, Efforts to Identify, Report, and Reduce Improper Payments Need to
be Strengthened, has been added. For each challenge, the OIG has referenced audit report findings and
recommendations. OIG audit report numbers and titles are listed.
The following table includes FY 2011 accomplishments, FY 2012 planned actions, and ongoing activities to
address the Department’s management challenges.
USDA’s Management Challenges

 Challenge 1: Interagency Communications, Coordination, and Program Integration Need Improvement.
 • FSA, Hurricane Indemnity Program – Integrity of Data Provided by RMA - OIG Audit Report No. 50601-15-AT, “Emergency Disaster
      Assistance for 2008 Floods: Emergency Conservation Program”;
 • FSIS, “National Residue Program for Cattle: – OIG Audit Report No. 24601-8-KC”;
 • NRCS, “Conservation Security Program” – OIG Audit Report No. 10601-4-KC;
 • RMA. “Implementation of the Agricultural Risk Protection Act of 2000” - OIG Audit Report No. 50099-12-KC; and
 • RMA, “Pasture, Rangeland, and Forage Pilot Program” - OIG Audit Report No. 50601-18-TE.
 • Farm Programs (RMA, NRCS, FSA); and Food Safety (FSIS)
 Fiscal Year 2011 Accomplishments
 • FSA and RMA have continued to coordinate efforts as follows:
     − Implemented the Comprehensive Information Management System (CIMS) – a single, shared, centralized repository of FSA and RMA
       data utilized by authorized agencies and private industry partners to reconcile differences between FSA and RMA producer data;
     − Implemented a Memorandum of Understanding (MOU) establishing the terms and conditions for RMA to provide data to FSA for
       administration of the Supplemental Revenue Assistance Payments (SURE) program;
     − Proposed consolidated acreage reporting deadlines to FSA State offices and RMA field offices for review;
     − Made changes to procedures and contract language related to communicating with other agencies identifying areas of program overlap
       and assessing the risks thereof;
     − Continued to reconcile crop insurance data with program data for Crop Disaster and/or SURE programs. All relevant data are now
       available in CIMS for reconciliation by RMA, FSA, and/or approved insurance providers as required for program operations;
     − Implemented several procedural changes that allow acceptance of RMA data as evidence for approvals if substantiated by the discovery
       reports in CIMS;
     − Completed CIMS enhancements: added regional compliance office spot check listing report, removed duplicate producer information
       reports, and enhanced the CIMS geospatial reports (providing the ability to generate more reports on FSA/RMA differences in Prevented
       Planting);
     − As of August 2011, FSA has collected approximately 90 percent of the Hurricane Indemnity Program overpayments identified by the OIG
       audit entitled, “Hurricane Indemnity Program - Integrity of Data Provided by the Risk Management Agency”; and
     − Developed an Acreage/Crop Reporting Streamlining Initiative (ACRSI) with participation by FSA, RMA, NASS, and NRCS. This will
       simplify reporting processes, acreage reporting dates, and data definitions, and allow producers to report common information to USDA
       one time, eliminating the need for data reconciliation across USDA.



                                              Other Accompanying Information
                                                           187
NRCS:
• Collaborated with FSA and RMA on a process to check potential Pasture, Rangeland, Forage (PRF) Pilot Program policyholders’
   participation in NRCS easement stewardship land programs. NRCS provided easement geospatial shape files to RMA for assessment.
   Producers who do not have a reserved grazing right as part of a stewardship lands program may be ineligible to participate in RMA’s PRF
   program.
FSIS:
• Revised MOU to establish policies and procedures for handling hazardous substances with no tolerances, and a formal plan to facilitate the
   exchange of residue testing data between FSIS, the Environmental Protection Agency (EPA), and the Food and Drug Administration (FDA);
• Ranked high-risk chemicals;
• Worked with FDA and EPA to develop a Standard Operating Procedure (SOP) for managing the national residue program including timelines
   for structured, periodic review of the national residue program design. FSIS also developed a SOP outlining the process for designing and
   reviewing the annual program;
• Proposed a process to FDA for approving performance-based multi-residue methods, and a system to compare these new methods with
   FDA’s previously approved methods;
• Issued guidance on carcasses containing hazardous substances for which there are no formal tolerances;
• Reviewed National Animal Health Monitoring System’s (NAHMS) reports detailing the most current drug usage data and compared them to
   the most recent list of compounds tested under the national residue program. The final report from the 2010 Surveillance Advisory Team
   contains the rationale behind decisions to include or exclude a number of compounds indicated by NAHMS reports but not previously tested
   under the national residue program. The report identifies NAHMS as a new source of data for the prioritization of veterinary drugs in the
   national residue program; and
• Established a process for reviewing the expanded reports to enforce food safety standards, and reduce the likelihood of same-source
   residue violations.
Planned Actions for Fiscal Year 2012
FSA:
• Continue to work with its partner agencies and the Office of the Under Secretary to enhance interagency communication, coordination, and
   program integration, and implement inter-agency efforts.
RMA:
• Make modifications to maintain and enhance CIMS;
• Establish common business definitions;
• Implement common acreage reporting dates;
• Design business processes to share and use common information;
• Implement pilot Web services (ACRSI) to allow producers to directly report common acreage information; and
• Implement discovery report process to identify differences in common producer, commodity, and location information.
NRCS:
• Continue collaboration with FSA and RMA to share easement stewardship land programs geographic information system data that can be
   used to readily assess the location of easements for policyholders interested in the PRF program.
FSIS:
• Issue a compliance guide creating a set of incentives and disincentives to encourage establishments to only buy from a source that can and
   will identify the producer;
• Review policy determination that no product that has been tested for an adulterant will receive the mark of inspection until the test results
   return, and the product has tested negative for the adulterant;
• Continue efforts to modernize the national residue program testing process, including implementing an electronic sampling management and
   laboratory capacity/reservation functions within the Public Health Information System. FSIS will also train and certify laboratory analysts on
   up-to-date testing methods; and
• Examine a proposal for an Information Technology (IT) investment that will electronically track detached animal parts using scanning
   technology.
Challenge 2: Strong, Integrated Internal Control Systems Still Needed.
• FSA, “Recommendations for Improving Basic CHST Program Administration, Biomass Crop Assistance Program Controls over Collection,
     Harvest, Storage, and Transportation Matching Payments Program” - OIG Audit Report No. 03601-28-KC (1);
• FSA, “Recommendations for Preventing or Detecting Schemes or Devices, Biomass Crop Assistance Program Controls over Collection,
     Harvest, Storage, and Transportation Matching Payments Program” - OIG Audit report No. 03601-28-KC (2);
• NRCS, “Wetlands Reserve Program Wetlands Restoration and Compliance”;
• NRCS, “Rehabilitation of Flood Control Dams” ;
• NRCS, “Conservation Security Program” – OIG Audit Report No. 10601-4-KC;
• RMA, “2005 Emergency Hurricane Relief Efforts” - OIG Audit Report No. 05099-28-AT; and
• RMA, “Compliance Activities” - OIG Audit Report No. 05601-11-AT.




                                               Other Accompanying Information
                                                            188
Fiscal Year 2011 Accomplishments
RMA:
• Incorporated its oversight and compliance activities into the Risk Management Agency Strategic Plan for Fiscal Years 2010 – 2015, Strategic
  Goal Number 4, “Safeguard the Integrity of the Federal Crop Insurance Program.”
FSA:
• Implemented all current OIG recommendations regarding the Biomass Crop Assistance Program (BCAP), which included:
   a) Release of the 1-BCAP Handbook with a second amendment in May 2011;
   b) Development of the forms BCAP-10 and BCAP-11, to monitor the tracts and fields where harvest and collection occurs, and
   conservation, forest stewardship, or equivalent plans are required via technical service agreements with NRCS, and developing an
   agreement with FS and State foresters for technical assistance for basic forest stewardship plans and woody products; and
   c) Design of a Web-based system to automate forms, and replace System 36 or Conservation, Reporting, and Evaluation System.
NRCS:
• Worked with States to have Memoranda of Understanding with every State dam safety agency, as needed;
• Completed funding of 653 high-hazard dam assessments and completed 426 assessment reports;
• Conducted annual oversight and evaluations reviews in the stewardship program; and
• Improved internal control and the quality assurance process by implementing an additional 10 percent annual review of all Conservation
  Security Program and Conservation Stewardship Program contracts.
Planned Actions for Fiscal Year 2012
• RMA will issue an agency strategic plan; and
• NRCS will complete high hazard dam assessment reports.
Challenge 3: Information Technology (IT) Security Needs Continuing Improvement. (Office of the Chief Information Officer (OCIO) and
agency-level IT managers)
• “FY 2010 Federal Information Security Management Act” - OIG Audit Report No. 50501-2-IT;
• “FY 2009 Federal Information Security Management Act” - OIG Audit Report No. 50501-15-FM; and
• “FY 2008 Federal Information Security Management Act” - OIG Audit Report No. 50501-13-FM.

Fiscal Year 2011 Accomplishments
• Continued implementation of Homeland Security Presidential Directive 12 (HSPD-12) Identity, Credential, and Access Management (ICAM)
    initiatives to provide improved base infrastructure for logical and physical access controls to USDA IT systems and facilities;
• Completed majority of the ICAM functional requirements;
• Continued implementation of its Security Operations Center initiatives to increase real-time operational security monitoring of USDA
  networks;
• Deployed 11 remote network monitoring sites throughout the United States;
• Implemented Endpoint Security (Whole Disk Encryption) to more than 99 percent of its end-user systems and servers;
• Monitored agency-wide Federal Desktop Configuration compliance and software patch installation;
• Institutionalized the risk management framework, which provides increased real-time security controls assessment and continuous
  monitoring; and
• Ensured key IT security controls are tested annually for all systems.
Planned Actions for Fiscal Year 2012
• Expand implementation of HSPD-12 software to include federated identities and privilege account management;
• Continue development of IT Security Architecture which incorporates automated tools for networking monitoring and situational awareness;
• Implement monitoring/continuous assessment initiatives in accordance with National Institute of Standards and Technology (NIST) security
    requirements;
• Continue outreach and education programs to ensure USDA’s chief information officers are fully informed of and actively participate in OCIO
    IT security initiatives;
• Continue to improve the security governance process by further implementation of the risk management framework as outlined in NIST
    security requirements;
• Continue the improvement of the security of USDA IT systems by leveraging real-time monitoring and safeguarding tools;
• Continue monitoring investigating, reporting of compliance, and remediation of non-compliance to Department policies, guidance, processes,
    and procedures; and
• Improve agency oversight and compliance with USDA and the NIST security requirements, and reduce the security risks associated with
    USDA IT systems.




                                                Other Accompanying Information
                                                             189
Challenge 4: Material Weaknesses in Civil Rights Should be Mitigated. (Office of the Assistant Secretary for Civil Rights)
• “Review of the U.S. Department of Agriculture’s Accountability for Actions Taken on Civil Rights Complaints” - OIG Audit Report No. 60601-
     4-HY;
• “Management of Employment Complaints” - OIG Audit Report No. 60801-3-HQ;
• “Status of the Implementation of Recommendations made in Prior Evaluations of Program Complaints” - OIG Audit Report No. 60801-4-HQ;
     and
• Secretary of Agriculture April 2009 Memorandum.

Fiscal Year 2011 Accomplishments
Develop a detailed, formal plan to process employment complaints in collaboration with agencies and establish the necessary monitoring
framework to intervene when complaint processing exceeds timeframes.
• In collaboration with the Office of the Chief Information Officer (OCIO) and agency civil rights staff, Office of the Assistant Secretary for Civil
   Rights (OASCR) utilized new methodologies, such as Lean Six Sigma (LSS) to improve the program and employment discrimination
   complaint process as part of the USDA Process Improvement Transformation Initiative;
• Established Department-wide Alternative Dispute Resolution (ADR) training for headquarters and field staff. Using this process, the office is
   ensuring that Equal Employment Opportunity (EEO) and program complaints are resolved equitably and at the earliest possible stage of the
   conflict. Early results indicate ADR efforts have increased in the area of EEO disputes. OASCR has presented these activities electronically
   to live audiences, which focus on communication, conflict management, and generational differences in the workplace;
• Performed a document-by-document sweep of employment complaint case files to ensure all documentation are accounted for and reflects
   the status of each case;
• Reconciled agency and OASCR databases;
• Reconciled cases with those listed by the Equal Employment Opportunity Commission as pending appeal and hearings;
• Developed management controls to ensure that the review of Report of Investigation (ROI) and Final Agency Decision (FAD) are performed
   thoroughly and accurately. The processing time for the OASCR’s employment complaint processing has decreased from 1,034 days for
   FY 2010 to 796 days for FY 2011;
• Developed ways to enhance working relationships with agencies to improve communication. OASCR has conducted the following
   improvements in its employment processing:
   − Standardized forms and data used in the intake, investigation, and adjudication process to ensure timely and efficient processing;
   − Heightened its tracking of cases to ensure timely processing in accordance with statutory deadlines;
   − Utilized Schedule A employees, employee details, and contractors to ensure adequate coverage and timely processing;
   − Increased its emphasis on the use of computerized systems including iComplaints and Westlaw to speed up the processing time;
   − Increased staff training at the intake and adjudication stages;
   − Increased cross-training to ensure adequate coverage in short staff situations; and
   − Utilized the LSS process to identify and reduce redundancies;
• Developed a detailed formal plan to process employment complaints timely and effectively; and
• Instituted controls to monitor the processing of complaints, and intervene when the timelines were not being met.
Strengthen its controls over entering and validating Civil Rights Enterprise System’s data.
• OASCR’s Office of Data and Records Management (ODRM), which serves as the independent second party verification of data accuracy:
   − Implemented a task group to validate and correct data populated in the system; and
   − Developed and placed in production a standardized suite of management reports to measure progress in reducing backlog of complaints,
        identify basis for complaints of discrimination, and monitor complaints’ processing times.
Planned Actions for Fiscal Year 2012
• Develop a detailed, formal plan to process employment complaints in collaboration with agencies and establish the necessary monitoring
  framework to intervene when complaint processing exceeds timeframes.
  − Strengthen Service – At the direction of the Secretary, the Assistant Secretary for Civil Rights (ASCR) and key agency officials are
     developing a comprehensive strategic plan to look at reducing redundancies and increasing efficiencies throughout the entire civil rights
     process, including EEO;
  − Contractor Report – USDA awarded a contract to conduct an independent assessment of the USDA Delivery of Technical and Financial
     Assistance to all Americans (“Civil Rights Assessment”). The contractor made several recommendations for OASCR to consider. OASCR
     is currently reviewing these recommendations for implementation in FY 2012;
  − LSS – OASCR will conduct full implementation of LSS system for employment in FY 2012; and
  − Early Dispute Resolution – The OASCR will continue the use of ADR in EEO and program conflicts.
• Strengthen controls over entering and validating Civil Rights Enterprise System’s data.
  − OASCR’s ODRM is currently researching a long-term management plan to procure an independent contractor to review data and assure,
     validate, and/or correct data to be entered into the civil rights system.




                                                Other Accompanying Information
                                                             190
Challenge 5: Integrated Strategy Is Necessary to Increase Agricultural Commerce and Trade. (FAS, REE and APHIS)
Fiscal Year 2011 Accomplishments
APHIS: “Controls over Issuance of Genetically Engineered Organism Release Permits” - OIG Audit Report No. 50601-08-TE
• Revised regulations to require all permit and notification holders to submit planting notices, 4-week/28-day reports, and harvest/termination
  reports for all field test sites;
• Required permit and notification holders to submit global positioning system coordinates of field test sites on all reports submitted after
  planting; and
• Completed work on the management information system to update its capability of recording necessary information related to the field test
  sites, including the specific location of each field site and the dates of any significant events.
FAS:
• “Implementation of the Trade Title of the 2002 Farm Bill and President’s Management Agenda” - OIG Audit Report No. 50601-12-AT
  − Completed a coordinated and consolidated global market strategy.
ARS:
• “Controls Over Genetically Engineered Animal and Insect Research” - OIG Audit Report No. 50601-16-TE
• Updated ARS Manual 230, Section 22 to include:
  − New language and guidance that requires workplace safety and health hazards to be addressed timely;
  − Development and implementation of a hazard abatement plan if a condition or situation cannot be addressed within 30 days; and
  − An “accountability statement” was placed within the Deputy Area Director for Business Management’s performance standards that holds
      the incumbent responsible for tracking and following recommendations to abate any hazards identified during the inspection process.
Planned Actions for Fiscal Year 2012.
APHIS:
• “Controls over Genetically Engineered (GE) Animal and Insect Research” - OIG Audit Report No. 50601-16-TE
  − Develop an action plan with timetables and performance measures to ensure that the regulatory framework meets the agency’s strategic
      goals related to GE products;
  − Develop a regulatory framework that will clearly define regulatory requirements and parallels the statutory requirement;
  − Develop written management controls for a work plan approval, and ensure that the review process is transparent and accountability is
      held for funded projects;
  − Develop comprehensive security plans for its laboratories that follow the guidance set forth by the Department; and
  − Update its laboratory risk assessments and perform reviews of its laboratories, at least every 5 years.
• “Controls over Issuance of Genetically Engineered Organism Release Permits” - OIG Audit Report No. 50601-08-TE
  − Revise and consolidate policies, procedures, and regulatory requirements for GE field releases;
  − Revise and clarify policies and regulations regarding the use of metal shipping containers; and
  − Update regulations to incorporate the provisions of the Plant Protection Act of 2000.
FAS :
• “Implementation of the Trade Title of the 2002 Farm Bill and President’s Management Agenda” - OIG Audit Report No. 50601-12-AT
  − Continue to assist APHIS as necessary to address issues related to Genetically Modified Organisms.
Challenge 6: Management and Community Action Needed to Improve Forest Health and Reduce FireFighting Costs.
Fiscal Year 2011 Accomplishments
• FS’ “Invasive Species Program” - OIG Audit Report No. 08601-7-AT
  − Assured National Forest Systems (NFS) invasive species program accomplishments were included within the agency’s annual
     performance reporting process; and
  − Conducted an overall review of the agency’s information systems for the invasive species program, and took steps to assure the systems
     are adequate to report data.
• FS’ “Contracted Labor Crews” - OIG Audit Report No. 08001-2-AT
  − Hired a contractor to conduct an in-depth analysis to determine how the agency should proceed with determining future firefighting crew
     needs and costs;
  − The National Wildlife Coordinating Group (NWCG) established a new evaluation form to reflect clear and objective standards, for
     evaluating the effectiveness of firefighting crews;
  − Implemented a plan for tracking the results of these performance evaluations;
  − Eliminated duplicate inspections of dispatched contract crews at an incident; and
  − Incorporated the use an electronic employment eligibility verification system as required by Executive Order.
  − Issued a letter directing the regional foresters to use the incident commander effectiveness rating form for incident commander and line
     officer performance evaluations.
• “Large Fire Suppression Costs” – OIG Audit Report No. 08601-44-SF




                                              Other Accompanying Information
                                                           191
• “Replacement Plan for Firefighting Aerial Resources” – OIG Audit Report No. 08601-53-SF
  − To strengthen the agencies aerial firefighting acquisition process, FS revamped the Working Capital Fund (WCF) program and developed
      the “Aerial Firefighting Aircraft Replacement Action Plan” to address the replacement of aerial firefighting aircraft;
  − Set specific goals and timeframes for completing the aviation planning and procurement processes;
  − Developed a “WCF Fleet Aircraft Replacement Plan,” approved on April 18, 2011, that shows estimated timeframes and costs for
      replacing aircraft; and
  − Established a new process to develop WCF aircraft rates and periodically review the rates to assure the agency meet its long-term needs
      for replacing aircraft.
• “Firefighting Succession Planning” – OIG Audit Report No. 08601-54- SF
  − FS and Natural Resources and Environment (NRE) continued to work with the Office of Personnel Management (OPM) to assure fire
      management positions are classified appropriately, and direction on the use of the GS-401 job series was provided throughout the
      agency.
Planned Actions for Fiscal Year 2012
• FS’ “Invasive Species Program” - OIG Audit Report No. 08601-7-AT
  − Develop new NFS invasive species management policy (FSM 2900) to include program-wide policy of providing early detection and rapid
      response (EDRR) within FS, and document all invasive species program’s internal policies and procedures;
  − Develop an adequate, cohesive internal control environment for managing the invasive species program, and report accurately how much
      the agency is spending to combat invasive species;
  − Implement a monitoring plan to assess the invasive species program and related internal control;
  − Revise the National Strategy and Implementation Plan for Invasive Species management, and establish a control for revising the strategy
      once every 5 years;
  − Develop an inventory plan including responsibilities, time frames, and benchmarks for inventorying all invasive species, the risk the
      species poses, and the efficacy of available treatments;
  − Develop a standard for how many acres are affected by each of the agency’s treatments and require the regions to follow these
      standards when reporting performance results; and
  − Develop and implement a formal review system to verify the accuracy of invasive species accomplishment data reported.
• “Firefighting Succession Planning” – OIG Audit Report No. 08601-54- SF
  − Develop a “Firefighter Workforce and Succession Planning Action Plan” to list each recommendation from the audit and the key steps
      and milestones for completing all the tasks under the audit, along with the program leads and estimated completion dates; and
  − Develop a “Fire and Aviation Management Workforce and Development Strategic Framework” document that includes a workforce goal
      for recruiting, developing, and retaining a highly skilled fire and aviation workforce and support force of FS employees in other disciplines.
Challenge 7: Food Safety Inspection Systems Improved Controls. (FSIS)
Fiscal Year 2011 Accomplishments
“Issues impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments” – OIG Audit Report
No. 24601-07-Hy
• Implemented a plan for capturing the results of Food Safety Assessments (FSAs) in an appropriate configuration to facilitate effective
    analysis. In April 2011, FSIS implemented the domestic module of the Public Health Information System (PHIS). The PHIS domestic module
    was designed to include a unique tracking number for each FSA;
• Issued a technical report that outlines the basis for decisions made regarding the components included in the PHIS domestic inspection
    module;
• Implemented a mechanism for inspection program personnel to identify specific production records upon which verification activities are
    based, and provide the establishment management an opportunity to review the collected information;
• Implemented a process to periodically collect information on how establishments control L. monocytogenes in ready-to-eat product and enter
    it into PHIS; and
• Issued detailed prioritization criteria for scheduling FSAs, and established a 4-year cycle for conducting FSAs in all establishments
    nationwide.
“Evaluation of FSIS Management Controls Over Pre-Slaughter Activities” – OIG Audit Report No. 24601-7-KC
• As part of the PHIS module, FSIS implemented a new method of assigning routine inspection tasks and for inspection program personnel
    (IPP) to schedule inspection tasks with more flexibility;
• Issued a directive providing instructions to IPP when establishments have records created by video or other electronic monitoring or
    recording equipment;
• Issued Directive 1010.2, Rev. 2, Circuit Maintenance Guidelines, providing agency managers with key parameters to use in determining the
    optimum numbers of frontline supervisory positions. FSIS conducted an assessment of these new guidelines to determine the impact of
    these guidelines on the frontline supervisors’ span of control;
• Implemented a structured on-the-job training program for all food inspectors and other non-veterinary inspectors performing ante-mortem
    inspections. In addition, FSIS conducted quarterly analysis of training data and prepared a report that was sent to the districts so that



                                                Other Accompanying Information
                                                             192
    management could follow up on any instance where required training had not been received;

• The PHIS module now contains the functions that require IPP to record which specific regulatory requirements are verified each time a task
    is performed before the task can be marked complete; and
• Required all IPP working in beef slaughter establishments to complete two online training courses: “FSIS Combined Bovine Spongiform
    Encephalopathy Training” and “Removal of Tonsillar Material from Beef Tongues and Market Heads.” In addition, FSIS conducted analysis
    of training data to monitor the status of IPP who took both of the training courses, by position and district.
Planned Actions for Fiscal Year 2012
“Issues impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments” – OIG Audit Report
No. 24601-07-Hy
• Continue to deploy PHIS and ensure that correct data are being processed by the system so that it operates as designed;
• Monitor significant changes in establishment characteristics, inspection findings, and other information that might flag an establishment for
    an FSA; and
• PHIS will provide lab data in a more user-friendly format, allowing inspection personnel to run reports.
“Evaluation of FSIS Management Controls Over Pre-Slaughter Activities” – OIG Audit Report No. 24601-7-KC
• Provide the revised In-Plant Performance System Supervisory Guide and a directive or notice requiring IPP to recertify training annually;
 • Provide an AssuranceNet report that will identify whether districts are meeting required In-Plant Performance System review frequencies;
    and
• Provide evidence that PHIS incorporates functions requiring IPP to record regulatory requirements for each task completed, as well as the
    updated AssuranceNet management controls.
 “FSIS Sampling Protocol for Testing Beef Trim for E. coli O157:H7” – OIG Audit No. 24601-9-KC
 • Publish a baseline plan that includes baseline studies of beef trim, ground beef, and other ground beef components to determine the
    estimated prevalence rate of E. coli O157:H7; and
 • Publish a plan for re-evaluating the sampling parameters of its beef trim sampling program to provide higher confidence in accurately
    detecting E. coli O157:H7 contamination at establishments producing beef trim.
Challenge 8: American Recovery and Reinvestment Act of 2009 (ARRA) Needs to be Effectively Implemented (all agencies that receive
ARRA Funds)

Fiscal Year 2011 Accomplishments
Department-wide:
• The Office of the Chief Financial Officer (OCFO) and Office of the Secretary engaged senior management from agencies with projects
     funded by ARRA with the formation of the Department Accountability Recovery Team (DART) as a critical component in supervision
     process;
•   Through continual communication of guidance and policy, OCFO assured that DART was fully informed of Federal expectations for
     establishing ARRA projects according to the parameters written into the law and intent thereof. The Department routinely notified DART of
     public, media, and Inspector General interest in projects, including public relations opportunities as well as newly released FAST reports;
•   The Department maintains communication with the DART and specified agency points-of-contact to give notice of new and emerging issues
     and processes which may require increased attention on a particular program or reporting process;
•   Transmitted guidance issued by the Office of Management and Budget (OMB) and assisted USDA agencies to comply with the guidance.
     This process included implementation plans and program plans in addition to periodic reporting on metrics for gauging program performance
     and internal controls;
•   Under the direction of DART, agency program administrators and staff implemented ARRA-funded projects with appropriate internal controls
     to support program performance and integrity. Each agency established oversight and analytical methods to ensure an unprecedented level
     of accountability and administrative processes to encourage timely, accurate report submission from both the agency and the recipient;
•   USDA agencies also published program plans which described how the programs were going to be delivered while ensuring compliance with
     ARRA;
•   The Department provided guidance, training, and personal assistance to agencies to improve data quality and ensure all ARRA-funded
     awards are identified and reported timely. Additionally, the Department provided guidelines and training to fully leverage data quality tools
     introduced by Recovery Accountability and Transparency Board;
•   The Department also conducted continuous analysis of the data submitted by the agencies and the recipients to ensure that high levels of
     data quality were maintained, and any anomalous data or activity were immediately reported to the agencies for quick research and
     resolution, if warranted; and
•   OIG has audited agencies’ implementation of ARRA programs. The Department monitored the OIG reports and ensured that the DART team
    was alerted to new reports. Program staff who received the reports are taking corrective action to address OIG’s recommendations for
    improvements in program performance.
RD:
“Single-Family Housing Direct Loans Recovery Act Controls” – Phase IIOIG Audit Report No. 04703-002-CH
• Tracked project performance and job creation metrics through the ARRA Project Tracking System;
• Participated in tribal conferences to provide additional guidance on recipient reporting;



                                               Other Accompanying Information
                                                            193
• Actively monitored compliance with recipient reporting requirements;
• Extended terms and contract hires and temporary ARRA employees to assist in monitoring, auditing, generating special reports;
• Conducted six separate lender training sessions that addressed the recommendations of the OIG Fast Report;
• Conducted nationwide field staff training and published four administrative notices providing guidance to the field staff on lender underwriting
  and loan closing, guaranteed underwriting system, lender eligibility reviews, and lender origination and loan closings; and
• Published a final rule requiring originating lenders to indemnify the agency against loss whenever they commit errors with loan origination.


Planned Actions for Fiscal Year 2012
Department-wide:
• Continue servicing loans and grants;
• Continue oversight functions and assisting agencies in addressing program issues as they arise;
• Obligate remaining funds and monitor programs and projects;
• Continue to ensure that programs are delivered in compliance with ARRA and address any findings or questions regarding program delivery
  or performance; and
• Continue to review and monitor the OIG reports related to ARRA programs to ensure corrective action is being timely completed by USDA
  agencies.
RD:
“Single-Family Housing Direct Loans Recovery Act Controls” – Phase II (OIG Audit Report No. 04703-002-CH)
• Continue to track project performance and job creation metrics through the ARRA Project Tracking System;
• Participate in tribal conferences to provide additional guidance on recipient reporting;
• Monitor compliance with recipient reporting requirement;
• Extend terms and contract hires and temporary ARRA employees for 1 year to assist in monitoring, auditing, and generating special reports;
• Provide training and/or performance resources on loan underwriting;
• Manage and monitor State office loan underwriting reviews, and continue to perform second level reviews at the national office; and
• Train field staff on all handbook changes related to applicant eligibility, age of loan documents, and re-verifications before loan closing.
Challenge 9: Efforts to Identify, Report, and Reduce Improper Payments Need to be Strengthened (FNS, NRCS, RMA, RD)
• FNS “Financial Statements for FY 2010 and 2009” - OIG Audit Report No. 27401-35-HY;
• NRCS’ :Conservation Program” - OIG Audit Report No. 10601-4-KC;
• OCFO, “Calendar Year 2010 Executive Order 13520, Reducing Improper Payments, High-Dollar Report Review” - OIG Audit Report No.
     50024-1-FM
• “RMA Compliance Activities” - OIG Audit Report No. 05601-11-AT; and
• “Rural Development Guaranteed Single Family Housing Loans Made by Lenders to Ineligible Borrowers” - OIG Audit Report No. 04703-2-
     CH
Fiscal Year 2011 Accomplishments
USDA :
Providing accurate and complete information in reports
• USDA and the Office of Management and Budget (OMB) reviewed the Risk Management Agency (RMA) and Farm Service Agency’s (FSA)
   alternative sampling methodologies for high risk programs that will meet the requirements set forth in the Improper Payments Elimination and
   Recovery Act (IPERA). USDA is currently awaiting OMB formal approval of the alternative sampling methodologies;
• Provided guidance to the agencies requiring: 1) all Catalog of Federal Domestic Assistance (CFDA) programs are included in measurement
   plans and risk assessments; and 2) a report of recovered improper payments organized by source. This aligns USDA’s reporting on
   improper payments with IPERA and OMB requirements;
• Provided Departmental guidance regarding the Quarterly High-Dollar Overpayment Report that is due in accordance with Executive Order
   13520. The updated guidance provides additional clarification to the agencies on reporting identified and waived overpayments, and
   enhancing identification of overpayments, and will include a certification requirement; and
• Completed the following actions in response to OIG recommendations based on High Dollar Report Review:
   − Directed FSA to review and modify (if applicable) their methodology and process for identifying, verifying and reporting high-dollar
       overpayments to ensure all high-dollar overpayments identified and verified during a quarter are included in their quarterly report provided
       to the Office of the Chief Financial Officer;
   − Directed RMA to report premium and indemnity overpayments, under the same insurance policy to the same entity, if these payments are
       more than 50 percent of the correct amount, and collectively more than $25,000 in its Quarterly High-Dollar Report; and
   − Revised the reporting format for the High-Dollar Report to include additional columns for the actual payment amount, correct payment,
       and overpayment amount.
Increase recovery of overpayments and reduce improper payments by identifying underlying problems and establish preventive actions
• Developed a Payment Recapture Audit Plan as required by OMB memorandum M-11-04, “Increasing Efforts to Recapture Improper
   Payments.” This plan describes USDA’s strategy to align its Payment Recapture/Recovery Auditing (PRRA) initiative with the expanded
   authorities under IPERA;



                                               Other Accompanying Information
                                                            194
• Notified agency heads detailing the new requirements that Congress and the Administration have established to prevent, detect, and recover
   improper payments; and
• Obtaining PRRA services from an outside firm to assist with identifying and recovering overpayments through state-of-the-art tools,
   methodologies, and processes. The PRRA firm will work in conjunction with USDA agencies to identify the root causes of improper
   payments and recommend preventive actions to mitigate future improper payments.
“Rural Development Guaranteed Single Family Housing Loans Made by Lenders to Ineligible Borrowers” - OIG Audit Report No. 04703-2-CH
• Preformed FY 2011 risk assessments, test of transactions, and reported results; and


• Measured Rental Assistance Program (high risk) for FY 2011 and prepared a corrective action plan with improper payment error rates,
    estimated improper payment amounts, reduction targets, and recovery rates.
“FNS Financial Statements for FY 2010 and 2009” - OIG Audit Report No. 27401-35-HY
• Completed the extensive data collection and cleaning necessary to develop the Women, Infants and Children (WIC) certification error
   component used in the improper payments estimate;
• Requested resources through the budget process to develop a measurement approach for erroneous payments in the Child and Adult Care
   Food Program (CACFP). FNS planned to develop a program-wide study which would examine reimbursements for meals served, and
   develop program error measurements that complied with the requirements of the Improper Payments Information Act (IPIA). With the
   complexities of the program, FNS estimated it would cost $20 million to measure improper payments as required by IPIA. FNS has not
   received the requested funds; and
• Developed a methodology to measure the level of erroneous payments to CACFP family day care homes due to improper meal counts.
FSA:
• Implemented an alternative measurement process that includes a large portion of current year activity, instead of the previous year activity,
   allowing earlier detection of root causes and earlier development of corrective actions;
• Issued results from the FY 2010 County Office Review Program of high risk programs which required State offices to develop corrective
   actions to address review findings on the causes of improper payments; and
• Implemented a field office vetting process to improve the quality of field guidance and program directives.
“NRCS’ Conservation Program” - OIG Audit Report No. 10601-4-KC:
• Issued demand letters and billings for improper payments in the Conservation Security Program;
• Reported applicable improper payments to the Department;
• Issued a national bulletin on reporting improper payments which identifies program, dollar amounts, reason for improper payments made,
   and planned steps for recovery;
• Completed risk assessments for low-risk programs;
• Prepared risk assessments and performed detailed transactional testing and corrective plans for high- and low-risk programs; and
• Drafted NRCS' Improper Payment Recoveries Report.
“RMA, Compliance Activities” - OIG Audit Report No. 05601-11-AT:
• Performed FY 2011 test of transactions and reported results; and
• Measured Federal Crop Insurance Program (high risk) for FY 2011 and prepared Corrective Action Plan with improper payment error rates,
   estimated improper payment amounts, reduction targets and recovery rates.
Planned Actions for Fiscal Year 2012
USDA:
Providing accurate and complete information in reports
 • Increase accountability by adding agency certification requirements for all reports on improper payments. The certifications will provide
    confirmation that the information provided in reports is accurate and complete; and
 • Enhance the process in providing agencies feedback and approval on their reports. The process will increase communications and require
    inaccurate and/or incomplete reports be returned for agency action. When appropriate, USDA will work with OMB to obtain approval on any
    alternative sampling methodologies.
Increase recovery of overpayments and reduce improper payments by identifying underlying problems and establish preventive actions
 • Issue contract award for recovery auditing services under the Payment Recapture/Recovery Auditing initiative; and
• Begin phased implementation of the PRRA initiative to enhance prevention, detection, recovery, and reporting of improper payments.
Provide Departmental criteria for the Government-wide “Do Not Pay List” Web site
 • Continue to work with OMB and Treasury on Government-wide criteria and guidance. Upon issuance of the Government-wide guidance,
    USDA will develop and issue Departmental guidance for its agencies.
“Rural Development Guaranteed Single Family Housing Loans Made by Lenders to Ineligible Borrowers” - OIG Audit Report No. 04703-2-CH:
 • Perform FY 2012 draft and final risk assessments and test of transactions and report results;
 • Measure high risk programs, develop corrective action plans, and report results;
 • Continue to closely service and monitor loans and grants issued under the Recovery Act to ensure they are administered properly under the
   regulations;



                                              Other Accompanying Information
                                                           195
• Develop underwriting compliance tool and provide training to field staff on loan underwriting; and
• Monitor State Office loan underwriting reviews and perform second level reviews at the national office.
“FNS Financial Statements for FY 2010 and 2009” - OIG Audit Report No. 27401-35-HY:
 • Upon completion of the National Survey of WIC participants, supported by extensive data collection, FNS will develop an error rate to
    estimate WIC improper payments;
 • Seek OMB clearance under the Paperwork Reduction Act to conduct a large scale feasibility test of the certification error rate methodology;
 • Perform an updated sampling of the Access, Participation, Eligibility, and Certification (APEX) II study for the National School Lunch and
    School Breakfast Program;
 • Expand and improve direct certification as required by the Healthy, Hunger-Free Kids Act of 2010 (HHFKA); and
 • Increase training of school food service personnel as required by HHFKA.
FSA
• Conduct a conference on IPERA requirements and discuss ways to implement the requirements to prevent and reduce improper payments;
• Develop and refine process for quarterly compiling and reporting of overpayment recoveries; and
• Work with county offices to expedite the identification of causes of overpayments and the preparation of the quarterly High-Dollar Report.
“NRCS’ Conservation Program” - OIG Audit Report No. 10601-4-KC:
• Continue to follow up on billings to recover improper payments and monitor recoveries;
• Continue to report on all High-Dollar improper payments quarterly;
• Issue a national bulletin instructing all administrative officers to self-report all improper payments;
• Perform FY 2012 risk assessments, detailed transactional testing, and corrective plans for high-and low-risk programs;
• Develop standard process for sending demand letters and bills to participants that have been improperly paid, and ensure the process is in
   line with financial management and program policy; and
• Finalize and submit NRCS' Improper Payment Recoveries Reporting Plan.
“RMA Compliance Activities” - OIG Audit Report No. 05601-11-AT:
• Continue to report on all High-Dollar improper payments quarterly; and
• Measure high-risk program, develop corrective action plan, and report results.




                                              Other Accompanying Information
                                                           196
Appendix B — Improper Payment and Recovery Auditing Details
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management
and Budget’s (OMB) Circular A-11, “Preparation, Submission, and Execution of the Budget.” Under the
Improper Payments Information Act (IPIA), executive agencies must identify any of their programs that
may be susceptible to significant improper payments, estimate the annual amount of improper payments and
submit those estimates to Congress. A program with significant improper payments has both a 2.5 percent
error rate of the total program outlays and at least $10 million in improper payments. On August 10, 2006,
government-wide guidance was consolidated into OMB Circular A-123, “Management's Responsibility for
Internal Control”, Appendix C, “Requirements for Effective Measurement and Remediation of Improper
Payments.” The U.S. Department of Agriculture (USDA) has 5 programs required to report under Section
57 of OMB Circular A-11 and has identified an additional 11 programs at risk of significant improper
payments through its risk assessment process. The risk assessment process is used to review USDA
programs and activities and identify those that are susceptible to significant improper payments.
Accomplishments this year include:
• Measuring programs at risk of significant improper payments;
• Developing corrective action plans to reduce improper payments and establishing both reduction and
   recovery targets (where appropriate) for the programs at risk of significant improper payments;
• Completing risk assessments for all low risk programs; and
• Complying with reporting standards.
USDA’s improper payment error rate was 5.37 percent for FY 2011, which is the same error rate reported in
FY 2010. However, due to a $7.1 billion increase (8 percent) in high risk program outlays from FY 2010 to
FY 2011, USDA’s estimated improper payments amount were $5.4 billion for FY 2011, more than the $5.0
billion estimated in FY 2010. The increase in outlays was largely attributable to the increase in demand for
food and nutrition assistance because of the economic downturn. Also affecting the improper payment error
rate and amount for FY 2011 is the initial reporting of an error rate for the certification component of the
Food and Nutrition Service’s (FNS) Women, Infants and Children program. The following FY 2011 results
demonstrate that progress is being made to reduce improper payments:
• Seven USDA high risk programs reported improper payment error rates lower than their FY 2010 error
     rate;
• Four USDA high risk programs, representing 71 percent of USDA’s total high risk program outlays,
    reported error rates lower than their reduction targets for FY 2011;
• Forest Service’s (FS) Wildland Fire Suppression Management Program error rate of 0.00 percent was
     below its reduction target of 0.02 percent, and equal to its FY 2010 error rate of 0.00 percent;
• Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program’s (SNAP) FY 2010
     error rate of 3.81 percent, which is reported in FY 2011, was less than its reduction target of 4.36
     percent and less than its FY 2009 error rate of 4.36 percent, which was reported in FY 2010. The
     SNAP error rate is a historic low for the program. This is the seventh year in a row that the SNAP error
     rate has been less than 6 percent. SNAP error rates are reported the following year because all data are
     not available to perform the statistical sample before required annual reporting;
• The Farm Service Agency’s (FSA) Market Assistance Loan Program error rate of 0.52 percent was
     below its reduction target of 0.81 percent, and below its FY 2010 error rate of 0.81 percent;
• FSA’s Noninsured Assistance Program error rate of 8.97 percent was below its FY 2010 error rate of
     11.65 percent;
• FSA’s Direct and Counter-Cyclical Program error rate of 0.05 percent was below its FY 2010 error rate
     of 0.96 percent, and below its reduction target of 0.40 percent; and


                                   Other Accompanying Information
                                                197
•   Risk Management Agency’s Federal Crop Insurance Program error rate of 4.72 percent was below its
    FY 2010 error rate of 6.05 percent.
The root causes of improper payments are summarized into the error categories of verification,
authentication and administrative. Verification errors relate to verifying recipient information such as
earnings, income, assets, work status, etc. Authentication errors relate to authenticating the accuracy of
qualifying for program specific requirements, criteria or conditions. Administrative errors relate to the
accuracy of the program staff’s entry, classification, or processing of information associated with
applications, supporting documents, or payments.
For FY 2011, the root causes of USDA improper payments are preliminarily categorized as:
• Two percent attributable to administrative error;
• Ninety-seven percent attributable to verification error; and
• One percent attributable to authentication error.
USDA establishes improper payment recovery targets for high risk programs, where appropriate, and
actively collects recoveries. Actions taken by USDA during FY 2011 include:
• Developed and issued a request for proposal to solicit payment recapture/recovery auditing services from
    a private sector recovery auditing contractor;
• Revised Departmental High-Dollar Quarterly Report guidance for improper payments identified in
    high-risk programs to provide additional clarification and transparency;
•   Provided semi-annual reporting of additional error measurements USDA’s two high-priority programs,
    SNAP and National School Lunch Program (NSLP);
•   Provided an Annual Accountable Official Report to the USDA Inspector General for SNAP and
    NSLP;
•   Provided Departmental improper payments information for the Government-wide
    PaymentAccuracy.gov Web site that includes key indicators and statistics by program; and
•   Completed risk assessments for 46 programs in FY 2011 as scheduled on a 3-year cycle. No new
    programs were declared high risk as a result of the risk assessments.
USDA’s goal is to continue to reduce errors and reach recovery targets established for FY 2012. In addition
to meeting the requirements of the IPIA, USDA is developing plans to implement the new requirements
from the EO 13520, Presidential Memorandum “Enhancing Payment Accuracy Through a ‘Do Not Pay
List,’” Presidential Memorandum “Finding and Recapturing Improper Payments,” and the Improper
Payments Elimination and Recovery Act (IPERA).
USDA’s actions planned for FY 2012 include:
•   Award a Departmental contract and implement an initiative for payment recapture/recovery auditing
    services to address IPERA requirements for identifying, preventing and recovering overpayments;
•   Develop and implement policy based on OMB guidance to be provided in FY 2012 regarding the “Do
    Not Pay List” and the GOVerify portal.
•   Develop and implement policies, controls, procedures and checklists at appropriate levels to reduce
    improper payments;
•   Create aggressive correction plans that target the verification, authentication, and administrative root
    causes of errors and address internal control issues for each program;
•   Provide training to field personnel and cooperative partners that address specific issues found in internal
    controls, control procedures and the potential risks of noncompliance;



                                    Other Accompanying Information
                                                 198
•      Sustain accountability at all levels by incorporating the employee’s individual results into their annual
       performance evaluations;
•      Provide grants and technical assistance to State agencies aimed at simplifying the application and
       eligibility determination systems of SNAP; and
•      Participate in interagency workgroups to assist OMB in developing Government-wide guidance for
       implementing initiatives to reduce, prevent and recover improper payments.
OMB provided a reporting template for IPIA in OMB Circular A-136, “Financial Reporting
Requirements.” The template requires responses to specific issues. USDA’s responses to these issues follow.


                I. Describe your agency’s risk assessments performed subsequent to compiling your full program
                   inventory. List the risk-susceptible programs identified through your risk assessments.



The Office of the Chief Financial Officer (OCFO) issued detailed guidance for the risk assessment process,
including templates, and extensively reviewed drafts. Programs with larger outlays were required to perform
more detailed assessments than smaller programs. For USDA’s largest programs, the risk assessment
required the following:
• Amount of improper payments needed to meet the reporting standards;
• Description of the program including purpose and basic eligibility requirements;
• Definition of improper payments specific to the program;
• Program vulnerabilities linked to improper payments;
• Internal controls designed to mitigate the program vulnerabilities;
• Internal controls testing for selected programs;
• Listing of significant reviews and audits;
• Final determination of risk level;
• Planned future enhancements; and
• Description of how improper payments are recovered.

USDA has identified the following 16 programs as susceptible to significant improper payments.

       Selection Methodology                   Agency                                           Program
    Former Section 57 of U.S.    Farm Service Agency (FSA),           Marketing Assistance Loan Program (MAL)
    Office of Management and     Commodity Credit Corporation (CCC)
    Budget (OMB) Circular        Food Nutrition Service (FNS)         Supplemental Nutrition Assistance Program (SNAP)
    A-11, “Preparation,
    Submission, and Execution                                         National School Lunch Program (NSLP)
    of the Budget”                                                    School Breakfast Programs (SBP)
                                                                      Special Supplemental Nutrition Program for Woman, Infants and
                                                                      Children (WIC)
    USDA Identified as           FSA, CCC                             Milk Income Loss Contract (MILC) Program
    Susceptible to Significant
                                                                      Loan Deficiency Payments (LDP)
    Improper Payments
                                                                      Direct and Counter-Cyclical Payments (LCP)
                                                                      Conservation Reserve Program (CRP)
                                                                      Miscellaneous Disaster Programs (MDP)



                                            Other Accompanying Information
                                                         199
  Selection Methodology                     Agency                                                     Program
                                                                         Noninsured Assistance Program (NAP)
                               Food Nutrition Service (FNS)              Child and Adult Care Food Program (CACFP)
                               Forest Service (FS)                       Wildland Fire Suppression Management (WFSM)
                               Rural Development (RD)                    Rental Assistance Program (RAP)
                               Risk Management Agency (RMA)              Federal Crop Insurance Corporation (FCIC) Program Fund
                               Natural Resources Conservation            Farm Security and Rural Investment Act programs (FSRIP)
                               Service (NRCS)




          II. Describe the statistical sampling process conducted to estimate the improper payment rate for each
              program identified.


  Agency                  Program                                                 Sampling Process
FSA/CCC         Marketing Assistance       • A statistical sample of high risk programs is conducted by the FSA County Office Review
                Loan Program (MAL)           Program (CORP) under the direction of the Operations Review and Analysis Staff
                                             (ORAS).
                                           • Testing is conducted using statistically sound samples drawn from the total population of
                                             program payments made from October 2009 through August 2010, representing 97
                                             percent of FY 2010 outlays. A professional statistician, under contract to FSA, is used to
                                             design the sampling approach, define the sample size and identify the sample items.
                                             Sample size is chosen to achieve a 90–percent, 2-sided confidence level.
                                           • Once the universe of the program is determined for the target fiscal year, a stratified two-
                                             stage sampling approach is used. County offices (COFs) making payments for the target
                                             program are selected in the first stage and individual payments made or contracts
                                             reviewed by COFs are selected in the second stage.
                                           • That sample list of individual contracts or payments is provided to the members of the
                                             CORP staff covering the respective States. The CORP staff visits each of the COFs
                                             shown on the list and reviews the individual contracts or payments identified in the
                                             statistically sound sample. The CORP reviewers use a list of program division provided
                                             criteria that is drawn from legal and program administrative guidance. Findings of non-
                                             adherence to the criteria related to the individual contracts or payments in the sample will
                                             identify potential improper payments made. The results of that review are summarized
                                             and submitted to the CORP national office staff to be analyzed by the contractor
                                             statistician. That contractor determines the rate of improper payments based on the data
                                             provided by the CORP staff that visited the COFs and completed the actual review of
                                             documents.
FNS             Supplemental Nutrition     Statistical Sampling
                Assistance Program         SNAP sampling based on FY 2010 outlays. Each month, States select a statistically random sample
                (SNAP)                     of cases from a universe of all households receiving SNAP benefits for that given month. Most States
                                           draw the samples using a constant sampling interval. There are some States which employ simple
                                           random and/or stratified sampling techniques. Required annual sample sizes range from 300 for State
                                           agencies with small SNAP populations to more than 1,000 for larger States. The average is
                                           approximately 950 per State. States are required to complete at least 98 percent of selected cases
                                           deemed to be part of the desired SNAP universe. Federal sub-samples are selected systematically
                                           by FNS from each State’s completed reviews. These sample sizes range from 150 to 400
                                           per State.
                                           Error Rate Calculation
                                           • The National payment error rate is calculated using a multi-step process:
                                           • Each State agency conducts quality control (QC) reviews of the monthly sample of cases.
                                               The QC review measures the accuracy of eligibility and benefit determinations for each
                                               sampled case against SNAP standards. State agencies are required to report to FNS the




                                         Other Accompanying Information
                                                      200
  Agency           Program                                                Sampling Process
                                        findings for each case selected for review.
                                     • FNS then sub-samples completed State QC reviews and re-reviews selected individual
                                        case findings for accuracy. Based on this sub-sample, FNS determines each State
                                        agency’s official error rate using a regression formula.
                                     • The national payment error rate then is computed by averaging the error rate of the active
                                        cases for each State weighted by the amount of issuance in the State.
FNS        National School Lunch     • USDA conducts studies approximately every five years to assess the level of error in
           Program (NSLP)               program payments because detailed information on the circumstances of the NSLP and
                                        SBP participating households are not collected administratively. The November 2007 –
                                        NSLP/SBP Access, Participation, Eligibility and Certification (APEC) Study – makes use
                                        of a national probability sample of school food authorities (SFAs), schools, certified
                                        students and their households, and households that applied and were denied for program
                                        benefits in School Year 2005-06.
                                     • A stratified random sample of 78 unique public SFAs was selected in the first stage of
                                        sampling. Stratification variables included geographic region, prevalence of schools
                                        having a SBP and those using Provision 2/3, and a poverty indicator. For SFAs that do
                                        not have Provision 2/3 schools, three schools, on average, were selected for inclusion in
                                        the studying the second stage of sampling. Schools were stratified into two groups: 1)
                                        elementary schools and 2) middle- and high-schools. The school sample included both
                                        public and private schools. A total of 264 schools participated in the study (216 non-
                                        Provision 2/3 schools, 24 Provision 2/3 schools in their base year, and 24 Provision 2/3
                                        schools not in their base year). For the third stage of sampling, samples of households
                                        were selected in 240 of these schools to yield completed interviews for about 3,000
                                        students certified for free and reduced-price meals and 400 denied applicant households.
                                     • The sample of approved and denied applicant households was augmented by sampling
                                        of applications from Provision 2/3 schools in which household surveys were not
                                        conducted. Application reviews of about 6,800 students approved for free and reduced-
                                        price meals and over 1,000 denied applicants were conducted to estimate the case error
                                        rate due to administrative error.
                                     • Data on counting and claiming errors were collected in all schools selected for application
                                        reviews. On randomly selected school days, field staff observed approximately 100 lunch
                                        transactions at each of the 245 schools participating in the NSLP as well as 50 breakfast
                                        transactions at each of the 218 schools participating in the SBP. Cashier error was
                                        estimated using information from these meal transactions. Data on school-recorded daily
                                        meal totals across all points of sale, aggregated meal counts reported to the district, and
                                        total meals submitted to the State agency for reimbursement were examined to determine
                                        claiming errors.
                                     • To update the erroneous payment rate estimates in NSLP without having to conduct
                                        another full round of primary data collection, a series of econometric models were
                                        developed that captured the relationship between characteristics of the districts that
                                        participated in the APEC study and their estimated rates of certification error. Estimated
                                        coefficients from these models were used in conjunction with updated values of district
                                        characteristics obtained from the School Food Authorities Verification Summary Reports
                                        to predict certification error. Certification error rates were then translated into amounts
                                        and rates of erroneous payments in each district. Aggregating the district level estimates
                                        produced a national measure of predicted erroneous payments.
                                     • The NSLP information reporting for FY 2011 is based on error rate for School Year
                                        2009/10 times the FY 2010 outlays.
FNS        School Breakfast          The statistical sampling process for this program is similar to NSLP. See the NSLP
           Program (SBP)             description.
FNS        Special Supplemental      FNS plans to continue periodic examinations of WIC vendor and certification error. WIC
           Nutrition Program for     information reported for FY 2011 is based on FY 2010 outlays.
           Women, Infants and        • Vendor Error — The 2005 vendor error study employed a nationally representative
           Children (WIC)                probability sample of WIC vendors. A two-stage clustered design was developed to
                                         facilitate over-sampling of WIC-only stores. Current lists of authorized WIC vendors were
                                         collected from the 45 States plus the District of Columbia that use retail vendors from
                                         delivery of benefits. These lists were used to establish the retail vendors for delivery of



                                   Other Accompanying Information
                                                201
  Agency          Program                                                  Sampling Process
                                         benefits. These lists were used to establish the national sample frame of vendors active
                                         during the study period. Geographic Information System software was used to form 365
                                         primary sampling units (PSU) in contiguous counties. Most PSUs had at least 80
                                         vendors. The study selected 100 PSUs using probability non-replacement sampling with
                                         probabilities proportional to the size of the PSU. About 16 vendors and 4 reserve vendors
                                         were selected from each of the 100 PSUs. The final sample size (unweighted) was 1,768
                                         vendors. The study compared the purchase price paid by the compliance buyer with i)
                                         observed shelf prices and ii) the purchase amount the vendor reported to the State to
                                         yield estimates of overcharge and undercharge.
                                       • Certification Error — The 1998 WIC Income Verification Study was designed to provide
                                         information on the characteristics of a nationally representative sample of WIC
                                         participants in the contiguous United States, certified for WIC during Spring 1998. The
                                         sample was based on a multi-stage sample design, with 50 geographic PSUs selected at
                                         the first stage, 79 local WIC agencies selected at the second stage, and 178 WIC service
                                         sites selected at the third stage. WIC participants were randomly sampled for the study at
                                         the 178 WIC service sites as they appeared for WIC certification. In-person interviews
                                         were completed with 3,114 WIC participants at the 178 WIC service sites. The estimate
                                         of improper payments comes from a follow-up in-home survey that was conducted with
                                         approximately one out of every three persons selected for the in-person interviews. The
                                         in-home survey was designed to verify income information through review of household
                                         income documents. In-home interviews were completed with 931 respondents.
FNS        Child and Adult Care        CACFP information reported for FY 2011 is based on FY 2010 outlays. The national
           Food Program (CACFP)        estimate of erroneous payments for the sponsor error component is based on a nationally
                                       representative sample of sponsor files for 660 Family Day Care Homes (FDCH) in 60 distinct
                                       sponsors in 14 States. The tiering status of FDCHs was first verified by determining their
                                       school area eligibility (at least 50 percent of students were approved for free/reduced-price
                                       meals) and Census Block Group area eligibility (at least 50 percent of children at or below
                                       185 percent of the Federal Poverty Guidelines) for Tier I and Tier II status. A sponsor of an
                                       FDCH not verified through area eligibility was contacted to secure additional documentation
                                       in support of the FDCH’s tiering status, such as income and categorical eligibility.
FSA        Milk Income Loss            The Price Support Division and the Managerial Reporting Office took a random sample MILC
           Contract Program (MILC)     performed a random sample containing 200 transactions from 28 States for the period
                                       FY 2010 for the MILC program. Sample collections performed by the CORE staff was not
                                       cost justifiable based on the outlays and low error rates over previous years. OMB and FSA
                                       will evaluate MILC outlay annually to determine the type of measurement and PAR reporting
                                       to be done for a specific fiscal year.
FSA        Loan Deficiency             LDP was not measured since FY 2010 outlays were only $0.2 million. Measuring the
           Payments (LDP)              program was not cost justifiable based on the small volumne of outlays and low error rates
                                       over previous years. OMB and FSA will evaluate LDP outlay annually to determine if
                                       measurement and PAR reporting will be done for a specific fiscal year.
FSA        Direct and Counter-         See the process described in the MAL discussion. The same process was used for this
           Cyclical Payments (DCP)     program, except the statistical sample was drawn from program payments made from
                                       October 2010 through December 2010, representing 88 percent of the annual outlays. This
                                       alternative measurement provided results nearly one year earlier than the previous
                                       measurement methodology.
FSA        Conservation Reserve        See the process described in the MAL discussion. The same process was used for this
           Program (CRP)               program, except the statistical sample was drawn from program payments made from
                                       October 2010 through December 2010, representing 93 percent of the annual outlays. This
                                       alternative measurement provided results nearly one year earlier than the previous
                                       measurement methodology.
FSA        Miscellaneous Disaster      See the process described in the MAL discussion. The same process was used for this
           Programs (MDP)              program, except the statistical sample was drawn for the Supplemental Revenue Assistance
                                       Payments (SURE) program payments made from October 2009 through August 2010,
                                       representing 77 percent of the MDP annual outlays. OMB and FSA will evaluate MDP
                                       conponets annually to determine if measurement and PAR reporting will be done for a
                                       specific fiscal year.




                                     Other Accompanying Information
                                                  202
     Agency          Program                                                   Sampling Process
FSA           Noninsured Assistance       See the process described in the MAL discussion. The same process was used for this
              Program (NAP)               program, except the statistical sample was drawn from program payments made from
                                          October 2009 through August 2010, representing 93 percent of FY 2010 outlays.
FS            Wildland Fire               WFSM employs monetary unit sampling. Transactions coded to the Wildland Fire
              Suppression                 Suppression Fund are systematically analyzed and reviewed.
              Management (WFSM)           Samples were selected by systematic random sampling with probability proportional to size
                                          (dollar amount). Sample size determination was based on total transaction amounts for
                                          FY 2010. To ensure the validity of the sample design, sample sizes, and measurement
                                          methodology, a professional statistician from the University of New Mexico was consulted.
                                          The sample was selected using a 90-percent confidence level, with a precision range of 2.5
                                          percent. Software used for sample selection was SAS 9.2 for Windows.
RD            Rental Assistance           RD reviewed the sampling plan developed by the U.S. Department of Housing and Urban
              Program (RAP)               Development for its studies. RD statisticians prepared a similar plan for this report. This
                                          report is based on a review of tenants receiving rental assistance (RA) during FY 2010. The
                                          sampling plan consisted of 666 RA payments from a universe of 3,424,963 or .02 percent.
                                          The methodology produced a sample with a 99-percent confidence level. The RD
                                          Centralized Servicing Center (CSC) conducted the study which evaluated tenant files and
                                          income calculations.
                                          The only parameter used to determine the eligible universe was the RA payment. No other
                                          data element, such as location, size of property, number of units and availability of other
                                          rental assistance (such as Section 8) was a consideration. The statisticians were provided a
                                          data extract from the Multi-Family Housing Information System to select the sample by a
                                          systematic sample technique.
                                          Once the sample was identified, a letter was sent to the borrower/management agents that
                                          explained the process, provided the list of tenant payments to be reviewed and provided a
                                          list of documents that needed to be provided to CSC for review. The data received from the
                                          borrower/management agent was used to compare Agency records. The study required
                                          CSC to complete the survey for the selected tenant payments. There was to be no
                                          substitution of the selected payment and, if the management agent was unable to submit the
                                          file, the payment would be considered improper.
RMA           Federal Crop Insurance      RMA completed the measurement of 2007, 2008, and 2009 crop year indemnities reviewed
              Corporation Program         during 2008, 2009 and 2010. For FY 2011 reporting, RMA sampled and reviewed the 2010
              Fund (FCIC)                 crop year, using those results to replace the 2007 crop year results. This allowed RMA to
                                          maintain a running average error rate for the three most recent crop years. RMA will repeat
                                          this process for three years to compile random indemnity reviews and build a database that
                                          will be used to identify the RMA program-error rate and identify any discernable trends.
                                          Samples are drawn by an autonomous compliance staff which oversees the compliance
                                          review data base and is responsible for data quality control. Limited resources make it
                                          impractical to conduct a statistically valid program review each year. Despite these limits, in
                                          combination with the National Operations Reviews conducted by RMA compliance
                                          personnel, these random reviews of paid indemnities should provide the program with
                                          sufficient data to establish an acceptable error rate for the purposes of the IPIA.
NRCS          Farm Security and Rural     NRCS determined the universe size of payments for FY 2010 by using all transactions
              Investment Act programs     associated with the Farm Security and Rural Investment Act (Farm Bill). NRCS uses
              (FSRIP)                     stratified random sampling, grouping payments into mutually exclusive strata based on dollar
                                          amount. The sample size for each payment population was determined based on the
                                          specifications of +/- 2.5 percent precision at the 90-percent confidence level. NRCS selected
                                          payments for the sample using a random number generator.




                                        Other Accompanying Information
                                                     203
          III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments. Include
               in this discussion what is seen as the cause of errors and the corresponding steps necessary to
               prevent future occurrences. If efforts are already underway, and/or have been ongoing for some
               length of time, it is appropriate to include that information in this section.



    Agency             Program                                         Corrective Actions Planned
FSA/CCC            Marketing          MAL improper payments were primarily attributable to administrative errors.
                   Assistance Loan    Causes of improper payments include:
                   program (MAL)      • An acceptable acreage report was not on file;
                                      • All required signatures were not obtained on the note; and
                                      • Incorrect loan rate was used.
                                      Actions taken or that will be taken to address the weaknesses identified are as follows:
                                      a. Broad Scope Actions Taken:
                                      • FSA has committed to reducing improper payments and program weaknesses that
                                         contribute to improper payments;
                                      • FSA has taken actions to correct its deficiencies in many areas and has incorporated the
                                         priority of reducing improper payments into its strategic planning documents; and
                                      • Compliance reviews and spot-checks are required to ensure the accuracy of payments and
                                         integrity of FSA programs. Annually, based on a statistical sampling method, producers
                                         nationwide are selected for compliance review and spot-check. County Offices (COFs) are
                                         required to complete spot-checks and reviews for the various programs and activities in
                                         which the selected producers participate for the year, and record the results of these
                                         reviews in the National Compliance Review database. This reporting mechanism allows
                                         the National office to monitor the overall integrity of each program being implemented.
                                      b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                      • Provided training on improper payments to field personnel and educate them on the
                                         importance of control procedures as well as the potential risks of noncompliance. Training
                                         was delivered through various means, and is being followed up with communications and
                                         job aid to help facilitate compliance controls;
                                      • Integrated the employee’s individual performance results related to reducing improper
                                         payments into his/her annual performance rating;
                                      • Utilized program specific checklists for COF employees to use before payment. County
                                         Executive Directors and District Directors review the completed checklists to help identify
                                         apparent internal control deficiencies and address additional training needs to reduce
                                         future errors;
                                      • Issued various National Notices and handbook amendments to State and COFs providing
                                         them with instructions to properly disburse and process repayments related to MAL
                                         benefits;
                                      • Contacted State office (SO) managers where the majority of improper payments were
                                         identified, according to the statistical sample, to determine possible training and/or job aids
                                         the SO and COF staff may need to assist in facilitating compliance to controls;




                                     Other Accompanying Information
                                                  204
      Agency        Program                                             Corrective Actions Planned
                                       • Issued a notice for each program for the FY 2010 National CORP review of improper
                                           payments, providing detailed findings discovered during the FY 2010 statistical sample
                                           including established policy and procedure references for each finding;
                                       • Discussion will include:
                                       • Increase emphasis and accountability in employee’s performance standards to improve
                                           individual effectiveness at both the FSA State and field office levels.
                                       • Require additional supervisory follow-up or performance actions in field offices where high
                                           improper payment error rates continue to occur.
                                       • Require additional payment reviews or approval levels in high-risk offices with previous
                                           high improper payment error rates.
                                       • Recommend SEDs to conduct additional state MAL targeted CORP reviews.
                                       • The FSA Office of Budget and Finance, Financial Management Division, in conjunction
                                           with the Deputy Administrator for Field Operations, is working directly with COF in
                                           preparing the Quarterly High-Dollar Report to more quickly identify causes of improper
                                           payments that could have systemic impact.
                                       • Issued a notice for each program for the FY 2010 National County Office Review Program
                                           (CORP) review of improper payments, providing detailed findings discovered during the
                                           FY 2010 statistical sample including established policy and procedure references for each
                                           finding;
                                       • Issued various National notices to SOs and COFs re-enforcing current program policies
                                           and procedures; and
                                       • Improved the quality of field guidance by implementing a process whereby program
                                           directives are vetted by at least six field office employees before directives are approved
                                           and issued Nation-wide.
                                       c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                                       • Provide a notice to SOs and COFs providing the detail findings discovered during the
                                           FY 2011 program specific statistical sample including established policy and procedure
                                           references for each finding;
                                       • Reinforce current program policies regarding program compliance through the issuance of
                                           National notices and handbook amendments to SOs and COFs personnel;
                                       • Review existing policy and procedures to determine program compliance inefficiencies and
                                           eliminate inadequate program compliance controls.
                                       • Contact State office managers where the majority of improper payments were identified
                                           during the 2011 IPIA reviews to facilitate necessary corrective actions in regard to training
                                           or clarifications regarding procedures and policies.
                                       • Conduct a nationwide conference call with all State Executive Directors (SEDs) to review
                                           requirements of the Improper Payments Elimination and Recovery Act legislation. SNAP
                                           improper payments were primarily attributable to verification errors.
FNS            Supplemental            Causes of improper payments include:
               Nutrition Assistance    Improper payments occurred when a participating household is certified for too many or too
               Program (SNAP)          few benefits compared to the level for which they are eligible. This can result from incomplete
                                       or inaccurate reporting of income and/or assets by participants at the time of certification. It
                                       also can occur from changes subsequent to certification or errors in determining eligibility or
                                       benefits by caseworkers. Eligibility worker delays in action or inaction taken on client reported
                                       changes also can cause improper payments.
                                       An analysis of the FY 2010 completed statistical sample revealed that approximately 72.84
                                       percent of all variances occurred before or at the most recent certification/recertification.
                                       Additionally, 72.40 percent of the errors were State agency caused. About half of the errors
                                       (54.29 percent) were income related and caused by client misreporting or the agency
                                       misapplying the reported income. Misreporting or misapplying deductions was the second
                                       largest source of errors at 28.82 percent.
                                       Steps that are (or will be) taken to address specific findings in the last statistical
                                       sample
                                       Program regulations require State agencies to analyze data to develop corrective action plans
                                       to reduce or eliminate program deficiencies. A State with a high error rate must develop a
                                       quality control (QC) corrective action plan to address deficiencies revealed through an
                                       analysis of its own QC data. A State with an excessive error rate will be required to invest a
                                       specified amount (depending on its error rate and size) designated specifically to correct and



                                      Other Accompanying Information
                                                   205
      Agency        Program                                          Corrective Actions Planned
                                  lower its error rate. The State also will face further fiscal penalties if it fails to lower its error
                                  rate in a future fiscal year.
                                  Steps that are (or will be) taken to improve the overall control environment and
                                  improper payments
                                  FNS, through its regional offices, works directly with States to impart the importance of
                                  payment accuracy and correct payments to State leadership. The agency also helps those
                                  leaders develop effective corrective action strategies to reduce payment errors. Regional
                                  offices provide many forms of technical assistance to States, such as:
                                  • Analyzing data;
                                  • Modernization of QC reporting systems;
                                  • Reviewing and monitoring corrective action plans;
                                  • Developing strategies for error reduction and corrective action;
                                  • Participating on boards and in work groups; and
                                  • Hosting, attending and supporting payment accuracy conferences.
                                  FNS administers a State Exchange Program that provides funds to States to facilitate travel
                                  for obtaining, observing and sharing information on best practices and effective techniques for
                                  error reduction. Coalitions have been formed among States to promote partnerships,
                                  information exchange and collaborative efforts. These efforts address mutual concerns and
                                  support development of effective corrective action.
FNS            National School    NSLP improper payments were primarily attributable to verification errors.
               Lunch Program      Causes of improper payments include:
               (NSLP)             • Benefit calculation error or duplicate payments;
                                  • Lack of proper documentation or inadequate supporting documentation; and
                                  • Fraud or misrepresentation by program participants or others.
                                  FNS has worked closely with OMB, Congress, the States, schools, and advocacy partners for
                                  two decades to gain a better understanding of erroneous payments, and to develop and
                                  implement initiatives to address them.
                                  Strengthened the Certification Process through Legislative Program Reauthorization
                                  FNS worked with Congress to develop the Child Nutrition and WIC Reauthorization Act (CNR)
                                  of 2004 and 2010 to enact program changes that address school meals certification problems.
                                  The 2004 CNR act strengthened the certification process by:
                                  • Requiring SNAP direct certification for free meals in all school districts, and continuing
                                      authority for optional direct certification using data from the Temporary Assistance for
                                      Needy Families and the Food Distribution Program on Indian Reservations;
                                  • Simplifying the certification process by requiring a single application for all eligible children
                                      in a household;
                                  • Requiring eligibility determinations to be in effect for the entire school year;
                                  • Modifying verification requirements, and adding authority for optional direct verification of
                                      children’s eligibility;
                                  • Requiring State agencies to conduct additional administrative reviews of school districts
                                      with higher rates of error;
                                  • Requiring increased efforts to obtain household response to application verification
                                      requests; and
                                  • Requiring districts with high rates of non-response to verification to target subsequent year
                                      verification activity toward error-prone applications.
                                  The 2010 CNR act (the Healthy, Hunger-Free Kids Act of 2010 (PL 111-296)) further
                                  strengthened the certification process by:
                                  • Providing performance awards ($4 million for 4 years) for States making the greatest
                                      improvement in directly certifying SNAP children; and providing a demonstration project in
                                      select school districts to test the potential for direct certification using Medicaid data;
                                  • Requiring an independent review of applications in order to increase the accuracy of
                                      eligibility determinations in school districts that demonstrate high levels of administrative
                                      error;
                                  • Providing alternatives to paper application systems in low-income areas; i.e., non-
                                      application alternatives to the standard Program application process to reduce the number
                                      of paper applications that are processed manually;




                                 Other Accompanying Information
                                              206
Agency   Program                                     Corrective Actions Planned
                    • Establishing professional standards for school food service personnel, requiring
                      professional education and training standards for certification of local school food service
                      directors and staff, and criteria and standards for the selection of State Directors;
                    • Tightening requirements on the monitoring of SFAs by requiring USDA to consolidate the
                      Coordinated Review Effort (CRE) and School Meal Initiative (SMI) monitoring systems,
                      requiring States to review all School Food Authorities (SFAs) on a 3-year cycle (current
                      cycle is 5 years), and requiring schools to post review final findings and make findings
                      available to the public;
                    • Providing for fines for gross mismanagement and violating program requirements, an
                      additional method for enforcing program compliance; and
                    • Strengthening the program compliance by prohibiting any school, institution, or individual
                      that is terminated from one of the Child Nutrition Programs and on a list of disqualified
                      institutions and individuals from participating in or administering any of the Child Nutrition
                      Programs.
                    Improved State and Federal Oversight and Strengthen Program Integrity
                    FNS conducted the following to improve oversight and technical assistance:
                    • Required annual training for schools on certification and accountability issues;
                    • Secured funding from Congress in 2004 for FNS technical assistance to help State and
                      local partners reduce administrative errors and improve program integrity;
                    • Provided ongoing guidance and training materials to State agencies to improve monitoring
                      of schools;
                    • Issued a revised Eligibility Manual which contains information on determining students’
                      eligibility for free and reduced price meals under 7 CFR Parts 210 and 220, NSLP
                      (including after school snacks and commodity schools) and SBP;
                    • Trained more than 500 State and Federal reviewers on the CRE process and forms to
                      ensure that performance standards related to meal counting and claiming and serving
                      reimbursable meals are met. In addition, new CRE Forms and Instructions were posted to
                      the FNS Web site along with the training materials that were used in the training sessions.
                      Also, the CRE Guidance, was updated to include current procedures to be utilized during
                      CRE Reviews. State agencies are implementing the CRE procedures that were identified
                      during the training sessions.
                    • Pursuant to the 2004 CNR, FNS released applications for the fourth round of Direct
                      Certification / Verification grant funding in FY 2009. These grants are available to State
                      agencies to assist in the implementation of mandatory direct certification, direct verification
                      and other provisions of CNR related to determining eligibility to receive benefits in the
                      NSLP and SBP. Child Nutrition (CN) and SNAP State agencies (SAs)are eligible to apply
                      for funds. A series of grants were awarded in FY 2006-09. CNR provided $8.3 million for
                      this purpose.
                    • FNS annually releases a solicitation for funding to SAs for Administrative Reviews and
                      Training grants. This funding is available to perform administrative reviews and training of
                      selected local educational agencies identified by the States as having demonstrated a high
                      level of, or high risk for, administrative error in the NSLP. $4 million was set aside in
                      FY 2005 and for each fiscal year thereafter.
                    • In late 2010, FNS established the Child Nutrition Division’s State Systems Support Branch
                      (SSSB) that is dedicated to providing support and technical assistance to SAs to assist
                      them in working toward successful program outcomes in the implementation of automated
                      systems to improve: 1) CN program administration and performance; 2) access to CN
                      program benefits through direct certification, direct verification and other automated means
                      to establish children’s eligibility for free and reduced meal prices; and 3) Federal reporting
                      on program outcomes. The branch is working closely with State agencies to:
                    • Assess current status of State systems for monitoring and conducting direct
                      certification/verification processes;
                    • Research and analyze on how State automation practices align with program performance
                      levels to identify successful (and less than successful) practices;
                    • Provide guidance concerning program technology issues related to implementation of
                      program policies, procedures, and reporting requirements;
                    • Evaluate State automated systems funded under Federal grants to ensure that Federal
                      program requirements are met;



                   Other Accompanying Information
                                207
      Agency        Program                                           Corrective Actions Planned
                                     • Develop national standards for system implementation planning to ensure that State
                                        systems meet program needs; and
                                     • Establish venues for State and Federal collaboration and knowledge sharing on technology
                                        issues.
                                     • Implemented an improved Web-based system for States to report the results of verification
                                        activity annually. This report will improve the accuracy and timeliness of reporting and
                                        provide States with a way to identify and target corrective actions.
                                     Additional Actions Planned
                                     Planned efforts include:
                                     • Implementing improvements in data reporting systems; and
                                     • Continue the APEC study every 5 years, which would enable FNS to estimate and
                                        measure changes in erroneous payments over time, and help inform FNS, Congress, the
                                        States, and advocacy partners on the development of additional guidance, training, and
                                        policy options.
FNS            School Breakfast      SBP improper payments were primarily attributable to authentication and administrative errors.
               Program (SBP)         The corrective actions planned for this program are similar to NSLP. See the NSLP
                                     description.
FNS            Special               WIC improper payments were primarily attributable to verification errors.
               Supplemental          Causes of improper payments include:
               Nutrition Program     •     Vendor overcharges and undercharges; and
               for Women, Infants    •     Program participants were income ineligible.
               and Children (WIC)    Actions to Reduce Improper Payments
                                     • Vendor Error:
                                        − The Child Nutrition Act was amended in 1996 to require the disqualification of WIC
                                            vendors who had been disqualified by the SNAP, and was amended in 1998 to require
                                            permanent disqualification of vendors who had been convicted of trafficking and illegal
                                            sales. The WIC/SNAP Vendor Disqualification Final Rule implemented these
                                            requirements and also mandated three-year disqualifications for overcharging and
                                            charging for food not received. The WIC Food Delivery Final Rule mandated nationwide
                                            standards for vendor authorization, training, and monitoring. FNS will annually estimate
                                            and report improper payments to vendors based on information on vendor
                                            investigations routinely conducted by the State WIC Agencies and reported to FNS.
                                     • Certification Error:
                                        − FNS plans to continue periodic examinations of certification error in the WIC Program.
                                            The Child Nutrition Act was amended in 1998 to require income documentation for WIC
                                            Program applicants in all States. The Final WIC Policy Memorandum #99-4,
                                            “Strengthening Integrity in the WIC Certification Process”, the WIC Certification Integrity
                                            Interim Rule and the WIC Certification Integrity Final Rule implemented this
                                            requirement. The WIC Food Delivery Final Rule mandated one-year disqualifications for
                                            the most serious participant violations, including dual participation and
                                            misrepresentation of income. The WIC Miscellaneous Final Rule required State
                                            agencies to prevent conflicts of interest such as clinic staff certifying themselves, close
                                            friends, or relatives, and also required State agencies to maintain information on
                                            participant and employee fraud and abuse.
                                     FNS reported the initial improper payment amount and error rate for the WIC certification
                                     component in FY 2011.
FNS            Child and Adult       CACFP improper payments were primarily attributable to verification errors.
               Care Food Program     Causes of improper payments include:
               (CACFP)               •     Family Day Care Homes (FDCH) error in reporting the number of meals eligible for
                                           reimbursement; and
                                     •     Sponsor error in determining a participating FDCH’s reimbursement tier.
                                     Actions to Reduce Improper Payments
                                     CACFP has three distinct parts: Child Care Centers, Adult Day Care Facilities, and Family
                                     Day Care Homes (FDCH). Overall program funding is provided to state agencies which
                                     provide funds to sponsoring organizations to pay for claims for reimbursable meals served at
                                     provider sites. Sites can be as large as an institution or as small as a household. Each part of




                                    Other Accompanying Information
                                                 208
Agency   Program                                     Corrective Actions Planned
                    CACFP has its own reimbursement structure.
                    Payments and claim information are transferred among FNS, State agencies, program
                    sponsors and program sites; each such transaction represents a risk for improper payment.
                    Because requirements vary significantly for each different type of program sponsor and site, a
                    full and rigorous assessment of the rate of improper payments is extremely complex.
                    The original plan was to develop a program-wide study which would examine reimbursements
                    for meals served and develop program error measurements that complied with the
                    requirements of the IPIA. Because of the complexities of the program, FNS estimated that it
                    would cost $20 million to measure improper payments at the precision required by IPIA. This
                    amount has not been provided.
                    In lieu of funding for a program-wide measurement, FNS has identified the FDCH component
                    of this program as potentially high risk. FDCHs participate in CACFP through public or private
                    nonprofit sponsoring organizations. FDCH improper payments are most likely caused by
                    sponsor error in determining a participating home’s reimbursement tier (tiering error) or by
                    FDCH error in reporting the number of meals which are eligible for reimbursement (claiming
                    error).
                    Two activities are underway which provide information on improper payments in the FDCH
                    component of CACFP. A third activity was pilot tested during FY2007.
                    • Child Care Assessment Project (CCAP)—In the spring of 2004, FNS began the CCAP.
                         This project was designed to measure the effectiveness of efforts to improve the integrity
                         of CACFP family day care homes and provide information from a broadly representative
                         national sample of sponsors and providers. Over a four year period, FNS conducted
                         comprehensive on-site assessments of a sample of participating family day care home
                         sponsors. These assessments were designed to analyze the effectiveness of FNS
                         regulatory and policy initiatives on program performance. They offered insights on the
                         control points in the claiming and reimbursement process that most frequently cause or
                         contribute to improper payments. FNS implemented the Targeted Management Evaluation
                         process for FY 2010 and FY 2011, in response to identified areas of management
                         weakness. The information from this process will help to estimate CACFP erroneous
                         payments pursuant to IPIA.
                    • Tiering Error—FNS has developed an annual sponsor tiering error measure and tested it.
                         CACFP sponsors are responsible for determining whether family day care homes receive
                         meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). The third annual data
                         collection was conducted to determine a nationally representative sponsor tiering
                         determination error rate. FNS awarded the 2011 CACFP Tiering Assessment Project and
                         plans to expand the project to 2012 and 2013.
                    • Claiming Error—FNS has identified two potential methods of estimating the risk of
                         claiming error:
                         − State data approach: Use data from State monitoring visits of FDCHs.
                         − Sponsor data approach: Federal staff select a random sample of sponsoring
                              organizations and from each use a random selection of the sponsor’s monitoring visits
                              of FDCHs.
                    Both approaches compare the number of participants observed during a monitoring visit to the
                    average number of meals claimed for reimbursement for the meal or snack closest to the time
                    of the visit. FNS pilot tested both approaches in conjunction with the CCAP reviews. FNS
                    concluded that comparing meal claims to a sponsor’s report of the number of children
                    observed during a monitoring visit does not provide a reliable estimate of family home day
                    care meal claiming error.
                    FNS has contracted with Mathematica Policy Research, Inc. to evaluate the feasibility of three
                    different data collection methods for validating FDCH meal reimbursement claims. The pretest
                    found that parent recalls hold promise for validating whether meals claimed for children of
                    interviewed parents are erroneous. A plan is being developed to further evaluate the use of
                    parent-recall interviews in validating sponsor submitted meal claims for FDCHs.
                    The 2010 CN Reauthorization (the Healthy, Hunger-Free Kids Act of 2010 (PL 111-296))
                    strengthened CACFP program administration, certification, and monitoring processes by:
                    • Providing more CACFP audit funding in FY 2015, making additional monies available to
                         State agencies for Program improvement. It also directs USDA to establish eligibility
                         criteria, with a maximum of two percent of the CACFP funds used by each State agency



                   Other Accompanying Information
                                209
      Agency        Program                                           Corrective Actions Planned
                                        during the second preceding fiscal year. It requires the State agency to demonstrate it can
                                        effectively utilize this funding for Program improvement.
                                       Simplifying area eligibility determinations in CACFP, allowing the use of all levels of
                                         school data (elementary and secondary) for tiering determinations;
                                       Requiring sponsoring organizations to conduct periodic unannounced site visits at not
                                         less than 3-year intervals to sponsored child and adult care and family or group day care
                                         homes; at least one scheduled site visit each year at these centers and homes; and that
                                         the timing of unannounced reviews be varied in such a way that it makes the reviews
                                         unpredictable to sponsored facilities.
                                      Besides the studies already mentioned, FNS has planned or is already conducting three
                                      studies which also strengthen the financial integrity process and work toward improving the
                                      balance of erroneous payments, including:
                                      • CACFP Sponsor Tiering Determination, an evaluation providing a national estimate of the
                                         share of CACFP participating family daycare homes approved for an incorrect level of per
                                         meal reimbursement, or reimbursement tier for their circumstances;
                                      • Child and Adult Care Food Program Meal Claims Assessment, which will evaluate the
                                         feasibility of a parent-recall interview methodology for developing national improper
                                         payment estimates of the share of CACFP participating family day care home meals
                                         approved by providers for an incorrect level of per meal reimbursement; and
                                      • Study Relating to the Child and Adult Care Food Program, an examination of best
                                         practices of States in soliciting sponsors for an afterschool supper program;
FSA            Milk Income Loss       MILC improper payments were primarily attributable to administrative errors.
               Contract Program       Causes of improper payments include:
               (MILC)                 • Incorrect payee share calculation;
                                      • Wetland conservation certification not on file; and
                                      • Income ineligibility.
                                      For MILC corrective actions, see the MAL section. The same corrective actions apply to this
                                      program.
FSA            Loan Deficiency        LDP was not measured since FY 2010 outlays were only $0.2 million. For LDP corrective
               Payments (LDP)         actions, see MAL section. The same corrective actions apply to this program.
FSA            Direct and Counter-    DCP improper payments were primarily attributable to administrative errors.
               Cyclical Payments      Causes of improper payments include:
               (DCP)                  •     Payee did not have enough cropland interest to support claim;
                                      •     Required signatures and/or acreage reports were not on file; and
                                      •     Payment did not take into account required base acres reduction.
                                      For DCP corrective actions, see the MAL section. The same corrective actions apply to this
                                      program.
FSA            Conservation           CRP improper payments were primarily attributable to administrative errors.
               Reserve Program        Causes of improper payments include:
               (CRP)                  • Cost share amount was incorrect;
                                      • Conservation reserve contract or plan of operation was not on file or missing signatures;
                                          and
                                      • Payee share calculation incorrect.
                                      For CRP corrective actions, see the MAL section. The same corrective actions apply to this
                                      program.
FSA            Miscellaneous          MDP improper payments were primarily attributable to administrative errors. Each fiscal year’s
               Disaster Programs      payment data represents different disaster response programs based on authorities provided
               (MDP)                  by legislation passed by Congress. For FY 2011 reporting, the Supplemental Revenue
                                      Assistance Payments (SURE) program payments were measured. OMB and FSA will
                                      evaluate MDP components annually to determine if measurement and PAR reporting will be
                                      done for a specific fiscal year.
                                      Causes of improper payments include:
                                      • Calculated payment amount is incorrect;
                                      • Guarantee basis amount incorrect; and
                                      Program workbook information incomplete.
                                      For MDP corrective actions, see the MAL section. The same corrective actions apply to this



                                     Other Accompanying Information
                                                  210
      Agency        Program                                             Corrective Actions Planned
                                    program.
FSA            Noninsured           NAP improper payments were primarily attributable to administrative errors.
               Assistance           Causes of improper payments include:
               Program (NAP)        • Application for payment not signed by producer;
                                    • Incorrect total production used to calculate payment;
                                    • Application for payment filed late;
                                    • Unit yield is not properly calculated; and
                                    • Incorrect crop acreage used to calculate payment.
                                    • For NAP corrective actions, see the MAL section. The same corrective actions apply to this
                                        program.
FS             Wildland Fire        FS corrective actions have reduced the potential for errors resulting in the WFSM program
               Suppression          reporting a zero improper payment error rate. These actions include improved controls with
               Management           regard to review processes, continuous internal monitoring of possible improper payments,
               (WFSM)               centralization of accounting functions, improved communications, and follow-up prior to
                                    payment authorization.
RD             Rental Assistance    RAP improper payments were primarily attributable to administrative and authentification
               Program (RAP)        errors.
                                    Cause of improper payments include:
                                    • Insufficient file documentation; and
                                    • Borrower/agent calculation errors.
                                    Corrective actions include:
                                    • Meet with the property management business partners and the Agency to continue
                                        providing educational opportunities for the industry regarding the importance of the IPIA
                                        process and the types of errors that were identified. Timeframe - September 30, 2011; and
                                    • Continue to pursue access to the U.S. Department of Health and Human Services New
                                        Hires database and the U.S. Department of Housing and Urban Development’s Enterprise
                                        Income Verification System to be shared with State Offices and management agents.
                                        Ongoing.
RMA            Federal Crop         FCIC improper payments were primarily attributable to verification errors.
               Insurance            Causes of improper payments include:
               Corporation          • Incorrect application of crop insurance policy requirements for prevented planting;
               Program Fund         • Incorrect acreage reports; and
               (FCIC)               • Incorrect indemnity calculations.
                                    RMA completed the sixth year of the 3-year review cycle established to determine the improper
                                    payment rate for the Federal Crop Insurance Program. The strategy for identifying and controlling the
                                    error rate includes identifying error trends and policy concerns and correcting them, however, there are
                                    no underlying policy or underwriting issues have become apparent. This is in part due to the diversity of
                                    crops being reviewed and suggests it may be several cycles before RMA may amass sufficient
                                    numbers of samples on any particular crop to draw meaningful comparisons in the errors identified.
                                    RMA continues to expand its strategic data acquisition and analysis efforts by incorporating additional
                                    remote sensing and geospatial analyses to its data warehousing and data mining initiative. The data
                                    warehouse was extended to include the compilation of detailed geospatial NEXRAD radar and rainfall
                                    data. The application of these data and analysis tools were then increased to include underwriting and
                                    program integrity issues throughout the program. Data mining activities continue to show significant cost
                                    avoidance savings each year by identifying and spot checking the crop insurance program most
                                    anomalous participants based on their history of filing claims. Additionally, RMA and FSA continue to
                                    work on completing the Comprehensive Information Management System. This project is designed to
                                    identify common and unique producer and crop information reported to both agencies; develop
                                    services to access the information; aid in information reconciliation; and reduce the reporting
                                    burdens of farmers, ranchers, producers, RMA, FSA, and crop insurance providers.
                                    RMA executed a new Standard Reinsurance Agreement (SRA) for the 2011 reinsurance year
                                    that includes an increased use of data mining to identify and review anomalous policy results
                                    to improve the overall program quality control program. The changes in the new SRA along
                                    with an improved program data acceptance system are expected to reduce improper
                                    payments over time.




                                   Other Accompanying Information
                                                211
        Agency             Program                                            Corrective Actions Planned
 NRCS                 Farm Security and      FSRI improper payments were primarily attributable to administrative error.
                      Rural Investment       Causes of improper payments include:
                      Act programs           • Inadequate documentation
                      (FSRI)                 NRCS will review and change current guidance as appropriate to ensure the agency
                                             personnel are following the correct process and receiving the required documentation before
                                             issuing a payment.




            IV. Based on the Rate(s) Obtained in Step III, Set Annual Improvement Targets through FY 2012.


Below are summary level tables for all high risk programs outlining improper payment rates for the last two
years and future reduction targets.

                                          Improper Payment Sampling Results ($ in millions)
                                                                                Results                              Results
                                                                           Reported in FY 2010                  Reported in FY 2011
                          Program                                  Outlays        IP%         IP$       Outlays        IP%            IP$
 Marketing Assistance Loan Program, FSA/CCC [Note #3]               4,151        0.81%           35      3,054        0.52%           16
 Supplemental Nutrition Assistance Program, FNS [Note #8]           50,360       4.36%       2,195      64,705        3.81%       2,465
 National School Lunch Program, FNS [Note #1]
     Total Program                                                  8,925        16.28%      1,453      10,739        15.98%      1,716
     Certification Error                                            8,925         9.40%       839       10,739         9.10%       977
     Counting/Claiming Error                                        8,925         6.88%       614       10,739         6.88%       739
 School Breakfast Program, FNS [Note #1]
    Total Program                                                   2,534        24.87%      630         2,824        24.96%       705
    Certification Error                                             2,534         9.08%      230         2,824         9.17%       259
    Counting/Claiming Error                                         2,534        15.79%      400         2,824        15.79%       446
 Women, Infants and Children, FNS [Note #2]
     Total Program                                                  6,480         N/A        N/A         4,648        4.13%        192
     Certification Error Component                                  6,480         N/A        N/A         4,648        3.05%        142
     Vendor Error Component                                         6,480        1.17%       76          4,648        1.08%         50
 Child and Adult Care Food Program, FNS [Note #2]
     Total Program                                                  2,461         N/A        N/A         2,521         N/A         N/A
     FDC Homes – Tiering Decisions                                   911         0.99%        9           896         1.53%        14
     FDC Homes – Meal Claims                                         911          N/A        N/A          896          N/A         N/A
 Milk Income Loss Contract Program, FSA [Note #5]                    602         0.66%         5          182          2.0%         4
 Loan Deficiency Payments, FSA [Note #6]                             114         0.44%        0.5         0.2           N/A        N/A
 Direct and Counter-Cyclical Payments, FSA [Note #3]                5,921        0.96%        56         3,877        0.05%         2
 Conservation Reserve Program, FSA [Note #3]                        1,814        1. 20%       24         1,605        1.77%        27
 Miscellaneous Disaster Programs, FSA [Note #7]                      108         4.60%         5          235         2.90%         7
 Noninsured Assistance Program, FSA [Note #3]                         59         11.65%          7         90         8.97%           8
 Wildland Fire Suppression Management, FS [Note #9]                  710         0.00%        0.0          491        0.00%           0.0
 Rental Assistance Program, RD [Note #9]                             979         1.39%           14      1,020        1.48%           15




                                           Other Accompanying Information
                                                        212
                                     Improper Payment Sampling Results ($ in millions)
                                                                       Results                         Results
                                                                  Reported in FY 2010             Reported in FY 2011
                         Program                             Outlays      IP%        IP$     Outlays     IP%            IP$
Federal Crop Insurance Corporation Program Fund, RMA          8,680      6.05%       525      5,225     4.72%       247
[Note #4]
Farm Security and Rural Investment Act programs, NRCS         1,505      0.41%           6    1,433     0.80%           11
[Note #9]
USDA Total                                                   93,853      5.37%      5,039    101,024    5.37%       5,428




                                       Other Accompanying Information
                                                    213
                                Detailed Breakout of Improper Payment Reported in FY 2011
                            Total
                           Outlays                  Over-       Under-                        Incorrect    Incomplete
                             $ in                 Payments     Payments        Other        Disbursement   Paperwork
                           millions     IP %         %            %             %                %             %
Marketing Assistance
Loan Program, FSA/CCC       3,054       0.52%       0.49%        0.03%          N/A            0.21%         0.31%
[Note #3]
Supplemental Nutrition
                           64,705       3.81%       3.06%        0.75%          N/A            3.81%
Assistance Program, FNS                                                                                      0.00%
National School Lunch
                           10,739      15.98%      12.13%        3.85%          N/A           15.98%         0.00%
Program, FNS
School Breakfast
                            2,824      24.96%      21.54%        3.42%          N/A           24.96%         0.00%
Program, FNS
Women, Infants and
                            4,648       4.13%       3.79%        0.34%          N/A            4.13%         0.00%
Children, FNS
Child and Adult Care
                             896        1.53%       1.36%        0.17%          N/A            1.53%         0.00%
Food Program, FNS
Milk Income Loss
Contract Program, FSA        182        2.00%       2.00%        0.00%          N/A            0.11%         1.89%
[Note #5]
Loan Deficiency
                             0.2         N/A         N/A          N/A           N/A             N/A           N/A
Payments, FSA [Note #6]
Direct and Counter-
Cyclical Payments, FSA      3,877       0.05%       0.05%        0.00%          N/A            0.05%         0.00%
[Note #3]
Conservation Reserve
                            1,605       1.77%       1.75%        0.02%          N/A            1.36%         0.41%
Program, FSA [Note #3]
Miscellaneous Disaster
                             235        2.90%       2.90%        0.00%          N/A            2.90%         0.00%
Programs, FSA [Note #7]
Noninsured Assistance
                             90         8.97%       8.22%        0.75%          N/A            4.91%         4.62%
Program, FSA [Note #3]
Wildland Fire
Suppression                  491        0.00%       0.00%        0.00%          N/A            0.00%         0.00%
Management, FS
Rental Assistance
                            1,020       1.48%       1.18%        0.30%          N/A            1.03%         0.45%
Program, RD
Federal Crop Insurance
Corporation Program         5,225       4.72%       4.69%        0.03%          N/A            4.72%         0.00%
Fund, RMA
Farm Security and Rural
                            1,433       0.80%       0.80%        0.00%          N/A            0.00%         0.80%
Investment Program, NRCS
USDA Total                  101,024     5.37%       4.36%        1.01%        0.00%            5.33%         0.04%




                                      Other Accompanying Information
                                                   214
                                       Improper Payment Reduction Outlook ($ in millions)
                                             FY 2012 Reporting             FY 2013 Reporting             FY 2014 Reporting
               Program                 Outlays      IP%          IP$   Outlays    IP%          IP$   Outlays    IP%          IP$
 Marketing Assistance Loan
                                         25        0.51%         0.1     21      0.49%         0.1     21      0.48%         0.1
 Program, FSA/CCC
 Supplemental Nutrition Assistance
                                       76,030      3.81%     2,897     76,030    3.81%      2,897    76,030    3.81%     2,897
 Program, FNS [Note #8]
 National School Lunch Program,
                                       11,853      15.53%    1,841     11,981    15.10%     1,809    12,578    14.67%    1,845
 FNS
 School Breakfast Program, FNS          3,183      24.15%        769    3,307    23.36%        773    3,452    22.60%        780
 Women, Infants and Children, FNS       4,872      4.05%         197    5,174    3.97%         206    5,161    3.89%         201
 Child and Adult Care Food Program,
                                        908        1.48%         13     924      1.43%         13     946      1.38%         13
 FNS
 Milk Income Loss Contract
                                         1         1.90%         0.0    250      1.80%         5      250      1.70%         4
 Program, FSA [Note #5]
 Loan Deficiency Payments, FSA
 [Note                                   0.1       0.44%         0.0     0.1     0.44%         0.0     0.1     0.44%         0.0
 #6]
 Direct and Counter-Cyclical
 Payments, FSA                          5,139      0.05%         3      5,712    0.05%         3      3,879    0.05%         2
 Conservation Reserve Program,
 FSA                                    1,997      0.69%         14     2,142    0.64%         14     2,142    0.60%         13
 Miscellaneous Disaster Programs,
                                        700        2.80%         20     850      2.70%         23     300      2.60%         8
 FSA [Note #7]
 Noninsured Assistance Program,
 FSA                                    117        6.97%         8      115      4.97%         6      115      2.50%         3
 Wildland Fire Suppression
 Management, FS                         1,212      0.02%         0.2    1,239    0.02%         0.2    1,268    0.02%         0.2
 Rental Assistance Program, RD          1,030      1.45%         15     1,071    1.42%         15     1,114    1.39%         15
 Federal Crop Insurance Corporation
 Program Fund, RMA                      4,750      4.40%         209    9,000    4.30%         387    8,000    4.20%         336
 Farm Security and Rural Investment,
 NRCS                                   2,205      0.03%         1      2,531    0.03%         1      2,899    0.03%         1


Note #1: Information has not been adjusted for interaction between the different sources of certification
error and counting/claiming error. NSLP and SBP estimated improper payment amounts reported for
FY 2011 are based on error rates for School Year 2009/10 times the FY 2010 outlays.
Note #2: WIC and CACFP tests components of their total program measuring FY 2010 outlays for
FY 2011 reporting. WIC has reported on the vendor error component since FY 2006. WIC is reporting a
certification error component error rate and estimated improper payment amount for the initial time for
FY 2011. WIC measured the certification component of the FY 2009 outlays which resulted in an error rate
of 2.98 percent for FY 2010 reporting. However, this error rate was not available for reporting at the time of
the FY 2010 Performance and Accountability Report (PAR) publication. Also, the WIC component outlays
amount in the FY 2010 PAR should have been reported as $4,573 million rather than the $6,480 million
that was incorrectly reported. The $6,480 million amount included administrative outlays in addition to the
component outlays. CACFP currently tests and reports on the FDCH tiering decision component of the


                                         Other Accompanying Information
                                                      215
payment process. FNS continues to evaluate the measurement processes for the CACFP meal claim
component and has not set a date for measurement and reporting.
Note #3: MAL and NAP information for FY 2011 reporting is based on October 2009 through August
2010 outlays. DCP and CRP information for FY 2011 reporting is based on October 2010 through
December 2010 outlays. The estimated improper payment dollar amounts for MAL, DCP, CRP, and NAP
may reflect variances from the relationship between the improper payment percentage and the outlays
amount. These variances result from the complex, multi-stage statistical sampling methodology developed
by the contract statistician in calculating the independent projections of the dollars/percentages in error.
The variances are not an attribute measurement, but rather a complex ratio estimate weighted with respect
to the payments within their applicable county stratification. They reflect the variability within the payment
data and occur with a 90 percent confidence level.
Note #4: RMA uses a 3-year running average to calculate the improper payment error rate. FY 2011
reporting is based on the measurement of 2008, 2009 and 2010 crop year outlays. This alternate
measurement methodology is being evaluated by RMA and OMB to determine if a more timely
measurement methodology is viable.
Note #5: FSA measured MILC by a random sample of 200 transactions from 28 States from the universe of
FY 2010 payments for FY 2011 reporting. A full statistical sample was not cost effective due to low outlays
during FY 2010 and the low error rates in previous years. MILC’s FY 2011 outlays were $1.3 million and
the volume of future outlays is uncertain. FSA and OMB will evaluate MILC activity annually to determine
if measurement for a specific fiscal year would be cost effective.
Note #6: FSA did not measure LDP for FY 2011 reporting because the FY 2010 outlays were $0.2 million
and statistical sampling was not cost effective. LDP’s FY 2011 outlays were $0.1 million and the volume of
future outlays is uncertain. FSA and OMB will evaluate LDP activity annually to determine if measurement
for a specific fiscal year would be cost effective.
Note #7: FSA measured one component of the several MDP components for FY 2011 reporting. MDP is
made up of many small disaster program components and a full statistical sample of all MDP components
was not cost effective. The Supplemental Revenue (SURE) Assistance Payments Program FY 2010 outlays
were statistically sampled, which represented 77 percent of all MDP outlays. FSA and OMB will evaluate
MDP activity annually and determine which components to measure for a specific fiscal year.
Note #8: SNAP FY 2011 reporting information is based on FY 2010 outlays. SNAP reduction targets may
be reviewed and adjusted in consideration of increased need resulting from further growth in the program
(which has been unprecedented during the past few years), State budget constraints, and other related
factors.
Note #9: The FSRI, RAP and WFSM programs information for FY 2011 reporting is based on FY 2010
outlays.



                 V. Discussion of your Agency’s Payment Recapture/Recovery Auditing Effort.


In FY 2011, USDA developed and submitted a Payment Recapture/Recovery Audit (PRRA) Plan to the
Office of Management and Budget (OMB) as required by OMB memorandum M-11-04 “Increasing
Efforts to Recapture Improper Payments.” USDA issued a request for proposals (RFP) to solicit PRRA



                                    Other Accompanying Information
                                                 216
services from a private sector recovery auditing contractor. The RFP process was terminated after
determining the proposals received did not meet the PRRA initiative RFP requirements.
USDA issued a revised RFP for PRRA services in late FY 2011, which closed in early FY 2012. The
Department is completing the technical evaluation of the received proposals from the revised RFP. Contract
award for PRRA services is anticipated in FY 2012.
Since USDA PRRA contract is yet to be awarded, we are unable to report PRRA information for FY 2011.
USDA anticipates reporting PRRA targets, aging of outstanding overpayments, recoveries by type of
payment and disposition of recaptured funds in future year PARs.
The chart below includes USDA’s recovery activity of contract payments from FY 2004 through FY 2010.
USDA’s contracting vehicle for recovery auditing of contractor services was terminated, therefore
information for FY 2011 is not provided. USDA is in the process of establishing a contract for payment
recapture/recovery auditing services to meet the requirements of the Improper Payments Elimination and
Recovery Act and expects contract award during FY 2012. Since USDA PRRA contract is expected to be
awarded during FY 2012, USDA anticipates reporting the information related to its PRRA initiative in
future year PARs.

                                  FY 2011 Results for Recovery Auditing of Contracts ($ in Million)
                                                                                                       Cumulative
                 Amount        Actual        FY 2011                                                    (Current &
                Subject to    Amount        Amounts                      Prior Years                   Prior Years)   Cumulative
                Review for   Reviewed       Identified    FY 2011         Amounts                        Amounts       (Current &
                 FY 2011        and            for        Amounts         Identified     Prior Years     Identified   Prior Years)
   Agency       Reporting     Reported     Recovery      Recovered           for          Amounts           for         Amounts
  Component     [Note #10]   [Note #10]    [Note #10]    [Note #10]       Recovery       Recovered       Recovery     Recovered
 Forest
                   NA           NA            NA             NA             1.393           1.269         1.393           1.269
 Service
 Natural
 Resources
                   NA           NA            NA             NA             0.026           0.026         0.026           0.026
 Conservation
 Service
 Agricultural
 Research          NA           NA            NA             NA             0.110           0.059         0.110           0.059
 Service
 Animal Plant
 Health
                   NA           NA            NA             NA             0.395           0.395         0.395           0.395
 Inspection
 Service*
 Farm Service
                   NA           NA            NA             NA             0.047           0.047         0.047           0.047
 Agency
 Food Safety
 and
                   NA           NA            NA            NA              0.000           0.000         0.000           0.000
 Inspection
 Service
 Rural
                   NA           NA            NA            NA              0.000           0.000         0.000           0.004
 Development
 Agricultural
 Marketing         NA           NA            NA            0.000           0.002           0.002         0.002           0.002
 Service
 All Others        NA           NA            N/A            N/A             N/A             N/A           N/A            N/A
 USDA Total        NA           NA            NA             NA            1.973            1.802        1.973           1.802



                                          Other Accompanying Information
                                                       217
Note #10: This information will become available through implementation of USDA’s PRRA initiative and
reported in future year PARs.
The following chart includes amounts of USDA improper payments identified and recovered by source by
FY 2011, prior years and cumulative. The prior year’s column includes recoveries from FY 2004 through
FY 2010.

                                       FY 2011 Recovery of Improper Payments ($ in Million)
                                                                                                     Cumulative     Cumulative
                                                                           Prior                      (Current &     (Current &
                                              FY 2011      FY 2011         Years       Prior Years   Prior Years)   Prior Years)
                                             Amounts       Amounts       Amounts        Amounts        Amounts        Amounts
              Agency Source                  Identified   Recovered      Identified    Recovered       Identified   Recovered
Statistical Samples Under IPIA                 $90.24       $90.24       $801.40         $801.40      $891.65         $891.65
Identified Internally & Post Payment
                                              $302.35       $287.09        $0.00          $0.00       $302.35         $287.09
Reviews
Identified by OIG & GAO Reviews                $2.45         $0.07         $0.00          $0.00        $2.45           $0.07
USDA Total                                    $395.04       $377.40      $801.40         $801.40      $1,196.44       $1,178.80




      VI. Describe the steps the agency has taken and plans to take (including time line) to ensure that
       agency managers (including the agency head) are held accountable for reducing and recovering
                                            improper payments.

FSA
The following are steps taken to ensure agency managers are held accountable for reducing and recovering
improper payments:
• FSA has a performance management program in place to improve individual and organizational
  effectiveness in accomplishing the Agency’s mission and goals. This program provides for improper
  payments to be included in the State Executive Directors Performance Plan, element 5 titled “Program
  Management;”
• National and State Office (STO) managers are held accountable for ensuring that program policies and
  procedures are provided to the STO and COF employees accurately and on a timely basis. National
  Office managers are also held accountable, as reflected in the performance based rating measures, for
  overall program administration at the National level. FSA employees’ performance elements are directly
  related to FSA’s Strategic Plan;
• COF employees, including the County Executive Director, are responsible for making payments to
  producers and following all administrative steps in doing so. Employees will be evaluated on program
  delivery, compliance with regulations, policies, and procedures through their performance plans;
• Deputy Administrator of Field Operations will facilitate meetings with the program areas to discuss any
  additional action necessary for senior management to address accountability;
• Employees at all levels of the Agency will be held accountable for efficient and accurate delivery of all
  FSA programs; and
• FSA’s strategic Plan for 2005-2011 established a performance measure to help ensure payments are
  accurate and complete. The performance measure, “Maintain or increase the percentage of proper
  payments is identified in FSA’s crosscutting management objective “Strategically Managing Human
  Capital.”


                                          Other Accompanying Information
                                                       218
FNS
An agency priority is to improve stewardship of Federal funds. Within this priority are specific goals
applicable to programs at high risk for erroneous payments. The goal for the SNAP, WIC, and CACFP is
to reduce the error rates by continued management improvements. The goal of the NSLP and SBP is to
improve the accuracy of school administration processes that certify children for school meals. The agency
goals and priorities are incorporated into each manager’s performance plan.
FS
The FS Albuquerque Service Center management team is held accountable by performance metrics that
include compliance with the IPIA. Additionally, the agency Chief Financial Officer will provide
disbursement performance information to the agency head as part of the performance appraisals for senior
leadership.
RD
RD State Offices with improper payment errors develop a corrective action plan. The plan includes
procedures to train field staff, borrowers and property manager in appropriate required documentation and
follow-up with tenants and income-verifiers.
RMA
RMA revised its strategic plan to provide results to enhance accountability. It also has established
procedures to ensure RMA management takes future corrective actions to address program vulnerabilities.
Additionally, every employee’s performance plan agreement has contained a position-corresponding
strategic objective element since FY 2005.
NRCS
NRCS incorporated IPIA goals and objectives in the performance standards for all senior executive service
positions. These also have been included in the Regional Assistant Chiefs and State Conservationist
performance plans.



                            VII . Agency Information Systems and Other Infrastructure.


While USDA is creating information systems and infrastructure to reduce improper payments, especially for
programs susceptible to significant risk, efforts in some programs are constrained by limited resources.
USDA has worked closely with OMB to develop action plans that focus available resources on the most
critical needs with regard to improper payment measurement and risk reduction.



       VIII. Describe any statutory or regulatory barriers which may limit the agencies’ corrective actions in
          reducing improper payments and actions taken by the agency to mitigate the barriers’ effects.




                                      Other Accompanying Information
                                                   219
FSA/CCC
The Department of Agriculture Reorganization Act of 1994, Section 281 provides that “[E]ach decision of
a State, county, or area committee or an employee of such a committee, made in good faith in the absence of
misrepresentation, false statement, fraud, or willful misconduct shall be final not later than 90 calendar days
after the date of filing of the application for benefits, [and] ...no action may be taken...to recover amounts
found to have been disbursed as a result of the decision in error unless the participant had reason to believe
that the decision was erroneous.” This statute is commonly referred to as the “Finality Rule”, and will affect
FSA/CCC’s ability to recover improper payments.
FNS
Recent Child Nutrition reauthorization legislation, while it did include some changes requested by the
Administration to improve accountability, limited USDA’s ability to act in this area because of concerns
about potential barriers to participation. In many instances, the mandated goal of providing easy access to
benefits must be balanced against the goal of reducing improper and erroneous payments. In addition,
program administration is highly decentralized involving a myriad of governmental and non-governmental
organizations. There are approximately 100,000 school meal locations at which benefits are provided. Many
of these benefit providers simply do not have the capacity to develop robust accountability processes. For
these reasons, any approach to reducing school meal improper payments must:
• Improve accuracy without compromising access for low-income families. A process that keeps eligible children from
    participating would undermine the program.
• Not unduly increase burden on schools. Many schools consider the program burdensome now; adding burden
    could discourage schools from participating.
• Be cost-effective. Improving accuracy is potentially resource-intensive; policymakers must not create a
    process that increases net program costs.
• Answer the needs of other users of program data, which often use certification data to distribute millions of
    dollars in other kinds of benefits to schools. As these needs contribute to the problem, a solution may
    also require new commitments from those users.
RD
The RD program does not have the statutory authority, similar to the Department of Housing and Urban
Development, to gain access to data from the Department of Health and Human Services, Internal Revenue
Service, Social Security Administration, and the Department of Labor to be shared with field offices and
management agents. Access to this database would allow RD to verify income for recipients requesting
financial assistance.
NRCS
Verification of eligibility will be an ongoing challenge for NRCS. It would be advantageous for NRCS to
determine adjusted gross income eligibility on current and future Farm Security and Rural Investment Act
programs (Farm Bill) participants by coordinating with the Internal Revenue Service (IRS). For long-term
contracts, the IRS requirement for participants to maintain tax records expires prior to the expiration of the
Farm Bill contracts, limiting the ability to independently verify eligibility.


     X. Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
                                 challenges as a result of IPIA implementation.


USDA has no additional comments.


                                     Other Accompanying Information
                                                  220
Appendix C — Inspector General Act Amendments of 1988: Management’s Report on Audit
Follow-Up
BACKGROUND
OIG audits USDA’s programs, systems, and operations. OIG then recommends improvements to
management based on its findings. USDA management may agree or disagree with the audit’s findings or
recommendations. An agreement is reached during the management-decision process. If management
agrees with a recommendation, a written plan for corrective action with a target completion date is
developed. The plan is then submitted to OIG for concurrence. If both OIG and management agree that
the proposed corrective action will correct the weakness, management decision is achieved for that
recommendation.
Audit follow-up ensures that prompt and responsive action is taken. USDA’s OCFO oversees audit follow-
up for the Department. An audit remains open until all corrective actions for each recommendation are
completed. As agencies complete planned corrective actions and submit closure documentation, OCFO
reviews it for sufficiency and determines if final action is completed.

FY 2010 Results
Exhibit 1:   Decrease in Total Open Audit Inventory                                     USDA agencies closed 55 audits in
                                                                                        fiscal year (FY) 2011. OIG and USDA
                                                                                        agencies reached management decision
                                                                                        on 32 audits during the year. One audit
                                                                                        is in appeal status. As shown in Exhibit
                                                                                        1, the Department reduced its
                                                                                        inventory of open audits in FY 2010 by
                                                                                        20 percent from 114 to 91.
                                                                                        Audit Follow-Up Process
                                                                                                        Inspector General Act Amendments of
                                                                                                        1988 require an annual report to
                                                                                                        Congress providing the status of
                                                                                                        resolved audits that remain open.
Note: The FY 2010 ending balance was revised from 105 to 114 to include 9 audits that were
transmitted from the Office of Inspector General after the reporting period. These adjustments are      Reports on resolved audits must
also reflected in the beginning balances for audits with disallowed costs and funds to be put to better include the elements listed in the
use shown in Exhibit 3 and Exhibit 5.
                                                                                                        accompanying bullets:
• Beginning and ending balances for the number of audit reports and dollar value of disallowed costs and
       funds to be put to better use (see definitions below);
• The number of new management decisions reached;
• The disposition of audits with final action (see definition below);
• Resolved audits that remain open 1 year or more past the management decision date require an
       additional reporting element; and
• The date issued, dollar value, and an explanation of why final action has not been taken.




                                             Other Accompanying Information
                                                          221
Exhibit 2:       Audit Follow-Up Definitions

         Term                                                                        Definition
    Disallowed           An incurred cost questioned by OIG that management has agreed should not be chargeable to the Government.
    Cost
    Final Action         To complete all actions that management has agreed will address the audit findings and recommendations.
    Funds To Be          An OIG recommendation that funds could be used more efficiently if management completes the recommendation,
    Put to Better        including:
    Use                  • Reductions in outlays or other savings;
                         • De-obligation of funds from programs or operation, or withdrawal of subsidy costs on loans, guarantees, or bonds; and
                         • Implementing recommended improvements for grants or contracts or unnecessary expenditures noted in pre-award
                             reviews of contract or grant agreements.
    Management           Agreement between management and OIG on corrective action needed to address audit findings and recommendations.
    Decision


Beginning and Ending Inventory for Audits with Disallowed Costs and Funds to Be Put to Better Use1
    Exhibit 3:      Inventory of Audits with Disallowed Costs 4                          Exhibit 4:     Distribution of Adjustments to DC

     Audits with Disallowed Costs (DC)           # of Audits     Amount ($)                          Category                               Amount ($)
    Beginning of the Period                           32         $49,253,822             Agency Documentation                                  $652,177
       Plus: New Management Decisions                  7             5,755,682           Write-Offs                                            12,564,214
       Total Audits Pending Collection of             39            55,009,504           Agency Appeals                                             2,027
       DC
       Adjustments                                                  14,576,588           Agency Discovery                                       1,358,170
       Revised Subtotal                                             40,432,916
       Less: Final Actions (Recoveries)               13            17,052,171           Total                                               $ 14,576,588
    Audits with DC Requiring Final Action             26            23,380,745
    at the End of the Period


                          Exhibit 5: Inventory of Audits with Funds To Be Put to Better Use1

                             Audits with Funds to be Put to Better Use                # of
                                             (FTBU)                                  Audits                   Amount ($)
                          Beginning of the Period                                       16              $542,468,631
                                Plus: New Management Decisions                           5                  6,140,741
                                Total Audits Pending                                    21               545,609,372
                                Less: Final Actions                                     11               448,965,983
                          Audits with FTBU Requiring Final Action at the                10                 99,643,389
                          End of the Period
                          Disposition of FTBU:
                          FTBU Implemented                                                               448,346,629
                          FTBU Not Implemented                                                                619,354
                          Total FTBU Amounts for Final Action Audits                                    $448,965,983


Of the 55 audits that achieved final action during the fiscal year, 7 contained DC. The number of DC
audits remaining in the inventory at the end of the fiscal year is 26 with a monetary value of $23,380,745.


4
  Exhibit 3 and Exhibit 5 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain both DC and FTBU amounts. For these
reasons, the number of audits shown as the ending balances in Exhibit 3 and Exhibit 5 does not equal the total resolved audit inventory balance in Exhibit 1.


                                                      Other Accompanying Information
                                                                   222
For audits with DC that achieved final action in FY 2011, OIG and management agreed to collect
$31,628,759. Adjustments were made totaling $14,576,588 (46 percent of the total) because of: 1) USDA
agencies’ ability to provide sufficient documentation to substantiate disallowed costs agency documentation;
2) write-offs; 3) agency appeals; and 4) agency discovery. Management recovered the remaining
$17,052,171 in addition to $1,360,890 in interest.
Final action occurred on 11 audits that involved FTBU amounts. The number of FTBU audits remaining in
the inventory to date is 10 with a monetary value of $99,643,389.
Exhibit 6: Decrease in the Number of Audits Open One or More Years Past the Management Decision Date

                                                                           The numbers of audits open 1 or more years without
   Audits one Year or More Past (Management
              Decision Date) MDD                         # of Audits       final action in FY 2011 decreased from 83 to 55 audits,
Beginning of the period                                      83*           a 34-percent decrease. During the year, an additional
                                                                           7 audits turned 1 year past Management Decision Date
      Less: FY 2010 audits closed                            28
                                                                           (MDD) for a balance of 62 audits. USDA agencies
Subtotal FY 2010 Audits one year or more past MD             55
                                                                           continue to pursue compensating controls that address
      Plus: Audits that turned one year during                7            many of the underlying issues identified in these older
      FY 2010
                                                                           audits.
End of the Period * (includes 1 audit in appeal              62*
not listed in Exhibit below)                           Agencies have completed all planned corrective actions
                                                       on 17 audits that are pending collection of associated
disallowed costs. With the exception of one audit which is in appeals, audits without final action 1 year or
more past the MDD and behind schedule are listed individually in the table that follows. They are
categorized by the reason final action has not occurred. More detailed information on audits on schedule, in
appeals, and audits under collection is available from OCFO.
Exhibit 7:   Distribution of Audits Open 1 Year or More Past the MDD

                             Audits On Schedule                        Audits Behind Schedule                    Audits Under Collection
       Agency       No.         DC ($)        FTBU ($)         No.          DC ($)          FTBU ($)     No.          DC ($)       FTBU ($)
        Totals       4              0               0             40      $5,082,350    $97,686,980       17       $14,894,005    $1,209,659


Management’s Report on Audit Follow-Up
Exhibit 8:   Audits Open 1 Year or More Past the MDD and Behind Schedule

                                         Revised                                                                         Monetary Amount
                           Date         Completion
      Audits              Issued          Date                                Audit Title                              DC$            FTBU$
  (27) Pending issuance of policy/guidance and legislation
  03099-198-KC            8/22/08        12/31/11       FSA Inspection of Temporary Domestic Storage Sites               -                 -
                                                        for Foreign Food Assistance
  03601-11-AT         11/17/05           3/31/12        FSA Minority Participation in Farm Service Agency’s              -                 -
                                                        Programs
  03601-17-CH             9/29/08        12/31/11       FSA Controls Over Guaranteed Farm Loan Interest                  -                 -
                                                        Rates and Interest Assistance
  05601-4-KC              3/4/09         12/30/11       RMA Use of the National Agriculture Statistics Service           -          $70,000,000
                                                        County Average Yields for the Group Risk Protection
                                                        Plans of Insurance
  10401-2-FM          11/13/08           12/31/11       NRCS Financial Statements for FY 2008                            -                 -
  11099-44-FM         12/14/06           10/31/11       Departmental Management Potential Improper                       -                 -
                                                        Payments/Purchase Card Management System



                                                    Other Accompanying Information
                                                                 223
                               Revised                                                                     Monetary Amount
                    Date      Completion
    Audits         Issued       Date                               Audit Title                          DC$           FTBU$
24601-1-CH         6/21/00      9/30/12       FSIS Laboratory Testing of Meat and Poultry                 -             -
                                              Products
24601-2-KC         9/30/03      12/31/11      FSIS Oversight of Production Process and Recall at          -             -
                                              ConAgra Plant
24601-7-KC        11/28/08      12/31/11      FSIS Evaluation of FSIS Management Controls over            -             -
                                              Pre-Slaughter Activities
24601-8-KC         3/25/10      12/31/11      FSIS National Residue Program for Cattle                    -             -
27099-49-TE        3/10/08      11/30/11      Disaster Food Stamp Program for Hurricanes Katrina          -             -
                                              and Rita, Louisiana, Mississippi and Texas
27601-3-CH         3/22/96      12/30/11      FNS Food Stamp Program Disqualified Recipient               -             -
                                              System
33002-4-SF         5/14/10      12/31/12      APHIS Inspection of Problematic Dealers                     -          $177,980
33601-3-CH         2/20/03       6/30/12      APHIS Safeguards to Prevent Entry of Prohibited             -             -
                                              Pests and Diseases into the United States
33601-7-CH         8/14/07      6/30/12       APHIS Review of Customs and Border Protection               -             -
                                              Inspection Activities
33601-10-CH        4/13/10      12/31/11      APHIS Controls over Licensing of Animal Exhibitions          -            -
34099-2-AT         9/14/01       9/30/12      RD, RBCS Business and Industry Loan Program,            $4,052,351        -
                                              OMNIVEST Resources, Inc. – Fort Gaines, Georgia
34601-4-AT         1/10/03      7/31/12       RD, RBCS Lender Servicing of Business and Industry          -             -
                                              Guaranteed Loans in Georgia
34601-15-TE        9/30/03      9/30/12       RD, RBCS National Report on the Business and                -             -
                                              Industry Loan Program
34703-1-KC         4/27/10      10/31/11      RD Controls over Recovery Act Business Enterprise           -             -
                                              Grants
50401-65-FM       11/14/08      9/30/11       Office of the Chief Financial Officer USDA                  -             -
                                              Consolidated Financial Statements FY 2007 and
                                              FY 2006
50401-67-FM       11/16/09      9/30/12       Office of the Chief Financial Officer USDA                  -             -
                                              Consolidated Financial Statements FY 2009 and
                                              FY 2008
50601-6-HY         7/15/09      12/31/11      FSA’s Assessment of USDA’s Controls to Ensure               -             -
                                              Compliance with Beef Export Requirements
50601-8-TE         1/28/05      9/30/12       APHIS Controls Over Issuance of Genetically                 -             -
                                              Engineered Organism Release Permits
50601-10-AT        3/8/04       3/31/12       ARS Follow-up Report on the Security of Biological          -             -
                                              Agents at U.S. Department of Agriculture Laboratories
50601-12-CH        3/31/08      12/31/11      APHIS Controls over the Importation and Movement            -             -
                                              of Live Animals
50601-17-TE       12/12/08      12/31/11      ARS Control over Importation of Transgenic Plant and        -             -
                                              Animals
(5) Pending completion of IT system security weaknesses, systems development, implementation, or enhancement
04801-6-KC        12/18/00      10/31/11      RD, Rural Housing Service Rural Rental Housing          $1,029,999      $9,000
                                              Program Insurance Expenses, Phase I
24601-7-HY         9/28/06      12/31/11      Food Safety and Inspection Service Issues Impacting         -             -
                                              the Development of Risk-Based Inspection at Meat
                                              and Poultry Processing Establishments
24601-8-CH         8/23/07      12/31/11      Food Safety and Inspection Service Egg Products             -             -
                                              Processing Inspection




                                           Other Accompanying Information
                                                        224
                                 Revised                                                                      Monetary Amount
                     Date       Completion
    Audits          Issued        Date                                 Audit Title                          DC$          FTBU$
24601-8-HY          8/24/08         12/31/11      Food Safety and Inspection Service Followup Review          -             -
                                                  of Food Safety and Inspection Service’s Controls
                                                  Over Imported Meat and Poultry Products
33601-1-HY          2/14/05         3/31/12       Food Safety and Inspection Service Oversight of the         -             -
                                                  Importation of Beef Products from Canada
(2) Pending results of internal monitoring or program review
04099-212-TE        8/25/09         10/31/11      Rural Development, Rural Housing Service Multi –            -             -
                                                  Family Housing Loans in Texas
27601-32-CH         9/28/04         12/30/11      Food and Nutrition Service Compliance with Improper         -             -
                                                  Payments Reporting Requirements
(2) Conclusion of external action
50099-11-HY         3/31/05         9/30/11       Research Education and Economics Implementation             -             -
                                                  of Federal Research Misconduct Policy in the U.S.
                                                  Department of Agriculture
50601-6-TE           3/4/04         12/30/11      Agricultural Research Service Controls Over Plant           -             -
                                                  Variety Protection and Germplasm Storage
(1) Pending results of request for change in management decision
08601-54SF          3/31/10         10/31/11      FS Firefighting Succession Plans                            -        $27,500,000
(3) Pending administrative action
02601-1-CH          9/30/05         12/30/11      ARS Adequacy of Controls to Prevent the Improper            -             -
                                                  Transfer of Sensitive Technology
06401-20-FM         11/9/05         12/30/12      Commodity Credit Corporation’s Financial Statements         -             -
                                                  for FY 2005 and 2004
07601-2-HY          7/22/08         9/30/12       Foreign Agricultural Service Export Credit Guarantee        -             -
                                                  Program
Total Number Audits (40)                          Total                                                  $5,082,350   $97,686,980




                                               Other Accompanying Information
                                                            225
Appendix D – Summary of Financial Statement Audit and Management
USDA has two existing material weaknesses: Information Technology and Financial Reporting –
Unliquidated Obligations. There is one system non-conformance: Funds Control Management. Thus, the
Secretary’s Statement of Assurance provides qualified assurance that USDA’s system of internal controls
complies with FMFIA objectives. The following exhibit summarizes the results reported in USDA’s
Consolidated Financial Statements Audit Report.
Exhibit 1: Summary of Financial Statement Audit

                 Audit Opinion                                                           Unqualified
                  Restatement                                                                No
                                                     Beginning                                                             Ending
               Material Weakness                      Balance        New       Resolved       Consolidated    Reassessed   Balance
 Improvement Needed in Overall Financial                   1                                                                  1
 Management
 Improvements Needed in Information Technology             1                                                                  1
 Security and Controls
 TOTAL MATERIAL WEAKNES S ES                               2                                                                  2


The following exhibit lists USDA’s material weaknesses and the financial system non-conformance as
related to management’s assurance for FMFIA and the certification for FFMIA.
Exhibit 2: Summary of Management Assurances

                                 Effectiveness of Internal Control Over Financial Reporting (FMFIA § 2)
           Statement of Assurance                                                        Qualified
                                                   Beginning                                                               Ending
              Material Weakness                     Balance        New        Resolved     Consolidated      Reassessed    Balance
 Information Technology                                1                                                                      1
 Financial Reporting – Unliquidated                    1                                                                      1
 Obligations
 TOTAL MATERIAL WEAKNESSES                             2                                                                      2
                                      Effectiveness of Internal Control Over Operations (FMFIA § 2)
           Statement of Assurance                                                     Unqualified
                                                   Beginning                                                               Ending
              Material Weakness                     Balance        New        Resolved     Consolidated      Reassessed    Balance
 TOTAL MATERIAL WEAKNESSES                             0             0                                                        0
                             Conformance with Financial Management System Requirements (FMFIA § 4)
           Statement of Assurance                                                        Qualified
                                                   Beginning                                                               Ending
             Material Weakness                      Balance        New        Resolved     Consolidated      Reassessed    Balance
 Funds Control Management                              1                                                                      1
 TOTAL NON-CONFORMANCE                                 1                                                                      1




                                             Other Accompanying Information
                                                          226
                               Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                              Agency                                  Auditor
       Overall Substantial Compliance                           No                                      No
1. System Requirements                                          No                                      No
2. Accounting Standards                                         No                                      No
3. United States Standard General Ledger at                     No                                      No
   Transaction Level
4. Information security policies, procedures,                   No                                      No
   and practices




                                                Other Accompanying Information
                                                             227
Appendix E — Acronyms

    A
    ACRE—Average Crop Revenue Election                                 APHIS—Animal & Plant Health Inspection Service
    ACRSI—Acreage Crop Reporting Streamlining Initiative               ARPA—Agricultural Risk Protection Act
    ADR—Alternative Dispute Resolution                                 ARPI—Area Risk Protection Insurance
    AGRM—Arkansas Global Rice Model                                    ARRA—American Reinvestment and Recovery Act
    AMS—Agricultural Marketing Service                                 ARS—Agricultural Research Service
    APEC—Access, Participation, Eligibility, and Certification Study   ASEAN—Southeast Asia
                                                                       AWEP—Agricultural Water Enhancement Program

    B
    B&I—Business and Industry Guaranteed Loan Program                  BMI—Body Mass Index
    BCAP—Biomass Crop Assistance Program                               BQMS—Biotechnology Quality Management System
                                                                       BSE—Bovine Spongiform Encephalopathy

    C
    CACFP—Child and Adult Care Food Program                            COF—County Office
    CARS—Crop Acreage Reporting System                                 CORP—County Office Review Program
    CBWI—Chesapeake Bay Watershed Initiative                           CP—Community Program
    CCAP—Child Care Assessment Project                                 CPAP—Community Programs Application Processing
    CDC—United States Centers for Disease Control                      CPI—Counterpart International
    CEAP—Conservation Effects Assessment Project                       CRE—Coordinated Review Effort
    CF—Community Facilities                                            CRP—Conservation Reserve Program
    CFMS—Corporate Financial Management System                         CSC—Centralized Servicing Center
    CI—Condition Index                                                 CSP—Conservation Security Program
    CNMP—Comprehensive Nutrient Management Plan                        CSREES-- Cooperative State Research, Education, and
    CNPP—Center for Nutrition Policy and Promotion                     Extension Service
    CNR—Child Nutrition and Women, Infants and Children                CSU—Colorado State University
    Reauthorization Act of 2004                                        CTA—Conservation Technical Assistance Program
    CO—County Office                                                   CWPP—Community Wildlife Protection Program
    CO2—Carbon Dioxide                                                 CY—Calendar Year


    D
    DART—Department Accountability Recovery Team                       DLOS—Dedicated Loan Origination and Servicing
    DC—Disallowed Costs                                                DLP—Dairy, Livestock and Poultry
    DCP—Direct and Counter-cyclical Program                            DM—Deferred Maintenance
    DDA—Doha Development Agenda                                        DNA—Deoxyribonucleic Acid
    DDGS—Dried Distillers Grains with Solubles                         DO—Dissolved Oxygen
    DHHS—The United States Department of Health and Human              DOI—United States Department of the Interior
    Services                                                           DRA—Delta Regional Authority
                                                                       DWM—Drain Water Management

    E
    EAB—Emerald Ash Borer                                              eFMS—Electronic Funds Management System
    EBCL—European Biological Control Laboratory                        EFNEP—The Expanded Food and Nutrition Education
    EBT—Electronic Benefits Transfer                                   Program
    EEO—Equal Employment Opportunity                                   EGVM—European grapevine moth



                                            Other Accompanying Information
                                                         228
EIAO—Enforcement, Investigations, and Analysis Officers     EQIP—Environmental Quality Incentives Program
EO—Executive Order                                          ET—Evapotranspiration
EPA—U.S. Environmental Protection Agency                    EU—European Union
EPP—Expanded Polypropylene                                  EWRP—Emergency Wetland Reserve Program
EPS—Expanded Polystyrene                                    ExCEED—Extension Community Economic and
ERS—Economic Research Service                               Entrepreneurial Development Program

F
FAFH—Food Away From Home                                    FRIS—Farm and Ranch Irrigation Survey
FAS—Foreign Agricultural Service                            FRPP—The Farm and Ranch Protection Program
FCIC—Federal Crop Insurance Corporation                     FS—Forest Service
FDA—U.S. Food and Drug Administration                       FS/QMS—Food Safety/Quality Management Systems
FDCH—Family Day Care Homes                                  FSA—Farm Service Agency
FFAS—Farm and Foreign Agricultural Services                 FSA—Food Safety Assessment
FFMIA—Federal Financial Management Improvement Act          FSH—Forest Service Handbook
FHM—Forest Health Monitoring                                FSIS—Food Safety and Inspection Service
FIA—Forest Inventory and Analysis                           FSM—Forest Service Manual
FISMA—Federal Information Security Management Act           FSRIP—Farm Security and Rural Investment Act Program
FLP—Farm Loan Program                                       FSWG—Food Safety Working Group
FLP—Forest Legacy Program                                   FTBU—Funds to Be Put to Better Use
FMFIA—Federal Managers’ Financial Integrity Act             FTE—Full Time Employee
FMMI—Financial Management Modernization Initiative          FTF—Feed the Future
FNCS—Food, Nutrition, and Consumer Services                 FWP—Farmable Wetlands Program
FNS—Food & Nutrition Service                                FWS—U.S. Fish and Wildlife Service
FPA—Fire Program Analysis                                   FY—Fiscal Year
FRCC—Fire Regime Condition Class

G
GAO—United States Government Accountability Office          GLS—Guaranteed Loan System
GCFI—Gross Cash Farm Income                                 GM—–Genetically Modified
GE—Genetically Engineered                                   GPRA—Government Performance and Results Act of 1993
GIPSA—Grain Inspection, Packers and Stockyards              GUS—Guaranteed Underwriting System
Administration

H
HACCP—Hazard Analysis and Critical Control Points           HLB— Huanglongbing
HAMP—Home Affordable Modernization Program                  HPPG— High Priority Performance Goal
HEI—Healthy Eating Index                                    HSI— Habitat Suitability Indices
HHFKA—Healthy, Hunger-Free Kids Act of 2010
HIT—High Impact Targeted

I
ICAM—Identity, Credential and Access Management             IPERA—Improper Payments Elimination and Recovery Act
IgG—immunoglobulin G                                        IPIA—Improper Payments Information Act
INRA—French Institut National de la Recherche Agronomique   IVT—Intensified Verification Testing
IOM—Institute of Medicine                                   IPIA—Improper Payments Information Act
IPERA—Improper Payments Elimination and Recovery Act        IPM—Integrated Pest Management
IgG—immunoglobulin G                                        IPP—Inspection Program Personnel
INRA—French Institut National de la Recherche Agronomique   IT—Information Technology
IPAC— Intragovernmental Payment and Collection



                                     Other Accompanying Information
                                                  229
K
kWh—Kilowatt Hours

L
LDP—Loan Deficiency Payment                                 Lm—Listeria monocytogenes
LEA—Local Education Agency                                  LSS—Lean Six Sigma
LFP—Livestock Feed Program

M
MAIL—Ministry of Agriculture, Irrigation, and Livestock     MILC—Milk Income Loss Contract Program
MAL—Marketing Assistance Loan Program                       MODIS—Moderate-resolution Imaging Spectroradiometer
MDD—Management Decision Date                                MOU—Memorandum of Understanding
MDP—Miscellaneous Disaster Program                          MRL—Maximum Residue Limits
MFIS—Multi-Family Information System                        MRP—Marketing and Regulatory Programs
MIDAS—Modernize and Innovate the Delivery of Agricultural
Systems

N
NAHLN—National Animal Health Laboratory Network             NIST—National Institute of Standards and Technology
NAHMS—National Animal Health Monitoring System              NOAA—National Oceanic and Atmospheric Administration
NAL—National Agricultural Library                           NOC—National Operations Center
NAP—Noninsured Crop Disaster Assistance Program             NORS—National Outbreak Reporting System
NASS—National Agricultural Statistics Service               NPDN—National Plant Diagnostic Network
NCP—National Conservation Planning Database                 NPGS—National Plant Germplasm System
NDB—National Data Bank                                      NRCS—Natural Resources Conservation Service
NEL—Nutrition Evidence Library                              NRHP-- National Register of Historic Places
NEPA—National Environmental Policy Act                      NRTE—Not-Ready-to-Eat
NEST—National Easements Staging Tool                        NSLP—National School Lunch Program
NFS—National Forest System                                  NVUM—National Visitor Use Monitoring
NIFA—National Institute of Food and Agriculture
NIRS—Near Infrared Spectroscopy

O
OASCR—Office of the Assistant Secretary for Civil Rights    OMB—The United States Office of Management and Budget
OCFO—The Office of the Chief Financial Officer              ORAS—Operations Review and Analysis Staff
ODRM—Office of Data and Records Management                  OSU—Oregon State University
OIG—USDA Office of Inspector General

P
P&S—Packers and Stockyards                                  PPA—Plant Protection Act
PAR—Performance and Accountability Report                   PPV—Plum Pox Virus
PAS—Performance Accountability System                       PRF—Pasture, Range, Forage
PART—Performance Assessment Rating Tool                     ProTracts—Program Contracts Database
PCR—Polymerase Chain Reaction                               PRRA—Payment Recapture/Recovery Auditing
PFGE—Pulse-field Gel Electrophoresis                        PRS—Performance Results System
PHIS—Public Health Information System                       PRV—Plant Replacement Value
PLAS—Program Loan Accounting System                         PSU—Primary Sampling Unit
PP&E—Propety, Plant, and Equipment




                                      Other Accompanying Information
                                                   230
Q
QC—Quality Control                                     QMS—Quality Management Systems

R
RA—Rental Assistance                                   RII—Regional Innovation Initiative
RAP—Rental Assistance Program                          RIT--Regional Innovation Team
RBCP—Rural Business and Cooperative Programs           RMA—Risk Management Agency
RBOG—Rural Business Opportunity Grant                  RME—Risk Management Education
RC&D-- Resource Conservation and Development           RORA—Regional Office Review of Applications
RD—Rural Development                                   RRV—Red River Valley
REAP—Rural Energy for America Program                  RTE—Ready-to-Eat
REE—Research, Education, and Economics                 RULSS—Rural Utilities Loan Servicing System
RFS—2 Renewable Fuel Standard                          RUS—Rural Utilities Service

S
SA—State Agency                                        SO—State Office
SARE—Sustainable Agricultural Research and Education   SOP—Standard Operating Procedure
SBP—School Breakfast Program                           SPC—Soy Protein Concentrate
SFA—School Food Authority                              SPS—Sanitary/Phytosanitary
SIP—Salmonella Initiative Program                      SPT—Seed Production Technology
SME—Small and Medium Enterprise                        SRA—Standard Reinsurance Agreement
SMI—School Meal Initiative                             SY—School Year
SNAP—Supplemental Nutrition Assistance Program

T
TA—Trade Agreement                                     TIR—Thermal Infrared
TANF—Temporary Assistance for Needy Families           TME—Targeted Management Evaluation
TBT—Technical Barrier to Trade                         TPP—Trans-Pacific Partnership
TEFAP—The Emergency Food Assistance Program            TXHPET—Texas High Plains Evapotranspiration Network
TFP—Total Factor Productivity

U
USDA—The United States Department of Agriculture       USTR—Office of the U.S. Trade Representative
USF—Universal Service Fund

V
VFA—Volatile Fatty Acid                                VSH—Varroa Sensitive Hygiene
VHS—Viral Hemorrhagic Septicemia

W
WBSCM—WebBased Supply Chain Management                 WIC—Special Supplemental Nutrition Program for Women,
WCF—Working Capital Fund                               Infants and Children
WEP—Water and Environmental Programs                   WRP—Wetlands Reserve Program
WEPP—Water Erosion Prediction Project                  WRSIS—Wetland-Reservoir-Subirrigation System
WEPS—Wind Erosion Prediction System                    WSU—Washington State University
WFSM—Wildland Fire Suppression Management              WTO—World Trade Organization
                                                       WUI—Wildland Urban Interface




                                   Other Accompanying Information
                                                231
Other Accompanying Information
             232
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
